<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                 JOHN P. MURTHA, Pennsylvania, Chairman
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PETER J. VISCLOSKY, Indiana        RODNEY P. FRELINGHUYSEN, New Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 MARCY KAPTUR, Ohio                 JACK KINGSTON, Georgia
 ALLEN BOYD, Florida                KAY GRANGER, Texas
 STEVEN R. ROTHMAN, New Jersey      HAROLD ROGERS, Kentucky             
 SANFORD D. BISHOP, Jr., Georgia    
 MAURICE D. HINCHEY, New York       
 CAROLYN C. KILPATRICK, Michigan    
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Paul Juola, Greg Lankler, Sarah Young, Linda Pagelsen, Paul Terry, 
 Kris Mallard, Adam Harris, Ann Reese, Brooke Boyer, Tim Prince, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 2
                                                                   Page
 Marine Corps Ground Equipment....................................    1
 Soldier Equipment, Ergonomics and Injuries.......................   47
 Army and Marine Corps Readiness..................................  139
 Army and Marine Corps Force Protection...........................  191
 Air Force Military Personnel.....................................  281
 Military Personnel--Army.........................................  367
                                ________

         Printed for the use of the Committee on Appropriations
         PART 2--DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010
                                                                      ?

             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                 JOHN P. MURTHA, Pennsylvania, Chairman
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PETER J. VISCLOSKY, Indiana        DAVID L. HOBSON, Ohio
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 MARCY KAPTUR, Ohio                 TODD TIAHRT, Kansas
 ROBERT E. ``BUD'' CRAMER, Jr.,     ROGER F. WICKER, Mississippi
Alabama                             JACK KINGSTON, Georgia              
 ALLEN BOYD, Florida                
 STEVEN R. ROTHMAN, New Jersey      
 SANFORD D. BISHOP, Jr., Georgia    
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Paul Juola, Greg Lankler, Sarah Young, Linda Pagelsen, Paul Terry, 
 Kris Mallard, Adam Harris, Ann Reese, Brooke Boyer, Tim Prince, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 2
                                                                   Page
 Marine Corps Ground Equipment....................................    1
 Soldier Equipment, Ergonomics and Injuries.......................   47
 Army and Marine Corps Readiness..................................  139
 Army and Marine Corps Force Protection...........................  191
 Air Force Military Personnel.....................................  281
 Military Personnel--Army.........................................  367
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-260                     WASHINGTON : 2010

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 
 NORMAN D. DICKS, Washington        JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York          RODNEY P. FRELINGHUYSEN, New   
 ROSA L. DeLAURO, Connecticut       Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts       ZACH WAMP, Tennessee
 ED PASTOR, Arizona                 TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina     ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas
 SAM FARR, California               MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois    ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan    DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania         RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey      KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia    JO BONNER, Alabama
 MARION BERRY, Arkansas             STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California            TOM COLE, Oklahoma             
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania    
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2010


                                           Tuesday, March 10, 2009.

                     MARINE CORPS GROUND EQUIPMENT 

                                WITNESS

  LIEUTENANT GENERAL GEORGE J. FLYNN, DEPUTY COMMANDANT OF THE MARINE 
               CORPS, COMBAT DEVELOPMENT AND INTEGRATION

                     Mr. Murtha's Opening Statement

    Mr. Murtha. The committee will come to order.
    I want us out of here by 11:00, General. I hope your 
answers won't be too long. The thing that I wanted to talk 
about mainly is the cost of the Expeditionary Fighting Vehicle 
(EFV) and how you are going to get this program under control.
    We spent $4 billion up to this date, and you just took over 
the program, but we need to have some recommendation from you 
for the subcommittee so that we will be able to follow this 
program more closely. We keep putting money into research, and 
we keep finding you need more and more money. You save money by 
cutting down on the numbers, but I am not sure how much 
research you are saving. But the money you have asked for this 
year--we have got to know as you go along exactly where we are 
so that we can cut the thing off, we can come to an agreement 
to cut this thing off, because you have got a lot of good 
programs, and usually you run those programs very well, but I 
am just worried about this particular program.
    It started when I was Chairman before. I went to see it 
down at Dumfries, and it looked like it was going to be a 
program we needed. We have done very few amphibious operations 
under duress, and I believe the Marine Corps needs a capability 
of landing against a threat.
    But having said that, we have got to get this program under 
control. It is just so expensive, and when I went back and 
looked, I had the staff go back and find the World War I--you 
see this, Bill, a World War I tank. Bill, see this World War I 
tank? It looks like their EFV.
    Mr. Young. They used a lot of imagination.
    Mr. Murtha. Yeah. This is today's vehicle, and that one 
probably costs less than $1,000 apiece. But at any rate, we 
look forward to hearing your testimony, and I will see if Mr. 
Young has any comments.

                     Opening Statement by Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. And I want to 
welcome the general to be here this morning.
    Having the Marines able to move lightly and quickly, I 
think, is extremely important. And probably we have seen in 
Iraq the Marines have gotten a little heavier. And I know that 
in some conversations and meetings, the case was made for a 
faster, lighter vehicle that would be more secure and more 
effective. So, General, we are just anxious to hear what you 
have to tell us about that, because I think we all want to 
provide whatever it is the Marine Corps needs to be an 
effective fighting force, which the Marines have always been.
    Mr. Murtha. General, summarize your statement. We will put 
the full statement in the record, without objection.
    General Flynn. I understand, sir.

                   Summary Statement of General Flynn

    General Flynn. Mr. Chairman, Congressman Young and members 
of the committee, it is an honor and a privilege to appear 
before you today.
    We share a common passion, and that is that all of us are 
committed to providing the men and women in uniform the best 
leadership, training, equipment, family support and quality of 
life possible. With this in mind, I am prepared to discuss your 
Marine Corps' ground equipment requirements today.
    Our requirements are the results of detailed and a 
disciplined process that is informed by several things: first 
of, all our legislative roles and missions in Title 10; the 
guidance we received from the Secretary of Defense; the 
Commandant's guidance, to include the core competencies 
contained in our recently published Vision and Strategy; the 
combatant commanders' needs; and also requirements that are 
generated from the bottom up by our warfighters. Additionally, 
as the Nation's expeditionary force in readiness, we must also 
consider the need for both amphibious and land-based 
operations, and the requirement for a balance in capability 
across the range of military operations that we are likely to 
see so that we can gauge in everything from presence to crisis 
response to conventional operations.
    Our requirements must be able to respond to threats we see 
today while guarding against surprise in the future. It is my 
belief that our ground requirements reflect the balance that is 
needed for the current threat and any potential threats in the 
future by our Nation from your Marine Corps.
    I thank the Committee for all their support, sir, and I am 
ready to answer your questions, sir.
    [The statement of General Flynn follows:]

    [GRAPHIC] [TIFF OMITTED] T6260A.001
    
    [GRAPHIC] [TIFF OMITTED] T6260A.002
    
    [GRAPHIC] [TIFF OMITTED] T6260A.003
    
    [GRAPHIC] [TIFF OMITTED] T6260A.004
    
    [GRAPHIC] [TIFF OMITTED] T6260A.005
    
    [GRAPHIC] [TIFF OMITTED] T6260A.006
    
    [GRAPHIC] [TIFF OMITTED] T6260A.007
    
    [GRAPHIC] [TIFF OMITTED] T6260A.008
    
    [GRAPHIC] [TIFF OMITTED] T6260A.009
    
    [GRAPHIC] [TIFF OMITTED] T6260A.010
    
    [GRAPHIC] [TIFF OMITTED] T6260A.011
    
    [GRAPHIC] [TIFF OMITTED] T6260A.012
    
    [GRAPHIC] [TIFF OMITTED] T6260A.013
    
    [GRAPHIC] [TIFF OMITTED] T6260A.014
    
    [GRAPHIC] [TIFF OMITTED] T6260A.015
    
    [GRAPHIC] [TIFF OMITTED] T6260A.016
    
    [GRAPHIC] [TIFF OMITTED] T6260A.017
    
    [GRAPHIC] [TIFF OMITTED] T6260A.018
    
    [GRAPHIC] [TIFF OMITTED] T6260A.019
    
    [GRAPHIC] [TIFF OMITTED] T6260A.020
    
                         Remarks of Mr. Murtha

    Mr. Murtha. There are a couple of programs that worry us. 
Out in the field the troops are concerned about how heavy the 
armor is; body armor I am talking about. And, of course, we 
worry about the size and the weight of the vehicles, because 
getting them to wherever we are going to go. But we are 
fighting a war 8,000 miles away, so we have got to get the 
equipment and the troops there. And the complaints I hear in 
the field are the deployments over and over again and the fact 
that the troops have what they consider equipment that is too 
heavy. But this particular EFV, flat bottom, aluminum bottom, 
worries us.
    I know you took over the command, and you are going to give 
us some guidelines, and we need some recommendations of how we 
can follow research and development better. We have been remiss 
ourselves in spending $4 billion. It seems to me we should have 
caught this earlier, and I know you have revised it. I saw an 
article where you turned the corner. But the problem is it 
costs a lot of money to turn the corner for 600 vehicles which 
will cost approximately $20 million apiece. So we have got some 
real problems here, but working with you, we hope that we can 
get this thing in the right direction.
    And I mentioned to you earlier, let's look at alternatives. 
For instance, most of this is not going to be spent in the 
water; most of it is going to be spent on land. And that is why 
the vulnerability is so important, and that is why I worry 
about the flat bottom, aluminum bottom so much. But we know we 
can work it out. I know when General Gray came here as a 
Commandant, he said, just give us as much as you can, we will 
work it out. Well, this program has gone a little bit more than 
``as much as you can.''
    Mr. Young.

                       PERFORMANCE SPECIFICATIONS

    Mr. Young. Mr. Chairman, one of the first questions that 
comes to my mind is why are you able to reduce your requirement 
for the EFV from over 1,000 vehicles to just under 600?
    General Flynn. Congressman Young, the reason why we are 
able to do that is because we have taken a comprehensive look 
at our ground vehicle strategy, and what we have tried to do is 
we tried to build a flexible strategy that just had about the 
minimum amount of capability that we needed to do the 
operations that we are expected to execute either today or in 
the future. Key components of that strategy are the 
Expeditionary Fighting Vehicle, the Up-Armored Humvees, the 
Joint Light Tactical Vehicle (EFV), the Marine Personnel 
Carrier and also the Internal Transportable Vehicle. Those have 
all been sized not so much to give you three Marine 
Expeditionary Forces' (MEFs') worth of capability, but to give 
you sufficient capability to respond to operations from the 
various combatant commanders. And that is how we have been able 
to do it. The EFV program has been reduced to provide us with 
two brigades' worth of forcible entry lift, sir.
    Mr. Young. Will the requirement be filled by other vehicles 
that are either in development or that you are planning to 
develop?
    General Flynn. Yes, sir. The rest of the capabilities will 
come from the Joint Light Tactical Vehicle (JLTV), which has 
just started the technology demonstration phase, and that will 
go on for about 24 to 27 months. We will continue to upgrade 
our Humvees that we have right now, our Up-Armored Humvees, and 
we will also take advantage of technology to try to make them 
lighter along the way. There are some promising things out 
there that we are looking at to make the vehicle lighter. We 
are also looking, in conjunction with the Army, at an all-
terrain-type Mine Resistant Ambush Protected (MRAP) vehicle, 
and at the same time we are also increasing our capabilities. 
Our Logistics Vehicle Systems (LVSs) are going to be replaced 
by the logistics--a new variant of the logistics vehicle. And 
we are also going to be upgrading some of our Medium Tactical 
Vehicle Replacements (MTVRs) as well, sir.
    So it is a holistic strategy that is designed to provide a 
variety of capabilities at the right level, maybe not for every 
MEF to have the same level, but a reservoir that we could do 
balanced operations across a wide spectrum of operations, sir.
    Mr. Young. General, let me go to the EFV. And I am 
wondering, are you expecting too much out of that vehicle? I 
understand that it is a flat-bottom aluminum hull that is 
basically meant to bring the Marines onshore with the 
possibility of bolting armor on the bottom of it once the 
marines reach the beach. Is that practical?
    General Flynn. Sir, this goes to the issue of having 
balanced capability. One of the things as a sea-based force 
that we have to be concerned with is our ability to also 
operate from amphibious shipping. And one of the things that 
General Conway has given me marching orders on is to find ways 
to lighten the weight of the Marine Air-Ground Task Force. Part 
of our ability to do that, we will be able to take a look at 
what missions we are going to have to perform and be able to, 
if you will, scale the armor on our vehicles based on the 
threat and the operating area where these vehicles are likely 
to operate. It is not meant for you to take an operational 
pause in operations. There are a whole number of ways that we 
protect our Marines as we accomplish our mission, and one of 
those ways would not be to stop in the middle of operations to 
bolt on your armor. But it is going to be a consideration in 
your planning and in your load planning.
    One of the things I am concerned about, sir, is the weight 
of our vehicles and where we are going. We could become too 
heavy to come from the sea. And everything we are seeing in the 
future is that we are going to have to have that capability, 
and we are going to have to look at technology, we are going to 
have to look at science to tell us how to lighten that vehicle. 
And one of the simple ways of doing it right now is having the 
capability to bolt on and bolt off armor.
    Mr. Young. General, explain to me--we have the Landing 
Craft Air Cushion (LCAC), which is supposedly what I have--I 
think we have all been on it, so we know that it moves quickly, 
it is fast, it will come up over the beach. It will go inland 
until there is some kind of a barrier that stops it. What is 
the difference in the projected use of the EFV versus the LCAC?
    General Flynn. Sir, the LCAC, first of all, unarmored 
coming in. You then would have to land at the beach, stop, 
offload your fighting vehicles. And in the face of an opposed 
landing, you would be at a disadvantage there. So it is not 
armored. And when we have looked at the operational constraints 
on it, it really doesn't work for us.
    The EFV, you know, hits the beach and continues fighting 
inland. Again, the EFV is one tool in the kit. We are looking 
at alternatives, as the Chairman suggested. We will continue to 
look at alternatives to see what makes operational sense. But 
our initial look at the LCAC option, sir, was that it was not 
practical at this time, sir.
    Mr. Young. The EFV would be carried in the same type of 
ship that carries the LCAC?
    General Flynn. Yes, sir. The EFV would be carried in an 
amphibious ship, but then we would have to preload the 
different spaces and the different load plans on the amphibious 
ships, which you are very familiar with. It does change that 
load plan significantly, sir. And it does change the 
capability, our ability to build combat power ashore quickly, 
sir. It does change the way that we do things. And based on our 
initial operational look on it, it wasn't feasible with an 
unarmored like LCAC. So right now we don't have an armored LCAC 
under development, sir, but like I said, all options are being 
looked at, sir.
    Mr. Young. General, thank you very much. I look forward to 
the rest of your testimony.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Bishop.

                  EXPEDITIONARY FIGHTING VEHICLE (EFV)

    Mr. Bishop. Sir, we have been tasked with looking very, 
very, very closely at all of our weapons systems and 
determining what, if any, are not the most efficient use of 
taxpayers' dollars, while at the same time maintaining our 
mission of the most effective weapons for our men and women who 
are in harm's way. And, of course, it is very difficult, and it 
is a tough job. Some tough decisions are going to have to be 
made. And this particular project, the EFV, seems not to be 
proving cost-effective based upon the amount of time, the 
dollars and the effective outcomes.
    Several liabilities have been demonstrated. Most prominent 
to me is the fact that once it has landed, about to embark upon 
a landing, it is 90 seconds of time when you have got marines 
that are packed in with all of their equipment that they 
actually are immobile and sitting ducks, and to the extent that 
that exposes them, that is a problem.
    You also have the difficulty in being able to justify 
continuing to spend the dollars on this when right now it is 
not meeting all of the expectations that we have.
    And so my concern is why shouldn't we consider eliminating 
or looking at cutting back on this particular weapons system? 
How much is it costing us per year?
    General Flynn. Sir, there are a number of questions that 
you asked. As the EFV transitions from planning where it is 
going about 25 to over 25 knots inshore, it has to transition 
to get the track back down. It continues to move forward at 
roughly the same speed that the current Amphibious Assault 
Vehicle (AAV) does, and then it can engage to continue to come 
ashore. So there isn't an operational pause.
    Mr. Bishop. Don't you have to bolt on the armor?
    General Flynn. No, sir. That would be a situational 
dependent on the armor protection for the EFV. Right now the 
underbelly protection on the EFV is the same as that of a 
Stryker. So based on the mission that we would be using, the 
protection of the EFV and that type of situation would come 
from the speed of the EFV, and better tactics, better training 
of our marines and procedures. There is protection in mobility 
all by itself.
    Mr. Bishop. Maybe I misunderstood. I thought that I 
understood that the bottom of it was aluminum.
    General Flynn. Yes, sir. It is a flat hull.
    Mr. Bishop. It does not have sufficient strength or heavy 
enough armor initially without the extra bolt that--bottom on 
to withstand the Improvised Explosive Devices (IEDs) and 
certainly the Explosive Formed Projectiles (EFPs).
    General Flynn. Again, the idea would be in your tactics to 
avoid the IEDs and EFPs and be able to move forward. The EFV is 
not designed to perform a role, say, that you see the MRAP 
performing in Operation Iraqi Freedom (OIF) right now. We will 
not use it for that.
    The other part of your question that you asked is why are 
we doing multiple types of vehicles is because we are trying to 
create a family of capabilities to have capabilities in a wide 
range of environments.
    On the performance of the program, sir, I can't justify the 
previous performance of the program. When it went through its 
recent certification in 2007, one of the things that came out 
of that requirement was we came up with five knowledge points 
where that the program has to perform. If at any point in one 
of those five knowledge points it does not perform, you know, 
they are called off-ramps for a reason. And we have those five 
performance knowledge points right now. It just passed its 
first knowledge point, and it is being monitored very closely, 
as the Chairman mentioned, to make sure that we continue to do 
that, sir.
    Mr. Murtha. The time of the gentleman has expired.
    Mr. Frelinghuysen.

                WEIGHT OF EXPEDITIONARY FIGHTING VEHICLE

    Mr. Frelinghuysen. I am afraid many of our questions are 
Expeditionary Fighting Vehicle-centric here. First of all, 
obviously the Marines are like a favored nation. We would like 
to give you whatever punch you need. I was out to take a ride 
in one of these vehicles about 3 years ago. I think it was then 
Colonel Brogan, and now it is General Brogan. A lot of 
enthusiasm.
    How much does it weigh right now, the EFV?
    General Flynn. Sir, I think the weight of the vehicle is 
about 50 tons, I believe, sir.
    Mr. Frelinghuysen. The weight concerns me just as a lay 
person. It is remarkable that you could have something that 
goes into the water, comes out and could be a land vehicle. You 
put 17 Marines in the back of it; isn't that what the game plan 
is?
    General Flynn. Yes, sir.
    Mr. Frelinghuysen. With all their gear, how much is that? 
How much weight does that add to it?
    General Flynn. Sir, every combat Marine carries about 100 
pounds of gear, 80 to 100 pounds.
    Mr. Frelinghuysen. A lot of gear.
    The issue here, if you have bad weather, I mean, we were 
out there, and I am sure they wouldn't have taken us out unless 
the weather was fairly mild. I mean, I wondered whether we 
would ever come up--I won't say for air, but it wasn't rough 
seas, and, you know, there is a lot of weight in that vehicle. 
If we are 50 or 60 miles offshore, let's say off Korea 
somewhere, you know, who has done the homework in terms of its, 
let's say, survivability in bad weather? Can you talk a little 
bit about that?
    General Flynn. Sir, all of the----
    Mr. Frelinghuysen. I think it is a neat idea, and I am 
supportive of it, but I am concerned about the weight and, you 
know, just the view of maybe this could be sort of a sitting 
duck out there.
    General Flynn. Sir, the vehicle has the survivability to 
launch from over the horizon and to get safely to the shore. We 
have plenty of experience doing amphibious operations and 
launching even----
    Mr. Frelinghuysen. The history of the Marines in terms of 
amphibious, I think, is remarkable. But, I mean, with this new 
fighting vehicle, 50 miles from shore in bad weather----
    General Flynn. Sir, those are the considerations that an 
operational commander would have to take into account on the 
timing of the operation. They have existed forever, and they 
will continue to exist. And that is one of the things that 
commanders decide is what risk they can take. But the vehicle 
is capable to launch from over the horizon and to get safely 
ashore, sir. There is no doubt in my mind about that 
capability, sir.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Hinchey.

                  JOINT LIGHT TACTICAL VEHICLE (JLTV)

    Mr. Hinchey. Thank you, Mr. Chairman.
    General, thank you very much. I am sorry I got here a 
little bit late. I wasn't able to hear the things that you 
opened up with.
    I was wondering, however, about the situation in 
Afghanistan, which is likely to be different than the situation 
in Iraq, and the fact that the President is moving 17,000 
additional troops over there, particularly marines. And I am 
wondering whether about the JLTV, this new vehicle, and how 
likely that is to be useful, perhaps more useful than other 
vehicles, particularly in the circumstances that we have to 
deal with in Afghanistan. And I was wondering what you might 
think about that and if it is something that we should focus 
attention on, what we might do successfully to move it forward 
as quickly and effectively as possible.
    General Flynn. Sir, we are excited about the JLTV within 
the Marine Corps. For all the reasons that some of the Members 
have already said, we would like to get lighter. And we see in 
the JLTV the possibility based on what we think is possible 
with technology to get a vehicle that is more mobile and is 
lighter.
    One of the things that attracts us to why we are trying to 
keep the JLTV within weight parameters is we want it to be 
helicopter transportable with the ability of--to be able to go 
where the enemy may not think you are capable of going. Plus 
the ability of a lighter vehicle allows us more flexibility on 
being able to load on ship, and also there is a degree of 
mobility that comes on the ground by just being lighter and 
having the ability to go into areas where we may not have the 
right trafficability.
    So the current status of the program is it has just started 
its technology demonstration phase. I think there are three 
variants that are being done by three different companies. And 
what we are doing is we are going to see what comes out of that 
technology demonstration phase, sir, and our key thing that we 
are pushing for is we need the vehicle to remain light. And we 
need it to be mobile both on the ground and also transportable 
from the sea and from the air.
    Mr. Hinchey. I have been spoken to by some company that is 
in the process of developing a security material which is much 
lighter, but apparently much stronger, to surface around the 
bottom or elsewhere on vehicles like this. It is amazingly 
light, but very, very strong. Is that something that makes 
sense particularly for the LTV?
    General Flynn. Sir, any material that is a leap ahead in 
technology that makes us lighter is something that we would be 
interested in. And we are seeing a lot of things that come out 
of science to offer potential to be lighter and at the same 
time get the same level of protection.
    Mr. Hinchey. So this is something that is getting attention 
and----
    General Flynn. Yes, sir. We are always looking at new 
materials through our research labs, and our R&D efforts are to 
get lighter.
    Mr. Hinchey. General, thank you very much.
    Mr. Murtha. Mr. Kingston.

                          ACQUISITION LESSONS

    Mr. Kingston. Thank you, Mr. Chairman.
    General, I wanted to talk to you about the MRAPs, and we 
had recently heard from the inspector general's report on--
basically it was Defense-wide procurement problems. But he had 
focused in on the Marine Corps and the MRAP purchasing and just 
kind of bouncing around said that contracting officers, 
officials used inappropriate contract approaches, ignored 
acquisition regulations, used ineffective pricing tools 
resulting in prices that could not have been determined to be 
fair or reasonable. The Marines did not use the Truth in 
Negotiations Act to obtain costs or pricing data to ensure fair 
and reasonable price, thus concluding that the contracting 
officials did not adequately evaluate prices during the source 
selection, resulting in the Marine Corps having no assurances 
that prices paid were fair and reasonable, and likely paid more 
than it should have for the vehicles. The IG estimated that for 
one contractor, there was about $45 million in lost potential 
savings because of the failure to obtain volume discounts. I am 
sure you are familiar with that.
    But those are some of the things that we had from that 
hearing. And I was wondering, first of all, it is just so 
disappointing to think that that would happen. So I would like 
to know, how did it happen, in your estimation? And then, what 
are you doing about it? And, you know, I mean, I have been in 
Washington for a while, and government agencies are always 
telling you what they are going to do about something. And if 
what they are going to do about things were all done, then none 
of these testimonies would have happened.
    So I guess my bigger question is I would rather look back 
than hear the forward, because I have heard the forward so many 
times. And as Mr. Frelinghuysen says, everybody in this 
Committee is very, very pro-Marine. So it is even a little bit 
more disappointing to think that this would happen to you guys. 
But it certainly did happen, and, in my opinion, it was a very 
scathing report. So tell me your side of the story. And I will 
yield.
    General Flynn. Sir, I am not a procurement specialist. I am 
the requirements guy. And I have read the report. And I will 
tell you this: The MRAP, we were the lead. The Marine Corps was 
the lead procurement agency for the entire Department of 
Defense. And what we were trying to do was in a very short 
period of time meet the needs of the warfighter, both Soldiers 
and Marines and Sailors and Airmen, on the ground in Iraq. We 
went out to, I think, initially 10 companies and asked them to 
provide prototypes that were immediately thrust into testing, 
and we went and got best of breed. And based on who could 
produce what, contracts were awarded.
    I am not taking exception to the report, sir. There is some 
disagreement that I could give you additional information for 
the record as to what we agree with and what we don't agree 
with in the report. But one of the things with an IG report, 
there are always lessons learned, sir. This was a unique 
procurement program that did deliver, I think, in almost record 
period of time. And there are lessons to be learned from that, 
and we have taken those lessons to heart, and you will see that 
we will apply those lessons to future activities.
    But this was, I very much believe, a unique effort, sir, 
that did deliver capability pretty quick. And could it have 
been done better, sir? I am not going to argue with that. It 
could have. But we have learned from that, sir, and we will 
make it better in the future.
    Mr. Kingston. The IG report did say that you did do 
everything very, very quickly, which was maybe the first call-
in on this, and perhaps some of the dollars that were lost were 
made up for in lives that were saved, because I know that we in 
Washington were very excited about MRAPs, and everybody was 
pushing for them.
    General Flynn. As you know, sir, there were many models and 
many companies to produce that, and there was the ability to 
get the industrial base to produce as many vehicles and three 
different variants of those vehicles as quickly as possible, 
sir.
    Mr. Kingston. Well, thank you, General.
    [Clerk's note.--Information provided to Mr. Kingston.]

    [GRAPHIC] [TIFF OMITTED] T6260A.021
    
    [GRAPHIC] [TIFF OMITTED] T6260A.022
    
    [GRAPHIC] [TIFF OMITTED] T6260A.023
    
    [GRAPHIC] [TIFF OMITTED] T6260A.024
    
    Mr. Murtha. Ms. Kilpatrick.

                               READINESS

    Ms. Kilpatrick. Thank you, Mr. Chairman.
    General, it is good to see you again. Thank you for your 
help in getting me ready for understanding what we do here.
    I noticed by your testimony, you are calling it the Marine 
Corps ground equipment. My question, having heard some of my 
illustrious colleagues talk to you about the readiness of our 
Marine Corps--and I like the multitype vehicles that you use. 
EFV is what I have been reading about the last few hours, 24 
hours or so. Two questions: Is the Marine Corps ground 
equipment ready, capable, up to par as we move into this new 
conflict? And not new, but Afghanistan, as we are moving out of 
Iraq into Afghanistan? Is the multitype vehicles, including the 
EFV and the--I was in Stryker, by the way. I went to see 
Stryker in Michigan a couple weeks ago and was there and 
found--you mentioned it this morning in terms of part of this 
multifleet that you have. How does it compare to the EFV? And 
are we ready in general as we move forward out of Iraq into 
Afghanistan with this terrain and all that goes with that?
    General Flynn. Ma'am, one of the things that we are doing 
based on the support over the years that we have received from 
the committee is we have been resetting the force. We have been 
recapitalizing our equipment. Right now what we are doing is we 
have our feet in two canoes almost. And what we are doing is we 
are preparing the equipment that is coming out of Iraq, and we 
are taking equipment out of storage in the United States and 
sending that to Afghanistan. And then we will take the 
equipment from Iraq and put it through our maintenance depots, 
and we will also do some triage on the equipment when it is 
coming out of theater. So we have a pretty detailed, solid plan 
to make sure that we maintain readiness through this transition 
and to also reset the force where possible.
    Basic difference between an EFV and a Stryker is one is a 
track vehicle designed to be able to also swim in from 25 to 40 
miles off the coast. Stryker is a wheeled vehicle, and it 
doesn't have that capability. They have similar capabilities in 
terms of mobility. But again, we are looking for both type 
vehicles in our inventory. We are looking for the EFV, and we 
are also looking for a Marine Personnel Carrier, one of the 
vehicles that has a lot of similar characteristics to what a 
Stryker has.
    Ms. Kilpatrick. And will we meet this kind of R&D for the 
EFV? I mean, are we going to make it? I know they are back end.
    General Flynn. Ma'am, right now what has happened with the 
EFV, it has gone through its first knowledge point right now a 
couple of months ago, and it performed better than the 
requirement. We were looking for 43.5 hours between failures 
and we predict 61 hours. We have other knowledge points coming 
up that are required for the program to meet. At the same time, 
components now are actually undergoing testing now, heat, 
vibration testings, to make sure that when we put the 
prototypes together, that we are not going to be surprised by 
any issues with components. So we have the message of the 
importance of monitoring the performance of the program while 
it goes through this critical phase.
    Ms. Kilpatrick. And then finally, Lima, Ohio, is where you 
make the EFV. You also make the Stryker there. I am from 
Michigan. We are hurting bad. When you get it right, we want 
you to also make it in Michigan. Thank you.
    Thank you, Mr. Chairman.

                           MARINE HELICOPTER

    Mr. Murtha. Well, I appreciate the indulgence of the 
Committee. As I said, I wanted to be out of here as soon as we 
could today.
    But let me just caution General Flynn, I went out to visit 
the armed helicopter last year, and when I came back, I sent 
the staff out, and we cut it in half. Even though we have a 
member of the Committee that is from that area, we felt it 
couldn't carry the weight. It was already excessive weight for 
the engine. They paid no attention to what I said. The Army 
agreed with me, and we eliminated the program.
    Helicopter One. Long before anybody else said anything, 
this Committee said, we cut $200 million. We are not going to 
spend that kind of money, the requirements the Secret Service 
put on that helicopter. And so we cut $200 million out of that 
program.
    This program is on the bubble as far as I am concerned, 
General. I mean, this program, we spent $4 billion. And I am 
prepared to recommend to the subcommittee that we continue the 
program with your assurance that you are going to give us some 
responsible recommendations about what is happening and 
guidelines about what is happening as it goes down the road. 
And you are going to look at alternatives. And this is so 
important, the alternatives to this vehicle. You know, $4 
billion we spent. The rest of the money we spend--if we have 
spent it, it would be $20 million per vehicle. I think some 
changes need to be made in it. And on the other hand, you are 
the guy that is going to run the program. You are going to make 
the requirements.
    But I have a great concern about this program going 
forward. I know the Commandant personally is taking an interest 
in it, and that reassures me that we will be able to recommend 
that it go forward and spend a little more research money this 
year as you give us quarterly reports about how the program is 
going. So I appreciate your indulgence and look forward to 
trying to work out these programs with you for the rest of the 
year.
    Any questions, Bill?

                    INTERNALLY TRANSPORTABLE VEHICLE

    Mr. Young. I guess I have one quick question. On the 
Internally Transportable Vehicle (ITV), General, the overcost 
has been very, very substantial. Can you tell us why?
    General Flynn. Sir, I would like to answer that question 
for the record for you if I could, sir. I couldn't give you 
that answer right now, sir.
    Mr. Young. Okay.
    General Flynn. And I would like to answer it for the record 
for you, sir, to make sure I have it correct.
    Mr. Young. Okay. The reason I asked the question, the 
average cost for the ITV has risen from $94,000 to $209,000 for 
the vehicle, and if you add the mobile ammunition trailer, it 
has risen from $579,000 to over $1 million. So this gets my 
attention. So if you could provide us some information on that, 
I would appreciate it. Thank you.
    General Flynn. Sir, I will, sir. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6260A.025
    
    [GRAPHIC] [TIFF OMITTED] T6260A.026
    
    Mr. Murtha. Ms. Kaptur, we are trying to adjourn the 
Committee.
    Ms. Kaptur. Go right ahead, Mr. Chairman.
    Mr. Murtha. Mr. Visclosky, unless you have some questions, 
we are going to adjourn the Committee.
    Mr. Visclosky. I am fine, Mr. Chairman.
    Mr. Murtha. Thank you very much. The Committee will adjourn 
until tomorrow at 10 a.m. Thank you very much.
    General Flynn. Thank you, sir.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                           Contracting MRAPs

    Question. Congress has appropriated over $22 billion for 
procurement of MRAPs DoD-wide. These funds were made available to 
respond to a critical need--and did so.
    However, a Department of Defense Inspector General report, (dated 
26 Feb 2009) states that contracting officials used inappropriate 
contracting approaches, ignored acquisition regulations, or used 
ineffective pricing tools resulting in prices that could not always be 
determined to be fair and reasonable.
    The IG did compliment the Marine Corps because they took effective 
actions to accelerate delivery of MRAP vehicles and addressed material 
shortfalls. In addition, the Army and Marine Corps developed MRAP 
requirements based on theatre commander assessments.
    The IG report on the Procurement and Delivery of Joint Service 
Armor Protected Vehicles, found that the Marine Corps Systems Command 
did not properly determine that contract prices were fair and 
reasonable when they awarded nine firm fixed price contracts for Mine 
Resistant Ambush Protected (MRAP) vehicles. As of June 30, 2008, the 
contracts were valued at $9.1 billion. Contracting officials relied on 
competition as the basis for price reasonableness even though the 
awards were made for dissimilar vehicles with a wide range of prices.
    Generals, is this true? Were common procurement practices vitiated 
in order to speed the process?
    Answer. While expediency is a hallmark trait of the MRAP program, 
all necessary procurement and acquisition procedures were considered 
and utilized. The mode for achieving the speed and effectiveness of 
placing MRAPs in the hands of the warfighter was to run many processes 
in a compressed and simultaneous manner. At no point did we ever 
consider that our approaches made any of the steps ineffective or 
invalidated in any manner the required federal, DoD, and service-unique 
acquisition regulations and policies.
    Question. If so, have your services done an analysis of cost 
savings that might have been realized? For example, for Category I 
vehicles, the prices ranged from $306,000 to $1,089,000. The current 
lead contracting officer could not explain how the price and evaluation 
team concluded that prices were fair and reasonable.
    Answer. We believe the price range in the DoD IG report on page 25 
is misleading. In January 2007, nine vendor proposals demonstrated 
potential to meet the program's overarching objective, which was to 
field the maximum number of survivable, safe, sustainable MRAP vehicles 
in the shortest period of time. Contracts were awarded to each vendor 
to deliver two CAT I and two CAT II vehicles for initial test and 
evaluation. We believed from the onset that ``some'' of the vehicles 
may not pass production verification and survivability tests, but we 
could not tell that definitively from the paper proposals. For that 
reason, it was decided that leaving any high potential producer that 
``could possibly'' manufacture a survivable vehicle on the sidelines 
was an unacceptable risk when the Joint Forces had an urgent need for 
these vehicles.
    Of the nine vendors, Oshkosh Truck (OTC), at $306,199, was the 
least expensive, but failed Limited User Evaluation (LUE); General 
Purpose Vehicles (GPV) was the most expensive at more than $1 million 
per vehicle, but was terminated for convenience because the company 
failed to deliver any test vehicles. GPV's paper proposal offered an 
enhanced maneuverability and mobility solution (the only vendor to 
offer this capability). GPV's contract award was terminated, and the 
entire $5.1 million was de-obligated. The unit prices on page 25 of the 
report reflect unit pricing for a procurement order quantity of 1 to 
200 vehicles. Approximately 95% of the MRAP vehicles actually procured 
were purchased at higher step ladder quantity pricing where unit price 
ranges did not range so greatly among the vendors.
    Question. According to the IG, ``For $1.2 billion of non-vehicle 
items, (the IG) found no corresponding independent government cost 
estimates for evaluation. The Marine Corps also did not obtain volume 
pricing discounts from two contractors for orders in excess of 1,500 
vehicles.'' Can you respond to this?
    Answer. We believe that MCSC netted actual savings of $127 million 
by negotiating bilateral contract modifications to produce more than 
the 1,500 vehicles that were originally contracted for in the base 
year. We purchased those vehicles at base-year price rather than 
option-year pricing. The difference between ordering at base-year 
rather and option-year pricing of 4,186 vehicles was $127 million. We 
understand the approach suggested by DoD IG. The DoD IG method suggests 
potential savings of $45.6 million by using volume discounts. We do not 
believe we would have received both discounts. We believe our method 
was a better investment for the government, as reflected in net actual 
savings of $127 million versus a hypothetical savings of $45.6 million.
    Question. General, have actions been taken to identify why this 
happened, who is responsible, and how to preclude this from happening 
in the future?
    Answer. The Marine Corps has incorporated the DoD IG report 
recommendation that future procurements for MRAP vehicles are properly 
competed or justified on a sole-source basis. Our acquisition 
strategies included this consideration for the MRAP II and sole-source 
award of MRAP CAT III procurements. MRAP-All Terrain Vehicle (M-ATV) 
prices for each part of the competition will be negotiated separately.
    MCSC has communicated to its contracting officials the importance 
of making price reasonableness determinations and ensuring cost or 
pricing data are requested. MCSC is building a framework for the price 
reasonableness determination that will be used for the M-ATV 
procurement. This procurement, though part of the overall Joint MRAP 
Vehicle Program, is being conducted by the U.S. Army Tank-Automotive 
and Armaments Command (TACOM).
    We have attempted to build sufficient flexibility into the 
production contract to deal with both planned and potential quantities. 
We also sought both step and cumulative quantity discounts as part of 
the Request for Proposals for the M-ATV procurement. An OSD Peer Review 
was conducted before the request for proposal (RFP) release, and a 
second Peer Review is being conducted during M-ATV source selection.

                  Joint Light Tactical Vehicle (JLTV)

    Question. Since the initiation of the JLTV program, the military 
departments have procured over 16,000 Mine Resistant, Ambush Protected 
(MRAP) vehicles. Now, the MRAP Joint Program office is in the process 
of procuring 400 light variants of the MRAP for duty in Afghanistan, 
and a more mobile MRAP All Terrain Vehicle (M-ATV) is being considered. 
Still, the JLTV program--a quite similar vehicle, is still under 
development.
    Given the similar requirement and specifications for the M-ATV and 
the JLTV--combined with the immediate need for mine resistant protected 
vehicles in Afghanistan, is it necessary for BOTH of these programs to 
continue?
    Answer. The M-ATV program will rapidly procure, in 2009-10, 
vehicles to meet the combatant commander's immediate requirement to 
overcome the mobility deficiency of previous versions of MRAP in 
Afghanistan and to provide a more robustly armored vehicle than the Up-
armored HMMWVs. The narrow set of requirements that define M-ATV are 
focused on armor protection and increased off-road mobility in the 
Afghanistan terrain. The requirements do not take into account 
limitations posed by shipboard or tactical aviation transportability 
requirements. The requirements that define the Joint Light Tactical 
Vehicle (JLTV) program are heavily influenced by lessons learned from 
the MRAP program. The JLTV program is currently in the technology 
development phase of the acquisition process where vehicle prototypes 
and requirements will be evaluated, assessed and adjusted for the 
purpose of controlling risk and unneeded cost growth. Unlike the narrow 
focus of the MRAP program, JLTV seeks to achieve an appropriate balance 
of protection, payload, and performance (mobility and transportability) 
to support Joint warfighter requirements across the range of military 
operations and in a wider variety of operational environments and 
terrain.
    Question. Could you describe where each of these programs are in 
terms of development?
    Answer. JLTV--The Defense Acquisition Executive (DAE) approved the 
Milestone A Decision in December 2007. A Request for Proposals was 
released in February 2008 and three contracts were awarded in October 
2008 to Lockheed Martin/BAE, GTV (Joint Venture between GDLS & AMG) and 
BAE/International Navistar, which was followed by protests submitted to 
the GAO on behalf of Northrop Grumman and Textron. The protests were 
recently denied and the program started the 27 month TD Phase in March 
09. TD phase results will inform and support finalization of the 
Capabilities Development Document (CDD).
    M-ATV--A non-developmental item (NDI) solution for the M-ATV is 
sought in response to a U.S. Central Command Joint Urgent Operational 
Needs Statement (JUONS). After a first round of armor, ballistic and 
mobility testing, the Government awarded five indefinite delivery 
indefinite quantity (IDIQ) contracts Thursday, 30 April 09 for three 
additional production representative vehicles. These 15 vehicles are 
now at Aberdeen for additional mobility and ballistic testing and all 
other evaluation. The Government anticipates down-selecting to one 
offeror for production delivery orders, but may not limit itself to one 
vendor. A production contract may occur by the end of June 2009.
    Question. Do you think it is feasible to combine this effort to 
produce one good machine? If so, what would that cost in terms of time?
    Answer. No. M-ATV is an immediate solution to address concerns 
about protection and off-road mobility for the emerging theater 
requirements. JLTV is intended to be a long term solution that balances 
the ``Iron Triangle'' of protection, performance, and payload, while 
maintaining expeditionary transportability. While M-ATV will provide 
protection and limited mobility, it trades expeditionary 
transportability and provides limited payload.

                         EFV Program Necessity

    Question. Granted, there are scenarios that would justify any 
program, but given the fact that the U.S. has not conducted a beach 
assault landing in 59 years, is it possible that the EFV is no longer 
necessary?
    Answer. The Marine Corps has conducted more than 100 amphibious 
operations in the last 25 years; operations such as Liberia, Somalia, 
Grenada and the amphibious demonstration during Desert Storm which tied 
up numerous Iraqi divisions during the liberation of Kuwait. EFV will 
provide the necessary capabilities to meet the security challenges 
across the quadrants of conflict (Irregular, Traditional, Catastrophic 
and Disruptive) not available in any other platform. EFV remains 
crucial to Expeditionary Maneuver Warfare and Ship-to-Objective 
Maneuver, important concepts in today's anti-access environment. Anti-
ship cruise missile lethality was demonstrated when Hezbollah struck an 
Israeli warship during the Lebanon crisis in 2006; we need to keep 
ships over the horizon. A surface amphibious assault platform that 
self-deploys from a ship at high speed provides the joint commander 
mass combat power ashore. Keeping amphibious ships 25 nautical miles 
from the beach reduces the threat from cruise missiles and mines. The 
Joint Requirements Oversight Council validated the characteristics for 
effective amphibious assault. The EFV uniquely provides such essential 
characteristics.
    Question. It has been suggested that the fleet might need to 
operate at least 100 miles from shore--beyond EFV's range. What is the 
possibility of this occurrence?
    Answer. All of the current planning and doctrine projects that the 
Navy will be able to maneuver within 25 nautical miles, a distance that 
allows it to react and respond to a potential missile threat. A surface 
amphibious assault platform that self-deploys from a ship at high speed 
provides the joint commander the ability to mass combat power ashore. 
Keeping amphibious ships 25 nautical miles from the beach reduces the 
threat from cruise missiles and mines. The Joint Requirements Oversight 
Council validated the characteristics for effective amphibious assault.
    Question. Are we to the point where we debate whether or not this 
program should go forward?
    Answer. We are extremely confident that the EFV program is on the 
right track to produce a very effective combat vehicle, one that is 
vital to the Corps' ability to conduct ship to objective operations.
    The EFV was certified to Congress in June 2007 (following a Nunn-
McCurdy Breach) as:
    -- Essential to national security.
    -- No alternative will provide equal or greater capability at less 
cost.
    -- New cost estimates are reasonable.
    -- Management structure for program is adequate to manage program 
and costs.
    During the Nunn-McCurdy certification process (2007) an IPT 
concurred with earlier AoA findings and indicated there are no 
alternatives to the (Fix EFV) alternative which will provide equal or 
greater military capability at less cost.
    -- A key takeaway is that initiating a (New Start) would increase 
operational risk due to later deliveries (nearly 5 years), and pursuing 
the (Upgrade AAV) alternative, while entailing lower costs, would 
provide less military capability due to the slow speed of the AAV.

                Cost/Benefit of EFV Development Program

    Question. Exactly how much have we spent in research and 
development costs for this program?
    Answer. The following is a break-out of RDT&E costs:

                                 RDT&E

    -- Program Value at Recertification (OSD-09)--$3,304.7
    -- Expended To Date--$2,291.5
    Question. What are the projected development costs to complete this 
program?
    Answer. The costs to complete SDD-2 are approximately $728M.
    Question. Have any studies been undertaken to determine the cost of 
a redesign that would take into consideration a more resistant shaped 
hull?
    Answer. The safety and survivability of our Marines is paramount to 
our mission success. An EFV Mine Protection feasibility study was 
completed in late 2007 along with a study from The Center for Naval 
Analyses (CNA) which assessed external V-Hull, Internal V-Hull and 
applique configurations for survivability and performance impacts. The 
CNA study concluded that the applique configuration provides increased 
mine blast protection with minimum performance impacts. While 
restricted to a flat-bottomed hull by the design requirements of a 
high-speed tracked amphibian, the underbelly survivability design of 
the EFV has taken a critical approach to integrate proven survivability 
attributes. A Level ``A'' kit matches or exceeds the upgraded 
underbelly protection offered to the LAV-25/LAV III and Stryker by 
their survivability kits, and the Level ``B'' kit matches or exceeds 
the upgraded protection offered by the Bradley M2/M3 (BUSK) upgrade 
kit.
    Question. Because of costs, the Marine Corps has reduced the 
previously planned number of units by one-half. This program is far 
from over. Do you think that number will be reduced again?
    Answer. The Marine Corps did not reduce the program due to cost per 
vehicle but rather as a result of a self-assessment of the future 
battle field and the need for a better mix of vehicles to overcome 
future threats. In early 2007, The Defense Department's Strategic 
Planning Guidance (SPG) directed the Marine Corps to look at its entire 
mix of vehicles for providing mobility across the spectrum of conflict. 
The Marine Corps has proposed reducing its requirement from 1,013 EFVs 
to 573 in order to procure larger quantities of other vehicles and 
provide protected ground mobility to the greatest possible portion of 
the Marine Air-Ground Task Force (MAGTF). By accepting risk in 
strategic flexibility (prepositioning), and reinvesting resources to 
enhance irregular warfare mobility capabilities, the Marine Corps will 
field a balanced vehicle fleet to support all assigned missions. In 
some ways the Marine Corps conducted its own QDR to better position 
itself as the nation's force of choice.

                EFV's Resistance to Land Mines and IEDs

    Question. According to the EFV website: The EFV design mitigates 
the damage caused by IED and RPG threats similar to those encountered 
by US forces in Iraq. How is that possible given the flat bottom 
design?
    Answer. The safety and survivability of our Marines is paramount to 
our mission success. While restricted to a flat-bottomed hull by the 
design requirements of a high-speed tracked amphibian, the underbelly 
survivability design of the EFV has taken a critical approach to 
integrate proven survivability attributes. A study conducted by Center 
for Naval Analyses (CNA) concluded that current bolt on applique 
configuration provides increased mine blast protection with minimum 
performance impacts. A Level ``A'' kit matches or exceeds the upgraded 
underbelly protection offered to the LAV-25/LAV III and Stryker by 
their survivability kits, and the Level ``B'' kit matches or exceeds 
the upgraded protection offered by the Bradley M2/M3 (BUSK) upgrade 
kit. Additionally, the EFV is equipped with specifically designed blast 
shock absorbing seats for the crew and the embarked infantry and staff 
which provide protection from mine blast shock.
    Question. Your plan proposes that once ashore, armor could be 
applied to the underside of the EFV. Initially, how will armor get to a 
beach landing and secondly, who is going to stop, crawl under that 16,, 
clearance and bolt on armor while being fired upon? Is this a realistic 
scenario?
    Answer. The maneuver and lethality of the EFV will allow the 
combatant commander to conduct continuing operations through the 
initial phases of an operation. The bolt on of additional armor would 
not take place until the security environment allowed it and at a 
location that is equipped for the support (i.e. a rear logistics 
operating base with appropriate support).
    Question. Would a V-shaped V-Hull force a total redesign of the 
EFV?
    Answer. Yes.
    Question. If the EFV fails its second Systems Development and 
Demonstration (SDD), would it not be difficult to justify a third SDD 
phase?
    Answer. There are various review and oversight processes in place 
which will monitor the progress of the program, as required by the EFV 
Nunn McCurdy Certification restructure. In addition to these reviews 
and oversight opportunities, the program has established ``Knowledge 
Points'' which will help ensure that the program stays on course to 
successfully meet its reliability requirement.
    -- The first such Knowledge Point (KP-1) was successfully completed 
in December 2008 as the EFV program successfully released a Critical 
Design Review (CDR) during a capstone event that assessed the EFV 
design as mature with a predicted reliability estimate of sixty-one 
(61) hours Mean Time Between Operational Mission Failure (MTBOMF) 
greatly exceeding the exit criteria of forty-three point five (43.5) 
hours.
    Remaining Knowledge Points to occur in FY11/FY12&FY13 are:
    -- KP-2 New Demonstrated Reliability after redesign (22-27 hour 
MTBOMF)
    -- KP-3 New Projected Reliability after reliability growth mods (on 
curve)
    -- KP-4 New Demonstrated Reliability after reliability growth mods 
(on curve)
    -- KP-5 New Projected Reliability Meets KPP Requirement

               The Acquisition Program/Ambitious Schedule

    Question. The Government Accountability Office (GAO) alleges that: 
``The program did not allow enough time to demonstrate maturity of the 
EFV design during Systems Development and Demonstration (SDD). The 
original SDD schedule of about three years proved too short to conduct 
all necessary planning and to incorporate the results of tests into 
design changes. Specifically, the original schedule did not allow 
adequate time for testing, evaluating the results, problems, and 
retesting to make certain that problems are fixed before moving 
forward.'' Have these problems been addressed?
    Answer. The failure of the initial System Development and 
Demonstration phase (SDD) prototypes to demonstrate acceptable 
reliability during 2006 Operational Analysis (OA) was the primary 
reason the program was restructured in 2007. A focused Design For 
Reliability (DFR) effort ensued where best practices in reliability 
engineering, including the utilization of an Industry Standard software 
suite, and robust Systems Engineering processes were instituted to 
improve the EFV's design and performance. At the culmination of the DFR 
effort, System Critical Design Review (CDR), the EFV design is 
predicted to have a reliability of 61 hours mean time between 
operational mission failure (MTBOMF), which exceeds the reliability 
growth curve threshold allocation of 43.5 hours established for the CDR 
during the program restructure.
    Question. Do you see improvements in the program that will allow it 
to move forward in an efficient manner?
    Answer. The EFV program successfully passed a Defense Acquisition 
Board Review following the Preliminary Design Review in Feb 2008. USD 
(AT&L) approved the award of the SDD-2 contract for the construction of 
seven EFV prototypes to be manufactured at the Joint Services 
Manufacturing Center in Lima, Ohio. The first new EFV prototype is 
expected to roll off the assembly line in March 2010.
    The EFV program held a successful Critical Design Review (CDR) in 
December 2008 which assessed the EFV design as mature with a predicted 
reliability estimate of sixty-one (61) hours Mean Time Between 
Operational Mission Failures (MTBOMF) greatly exceeding the exit 
criteria of forty-three point five (43.5) hours.
    Question. The EFV Approval was granted for the purchase of seven 
more EFV prototypes--because the originals were worn out. The vehicles 
have incurred a 168 percent per-vehicle cost increase, and the Marines 
will now procure only half as many (573) as originally planned. 
Combined with the need to purchase even more prototypes, and the cost 
growth, both factors appear to be excessive. Can you elaborate on why 
both situations have occurred?
    Answer. In early 2007, The Defense Department's Strategic Planning 
Guidance (SPG) directed the Marine Corps to look at its entire mix of 
vehicles for providing mobility across the spectrum of conflict. The 
Marine Corps has proposed reducing its requirement from of 1,013 EFVs 
to 573 in order to procure larger quantities of other vehicles and 
provide protected ground mobility to the greatest possible portion of 
the Marine Air-Ground Task Force (MAGTF). The current SDD prototype 
vehicles have been vigorously tested and have now reached the wear and 
tear equivalent of a 20-year service life which is adversely impacting 
the ability to distinguish inherent vehicle reliability performance 
from age-induced failures. In order to continue to grow reliability, 
new test assets are necessary to verify new design changes.

                EFV Transformation From Sea to Land Mode

    Question. Is the EFV not a sitting duck while waiting to transform 
to a shore mode?
    Answer. Under the Ship to objective maneuver (STOM) concept, there 
is no operational pause at the beach. Although the EFV must reduce its 
operational speed during transition from sea to shore it does not come 
to a stop but rather it can maintain speeds in excess of 5 knots. The 
EFV seamlessly transports Marines from ships located beyond the horizon 
to inland objectives without a pause in movement.
    Question. Are there efforts to enhance this transformation time--or 
eliminate it altogether by making the transformation on-the-move?
    Answer. The EFV can transition on the move from high water speed of 
25 kts to land mobility. Although the EFV must reduce its operational 
speed during transition from sea to shore it does not come to a stop 
but rather it can maintain speeds in excess of 5 knots that is 
Equivalent to or better than the legacy Assault Amphibious Vehicle.

                               EFV Design

    Question. General, have you seen the interior of an EFV?
    Answer. Yes.
    Question. Wouldn't you find it difficult to fit a Marine, and all 
his equipment on either side of the engine, and then the remaining crew 
in the passenger compartment?
    Answer. Each Marine has an individual seat that has been 
ergometrically designed. Testing has demonstrated that not only can the 
EFV carry 17 combat-equipped Marines but it does so in a way that makes 
them a more effective fighting force at the objective. When compared to 
the current AAV, Marines who spent three hours inside each vehicle 
performed much better in accomplishing various combat tasks following 
their ride on an EFV.

                     Marine Personnel Carrier (MPC)

    Question. General, other than financial constraints, the Committee 
understands that the Marine Corps believes that a shift to the right 
could better synchronize it with fielding of the EFV. We've discussed 
EFVs. Is this the ``real'' reason?
    Answer. The Marine Corps announced in May 2008 it was deferring 
Milestone A (MS A) for the MPC program to the FY10 time-frame to allow 
the Marine Corps to effectively prioritize near-term investment 
decisions, in order to provide a synchronized mobility strategy with 
respect to the capabilities MPC, the EFV and JLTV offer for the future.
    Question. General Flynn, General Brogan, also in the room with us 
today, said, ``The Marine Corps wants that vehicle, (referring to the 
MPC) the requirement is definitely there.'' General, what amount of 
time is reasonable for Congress to extend such programs?
    Answer. The two-year investment period will allow for the 
maturation of Government Furnished Equipment and armoring technologies 
the Marine Corps plans to integrate onto the vehicles once produced. In 
addition, an MPC Technology Demonstration effort has been initiated to 
inform CDD development on achievable capabilities and integration 
risks.
    Question. Also, it is the understanding of the Committee that, in 
the interim, the Marines will continue to use MRAP vehicles and older 
assault amphibious vehicles. Realizing that the Marine Corps did an 
analysis of alternatives over a year ago, and considering the research 
and development costs, and by your own admission, the MPC was ``out-
prioritized in . . . terms of budget,'' did the Marine Corps consider 
the Army's Interim Armored Vehicle, the Stryker, a vehicle with very 
similar requirements?
    Answer. The MPC AOA identified a medium armored personnel carrier 
as the solution to the MPC requirement. The initial Analysis of 
Alternatives (AoA) included Stryker ``legacy'' but it did not meet the 
MPC requirements.
    When the Army was moving toward a Stryker upgrade we saw an 
opportunity to collaborate on a joint material solution. Since that 
time, we understand that the Army has limited their Stryker work to 
product improvement on same basic Stryker chassis, thus limiting the 
scope of Stryker improvements. For the record however, it's fair to say 
Stryker will necessarily be considered in its current and Product 
Improvement Program (PIP) configuration as we update the AOA in the 
future.
    The MPC program office is closely monitoring Stryker MOD and that 
it could likely compete as a MPC candidate.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                         Wednesday, March 11, 2009.

               SOLDIER EQUIPMENT, ERGONOMICS AND INJURIES

                               WITNESSES

GENERAL PETER W. CHIARELLI, VICE CHIEF OF STAFF, UNITED STATES ARMY
GENERAL JAMES F. AMOS, ASSISTANT COMMANDANT OF THE MARINE CORPS

                              Introduction

    Ms. Kaptur [presiding.] The Committee will be in order. We 
would ask our special guests to take their place.
    I want to welcome everyone this morning. Today our 
Committee will hold a hearing on the causes and possibly some 
solution for the injuries suffered by our soldiers and marines 
due to the very heavy equipment loads carried by our infantry.
    We are pleased to welcome General Peter W. Chiarelli, the 
Vice Chief of Staff of the Army, and General James F. Amos, the 
Assistant Commandant of the Marine Corps. Thank you, gentlemen, 
so very much. These two gentlemen are well qualified to address 
the problems and some potential solutions to how we, simply 
put, are breaking down our soldiers and Marines. Thank you both 
for being here and for your many years of service to our 
Nation.
    General Chiarelli, you have stated that the Army has over 
20,000 soldiers in a nondeployable status, many of them 
nondeployable due to injuries received by carrying a very heavy 
combat load over rugged terrain for an extended period. The 
load that our soldiers and Marines carry over extended 
distances, over rough terrain, and often at high altitudes 
frequently exceeds 100 pounds. Body armor alone can weigh 30 
pounds. The personal weapon, ammunition, water, possibly a 
radio, spare batteries, all add to the load that must be 
carried.
    The Committee is looking forward to your statements and 
answers to our questions on how we can provide better load-
carrying devices, how we can take some gear out of the 
rucksack, possibly by more frequent and more forward resupply, 
and how we can make gear lighter while still achieving the 
desired capabilities.
    Before we turn to the opening statements from our 
witnesses, I would like to recognize the distinguished Ranking 
Member of our Committee on Defense Mr. Young for any remarks 
that he might have. Thank you so much, Bill.
    Mr. Young. Madam Chairman, thank you very much. And I want 
to share in the welcome, your welcome, to the two very 
distinguished military leaders.
    The men and women who serve in our uniform are the best 
part of our national defense. All of the technology in the 
world isn't going to work right without the right people 
handling it. This subcommittee has a very, very strong feeling 
toward anyone who serves in our military.
    The interesting subject today talking about lightening the 
load is a good idea, because I have seen some of the soldiers 
in the field trying to handle those 100-pound and more loads of 
equipment, weapons, whatever. And that is a pretty tough load 
to begin with, let alone when you get up to an altitude up to 
10,000 feet or more, which is some of the Afghan territory. So 
the subject of today's hearing is really, really important, and 
we look forward to your testimony. Thank you for being here 
today.
    Thank you, Madam Chairman.
    Ms. Kaptur. Thank you, Mr. Young, very much.
    And now, General Chiarelli, you may proceed with your 
summarized statement, and your entire statement will be placed 
in the record.

                 Summary Statement of General Chiarelli

    General Chiarelli. Madam Chairwoman, Ranking Member Young, 
distinguished members of the Committee, I thank you for the 
opportunity to appear before you today to discuss the impact of 
combat loads on soldiers serving in Iraq and Afghanistan. This 
is my first occasion to appear before this esteemed Committee, 
and I pledge to always provide you with an honest and 
forthright assessment. I have also submitted a statement for 
the record, and I look forward to answering your questions at 
the conclusion of my opening remarks.
    First, on behalf of our Secretary, the Honorable Pete 
Geren, and our Chief of Staff, General George W. Casey, I would 
like to take the opportunity to thank you for your strong 
support and demonstrated commitment to our soldiers, Army 
civilians and family members. I and the other senior leaders of 
our Army care deeply about them.
    A soldier's well-being is our foremost priority in 
everything we do. Over the past several years, the Army has 
fielded numerous technologies that have greatly improved a 
soldier's capability and the survivability of the force. 
However, the further challenge effected by this progress has 
been more and more weight added to a soldier's load, and the 
wear and tear on soldiers demonstrated by the increases we have 
seen in musculoskeletal issues has had significant impact on 
our deployability rate.
    This is a challenge, and it needs to be addressed; however, 
we must also recognize that there is no simple solution. The 
realty is there is a trade-off to be made between the force 
protection and effectiveness. Certainly we could outfit a 
soldier with every piece of body armor and equipment available, 
essentially encasing him or her in a cocoon of protective 
technology; however, doing so would diminish his or her 
effectiveness and his or her ability to maneuver on the 
battlefield, thus putting him or her at even greater risk. A 
cumbersome load, for example, could cause heat injury or hamper 
a soldier's ability to take cover quickly from enemy fire in 
the event of an attack.
    So the challenge cannot be solved simply by developing, 
procuring and fielding lighter technology and equipment, 
although that is a critical part of the solution. Instead, to 
properly address issues requires a comprehensive approach that 
focuses on improving soldier training and conditioning, as well 
as finding alternate ways to transport equipment and supplies 
on behalf of soldiers. And I ensure the members of this 
Committee that it is what our Army senior leaders are focused 
on doing. We are exploring short-term solutions, as well as 
those that will meet ground force needs well into the future.
    First, we are in the process of changing the Army's 
physical fitness doctrine and training programs to better 
prepare soldiers to the demand of military operations. 
Individual evaluations suggest that soldiers who train and 
condition properly are much less likely to sustain an injury 
after deployment. Therefore, we believe the best way we can 
help our soldiers to avoid injury due to excessive load is by 
preparing them as well as possible for the physiological 
demands of their mission, and the results today have been very, 
very positive.
    A concerted effort is also being made to reduce the 
heaviness and bulkiness of combat gear and body armor required 
on the battlefield. Right now this can be accomplished by 
reducing the area of coverage and/or the level of protection in 
certain areas. And we rely on commanders on the ground to make 
correct decisions on behalf of soldiers on mission parameters 
such as climate, environment, time and mission duration. Let me 
be clear that this is absolutely where and by whom these 
decisions should and must be made: by commanders on the ground 
who are well trained and fully understand the various 
considerations and the current enemy situation, not by those of 
us removed from the battlefield, back in Washington.
    Our job is to make sure commanders have everything they 
need to be successful. And a variety of research, development 
and engineering organizations are currently assisting the Army 
in tackling the challenge of soldier load. The challenge of 
equipping soldiers on the battlefield with the right technology 
and level of protection without overloading them is a difficult 
one; however, I am confident that we are taking the correct 
actions to reduce the burden on soldiers by making adjustments 
to the Army's physical training and conditioning programs, by 
finding ways to reduce the weight of integral pieces of 
equipment and body armor, and by pursuing improved new 
technologies and methods for carrying or delivering part of the 
load.
    I assure the members of this Committee that there is no 
greater priority for me and the Army senior leaders than the 
safety and well-being of our soldiers. The men and women who 
wear the uniform of our Nation are the best in the world, and 
we owe them and their families a debt of gratitude for their 
service and many sacrifices.
    Chairwoman Kaptur and members of the Committee, I again 
want to thank you for your continued and generous support of 
the outstanding men and women of the United States Army and 
their families, and I look forward to your questions. Thank you 
very much.
    Ms. Kaptur. Thank you very much, General Chiarelli. Thank 
you for your testimony.
    [The statement of General Chiarelli follows:] 

    [GRAPHIC] [TIFF OMITTED] T6260A.027
    
    [GRAPHIC] [TIFF OMITTED] T6260A.028
    
    [GRAPHIC] [TIFF OMITTED] T6260A.029
    
    [GRAPHIC] [TIFF OMITTED] T6260A.030
    
    [GRAPHIC] [TIFF OMITTED] T6260A.031
    
    [GRAPHIC] [TIFF OMITTED] T6260A.032
    
    [GRAPHIC] [TIFF OMITTED] T6260A.033
    
    [GRAPHIC] [TIFF OMITTED] T6260A.034
    
    [GRAPHIC] [TIFF OMITTED] T6260A.035
    
    [GRAPHIC] [TIFF OMITTED] T6260A.036
    
    [GRAPHIC] [TIFF OMITTED] T6260A.037
    
    [GRAPHIC] [TIFF OMITTED] T6260A.038
    
    [GRAPHIC] [TIFF OMITTED] T6260A.039
    
    [GRAPHIC] [TIFF OMITTED] T6260A.040
    
    [GRAPHIC] [TIFF OMITTED] T6260A.041
    
    Ms. Kaptur. General Amos, why don't we proceed with you. 
Good morning. Welcome.

                   Summary Statement of General Amos

    General Amos. Chairwoman Kaptur, and Ranking Member Young, 
and distinguished members of the Committee, thank you for this 
opportunity to share what the Marine Corps is doing to mitigate 
combat load injuries and to lighten the load for our 
warfighters. On behalf of all Marines, Sailors and their 
families, I extend my appreciation for the continued support 
that this Committee and Congress provides to our Marine Corps. 
I will take this opportunity to highlight just a few things 
that the Marine Corps is doing with regards to lightening the 
load.
    Over the last 4 years, the Marine Corps has not seen a 
significant increase in injuries directly related to changes in 
the weight or the type of equipment. A delicate balance exists 
between mission accomplishment and force protection. Numerous 
tactics, techniques and procedures have been developed to 
mitigate the distances dismounted Marines must traverse and, 
therefore, the amount of gear they must carry.
    The fact remains, however, that current military operations 
ultimately require Marines to dismount and engage the enemy in 
close combat. To do so necessitates Marines that are agile and 
unencumbered enough to carry the day, but protected enough to 
survive. This is a delicate balance.
    The most significant part of the individual Marine's load 
is his or her body armor. At least 30 percent of a Marine's 
load is his personal protective equipment. The technology to 
protect Marines is better than in previous generations, but 
comes with significant cost and weight. Please know that your 
Marines are the best protected force on the battlefield. We 
have ensured that they have the very latest technology has to 
offer. Because we are constantly engaged in fluid combat 
operations, we understand that our commanders on the 
battlefield are in the best position to determine the most 
effective combat load for any given situation. Operational 
commanders determine how best to equip their Marines based on 
their analysis of mission requirements, the enemy situation and 
environmental conditions.
    To enable this flexibility we provide a range of options in 
personal protective equipment that can be configured to meet 
varying levels of threat. You will see some of that here 
demonstrated this morning shortly.
    We believe conditioning is a major contributing factor to 
the success of mitigating combat load injuries. Physical 
fitness is an essential part of the Marine Corps and has been 
rooted in our most basic levels of training. Marines are 
renowned for their being physically ready for the challenges of 
austere and demanding environments, but there is always room 
for improvement.
    As part of our lessons learned process, we determined that 
we needed to tailor Marine physical training to the realities 
of weight and combat missions. In October of 2008, the Marine 
Corps added a new combat fitness test to its longstanding 
physical fitness test. The combat fitness test is actually a 
training regimen that specifically addresses movements typical 
of combat operations and seeks to improve a Marine's ability to 
perform them while decreasing associated injuries.
    The best weapon and most precious asset in the Marine Corps 
is the well-trained and -equipped and -conditioned Marine. With 
your continued support your Marine Corps will remain the 
Nation's force on readiness and continue to fulfill its mission 
of being ready when the Nation is the least ready.
    Thank you. I request my written testimony be accepted for 
the record, and I look forward to your questions.
    [The statement of General Amos follows:]

    [GRAPHIC] [TIFF OMITTED] T6260A.042
    
    [GRAPHIC] [TIFF OMITTED] T6260A.043
    
    [GRAPHIC] [TIFF OMITTED] T6260A.044
    
    [GRAPHIC] [TIFF OMITTED] T6260A.045
    
    [GRAPHIC] [TIFF OMITTED] T6260A.046
    
    [GRAPHIC] [TIFF OMITTED] T6260A.047
    
    [GRAPHIC] [TIFF OMITTED] T6260A.048
    
    [GRAPHIC] [TIFF OMITTED] T6260A.049
    
    [GRAPHIC] [TIFF OMITTED] T6260A.050
    
    [GRAPHIC] [TIFF OMITTED] T6260A.051
    
    [GRAPHIC] [TIFF OMITTED] T6260A.052
    
    [GRAPHIC] [TIFF OMITTED] T6260A.053
    
    [GRAPHIC] [TIFF OMITTED] T6260A.054
    
                          WEIGHT OF BODY ARMOR

    Mr. Young. Madam Chairman, I wonder if you could invite the 
soldiers with their heavy equipment to take a seat and lighten 
their load a little bit.
    General Chiarelli. If it is okay with you, sir, could we, 
before they sit down, explain what you see here very quickly? I 
will use the soldier, Staff Sergeant Fred Rowe. Fred is from 
Greenville, Kentucky. He is married and currently doesn't have 
any kids. He has been assigned to both the 82nd and is 
currently assigned to the 101st preparing for a deployment to 
Afghanistan. He has been to Iraq twice on two deployments. This 
will be his first to Afghanistan. And on his second deployment 
to Iraq, he took three rounds to the chest and got up and 
completed the mission, which shows you the quality of 
protection provided by these plates.
    We asked Staff Sergeant Rowe to wear the full-up, what the 
Army calls the improved outer tactical vest with the SAPI 
plates front and rear, plus SAPI plates on the side. His, 
without all the other accoutrements, because it is a size 
medium, weighs 30 pounds. To give you an example, if we were to 
move up to a size large, like I would wear, I would be carrying 
an extra 3.2 pounds, because of the extra weight of the plates, 
up to 33.2 pounds. But this is the full-up gear right here that 
provides the best protection over the largest portion of the 
body that both the Marines and the Army have at this time.
    Ms. Kaptur. General Chiarelli, what is the total weight of 
equipment that Sergeant Rowe is carrying right now? I notice he 
doesn't have on the optical scanner and some of the other 
things.
    General Chiarelli. I did not totally weigh his ruck.
    Sergeant Rowe. Depending on the mission, ma'am, my kit has 
weighed up to about 98 pounds at one time, depending on the 
mission. Sometimes it is about 70 pounds. But with ammunition, 
grenades, flashbangs and all the other equipment, it is going 
to be over 70 pounds every time that you go outside the wire. 
On an extended mission during a surge, my kit weighs just shy 
of 100 pounds.
    Ms. Kaptur. Thank you. Thank you for that.
    To your knowledge, Sergeant Rowe, have the soldiers ever 
been asked about equipment loads in your career? Do you ever 
get a survey or anybody talk to you about what could we do to 
lighten your load?
    Sergeant Rowe. Yes, ma'am. I have actually taken a survey 
multiple times. I think in the survey it asked if you would 
accept the responsibility of having like a plate carrier or 
something lighter that doesn't have as much flak protection 
from the shrapnel and 9-mils. And as far as I know, every 
person that has ever worn the kit that we had to wear has 
checked ``yes'' in their block.
    Mr. Young. Sergeant, your experience in Iraq when you were 
hunting down or pursuing a terrorist, he was moving pretty 
light, I understand, he didn't carry the heavy load because he 
hit and run. How much restriction is there on you in pursuing 
that bad guy and hunting him down?
    Sergeant Rowe. Most of the time I was in Iraq, sir, I was a 
sniper, and we weren't actually chasing people down. But when I 
was an infantry squad leader, we would react to contacts, and 
if the individual is not in your line of sight, basically if 
you can't just see him right away in the street within 100 
yards or so, you can't pursue. You would have to go ahead and 
stand your ground and maintain what you have, because there is 
no way that you will ever catch them.
    Mr. Young. I bet you couldn't do the 100-yard dash in 10 
seconds, could you?
    Sergeant Rowe. No, sir.
    Mr. Young. Thank you for what you have done and what you 
will continue to do. We appreciate your service to our country.
    Sergeant Rowe. I am happy to do it, sir.
    Mr. Rothman. Would it be possible for the soldier to 
describe from bottom to top what he is wearing?
    Ms. Kaptur. Certainly, certainly.
    Sergeant Rowe. Well, we start out with the desert boot, 
sir. And depending on the terrain, we have five different pairs 
of boots that you can wear, and some of them can actually be 
pretty heavy. If you are walking on concrete, they are going to 
have a thicker sole. They are about a pound heavier each.
    Then you go to the pads. We have insert pads that we could 
be wearing, but we have the outer knee pads and elbow pads that 
are mandatory for you to wear. They have better protection, but 
it gets a little restrictive. He was talking about chasing down 
someone. Whenever you can't even move your arms or legs it is 
pretty hard to run. When you move up, then you have your groin 
protector, which is a 9-mil flak, as well as around your neck, 
and pretty much everything around the plates.
    When you move up the vest, you have usually some kind of a 
harness that holds all your magazines and pouches over top of 
your armored vest; and, depending on the mission, what ammo you 
are going to take, how many grenades you are going to take, or 
whatever equipment you are going to have. Always your 
survivability kit, first aid. And then you also have your vest 
which has--as the general was saying, depending on your size it 
can go up between--probably about 5 pounds, sir. And then 
lastly you have your ACH helmet, which is a lot lighter than 
the ones we had in the past.
    Mr. Rothman. And what is on your back?
    Sergeant Rowe. This is an over daypack, sir. This is what 
we call an assault bag. You can't really fit a whole lot more 
than just a MRE and maybe a little water or extra ammunition in 
it.
    Mr. Rothman. How much water do you carry?
    Sergeant Rowe. Depending on how long you are going to go 
out, sir. Normally we have to have at least 4 quarts on us at 
any time. But if you are going to go out for a day or 2 days or 
a week, then you are going to have to pack up your trucks and 
carry more water in your bags, just depending on the mission 
and how long you are going to be out.
    Mr. Rothman. Thank you, Madam Chair.

                          SCALABLE BODY ARMOR

    Ms. Kaptur. Thank you, Mr. Rothman, very much.
    I was going to ask, Sergeant Rowe, if you step a little bit 
to your right we are going to ask General Amos to introduce 
your guest from the Corps, and I know Congressman Frelinghuysen 
has the next question.
    General Amos. Sergeant Harres, come on up here.
    Ma'am, this is Sergeant Harres, Infantry Marine and squad 
leader, two combat tours, 1st Battalion, 6th Marines, both of 
them in Iraq. And he is wearing what we call the scalable 
armor. Now, we did our best to try to put the same equipment on 
the vest itself, but you will notice that the vest that he is 
wearing provides him a lot more opportunity to move. And so 
what this has done, this was an attempt about a year and a half 
ago to develop an opportunity to divest yourself of some of the 
heavy equipment and protection, and recognizing up in the 
mountains of Afghanistan, in the hot temperatures and high 
attitude, you need to be able to move just exactly for the very 
reason that Congressman Young talked about.
    So this is a scalable vest. It is called a plate carrier. 
It has the same enhanced small-arms protective plate in the 
front, one in the back, just the same way as his vest does. It 
has the plates on the side. If you would point to the side SAPI 
plates. Those just attach off and on, and that is an outshoot 
of about the last 3 years of combat in Iraq, understanding that 
the snipers would shoot at the sides. So we put those on there. 
This thing is significantly lighter. It is about another 10 to 
15 pounds lighter than what we have over here, and we are 
issuing that now to the Marines in Afghanistan. And again, we 
are allowing the commander to make the call.
    We have a full vest that we did not bring, very, very 
similar to this vest. It weighs 33\1/2\ pounds. It looks 
exactly like this except it has got Marine tan. So we have that 
capability, and we provide that protection.
    Most of our Marines in Iraq right now are wearing a heavier 
gear. This an acknowledgement that if we can scale and allow 
the commander to pick the right armor, depending on what the 
situation is, then he is more apt to be able to maneuver in 
high attitudes and high temperatures.
    Sergeant Harres, do you have anything you want to talk 
about about your personal----
    Sergeant Harres. When I was in Iraq, we had the full flak, 
which when we were able to adapt to it, I thought it was fine. 
Once I moved to the plate holder, like the General said, you 
are able to move freely. On our recent trip to Iraq and 
Afghanistan we had to use them. It doesn't offer necessarily as 
much protection, but up in the hills of the Afghanistan 
mountains, it will definitely will be a lot better to use, I 
think.

                   FIRE-RESISTANT ORGANIZATIONAL GEAR

    General Amos. One of the things that you will see, you will 
notice on Sergeant Harres, he has got kind of a strange-looking 
shirt on. That was developed about 2 years ago as a result of 
our Marines being burned when the IEDs would go off. And we 
ended up with a lot of Marines on their hands, neck, body being 
burned. And you would see it down at Brooke Army Hospital. So 
the Marine Corps Systems Command developed and did a rush. We 
really worked very quickly to develop what they call FROG gear, 
which is fire-resistant organizational gear, and it now has it 
for the shirt. We have got a thing we put over our--a balaclava 
we put over our head. And we have got Nomex gloves. And the 
whole idea is to reduce the burning in the event of a vehicle 
IED mishap.
    So we have gone to that. And, in fact, you will find a lot 
of Marines wearing aviation flight suits right now, because 
they are Nomex, on patrol in Iraq. They like them because they 
are fire resistant.
    Ms. Kaptur. Congressman Frelinghuysen.

                     ADJUSTING LEVELS OF PROTECTION

    Mr. Frelinghuysen. It is 130 degrees in Iraq, and you are 
an Army sniper, and let us say you are a Marine sniper. Do you 
have the flexibility on your own to reduce the amount of gear 
you have so you can actually maneuver? It is pretty damn 
difficult to fire a rifle if you can barely move your arms. I 
just wondered do you have that flexibility, or is there some 
greater God in terms of a unitary policy that you have to obey, 
both the Marines as well as the Army? Do you have some ability 
to adapt?
    Sergeant Rowe. No, sir. You are not allowed to shed gear, 
so to speak. In the past I have done it to adapt to the mission 
and to get on my belly, hide on the desert to be able to make 
that shot. I have done that. It is not allowed.
    You can't shed gear because, as the general was saying, the 
commander is trying to protect their soldiers, and they don't 
want to have to answer for that. That is why we as soldiers 
would like to go to something like that that allows us to be 
more mobile and versatile so that we wouldn't have to shed our 
gear. We would wear everything at the same time to accomplish 
position.
    General Chiarelli. And that is exactly what we want to go 
to is that same capability to do that. But I will tell you, in 
2006, since we are talking about snipers, the snipers were, in 
fact, aiming for the femoral artery of the leg even wearing 
this gear in order that they could get a soldier to bleed out. 
So the thought in 2006 of shedding this kind of protection for 
something less, you would be putting your soldiers' lives at 
risk. I think most commanders would power this down to company 
commanders, particularly in Afghanistan, to make that call 
based on an enemy situation as to when they can shed gear and 
go to a plate carrier because the situation allows it.
    Mr. Frelinghuysen. Thank you both for your service.
    Thank you, Madam Chair.

                            EQUIPMENT WEIGHT

    Ms. Kaptur. Thank you.
    I think I would like to hold questions for the moment. We 
would like to ask our guests to please be seated. And while 
they are doing that, General Amos and General Chiarelli, what 
is the total potential weight that each soldier or marine would 
have to carry; what is the potential total weight?
    General Amos. I have got some actual figures here. We have 
a battalion that just came back from Afghanistan about 3 months 
ago, 2nd Battalion, 7th Marines. And in an effort to try to 
capture what their weights were, we sent a Marine Corps lessons 
learned team over to Afghanistan and actually weighed these 
guys and say, okay, put them on a scale with what they 
typically wore. And the lightest was the squad leader. So that 
was the Marine that was in charge, typically a sergeant like 
Sergeant Harres, that was wearing 78.94 pounds of gear. The 
mortarman was the heaviest in that squad, and he was wearing 
142.26 pounds of gear.
    Now, there is an old military historian by the name of 
S.L.A. Marshall, who many, many years ago said an infantryman 
should never wear more than 50 percent of his body weight. So 
this mortarman that is wearing 142.26 pounds, when you think 
about how much he probably typically weighed, maybe 170, 180 
pounds, and you go back to what S.L.A. Marshall talked about, 
this has been a problem for infantrymen, to be honest with you, 
all the way back to the days of Alexander the Great, and it is 
a problem, and it is something we are struggling with.
    But I will tell you from the services side of the house, 
there is no slack in effort to try to capture as much advanced 
technology that is out there to lighten the load. And we can 
talk about this in this hearing, we can talk about initiatives 
that are under way right now to lighten a load, but there is no 
shortage of money being spent from the science and technology 
in the developmental world to try to get our Marines' and 
soldiers' loads down. And there are several initiatives which 
we can talk about.
    Ms. Kaptur. General Amos, do you want to proceed with any 
additional statement at this point?
    General Amos. I don't, ma'am, but I will be happy to answer 
any questions.
    Pete, do you have anything on the weight?
    General Chiarelli. Our doctrinal fighting load is 48 
pounds, and it can range from 48 pounds up to 120 pounds. We 
have done some looking at Afghanistan. The average fighting 
loads in Afghanistan are 63 pounds. I think that is basically 
what Sergeant Rowe indicated, maybe a lot lighter than in 
Afghanistan than they are in Iraq. And they vary from that 63 
pounds up to 130 pounds.
    I took a look at World War II fighting loads, and the 
difference between World War II fighting loads and the fighting 
loads I just cited just now is about the weight of the tactical 
vest you see right there. So what we have added since World War 
II in the amount of weight is basically in that IOTV with SAPI 
plates, but additional capabilities that our soldiers didn't 
have in World War II. So we are looking at an average load of 
63 pounds in Afghanistan today.

                       REDUCING EQUIPMENT WEIGHT

    Ms. Kaptur. General Chiarelli, in your testimony submitted 
to the record, you indicate that in one study infantry soldiers 
carrying a load of 101 pounds for 12.5 miles had a decrease of 
26 percent in marksmanship, being the number of targets that 
were hit; a 33 percent increase in the distance from the target 
center; and an increase in back pain compared to preload and 
march scores. And then a little bit later on it indicates in 
your testimony that a 72-pound load increased energy required 
by 40 percent on behalf of the soldier. And the time required 
to complete an obstacle course increases 10 to 15 percent for 
every additional 10 pounds carried.
    My question to you really is what are we doing? I look down 
the list that every Member has gotten of equipment that is 
being carried by our soldiers, and we put all this money into 
research, but the optical scope and illuminator, that is almost 
9 pounds itself. What kind of dispatch is there to try to look 
at each piece of equipment and to try to halve its weight?
    General Chiarelli. We are working very hard at finding ways 
to lighten the load, I can promise you that. One of the things 
we are looking at is civilian off-the-shelf solutions to many 
of the things we do. And our rapid-equipping force is leading 
the way in the Army at finding some of those things that will 
lower the weight.
    But I have to tell you, the advent of the SAPI plate is the 
mid-1990s. We fielded the first SAPI plates, ceramic plates, in 
early 2000. And the protection that they have provided and 
their ability to stop rounds is such that we have offered a 
level of protection to soldiers that they have never had on the 
battlefield. Our sergeant here would not be alive today if he 
did not have those SAPI plates on.
    I made a trip up to ARL, our Army Research Laboratory, to 
see what they were doing to try to lighten those plates even 
further, and they told me, quite frankly, that it is going to 
take a lot more time given the improvement in ballistics which 
they have to stay up on.
    We have come up with two improvements to the SAPI plates. 
We are on E-SAPI today, which provides more ballistic 
protection. It did not increase the weight, but it has more 
ballistic protection. But the technological chances of being 
able to cut that weight in half are still many years down the 
road when it comes to the plates themselves. But we are looking 
for other ways that we can do that.
    I might mention, I totally agree with General Amos. 
Physical conditioning and--what we are finding through the 
University of Pittsburgh study that is being conducted--
nutrition are key elements in helping soldiers when they have 
to carry these loads in avoiding the kind of musculoskeletal 
issues that we are seeing today.
    Ms. Kaptur. Could you please provide for the record, and 
then I am going to call on Mr. Young, a brief summary of each 
piece of equipment that the soldier is carrying or the Marine 
is carrying and the research under way to lighten that piece of 
equipment? I would be very grateful for that.
    [The information follows:]

    For over a half decade, the Army has initiated a number of programs 
to transform how individual Soldiers are equipped given their unique 
size, weight, power, and environmental considerations. There are well 
over 300 items that could be issued to the Soldier depending on their 
mission and where they would be deployed. Army investments impacting 
Soldier load include the following and are not all inclusive of Army 
efforts.
    1. Clothing and Individual Equipment--There are numerous Army 
initiatives like rucksacks, flashlights, and sleeping bags. By using 
some Commercial Off the Shelf (COTS) items we are already lightening 
the Soldier's load by as much as 70% on individual items. Other 
clothing enhancements such as Extended Cold Weather Clothing System 
(ECWCS) provide cold weather protection made from light weight material 
that makes the ECWCS 7 lbs lighter than previous versions.
    2. Lethality--There are numerous initiatives that will lighten the 
Soldiers load. Among the highlights are: The M240L lightweight 
machinegun which will reduce the weight of the M240B machinegun by 7.1 
lbs, a savings of 26%. The use of the XM806 lightweight .50 caliber 
machinegun and tripod lessens the load by 64 lbs over the M2 machinegun 
and tripod, a savings of 50%. The switch from the M122 machinegun 
tripod to the M192 tripod will reduce the weight by 6.5 lbs, a savings 
of 34% on the M249 and M240B. The combination of optic sights and laser 
pointers will provide as much as a 34% savings (1.42 to .56 lbs) in 
Soldier load weight. Another area of Soldier load savings has been 
obtained in sensors and lasers, where the medium Thermal Weapons Sight 
was reduced 44% (5.0 lbs to 2.8 lbs).
    3. Ammunition--Lightweight steel cased ammunition currently in 
development has demonstrated a weight savings of 25% over current 
7.62mm ammunition. The Lightweight Small Arms Technology project is 
investigating new case telescoped ammunition which promises to save 
between 35 to 40% over current ammunition weight. Caseless telescoped 
ammunition is also under development and promises to save up to 50% (7 
lbs to 4 lbs) of the ammunition weight along with 40% reduction in 
volume.
    4. Soldier Protection--Technology development efforts are working 
toward weight reductions for body armor (vests and plates) and helmets 
through advances in fibers, textiles, and ceramics. High performance 
fibers with significantly increased tensile properties have the 
potential to provide weight savings of 30-40% of the fabric components 
of body armor. Lightweight ceramics is focused on increased multiple 
hit capability, improved durability, and the ability to form the 
ceramic plate into more complex shapes that can better conform to body 
shape and provide for increased mobility. Within the past 24 months 
alone, the Army has made improvements to the Soldier's Interceptor Body 
Armor system with the introduction of the Improved Outer Tactical Vest 
which reduces system weight by over 16% (18.6 lbs to 15.7 lbs). In 
addition, there are ongoing actions to evaluate a lighter tactical vest 
(plate carrier) for Soldier use. The purpose of the evaluation is to 
provide the operational commander with flexibility to use a plate 
carrier to adjust Soldier loads based on terrain conditions (patrolling 
in and around mountainous regions). Additionally, development of the 
new Enhanced Army Combat Helmet has the potential to provide another 
10% reduction in weight from its predecessor while providing improved 
ballistic protection. The overall goal for the Army's S&T effort is to 
reduce body armor Soldier load by an estimated 10 lbs.
    5. Power--Technology development efforts will achieve weight 
reductions for power sources through improved battery technology, 
hybrid power sources and battery charging systems. Lithium carbon 
monofluoride primary batteries have demonstrated a 2X reduction in 
weight through improvements in energy density compared to current 
primary batteries. Wearable, rechargeable Lithium-polymer batteries 
will conform to and mate with body armor and will achieve improved 
fightability. Hybrid power sources based on methanol fuel cells will 
reduce the number of batteries required for multi-day Soldier missions.
    6. Combat Rations--The recently developed First Strike Ration, a 
compact, eat-on-the move, assault ration for consumption during initial 
periods of high intensity conflict, provides a 49% weight savings over 
a one day supply of MREs. Technology development efforts will achieve 
additional weight reductions for combat rations through the use of 
novel lightweight packaging materials and improvements on specialty 
rations.

    Ms. Kaptur. Mr. Young.

                            ROBOTIC VEHICLES

    Mr. Young. I want to thank the Chair. And we had discussed 
at a prior meeting the possibility of devising a system or 
procedures to provide UAV support or some robotic-type support 
for the fighter. For example, in here, what the sergeants are 
wearing, it doesn't include their weapons; it doesn't include a 
whole lot of ammunition; it doesn't include water that they 
might need for a couple of days; it doesn't include 
communications equipment, radios, night vision goggles, things 
of this type.
    Is there any work being done by the Army Materiel Command 
in trying to devise a strategy or procedure or a method where 
the troops on the ground could be helped with some of this 
extra heavy load, what they need when they get to the fight, 
but they might not need getting to the fight?

                                AIRDROPS

    General Chiarelli. There is. First of all, we are looking 
at robotic vehicles as a way of being able to transfer that 
load from the soldier to a vehicle that would travel along with 
the soldier and carry a good piece of that. That technology is 
something we are looking at and testing right now.
    But currently in Afghanistan--I will let Jim talk about 
UAVs and what they can do--we are using as a primary way to 
take this load off the soldier's back by use of airdrops. We 
deliver 26,000 pounds a day using airdrops, different airdrop 
technologies. And we have come up with technologies that are 
very, very accurate at half the cost of what they used to be 
and don't require soldiers to recover the components of the 
airdrop. Basically those things which bring that load to ground 
are discarded after the drop is made. So this is going a long 
way in helping us to get some of those pounds off our soldier's 
back. And we see the increase in airdrops as something that is 
proven to be very, very helpful in Afghanistan.
    General Amos. Sir, we also are using the airdrops, TRANSCOM 
General McNabb and all his airmen have done some remarkable 
work with precision airdrops using parafoils to try to get the 
stuff out so you don't have to either carry it along the 
highways of Afghanistan, which are becoming more and more IED-
laden. I mean, that is an effort that is under way right now 
and works quite well.
    About a year and a half ago, the Marine Corps commissioned 
a study by the Naval Research Advisory Committee on the issue 
of lightening the load, and after about 6 months of effort by 
some very renowned ladies and gentlemen across our country 
going into industry and into all the S&T developmental parts of 
the world and then going back into history, they came out and 
they said, look, we are probably right now at about as far 
along as we can be with current technology as we know it today 
with regards to being able to lighten things like the SAPI 
plate, small-arms protective plate. We need new technology to 
be able to get that thing lighter. But they said, there is 
other ways that you can lighten a load. One is weight 
redistribution; in other words, the actual weight. It is a bit 
of a ruse, but it actually works. You can redistribute the 
weight and get it more over your hips and therefore feel like 
you can actually lift yourself better and maneuver better. So 
that is one way.
    The other piece of it was get it off the Marine or the 
soldier and get it onto something else that actually can carry 
it for you. The front cover of our Marine Corps Gazette this 
month has a picture of a Marine up in the mountains of eastern 
California at our Mountain Warfare Training Center loading up 
mules. Now, I realize that is not new technology, but we 
actually teach a course for Marines how to load mules, and we 
use it in places like Afghanistan. So at the very bottom of the 
food chain, that would be the basic way you would transfer 
loads.

                       CARGO UNMANNED AIRVEHICLE

    But what we are looking at right now, and what is a near-
term requirement is the whole idea of a cargo UAV. And if you 
can imagine, we are pretty successful with UAVs now. We like 
them. We have got little ones, and we go all the way up to the 
big ones. But nothing is out there to haul stuff around the 
battlefield.
    A year ago we had a battalion engaged in Afghanistan, and a 
company got into a heck of a fight, and it was in the 
summertime, it was hot. We had one opportunity to resupply 
them. And I remember reading the report, the spot report, from 
the company commander, and he had a choice between getting--
being resupplied with water or being resupplied with 
ammunition. And it was at that point we said, we have got to do 
better than this. And so the concept of a cargo UAV was born.
    And right now the whole idea would be we are going to get 
something off the shelf within the next--hopefully the next 3 
to 4 months. We had an Industry Day last week within the Marine 
Corps and brought in folks that had these commercial off-the-
shelf UAVs that are out there, and can it be modified to carry 
cargo, somewhere anywhere between 500 pounds to probably 1,250, 
1,500 pounds. Take off vertically, precision, set it down, drop 
it off, then go to the next stop. Redo it all day, all night. 
UAVs aren't afraid to fly at night. They just go up by 
themselves and do it.
    That is where we are headed. We want to get a solution now 
to get into Afghanistan this summer. And then we have a program 
where we are looking for something that would be optimum for 
the future; an expendable, low-cost, precision UAV to be able 
to carry an unmanned aerial vehicle--excuse me, logistics. So 
you are going to hear more of that as we find out what we are 
going to do, but we are committed to getting that for this 
coming summer.

                         ROBOTIC CARGO VEHICLES

    The other thing is what General Chiarelli was talking about 
is DARPA has a project they call Big Dog, and it was a robot. 
It looked about the size of a Great Dane, and it had robotic 
legs, and it had a gasoline-powered motor on it, and it had 
gyro-stabilized legs, and it could climb up. And the whole idea 
is to shed weight on this thing. They have taken that now to 
the next level, and I was briefed on it about 2 weeks ago, and 
I think there is great potential.
    We won't see that this month, but we hopefully will see 
that sometime in the next 24 months where you can imagine a 
squad with one of those robotic dogs, quiet, completely self-
contained, where you can put 300 or 400 pounds on this thing, 
and it will just follow you along, like my Labrador Retriever 
does today. So there is a lot of effort going on to try to shed 
the weight onto something else.
    Mr. Young. General, thank you very much for enlightening us 
about the newest technology of the mules. Whatever works.
    Madam Chairman, you have got a good attendance today, so I 
am going to yield back my time so other Members can take part 
in this hearing.
    Ms. Kaptur. Thank you, Mr. Young.
    Mr. Visclosky.

                         INJURIES DUE TO WEIGHT

    Mr. Visclosky. Thank you, Madam Chair. Just two questions. 
There is a wide range as far as the weight a troop carries. Is 
there a weight beyond which frequency of injuries grows 
dramatically? Is there some threshold where suddenly you are 
seeing a lot more injuries to our troops because of the weight?
    General Amos. Sir, I don't have that information. I would 
say intuitively obviously the higher we get up these weights 
that I talked to you about in the 2nd Battalion, 7th Marines, 
140 pounds, there is absolutely no question that you might be 
able to carry that around the street, but when you start going 
up mountains, you can't do it. You stop hopping in and out of 
MRAPs, step down from an MRAP that sits 2\1/2\ to 3 feet high 
off the ground.
    Mr. Visclosky. And you get shot at.
    General Amos. Absolutely.
    Intuitively there is a threshold, but I don't know 
precisely what it would be. I don't know that we have that kind 
of information.
    Mr. Visclosky. I assume there would be some variation 
between the size of the actual soldier, airman and the load 
they are carrying, too. I was just wondering if suddenly you 
are seeing some incremental increase along a certain threshold.
    One other question. For those who are our enemies, what is 
their basic load, if there is such a thing? My impression is it 
is relatively light, but I do not know.
    Mr. Moran. It is the weight of a weapon. That is about it.
    General Chiarelli. That is about it, the weight of the 
weapon. They do not have protective gear. But their casualties 
are much higher than ours, and their effectiveness is not as 
great as ours because of their lack of the equipment and the 
protection we are able to provide our soldiers and Marines.
    Mr. Visclosky. I assume there is some advantages. 
Understanding they have higher casualties, and there are other 
things we can do to compensate for the lack of mobility because 
of the amount of weight our troops are carrying, what advantage 
do they have because they are so light?
    General Chiarelli. I think that is why we are both looking 
at it different ways, so we can lighten the load, and 
particularly move to a plate carrier where the enemy situation 
allows you to do that without putting the soldier or Marine at 
greater risk than you are willing to accept and that he is 
willing to accept given the enemy situation.
    Mr. Visclosky. I wish you well. I just can't imagine how 
terrifying it is. You are in combat, you are risking your life, 
you are carrying this, and then to find that right adjustment. 
And I honest to God wish you well, and whatever we can do to 
help. I appreciate it.
    General Amos. And it is a balance, sir. The flip side of it 
is if you talk to our staff sergeant and the sergeant that were 
in heavy combat, they would tell you that there were times when 
they absolutely would not have wanted to shed any of the stuff 
that they were wearing because the threat dictated that if you 
are riding around in the back of an MRAP or an up-armored 
Humvee in an area that is known for IEDs, most of the soldiers 
and Marines, I would say, would rather have that stuff on than 
a plate carrier, because a plate carrier covers significantly 
less of your body. So there are times when they absolutely want 
to have that kind of coverage.
    And as General Chiarelli was talking about, in 2006, 
General Brogan, who is sitting behind me, as a result of an 
Urgent UNS, developed ARB, what we now wear, our big vest, a 
modular tactical vest. And the whole idea was countersniper. It 
was the shots coming in the neck, the shots coming in under the 
arms, the shots coming into the hips. And so we did a rapid 
turnaround to develop this thing. Now it is bigger and bulky. 
It is just like their vest, but it had a purpose. And the whole 
idea now is if we can give the commander on the ground the 
opportunity to make decisions on how much or how little, then I 
think that is absolutely where we need to go. But we value life 
a lot more than our enemy does, and the last thing we want to 
do is send a young soldier or Marine home because of maybe a 
lack of irresponsibility or a lack of responsibility on our 
part. So it is a balance.
    Mr. Visclosky. Thank you very much for your service.
    Ms. Kaptur. Mr. Frelinghuysen.

                         WEIGHT OF MACHINE GUNS

    Mr. Frelinghuysen. Gentlemen, we have made some progress in 
terms of the weight of soldier weapons. I respect Picatinny 
Arsenal. They just lowered the weight of the .50-caliber 
machine gun, doing some things relative to the weight of 
barrels, the ammo, the clips for ammo, I guess they call it 
plasticize, use of titanium. Are you satisfied we are making 
enough progress in that area? Perhaps General Chiarelli.
    General Chiarelli. I think that is one of the areas that 
really shows a tremendous opportunity to make some real 
reductions in weight. We found in the Special Operations 
community an M240 machine gun, which I think most of you know 
is a pretty good-size machine gun. Special Operators had had 
this weight problem. With the standard one we issue our 
soldiers, they had developed, and I believe it came out of 
Picatinny, a weapon that was 9 pounds lighter. When you can 
shed 9 pounds on a machine gun like that, that is a tremendous 
weight savings. We have issued 100 of them and have another 500 
on order to get out to our soldiers in Afghanistan.
    The same thing with the M249, commonly called the SAW. They 
have been able to shave off an additional 2 pounds off of it 
and make it much lighter.
    Picatinny is working on caseless ammo, I know, and that 
shows a great future, because if you could get rid of that 
brass on every single round of ammunition you carry, you could 
shed more load. The issue with that, of course, is we will have 
to move to something other than the M4, because it, as I 
understand it, will not fire caseless ammo. But those are the 
kinds of things that I see that show great promise for helping 
us lighten that load.

                     CARGO UNMANNED AERIAL VEHICLES

    Mr. Frelinghuysen. On just getting back to the use of UAVs, 
the cargo, I assume the larger the UAV, perhaps the greater 
opportunity for the enemy to detect what we are using. How are 
we dealing with those types of issues? And I assume you get the 
conditions on the ground. I am talking more about Afghanistan 
here where you have a brownout, and you would have a similar 
sort of situation, whether you have the opportunity to bring in 
water or ammo. I just wonder what sort of progress are we 
making with the UAVs.
    General Amos. Sir, right now we don't have one in theater 
right now. We have UAVs, but we don't have a cargo UAV. And as 
a result of this Industry Day that we had a week ago, we are 
trying to sort out, okay, what is out there now that is already 
made so that we can capitalize on that.
    Mr. Frelinghuysen. Sir, one has to assume obviously the 
Special Operators are getting stuff in, but they are using 
conventional airdrops.
    General Chiarelli. I think they are using most of the 
airdrops and some of the airdrop technology that has been 
brought on board in Afghanistan.
    Mr. Frelinghuysen. UAVs are on the drawing board, the 
cargo?
    General Amos. Sir, they are from the sense of what we would 
really like to have in the future. That is the one that is--
those are kind of under development. But the near-term itch, 
which is the forces in Afghanistan right now, I am looking for 
something more than a developmental solution, I am looking for 
something now.
    Mr. Frelinghuysen. We can't wait.
    General Amos. We can't wait, and for all the reasons we 
talked about. We don't know how big this is. We don't what we 
are going to decide on. I have seen pictures of ones, I have 
seen them, that are as big as this room, and I have seen 
smaller ones.
    Ideally what you would like to have is something that is 
small, that is quiet, that can carry this load of 500 to 1,200 
pounds. And that is where we are going for right now. We just 
don't know. There are some small commercial helicopters, some 
very small ones, that we have companies looking can they modify 
that to fly it remote control, just like we do all our other 
UAVs, hand them off as it moves into theater, moves farther 
downrange, and then take control at the receiving station and 
then just land the thing. And the good thing about that is even 
in a dust storm, a UAV can land by itself. It is not like me as 
a pilot where you get nervous in a brownout. We don't have it 
yet, but we hope to have it and introduce it this coming 
summer. That is where we are headed.
    Mr. Frelinghuysen. Excellent.
    Thank you, Madam Chair.
    Ms. Kaptur. Thank you, Mr. Frelinghuysen.
    Mr. Moran.

                              COMBAT LOAD

    Mr. Moran. Thank you very much, Ms. Kaptur. And we thank 
you for chairing a meeting from two such distinguished military 
leaders, and I have great respect for both of you. In fact, 
General Amos, I was pretty impressed.
    I mentioned to General Amos late in the afternoon yesterday 
that my nephew, who is in the Marine Corps, was complaining 
because he was sent to New River on financial management 
because of some dumb Appropriations Committee that wanted more 
financial management people in the Marines, so he got stuck 
with that. So I mention it, and today he is in Iraq fighting. 
You know, it is conceivable it could be coincidence, but I just 
gave all the credit to you. I was really impressed.
    In our briefing where we are told that we have about 20,000 
soldiers that are nondeployable--I think that was in your 
testimony, General Chiarelli--largely because of bone and 
muscle injuries, and it is increasing, it seems fairly 
dramatically, about 10 percent annually, it appears. Now, the 
explanation, it says that you are planning on lessening 
equipment loads, improving conditioning, providing new load-
carrying capacity, technology, et cetera.
    I don't think any of us think that the problem is one of 
the human endurance of the soldiers, but it is probably more 
the human judgment of their superiors that--yourselves 
excluded, obviously. I wouldn't say it because I know you do a 
fine job. But I think over time we have loaded them up. And I 
suspect I am not alone in this. It is too much; 100 pounds is 
too much to be carrying on a regular basis, let alone 140. In 
terms of maneuverability, adaptability and just what the human 
body is capable of bearing over long period of time, it is too 
much.
    And I believe you when you say we are working on lightening 
it, but we have been in Afghanistan for 7 years, we have been 
in Iraq for almost 6, and it seems to be going in the other 
direction. Now, maybe we are part of the problem. I mean, I 
have got a question here about are you trying some of the new 
sniper technology that is put on vehicles but could be put on 
soldiers individually that detects where sniper fire came from? 
I mean, that is new technology. But gosh, in this context of 
that much weight having to be carried by individual soldiers, I 
can't imagine adding anything to it no matter how helpful that 
technology was. And yet we are talking about radios, we are 
talking about any number of other things that just seem at some 
point counterproductive.
    You wonder in a platoon if we couldn't share some of the 
load, that if everybody has to--I mean, if we come up with 
radios, obviously not everybody needs to carry the radio. If 
you were to use sniper technology, not everybody needs to have 
that, et cetera.
    I know you have thought about this, and I don't want to 
belabor the point, and it has been pretty much the thrust of 
everybody's question, but we are concerned, I think 
legitimately so.

                          RECRUITING STANDARDS

    Let me ask a question, though, about the Army fitness 
levels, General Chiarelli, because that is where we read the 
articles. They apply primarily to the Army apparently. We have 
made accommodations for prior, I don't want to say--I guess 
felony records, although I don't think it is so much felony, 
but brushes with the law and so on. We apparently have relaxed 
those standards. We have relaxed some of our educational 
standards we read. But we have too many soldiers who are being 
rejected for reasons of obesity.
    Now, I was asking some of the folks about that, and they 
said, well, one of the problems is not just obesity, but we 
have a cookie-cutter approach. We take the weight and the 
height, and that determines whether somebody is eligible or 
not.
    One of the things that disturbed me, a young man I know who 
is a ballplayer, really well conditioned, he can run a sub-5-
minute mile, but he was rejected because he was too heavy even 
though it was all muscle. Now, that was ROTC, so I don't know 
that that applies to regular standards, but if it does, it 
seems to me we need some flexibility; that the Body Mass Index, 
the conditioning, that needs to really be what we are looking 
at and not just some standard criteria, simplistic criteria 
really. My son is 6-6, he weighs 290 pounds, but he has got a 
33-inch waist. You can't pinch his skin anyplace, but he is 
over your criteria. He would be labeled as obese, and he is 
anything but.
    General Chiarelli, do you have that kind of flexibility in 
determining how we define obesity?
    General Chiarelli. We do. And the regulation uses height 
and weight as a screening tool only. Body fat is the final 
determinant on whether or not we feel that you are obese and do 
not meet Army standards. So anyone who would only use height 
and weight and use that alone to disqualify an individual from 
service, that would not be in keeping with the regulation as I 
last read it, which requires that only as a screening tool. But 
body fat is the final determinant on whether or not you are 
obese.
    Mr. Moran. Well, maybe ROTC has different criteria that are 
not wholly consistent with regular enlistment. But you guys are 
doing a great job. This is not a hearing to be critical, but it 
is an opportunity to register concern. We are asking too much 
of our soldiers when they are having to carry that much heavy 
equipment. It is wrong, it has got to change, we have got to 
figure out a way to lighten their load. Thanks.
    Ms. Kaptur. Thank you, Mr. Moran.
    General Chiarelli. May I apologize and just make a 
qualification?

                          NONDEPLOYABLE STATUS

    Ms. Kaptur. General, please.
    General Chiarelli. On our statement that we have 20,000 
nondeployable soldiers, that is correct on any given day, plus 
or minus. But if I in any way inferred that those are all due 
to musculoskeletal issues, I apologize, because that is not my 
intent. We currently have 10,000 soldiers in warrior transition 
units who are nondeployable who are injured in combat or have 
very complex medical cases. And then we have another 10,000 
soldiers who, for whatever reasons, are nondeployable, and a 
small fraction of those are musculoskeletal issues we are 
seeing coming out of Afghanistan. We just see that as a portion 
that we need to attack to get at this issue of 
nondeployability. But even if we were able to eliminate all of 
those, it would be a small fraction of the 20,000 that we have 
that are nondeployable.
    Mr. Moran. I think our testimony said many of these 20,000, 
so I thank you for that clarification.

                       REDUCING EQUIPMENT WEIGHT

    Ms. Kaptur. Thank you for the clarification.
    Both generals, can we assume that the contractors who 
provide all this equipment are under direction by each of you 
to reduce the weight, that there is ongoing effort, in each 
piece of equipment? Can we assume that or not?
    General Amos. Ma'am, we, the contractor will respond to the 
amount of pressure directly applied to them. And what we do 
when we are, when we are developing a piece of equipment, for 
instance the scalable plate carrier, we sit down, and we will 
work with them when the contractor--we actually particularly go 
out and we will say, okay, this is the requirement, and then we 
will get some bids in and then we will pick the prime 
contractor. And the prime contractor then will have to meet the 
specifications of the contract. So we actually work with them.
    For instance, we have got kind of a warfighting lab, but we 
have got a Marine Expeditionary Rifle Squad Group of folks, 
kinds of a skunks works that deals specifically with making 
sure the stuff we buy is as light as we possibly can get it, 
and it fits well where it is supposed to fit on the body. And 
we try that out on Marines.
    So the answer is, they are. They are not actually just 
turned loose to just give us what they have and we accept it. 
We force the issue on trying to get the very latest amount, 
everything from just shedding pieces of this kind of Kevlar web 
gear to get it down to a weight that we think is the very least 
but yet provides the minimum amount of protection that was 
required. So we do that, ma'am. We don't turn the contractors 
loose on this thing. They actually have to live up to our 
standards.
    Ms. Kaptur. Well, I would hope that in communications with 
them, that, you know, you would reemphasize in written form 
your strong efforts to try to reduce the weight, whether it is 
the material, whether it is metals, whatever it is, I would 
think that that would be a very useful effort.
    General.
    General Chiarelli. We, too, are looking for solutions to 
this, not only in our laboratories but with commercial off-the-
shelf pieces.
    I was given two charts prior to the hearing where we are 
down to, as Sergeant Rowe talked about his knee pads, we are 
looking at a brand new knee pad now that will save 8-ounces 
over the current knee pads that he wears. I have got two pages 
of all those items, from boots to knee pads to compasses to 
sights to flashlights, where we are looking at different ways 
that we can procure equipment, both developed in our labs but 
also commercial off-the-shelf that will lighten that load. And 
we are literally looking at reductions of ounces to try to, in 
the smallest pieces of equipment, to try to get a cumulative 
good for the soldier.
    Ms. Kaptur. Thank you both. That is very encouraging.
    Mr. Kingston.
    Mr. Kingston. Thank you, Madam Chairman.
    General, you mentioned earlier that you were looking at an 
off-the-shelf solution in some of those equipment. What would 
be some of those items that you were talking about?
    General Chiarelli. Boots, sir, knee pads, flashlights, 
angle-head flashlights, assure-fire magazines. You can reduce 
weight quite a bit with magazines. We have found a magazine 
that over the load 8.8 ounces possibility.
    Mr. Kingston. And you are referring to retail purchasing?
    General Chiarelli. Some of this is commercial off-the-shelf 
that is produced.
    Mr. Kingston. And that is a fairly attractive product to 
you then, right?
    General Chiarelli. It is.

                         RAPID EQUIPPING FORCE

    Mr. Kingston. And what kind of procurement problems does 
that create?
    General Chiarelli. We have the Rapid Equipping Force 
established at the beginning of the war that we use extensively 
to go and find those technologies. They have individuals down 
range. And I think, as Sergeant Rowe mentioned, he indicated he 
filled out some surveys. I would bet that some of those surveys 
were from our Rapid Equipping Force, asking soldiers what are 
the pieces of equipment that you would like to see lightened? 
How can we help you out? What do you need that is better?
    And they go to our labs to look for solutions, and many 
times they find them there. They go to the Special Operations 
community. They go cross service to make sure that there is not 
something in another service that we are not aware of. I gave 
you the example of Special Operations and the 240 machine gun. 
That was found by our Rapid Equipping Force. And they look for 
commercial off-the-shelf items to lighten that load.
    Mr. Kingston. If you found a commercial flashlight that was 
better than the one you are using and it was universally 
accepted among the soldiers, how hard is it for you to move 
towards, let's just get rid of the old flashlight and buy this 
new one? How difficult is that to do? How much red tape do you 
encounter?
    General Chiarelli. Today that is something we can do rather 
rapidly with the Rapid Equipping Force.
    Mr. Kingston. So the Rapid Equipping Force, it is working 
fairly well?
    General Chiarelli. Very well.
    Mr. Kingston. Are there any suggestions for changes and 
improvement?
    General Chiarelli. Well, I worry at times that, with the 
loss of supplementals, that we will not have the funds that we 
need sometimes to ensure that they have the money that they 
need. And believe me, they follow all the procurement rules. 
They even have a PEO that oversees what they are doing. But 
they can move rather rapidly through the system. So I worry 
that, at times, unless we look at some procurement reform, 
organizations like our Rapid Equipping Force and the Army 
Asymmetric Warfare Group may have problems doing their job.
    Mr. Kingston. I haven't read your testimony. I have scanned 
bits and pieces of it, but I don't see that in here as you are 
underscoring the importance of that kind of flexibility. Is it 
in here?
    General Chiarelli. I believe it is, sir.
    Mr. Kingston. Okay.
    General Chiarelli. We talk about the REF.
    Mr. Kingston. Okay. Because I think it is very important 
for Members of Congress to know that you do need to have that 
flexibility, because I remember one time General Meigs, when he 
was in charge of the Joint IED Task Force, he said that you 
have got to keep in mind we are competing against every Radio 
Shack product that is out there in the commercial world, and we 
have to stay ahead of them. Only we have to buy through the 
government and sometimes that slows us down. And so I think 
that we need to understand that in order for you to have as 
many choices of products as possible, you have to consider 
these commercial things and have the flexibility to move on 
them.
    General Chiarelli. It is absolutely amazing what this task 
force has been able to do. They are able to fill 60 percent of 
those things that soldiers ask for in less than a year, 60 
percent. And 40 percent, the other 40 percent is under 2 years. 
That is 90 individuals I have in that task force. We purposely 
kept it small. And most of them are forward in the field 
collecting data from soldiers and finding out how we can get 
them the things that they need.
    Mr. Kingston. Well, if there is anything else you want to 
add to your testimony, you certainly can do that for the 
record. What page is it on?
    General Chiarelli. Thank you, sir. I promise you I will 
review my testimony, make sure I have given you a fair 
explanation of REF, and if there is more information I can 
provide, I will provide it and get it to the Committee as soon 
as I can.
    [The information follows:]

    The REF helps address specific capability shortfalls by canvassing 
government, industry, academia, and the scientific community for 
existing or emerging technologies. It provides limited quantities of 
the best available off-the-shelf equipment to the Warfighter as quickly 
as possible.
    Among the many items REF has provided to units in theater are 
remotely-operated cameras that assist with force protection at Forward 
Operating Bases and Combat Operating Posts; IED and other explosive 
material detectors that help our Soldiers defeat IED threats; improved 
ballistic protection for military vehicles that increases 
survivability; and lighter machine guns in Afghanistan that are helping 
to reduce the weight of a Soldier's Load.
    To give you a perspective of recent initiatives coming out of the 
REF: in September 2008, during a visit to a brigade combat team (BCT) 
in Operation Enduring Freedom (OEF), the REF received requests to 
lighten the load of Soldiers operating in extreme elevations greater 
than 6,000 feet. REF formed an Integrated Product Team (IPT) in October 
2008 with Program Executive Office (PEO) Soldier, the Asymmetric 
Warfare Group (AWG), Army Test and Evaluation Command (ATEC), and the 
Army Infantry Center to develop solutions. Within 47 days, the IPT 
identified, coordinated, and obtained from U.S. Special Operations 
Command 104 lightweight machine guns and delivered the weapons to the 
requesting BCT in OEF with user training provided by Crane Naval 
Surface Center and the AWG. These weapons decreased the Soldier's load 
by up to 9 pounds. Concurrent to this effort, an AWG field team helped 
the BCT craft an Operational Needs Statements (ONS) focusing on lighter 
body armor.
    Simultaneously, AWG developed a formal assessment plan in 
partnership with Johns Hopkins University to prove or disprove the 
hypothesis that weight impacts on a Soldier's performance with regard 
to suitability, survivability, lethality, and maneuverability. The 
assessment takes a holistic look at the Soldier as a system and focuses 
on the implications and effects of lightening the Soldier's load, 
rather than assessing individual pieces of equipment.
    When REF received the approved ONS from the warfighting commander, 
the organization coordinated with PEO Soldier and the Army Staff; and, 
REF is now working with AWG and the IPT to provide a BCT in OEF with 
lightweight body armor and 14 additional pieces of equipment. These 
items, combined with the lightweight machine guns and lightweight body 
armor, have the potential to decrease a Soldier's load further by 14 to 
23 pounds. Once completely employed, this equipment will be assessed in 
OEF by AWG, ATEC, and BCT personnel and the results--good or bad--will 
inform future REF equipping actions and Army fielding decisions.

    Mr. Kingston. Okay. Thank you, General.
    Thank you.
    Ms. Kaptur. Thank you very much.
    Mr. Rothman.
    Mr. Rothman. Thank you, Madam Chairman.
    Generals, thank you for your service. I have lots of 
questions. Just to put some of this in context, is there a 
better equipped fighting force in the world than ours?
    General Amos. Sir, that is absolutely a resounding no. 
There is not.
    General Chiarelli. Totally agree.
    Mr. Rothman. Next. Just to put this in context, additional 
context, it is really critical, General Chiarelli, for us to 
receive that percentage of nondeployed units who are there 
because of these kind of stress and ergonomic injuries, so if 
we could get that for the record, that is critical, because we 
are here. And listen, we are all parents or concerned people 
who care about our kids and grandkids and certainly our 
soldiers and Marines and everyone fighting for us. We don't 
want them to carry any more than they need to do their mission 
and survive. But the balance is between flexibility of force, 
survivability, and mission accomplished. So how badly are our 
forces suffering, so to speak, because of this great burden of 
equipment? And how is it being manifested, either in, or 
rather, reflected in failure of mission, compromise of mission, 
and nondeployed units?
    So we have to know what we are giving up because, 
obviously, if we have a finite sum in our budget, should we be 
pouring it all into a cheaper, lighter rucksack or some other 
training, pay, benefits, whatever other need we have to 
address. So if we can get that for the record, sir, that would 
be great. Unless you have a better answer than you just gave 
Mr. Moran.
    General Chiarelli. I don't believe I do. And I don't 
believe at this time I am going to be able to provide you the 
level of precision you want in trying to determine that. I was 
briefed last night about work being done by the University of 
Pittsburgh with the 101st where Sergeant Rowe will go. It is 
work like that that is going to get us to that finite number, 
and I promise that as soon as it is available, I will give it 
to the Committee. Everything I have now is anecdotal.
    [The information follows:]

    Currently, there is no scientific evidence to support a cause and 
effect relationship between the musculoskeletal injuries being incurred 
in Theater and load carriage. Clinical presumption and anecdote are 
driving current discussions. In pursuit of reliable data we have begun 
to submit protocol proposals to the newly established CENTCOM 
Institutional Review Board (IRB) for approval to deploy US Army 
Institute of Environmental Medicine (USARIEM) investigators to both 
Theaters. There has been some data collected on types of 
musculoskeletal injuries and conditions in-Theater. Investigators in 
one study showed that of the 48% of Soldiers who wore Individual Body 
Armor for 4 hours or more, 70% had neck and back pain. Another study 
queried Soldiers deployed in 2003 and 2004. The back was the most 
common site of injury (32% low back, 9% mid back and 6% neck). In 
addition, 68% of medical evacuations to pain management centers from 
Iraq were for spine pain. From Jul 04 to Oct 08, low back, mid/upper 
back, and neck pain were the chief complaints of Soldiers seeking care 
from physical therapists (Combat Support Hospital: 22%, 7%, and 5%, 
respectively, and Brigade Combat Teams (BCTs) 23%, 8%, and 6%, 
respectively). Still, other data from a physical therapist assigned to 
a BCT reveals the following breakdown of musculoskeletal injuries: 22-
25% low back, 6-10% mid back, 4-10% neck, 19-22% shoulder, and 25-44% 
lower extremity. It is imperative that future research studies focus on 
the prevalence of injuries that can be attributed to the weight of the 
load that our service men and women must carry. If there is a direct 
cause and effect link, then specific factors must be studied (i.e., the 
amount of weight, gender, and the duration and frequency of load 
carries).

    Mr. Rothman. Thank you, Generals.
    I apologize. I am trying to get through as many questions 
as I can. How big a problem is this for your forces, for you, 
as commanders, in terms of your strategic objectives or the 
mission objectives for you? Has it compromised your ability to 
get your jobs done in the respective theaters, for example, 
Iraq and Afghanistan.
    General Amos. Sir, it hasn't within the Marine Corps. I 
will just speak for my community. It has not. And again, go 
back to how we began here with the recognition by both services 
that we need the scalable, you know, the opportunity to do the 
scalable body armor. And if you remember kind of where we began 
several years ago with a lot of casualties in 2005, heavy 
casualties, a lot of public interest generated, rightfully so, 
by parents and by Members of Congress and by Marines. We began 
looking for ways where we can provide that ultimate protection.

                               BATTERIES

    Mr. Rothman. So you feel we have made tremendous progress, 
the survivability of injuries on the battlefield and less 
injuries than before, given the activity every single day and 
exposure of our forces to harm. We have done extraordinarily 
well.
    One other fast question. Batteries. What does the average 
soldier or Marine carry in terms of batteries?
    I will tell you why we are asking. We are working with 
different folks in R&D about battery technology to lighten the 
weight of batteries. Would that make a significant dent in the 
weight that a Marine or soldier would carry?
    General Chiarelli. Yes, it would. And we are already seeing 
great advances in battery technology that is pushing that 
weight down. If you talk about our ground soldier ensemble, 
that we have been able to drop the weight of it by a pound and 
a half in newer models because of batteries, improvement in 
battery technologies. We now have batteries that are scaled for 
the mission. Short mission, smaller battery, lighter battery. 
Longer mission, larger battery, more power for a longer period 
of time so battery technology is something that is definitely 
working to lighten the load.
    Mr. Rothman. And finally, your request in the 2010 budget 
will incorporate what you believe is the dollar figure 
necessary to, in the context of all your needs, address this 
issue to the extent that you feel is appropriate? Or are you 
going to be underfunded in this 2010 budget in this area?
    General Amos. Sir, it is yet to be seen because we haven't 
seen what has been approved by the Department of Defense, and 
you know that. So not only can we not comment, I really don't 
know what that is. But I will tell you that, from the Marine 
Corps side of the house, the research and development dollars, 
which are mostly paid for out of supplementals right now, but 
we have put 3 percent, we have increased our R&D money in the 
budget by 3 percent. It doesn't sound like a lot, but it is a 
significant amount of money in the baseline.
    But the R&D piece of this thing is yes, the answer is yes. 
And as long as we get that, then we will be able to continue 
because this is science and technology stuff. This is DARPA 
working on lightening the batteries and all the things that we 
have been talking about today. This is stuff that costs money 
to experiment with. So the answer is yes from the Marine Corps 
side.
    Mr. Rothman. R&D. Very important. Thank you, Generals.
    Thank you, Madam Chairman.
    Ms. Kaptur. Thank you, Mr. Rothman.
    The Committee has just been great this morning. It has been 
a very easy job. Very respectful of one another.

                                INJURIES

    Ms. Granger. Thank you. I have to follow up on Mr. Rothman 
because what we are talking about is balance, how do we balance 
protection of our troops, effectiveness, all of that. And you 
are looking at equipment and redistribution. But we also have a 
responsibility to our troops that it is one decision you will 
make when you are in the field and you are there in the action 
and you are 27 years old.
    The other thing, responsibility, we have talked on this 
subcommittee so long, is what our responsibility is to those 
troops for their lifetime for the service they gave. So maybe 
because I took two pain pills when we are sitting here for my 
back, that may be the reason that I focus on this. But I know 
that this weight literally can contribute to a lifetime of 
difficulties and pain. So we have to keep that in account also, 
too. It is our responsibility for all of you who serve and to 
do the best we can for you now and for the rest of your lives. 
So this is a very important issue. And I think we should be 
looking at everything.
    I happen to know at the University of North Texas Health 
Science Center, which is in my district, it has been a lot of, 
given a lot of attention to that. And part of it can be some 
treatment in the field by medics to give some relief, as well 
as the training that you are talking about and nutrition. So I 
think we really need to focus on through this all the time, 
whatever science we need, research, give you the right 
equipment at the lowest weight, but keep that responsibility in 
mind of when you leave the service or you retire that we have 
left you in the best physical shape we can.
    General Amos. Ma'am, if I could comment on that. There is 
recognition that if you go back to boot camp in the Marine 
Corps 15 years ago, we issued recruits flat-bottom sneakers, 
Converse sneakers. And then we went out, and we couldn't 
understand why they twisted their ankles and why they had flat 
feet and why we had all these shin splints. So now we brought 
in athletic trainers, and we actually have them at all our 
recruit depots. We have them at our entry level training, like 
Schools of Infantry (SOI), and we have athletic trainers now 
out in the fleet at the major headquarters to help us 
understand how you better condition Marines and what kind of 
equipment we can get for them that would help prevent the kinds 
of injuries that we saw 15 years ago.
    We actually have, on the onset of injuries at some of our 
entry level training, that recruit gets whisked off, finds 
himself or herself in front of a bona fide athletic trainer 
doing rehabilitation kind of exercises, so there is a 
recognition of just exactly what you are talking about, that we 
need to bring that piece of it in here. It is not just 
equipment lightening; it is the whole thing. It is the balance 
on your body and then how you condition your body.
    General Chiarelli. If I might add, we, in Afghanistan, are 
assigning physical therapists down to the brigade and battalion 
level so that we have that doctor down there that is able to 
work that injury, should that injury occur and be a 
musculoskeletal. I think your comments were so correct.
    I would also argue that when I was 19 years old, I felt I 
was a lot more bulletproof than my parents felt that I was. And 
I would do probably some things that, in my older age, I 
question why I did that.
    I think we always have to remember that when we are 
shedding protection, that at 19, you probably feel that I can 
outrun that bullet, whereas someone with a little more 
experience, a little more time in combat, realizes that that is 
not something you can always do. So I think it is important to 
give our leaders the ability to make that important call.
    Ms. Granger. Thank you very much.
    Ms. Kaptur. Mr. Bishop.

                           WEIGHT OF WEAPONS

    Mr. Bishop. Thank you very much.
    And again, welcome gentlemen. Again, this is a very, very, 
very pertinent subject area, and this Committee is very 
concerned about it. One of the things that we have been doing 
over the last 3 or 4 years with regard to equipment weight, we 
funded research on new weapon systems to reduce the load. And 
one of the requirements was that the weapon and ammunition be 
reduced for the very reasons that we are here today. The XM-8 
was a weapon system that has been looked at by the Army, and of 
course, it has been tested in part at Picatinny. But the key 
was reducing the weight of the ammunition, using the polymer, 
as opposed to brass casings, and that preliminary research 
indicated it would reduce the weight by two-thirds. The average 
weight would go from 15 pounds to 5 pounds for the ammunition 
and the weapon, which was seen to be an improvement, but 
somehow that was moved from the Army to the Joint Committee for 
study for use across the services, and somehow that has bogged 
down. But that certainly goes to emphasize what we are talking 
about here.
    The other thing is, I have not heard anybody mention Kevlar 
for the body armor, which, around the beginning of the 
deployments to Iraq, parents were going to sporting goods 
stores or various places and mailing Kevlar vests to their 
children over there, which spurred this committee to try to 
accelerate the acquisition and the procurement of the body 
armor. Kevlar, I was told, and I am not an expert on it, is a 
lot lighter and would give more flexibility. And if you could 
comment on that, that would be fine.
    But the other thing I want to touch upon, which I think is 
extremely important today is I am told by staff that the 
military is not making informed decisions for improving the 
tactical combat casualty care or the body armor because you are 
not collecting sufficient data. We are told that 67 percent of 
the wounded are returned to duty in theater, and many of them 
are not treated in a hospital, and as a result, we have almost 
no information on what medical care was provided at the point 
of the injury. And the Secretary of Defense's Committee on 
Tactical Combat Casualty Care says that less than 1 percent of 
all wounded has complete documentation.
    It seems that without a systematic data collection and 
analysis, far forward medical care can't improve, and we also 
can't learn about the effectiveness or ineffectiveness of the 
body armor that protects our troops. Is there a way that you 
can get data at the level of the first responders, rather than 
trying to collect it at the surgical center, at the medical 
center, at some point later, so you know where it was that the 
body was penetrated, what kind of body armor was worn, was it 
was properly positioned, and all of those kinds of things, so 
that the changes that we make at this committee that we fund 
that you ask us for are not based on anecdotal information but 
on systematically collected and studied data?
    General Chiarelli. Well, as far as the current plates that 
we use, our SAPI plates, I am confident that they are the 
finest piece of equipment available today. We have made 
movement forward in Kevlar, and both General Amos and, Marines 
and the Army are looking at a new helmet, Kevlar helmet that 
will provide additional protection.
    When it comes to providing care forward on the battlefield, 
after spending 2 years in Iraq, I can tell you that I feel that 
one of the things that has led to the high survivability rate 
of our soldiers is our combat lifesaver program where your 
buddy is trained in emergency medicine and can immediately 
render aid. I don't know of anyone who has a penetrating wound 
that would not be transferred where the kind of data that you 
are talking about, sir, could be collected. I mean, any kind of 
a penetrating wound, you are going to get immediate aid by a 
combat lifesaver, and then you are going to be moved to that 
location. But I am sure there are things that we could do to 
better collect that data when it comes to our ability to 
electronically provide it. But I will have to take a look and 
see exactly what we are doing.

                            STRESS INJURIES

    Mr. Bishop. The stress fractures, the orthopedic type 
injuries that result from the load carrying, or the load 
shifting, which generally are not documented, according to the 
Secretary of Defense's Tactical Committee, don't get any 
documentation, less than 1 percent, which means that we really 
don't have data. We know that there are some injuries from 
these loads, but we don't have real documentation of it.
    General Chiarelli. That is why I am excited about what the 
University of Pittsburgh is doing for. They are in, I believe, 
the second year of a long term study to collect just that kind 
of data. Both before the rotation, and once the soldier 
returns, and providing the soldier the tools he needs to work 
on his physical strength while he is deployed.

                            DEPLOYMENT TIMES

    Mr. Bishop. If the Chairwoman will allow me to ask one more 
question, I will be grateful. It has to do with the deployment 
times. For the Army, it is 12 to 15 months, and the Marines it 
is 7 months. Someone carrying 100 pounds in 110-degree weather 
would wear down the body much more with the extended 
deployments than with, for example, with the Marines, the 
shorter deployments. And of course, the better dwell time would 
give the body a much better time to recuperate. Is that also a 
contributing factor to the injuries that we are talking about 
with the load carrying, the fact that they have extended 
deployments?
    General Chiarelli. There is no doubt in my mind. I think 
you have stated that absolutely correct. It is both a function 
of dwell time and the opportunity to recover from the injuries. 
But it is also a function, I think, why we are seeing more 
effect of this than the Marines are because of 12- to 15-month 
deployments.
    Mr. Bishop. And nutrition.
    General Chiarelli. And nutrition.
    [The information follows:]

    Documentation of medical care by first responders at the Point-of-
Injury (POI) is problematic. Not all first responders are medics who 
are trained to document medical care. Every squad, platoon, and company 
has Soldiers who are trained as combat lifesavers who may be the first 
responder rendering emergency life-saving first aid. In a September 
2007 report, the Committee on Tactical Combat Casualty Care (CoTCCC), 
Sub-committee on First Responders, examined this issue. Of over 30,000 
Wounded-in-Action reviewed in the report, less than 10% of records had 
pre-hospital documentation and in only 1% of cases was the information 
available found to be adequate. This lack of information flow from POI 
does not meet the CoTCCC standard which states that critical data 
elements of health care information must be reliably communicated along 
the evacuation chain to ensure optimal care. Also, reliable first 
responder information is critical to inform improvements to 
tourniquets, hemostatic dressings, needle length for decompression of 
tension pneumothorax and airway management, as several examples.
    The Office of the Army Surgeon General, in conjunction with the 
Army Medical Department Center and School, is piloting a prototype 
First Responder Card for use in the Improved First Aid Kits. A minimum 
set of documentation must be recorded and transferred up the evacuation 
chain as a standard of care. Working with the US Army Medical Materiel 
Agency, our goal is to build an easy to use, easy to train, rugged, low 
cost paper-based tool for first responders, combat lifesavers, and 
combat medics. We will train Soldiers to ensure that this does not 
detract from the focus of applying the immediate emergent medical care 
that can save a Soldier's life. Upon arrival to higher levels of care, 
this information must be subsequently captured in AHLTA-T, the theater 
electronic medical record. Handheld devices such as the Battlefield 
Medical Information System Tactical--Joint are useful for acute care 
(e.g. sick call) documentation, but impractical for documenting care at 
the POI. It is not reliable as a consistent, DoD-wide method to capture 
combat casualty care.
    There is some aid station combat casualty care data available, but 
it is sparse. The Combat Theater Registry (Navy, San Diego) does 
capture aid station (Level 1) data which is integrated with the Joint 
Theater Trauma Registry, which also captures a minimal amount of Level 
1 data. An improvement in capturing Level 1 data is critical to fully 
inform improvements to first responder devices and lifesaving 
interventions.
    The data that we currently receive from Level 1, but predominantly 
from higher levels, have been put to use in developing improved 
materiel solutions and tactics. The DoD Medical Research Program for 
the Prevention, Mitigation and Treatment of Blast Injuries was 
established in July 2006 and since its inception, has made significant 
improvements in the way we protect our warfighters from blast-related 
injuries, in the way we treat injured warfighters, and in the way we 
rehabilitate injured warfighters for return to duty or to healthy 
civilian life. Among many noteworthy contributions was the 
establishment of the Joint Trauma Analysis and Prevention of Injury in 
Combat (JTAPIC) Program.
    The JTAPIC Program links the DoD medical, intelligence, operational 
and materiel development communities with a common goal: to collect, 
integrate, and analyze injury and operational data in order to improve 
the understanding of our vulnerabilities to threats and enable the 
development of improved tactics, techniques, and procedures and 
materiel solutions that will prevent/mitigate traumatic injuries.
    The JTAPIC program is a multi-lateral and multi-community 
partnership sharing and analyzing data in order to provide actionable 
information to improve Warfighter survivability. Partners include the 
Army National Ground Intelligence Center; Office of the Armed Forces 
Medical Examiner; PM-Soldier; Army Research Lab; Army Aeromedical 
Research Lab; Army Institute of Surgical Research; Army Infantry 
Center, Naval Health Research Center; and Marine Corps Systems Command.
    JTAPIC has made a significant difference in the way we protect our 
Warfighters from combat injuries by:
    <bullet> Providing actionable information to combat vehicle program 
managers leading to modifications and/or upgrades to vehicle equipment 
and protection systems, (seat design, blast mitigating armor, and fire 
suppression systems).
    <bullet> Establishing a near-real time process for collecting and 
analyzing combat incident data that confirmed the presence of threat 
weapons of interest
    <bullet> Analyzing combat incident data to identify vulnerabilities 
in operational procedures, and rapidly conveyed those vulnerabilities 
to commanders in theater
    <bullet> Assisting PEO-Soldier in establishing a process for 
collecting and analyzing damaged personal protective equipment (PPE), 
such as body armor and combat helmets, to provide PPE developers with 
the information they need to develop enhanced protection systems.
    The JTAPIC Program received the 2008 Department of the Army 
Research and Development Laboratory of the Year Award for Collaboration 
Team of the Year in recognition of these accomplishments.

    Ms. Kaptur. Thank you.
    Ms. Kilpatrick.

                         PREPARATION FOR COMBAT

    Ms. Kilpatrick. Thank you, Madam Chair.
    Generals, it is good to be with you this morning. The best 
part of our military are the men and women, soldiers, sailors, 
Marines and Air Force, who commit their lives every day to 
defending our country. I served on the Air Force Academy board 
for about 4 years, and visiting Colorado and watching them and 
hearing them, and now having gone to see some Marines and Navy 
and also Army, it is the troops who really defend us. And they 
are so young. And as a grandmother, I am just always moved by 
their dedication.
    The two sergeants, both having been deployed to Iraq, and 
one, if not both, on their way to Afghanistan, lessening the 
load is paramount. And I know there is only two or three ways 
to do it. Either you reduce the area that is covered, or you 
develop technological kinds of things you are both working on. 
And the testimony you provided this morning has been very 
helpful. Or you transport by some other means, unmanned vehicle 
or others, some of the equipment so that they have it when they 
need it. I like the fact that you said air dropping. And 
sometimes when you air drop some of it disintegrates or goes 
somewhere, so you don't have to worry about it. And they still 
have what they need to defend themselves, as well as their 
brigades and the like.
    I am real concerned. I love what you said, too: We value 
life more than many of our enemies. And because of that, and I 
heard a little squabble over here when one of my colleagues 
asked, does our--I am saying enemy; you all might call them 
somebody else--take care of their soldiers and Marines like we 
do in terms of their body armor. And the answer was no. They 
sometimes just have a weapon or two, so they are lighter, and 
they can move around. You also mentioned they are skillful 
enough where they know our body armor, so they try to shoot 
where they know it is not. I don't know how you defend against 
that. And the technology you discussed about it.
    Their fitness. One thing I have found on my travels is the 
men are small, men and women. And having just come from 
Chairman Norm Dicks' district and having been on an aircraft 
carrier as well as a couple of submarines, going up and down 
the steps and all of that, it is very important, in combat as 
well as they do their fitness training. And you have talked 
about that this morning, that they be prepared for what is 
before them.
    Iraq is one war, and I thank God I have always been an 
opponent and looking forward to the drawing down of some of our 
troops there. But some of those same troops are now on their 
way to Afghanistan. Different terrain. Different war. I come 
from Michigan, where 25 different sets of Arabs have been 
living with us all our lives. Friendly, all of that, in 
Michigan. So when we go to another country with a different 
kind of social values, religious beliefs and all of that, we 
are really, in addition to fighting the physical war, we are 
also fighting culture, religion and all of that. So we come to 
a situation where the soldiers and Marines and sailors and all 
are in a difficult situation.
    I am very concerned about Afghanistan, very concerned. All 
my Arab friends say it is a different kind of people there, 
even than Iraq. The two sergeants, both sergeants, yes, have 
dedicated their lives, have come back healthy. They are now 
about to be deployed somewhere else. Is lessening the load as 
paramount as the Stryker Brigades or the other brigades that 
they have to fight with, the comprehensive coordination of the 
various military services?
    You know, in this Committee, and chairman--all our chairmen 
really in our Committee, the men and women come first. And 
whatever they need, I don't care what OMB says, you have to let 
us know that. And I am not real sure that enough of that is 
being done, number one. Are we ready for Afghanistan as we 
uptroop there and diminish the numbers in Iraq?
    Generals, are our men and women prepared? Would you say 
that yes, we have done all we can as this committee and their 
supervisors and commanders, that they are ready to fight this 
war? I know that was a lot.
    General Amos. Ma'am, give me the opportunity to answer 
first here. A resounding yes. I appeared before this 
subcommittee last year several times as the head of 
requirements for the Marine Corps. And as Pete and I began our 
verbal statement this morning, we began with a thank you. And 
the honest to goodness truth is, thank you, because I can't 
think of one thing, and I am not making this up, I can't think 
of one thing that the Marine Corps said, hey, we really need, 
that this Committee said, I am sorry, we can't afford it. That 
has not happened one time. So the answer to that is, you have 
given us everything we need. We anticipate that that will 
continue as we go into the fiscal year 2010 and we get the FYDP 
bill for POM 10. So I am optimistic about that.
    The training piece is pretty amazing because you take, I 
will give you an example of a young battalion, Second 
Battalion, Seventh Marines. Excuse me, Third Battalion, Seventh 
Marines, right in the middle of Ramadier, in heavy kinetics. 
And things changed instantly. Almost within about 2 weeks, that 
battalion, who had gone out and losing Marines, they had lost a 
bunch of Marines. All of a sudden the Sunni awakening finally 
came from east, excuse me, west to east and hit Ramadi. And 
when that happened the, Sheikhs in Ramadi began to change. And 
so here are 19- and 18-year-old men that lost their best friend 
2 weeks ago, that are now being asked to change their mind set. 
It is like reprogramming a new Windows application in their 
brain going, hey, listen, we have to treat these people 
differently. We have to approach them completely differently. 
And they did it. They were able to change. So that is, first of 
all, that is a testimony to the kind of young men and women we 
have.
    And the second piece of it is that, which gets to your 
question, is the training that they get before they go, in both 
our services, I promise you that it is focused, it is 
absolutely drilled into culture, language. It is not just 
kinetics. It is not just, how bad can we be? In many cases, it 
is, how good can we be? So the training is very specific. We 
are putting in 8,000 Marines right now into Afghanistan over 
the next 90 days. Every one of those Marines have gone through 
about 3 or 4 months of extensive training to prepare them for 
the culture, the physical fitness part of this thing, the 
language and their mission. So that is the Marine Corps.
    First of all, you have done a remarkable job taking care of 
us. Second of all, your Marines, your young men and women are 
prepared.
    Ms. Kilpatrick. Thank you, General.
    General Chiarelli. I can't add anything to that. All I can 
say is thank you, thank you for everything the Committee has 
done. You have given us everything we need and I know of no 
time that there has been something that you have told us no, I 
am sorry we can't do. And for that, we are grateful. And I know 
I speak for the 1.1 million soldiers and their families in 
thanking you for all that you have done and will continue to 
do.
    Ms. Kilpatrick. It is important, the data. I was going to 
say something about the data. And I see Congressman Bishop did 
that. Very important. It has got to be scientific as we go 
forward, whatever we need to lighten the load and to win the 
war and to bring all of our soldiers and sailors and all of 
that home. Thank you for your service.
    Ms. Kaptur. Thank you very much.
    Mr. Dicks.

                             NONDEPLOYABLES

    Mr. Dicks. General Chiarelli and General Amos, sorry I 
wasn't here, but we had to have a hearing with the Forest 
Service this morning before my other committee. But I want to 
thank you both for your good work and your efforts to help our 
troops.
    Let me ask you something. You know, we now say we have 
20,000 who are nondeployable. What happens to those 
nondeployables? What do they do?
    General Chiarelli. 10,000, or just under 10,000, 
Congressman, are currently in our Warrior Transition Units, and 
they are on a regimen of care that will either see them leaving 
the service or possibly returning back to their units. That 
number has dropped from a high of 13,000 in July down to now 
less than 10,000, somewhere in the vicinity of 9,700 or 9,800. 
The other 10,000 that I speak of are normally left in units. 
They have injuries that are not as severe, that do not require 
that they be seen in a WTU, and they remain with the rear and 
heal, making their medical appointments and hopefully, before 
too long, returning to their unit.
    Mr. Dicks. It would seem, you know, that some of these 
people would be, as you have suggested, be able to do other, 
have other roles in logistics or support or whatever. And I 
take it that is what you are doing.
    General Chiarelli. That is exactly what we are doing. That 
is why they are not all in a WTU. If you are in a Warrior 
Transition Unit, your number one goal is to get better and make 
a determination whether or not you are going to remain with the 
service because that is what you and your family want to do or 
whether you have made a decision to leave the service. Those 
that are left with their units, the rear detachments in their 
units, they are doing other tasks in that rear detachment and 
getting better.
    Mr. Dicks. Every time I go out there at Madigan to see the 
Warrior Transition Unit at Fort Lewis, all these troops want to 
do is get back to their unit. So I don't detect that this is, 
you know, that anybody is taking, maybe there are a few, but 
the vast majority want to get well and return to service. I 
mean, I take it that is how you view this as well.
    General Chiarelli. That is exactly right. I can't state 
that any better.

                           EXTENSION BONUSES

    Mr. Dicks. General Amos, what about the Marines? What are 
you doing with your nondeployables?
    General Amos. We don't have, because our deployment 
schedule is a little bit--nondeployables make up Marines that 
are fixing to, at the end of their service, some are wounded 
and they are attached to our Wounded Warrior Battalions. Our 
numbers are significantly smaller. Those that are in our 
Wounded Warrior Battalions are just exactly like General 
Chiarelli talked about. Their primary focus on life is to get 
well, and we work with them and care for them. That number is 
reasonably small. But because of the 7-month deployments, what 
this allows us to do to those Marines that would normally be 
towards their end of service and maybe not deployable for a 
lengthy deployment, the 7 months allow us actually some more 
flexibility and allows us to harvest out and get those Marines 
and put them in.
    We have also offered bonuses for Marines that will stay and 
extend. In other words, if you have only got 5 months left on 
your contract, and instead of becoming a non deployable, if you 
want to stay with your unit, which is exactly what most 
soldiers and most Marines want to do, they want to deploy. They 
may not want to re-enlist, but for a small amount of money, we 
can afford them the opportunity to stay and complete that 
deployment. So we are trying to be creative to keep a lot of 
those. There is a portion of them, now, that we actually put in 
the training pipeline. In other words, they are back at Lejeune 
and Pendleton and out at 29 Palms, and because of their combat 
experience they have become role players, they become mentors, 
they become trainers for the Marines for the units that are 
actually going through. So there is nobody sitting around 
lamenting the fact that--we are actually using them.

                              LAND WARRIOR

    Mr. Dicks. Okay. I have another quick question for General 
Chiarelli. Tell us about the land warrior equipment. When I was 
out at Fort Lewis, they told me that this was, that they had I 
guess it was one of the Stryker Brigades had used it, and 
everybody thought it was a huge success. Tell us about this. 
What is this, I guess as I understand it is technology that 
enhances communications and situational awareness.
    General Chiarelli. It is an amazing piece of kit. And I 
think it is going to be revolutionary. And I think that the 
Stryker Brigade, the first one that used it came back and 
indicated that they were much more effective in this kind of 
fight that we are in. I will tell you that, for this Committee, 
that that first piece of kit that we issued and what it does do 
is it provides situational awareness and allows you to provide 
down to that soldier level through an eyepiece that he looks 
into, where all his buddies are and anybody else who is 
approaching his position that is using this kind of gear. So it 
gives him unbelievable situational awareness and ability to 
pass down information. It comes at a total weight of 10 pounds. 
We have improved that through battery technology down to 8.5 
pounds. And we are coming out with a new system called ground 
soldier ensemble which will get even lighter. But this is one 
of those instances where we have added to the soldiers weight 
but the soldier is more than happy to carry it because of the 
extra capability it gives them in the fight.
    And I agree with you, it was the soldiers at Fort Lewis who 
used the very first models of this who came back and said, this 
is something we just have to have.
    Mr. Dicks. And what about, how will this play out in 
Afghanistan? Is this something that we are going to need in 
Afghanistan?
    General Chiarelli. We will have it in Afghanistan with one 
of the units we are sending over now, Congressman, from Fort 
Lewis.
    Mr. Dicks. Yeah. Five Two.
    General Chiarelli. Five Two will go over with it and we are 
very, very excited about collecting the data to see how 
effective it is in that kind of environment.
    General Chiarelli. Thank you.
    Ms. Kaptur. Thank you very much. I have to say in listening 
this morning, certainly thinking about Afghanistan, the 
relationship between weight and endurance in a mountainous 
terrain concerns this Member. And I know we have talked a lot 
about alternatives to carrying all that weight and not knowing 
all of the encounters that our soldiers will have. Some of the 
information in the record here about, or in the testimony 
relating to upper body endurance decreasing 60 percent for 
periods during which that soldier has to walk 10 to 15 miles is 
a pretty stark figure. And I know the generals are more aware 
than anyone what this actually means.
    Congresswoman Granger talked about back injuries, and for 
the individual body armor, it states here in the testimony, 
actually of General Chiarelli, that 48 percent of the soldiers 
who wore that for 4 hours or more, 70 percent had neck and back 
pain, and that from the years 2004 to 2008, low back, mid upper 
back neck pain were the chief complaints of soldiers seeking 
care, and that injury is likely to be greater in Afghanistan, 
given the higher elevations and steep rugged terrain. So I am 
asking myself here, you know, you generals have really 
incredible responsibility here to try to provide our soldiers 
with the greatest ability for success in their mission with 
this incredible weight.
    I mean, it is unbelievable what they are doing. But this is 
just a huge burden and we worry about, I worry about 
maneuverability. I worry about endurance. I mean, each of us 
have been at places in our lives where you knew you were at the 
edge of your endurance, and that is not a very good feeling. 
And so I just wish you well in your efforts. And this committee 
stands ready to support you in any way that we can.
    I was going to ask Mr. Young if he had any concluding 
comments at this point.
    Mr. Young. Madam Chairman, I want to thank General 
Chiarelli and General Amos for being here today and for working 
so hard on this issue. But I especially want to thank the two 
sergeants who came in carrying their heavy load to demonstrate 
for the members of the Committee just exactly what it is we are 
talking about. We can talk about it a lot. But we understand it 
a lot better when we really see it. So thank you very much for 
inviting the two sergeants in.
    And Madam Chairman, it has been a good hearing and thank 
you very much.
    Ms. Kaptur. Thank you. Thank you very much, Mr. Young.
    And we would like to thank, again, General Chiarelli and 
General Amos formally this morning for your appearance. For the 
sergeants who so ably represented your services, thank you. 
Thank you for your commitment to our country. For all those who 
have attended, and I want to thank the subcommittee this 
morning. You have been fantastic. Thank you very much.
    The Committee will adjourn until 1:30 this afternoon, 
Wednesday, March 11. At that time the Committee will hold a 
hearing in closed session on the readiness of the Army and the 
Marine Corps.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                 Combat Loads Contributing to Injuries

    Question. In a February 1st, 2009 article in the Washington Post, 
the Marine Corps Commandant General James Conway is quoted as saying 
``We are going to have to lighten our load.'' In the same article, 
General Chiarelli, referring to the fact that injuries are forcing more 
soldiers to stay at home, making it very hard for the Army to fill 
units for upcoming deployments to Afghanistan and Iraq, you are quoted 
saying ``There is no doubt that [in] our non-deployable rates, we're 
seeing an increase. I don't want to see it grow anymore.'' General 
Chiarelli, you indicated that the number of total non-deployables, for 
the Army, has risen by an estimated 2,000 to 3,000 since 2006, putting 
the current number of non-deployables at about 20,000.
    Just how much total weight are our Soldiers and Marines asked to 
carry on foot patrol including body armor, food, water, weapon, 
ammunition, and communications gear?
    Army Answer. Today, the average Soldier load consists of a 
rucksack, weapon, ammunition, helmet, and other gear; the total weight 
can range from 63 to 130+ pounds depending on the variables of mission 
type, duration, and environment. On patrols in Afghanistan, the 
Soldier's load is approximately 125 pounds. In addition, the individual 
components of Individual Body Armor (IBA) worn by Soldiers ranges from 
2.5 pounds (side plate carriers) to 9.6 pounds (outer tactical vest) to 
10.5 pounds (front and back Enhanced-Small Arms Protective Inserts 
(ESAPI) ballistic plate inserts); the total weight for a full set of 
IBA range in weight from 26 pounds to over 41 pounds. These extra 
pieces not only add more weight, but the cumbersome gear often hinders 
Soldier movement.
    Marine Corps Answer. Marines carry equipment based on their billet, 
mission, environment, and enemy threat. The Marines and sailors load is 
composed mainly of equipment that is basic to all billets and then 
unique equipment associated with the specific billets and missions. The 
basic equipment is usually in the 75-90 pound range depending upon the 
individual Marine's size. However, additional equipment and ammunition 
is usually required based on the task organization requirements and 
duration of the missions.
    A survey was conducted with 2nd Battalion 7th Marines deployed to 
Afghanistan from April 2008 to November 2008. This post deployment 
survey was conducted in January 2009. The battalion did not have any 
trends of weight related injuries.
    Enclosure/Table 1 graphically illustrates the weight carried by 
each Marine by billet and the variance in weight by billet.

[GRAPHIC] [TIFF OMITTED] T6260A.055

[GRAPHIC] [TIFF OMITTED] T6260A.056

    Infantry equipment can be consolidated into six basic categories: 
personal protective equipment, weapons, ammunition, optics and sensors, 
and sustainment miscellaneous equipment (i.e., water). Enclosure/Table 
2 illustrates the weight per individual broken out into the six 
categories.
    The load a Marine or sailor carries varies, but this data set 
represents the range of loads that are actually carried by Marines and 
sailors in Afghanistan.
    Question. General Amos and General Chiarelli, what is the 
prevalence of injuries that can be attributed to the weight of the load 
that our Marines and Soldiers must carry?
    Army Answer. Currently, there is no scientific evidence to support 
a causal relationship between Soldier load and the musculoskeletal 
injuries being incurred in theater. Clinical presumption and anecdotes 
are driving current discussions. In pursuit of reliable data we have 
begun to submit protocol proposals to the newly (2009) established 
CENTCOM Institutional Review Board (IRB) for approval to deploy US Army 
Institute of Environmental Medicine (USARIEM) investigators to both 
theaters. To date, there has been some data collected on types of 
musculoskeletal injuries and conditions in-theater. Investigators in 
one study showed that of the 48% of Soldiers who wore the Individual 
Body Armor (IBA) for 4 hours or more, 70% had neck and back pain. 
Another study queried Soldiers deployed in 2003 and 2004. Responses 
indicated that the back was the most common site of injury (32% low 
back, 9% mid back and 6% neck). In addition, 68% of medical evacuations 
to pain management centers from Iraq were for spine pain. From Jul 04 
to Oct 08, low back, mid/upper back, and neck pain were the chief 
complaints of Soldiers seeking care from physical therapists (Combat 
Support Hospital: 22%, 7%, and 5%, respectively, and Brigade Combat 
Teams (BCTs) 23%, 8%, and 6%, respectively). Still, other data 
collected by a physical therapist assigned to a BCT reveals the 
following breakdown of musculoskeletal injuries: 22-25% low back, 6-10% 
mid back, 4-10% neck, 19-22% shoulder, and 25-44% lower extremity. It 
is imperative that future research studies continue to focus on the 
prevalence of injuries that can be attributed to the weight of the load 
that our service men and women must carry. Meanwhile, we must continue 
to pursue ways to reduce the heaviness of the combat loads being 
carried by Soldiers in Iraq and Afghanistan.
    Marine Corps Answer. Our data indicates that a large percentage of 
non-battle injuries are due to musculoskeletal injuries (approximately 
40%). Weight load may play a role in some of these injuries but its 
exact contribution is not certain as the Marine Corps has not been 
systematically collecting the necessary data elements to perform an 
appropriate analysis. Going forward, the Marine Corps is currently 
evaluating what data elements are essential to better address this 
topic.
    Question. Are the type of injuries that are caused by heavy loads 
generally the sort that heal fairly quickly or are we facing large 
numbers of long-term rehabilitation and permanent disability?
    Army Answer. Soldiers have only been wearing this load in a 
prolonged repetitive manner during combat conditions or approximately 5 
years (short-term). Therefore it is difficult to draw any 
scientifically valid conclusions about long-term effects and 
rehabilitation. However, the Army is in the process of conducting 
studies to examine the short- and long-term impact of load carriage on 
the musculoskeletal system as well as studying preventive interventions 
that may be helpful. For instance, the Military Performance Division of 
the US Army Research Institute for Environmental Medicine (USARIEM) has 
several ongoing dies addressing these issues to include studying the 
``Effectiveness of Core Stabilization on a Soldier's Ability to Carry a 
Load'', ``Effects of the New Plate Carrier System on Body Mechanics and 
Physiological Responses to Carrying a Load.'' In an effort to address 
injury prevalence and activities associated with injuries, USARIEM and 
the Center for Health Promotion and Preventive Medicine (CHPPM) is 
surveying a group of Soldiers deploying to Theater. This study proposes 
to survey injured Soldiers in a support battalion as well as an 
infantry battalion to determine the cause of injury and identify 
potential risk factors with a goal of creating a predictive model that 
allows one to identify or predict the types of injuries Soldiers may 
encounter by military occupational specialty and activity. Finally, the 
University of Pittsburgh in collaboration with the 101st Airborne 
Division (Air Assault) is attempting to link the demands of training 
and military operations to injury and performance outcome testing by 
analyzing the biomechanics, musculoskeletal, physiological and 
nutritional profiles of Soldiers at the 101st. The bottom line is that 
the Army is addressing this issue in a multifaceted manner by 
conducting research, improving physical conditioning to optimize 
performance, incorporating injury's prevention methods, and pursuing 
lighter protective equipment.
    Marine Corps Answer. Most injuries are temporary in nature and heal 
fairly quickly. By definition, sprains, strains and stress fractures 
fall into this category. There will certainly be service members who 
will experience more serious injuries, however we have not seen a 
significant change in the referral pattern to the Physical Evaluation 
Board that would imply that large numbers of these types of injuries 
are occurring.
    Question. Is there a basic load weight beyond which the frequency 
of injuries grows dramatically?
    Army Answer. There are currently no known scientific studies that 
can confirm the causal relationship between load weight and the 
frequency and severity of injuries. However, multiple studies 
illustrate how carrying a heavy load can cause pain, reduce 
performance, and increase fatigue. In one study, Special Forces 
Soldiers carried loads of 75, 106, and 134 pounds for 12.5 miles (as 
fast as possible) with three days of rest between trials. Results 
indicated that Soldiers complained of 37% more back discomfort with the 
134 pound pack than with the 106 pound pack. Additionally, their 
marksmanship performance declined 66% for the first minute after the 
march, but at two minutes post-exercise their performance was similar 
to pre-march performance. In another study, infantry Soldiers carrying 
a load of 101 pounds for 12.5 miles had a decrease of 26% in 
marksmanship (number of targets hit), a 33% increase in distance from 
the target center and an increase in back pain compared to pre-load and 
march scores. Other studies showed that after wearing Individual Body 
Armor (IBA) and walking for 30 minutes on a treadmill, upper extremity 
muscle endurance decreased 60% and lower extremity muscle endurance 
decreased 15%. As muscle endurance decreases, the risk of injury 
increases. This factor is further compounded when Soldiers are then 
asked to conduct operations in uneven or mountainous terrain or conduct 
lengthy urban operations.
    Marine Corps Answer. Individual tolerances to load weight occur 
along a continuum. We have no data that points to a specific load at 
which injuries become significantly more likely.
    Question. How many Marines and how many Soldiers are currently in a 
non-deployable status due to injuries that can be linked to the weight 
of the individuals' basic load?
    Army Answer. Although we are seeing an increase in musculoskeletal 
injuries related to deployments, there are currently no scientific 
studies available that can confirm this causal relationship between 
Soldier load and musculoskeletal injury.
    Marine Corps Answer. The Marine Corps does not currently have a 
method in place to track the number of Marines that are in a non-
deployable status due to sustained injuries related to their combat 
load.

                               Body Armor

    Question. When anyone attempts to address the problem of reducing 
the weight of the load the individual soldier or Marine must carry, the 
first thing that comes to mind is usually body armor. For many soldiers 
and Marines, body armor is also the heaviest single item in the load. 
Body armor has saved many lives. But it is very heavy and any weight 
that can be taken out of body armor without sacrificing protection is 
worth pursuing.
    What are the various types of body armor, including for the Special 
Forces?
    Army Answer. The Army issues Interceptor Body Armor (IBA) to all of 
its Soldiers. IBA has a modular capability and can be reconfigured by 
the commander to meet their mission and threat requirements. As of 11 
May 09, the Army will issue a plate carrier to one battalion in 4th ID, 
which is the same plate carrier that SOCOM issues to US Army Soldiers 
in its units.

[GRAPHIC] [TIFF OMITTED] T6260A.057

    Marine Corps Answer. The four types of body armor currently in use 
by the Marine Corps are the Modular Tactical Vest (MTV), Outer Tactical 
Vest (OTV), Scalable Plate Carrier (SPC), and Full Spectrum Battle 
Equipment (FSBE). The MTV offers the greatest area of soft armor 
coverage, and is used by Marine units deployed to the MARCENT Area of 
Operations (AO) in support of both Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF). The MTV was fielded in response to an 
Urgent Universal Needs Statement (UUNS) issued by in-theater units. The 
OTV remains the Program of Record body armor system for the Marine 
Corps and is issued to Marines and units that are not deploying to the 
MARCENT AO. The OTV is issued to Marines in between deployments to the 
MARCENT AO for use in training. The SPC is the lightest set of body 
armor utilized by the Marine Corps. The reduction in weight is made 
possible by a decrease of the soft armor area of coverage. The SPC was 
also initiated through the submission of an UUNS. It is intended for 
use by infantry units deployed in support of Operation Enduring Freedom 
(OEF), as well as Combat Vehicle Crewmen deployed to any theater in 
support of combat operations. FSBE is a specialized body armor variant 
used by U.S. Marine Corps Forces Special Operations Command (MARSOC), 
Reconnaissance units, Air and Naval Gunfire Liaison Company (ANGLICO), 
Explosive Ordnance Disposal (EOD), Marine Security Forces Battalion, 
Fleet Antiterrorism Security Teams (FAST), and the helicopter assault 
company from within the Battalion Landing Team (BLT) assigned to a 
Marine Expeditionary Unit (MEU).
    Question. What comprises a set of body armor?
    Army Answer. A set of Interceptor Body Armor (IBA) consists of the 
Outer Tactical Vest (OTV) or the Improved Outer Tactical Vest (IOTV), a 
set of Enhanced Small Arms Protective Inserts (ESAPI), the Deltoid 
Auxiliary Protection (DAP) and the Enhanced Side Ballistic Inserts 
(ESBI). The Army is in the process of transitioning from OTV to IOTV. 
The IBA provides protection against fragmentation and small arms 
ammunition.
    Marine Corps Answer. Body armor consists of the carrier, ``soft 
armor'' Kevlar inserts, and ``hard'' ceramic plate inserts. The carrier 
is the frame, and holds the soft and hard armor inserts. ``Soft'' 
Kevlar inserts provide ballistic protection against fragmentation and 
9mm caliber ammunition, and when inserted into the carrier, protect a 
large portion of a Marine's torso. ``Hard'' ceramic plates, called 
Enhanced Small Arms Protective Inserts (ESAPI) provide protection 
against higher caliber ammunition. They cover the most vital areas of a 
Marine's torso: front, back, and sides.
    Question. What do the various parts weigh, such as side armor and 
deltoid armor?
    Army Answer. The weights of Interceptor Body Armor components for 
size large are as follows: The Outer Tactical Vest weighs 10.6 lbs + 
Deltoid Auxiliary Protector at 5.5 lbs + the Side Plate Carriers at 2.5 
lbs gives the set a total weight OTV of 18.6 lbs.
    The Improved Outer Tactical Vest weighs 13.2 lbs + Deltoid 
Protector at 2.5 lbs brings the total weight IOTV of 15.7 lbs. The 
Enhanced Small Arms Protective Inserts weigh 12.5 lbs and Enhanced Side 
Ballistic Inserts (ESBI) weigh 5.0 lbs.
    Marine Corps Answer. The Modular Tactical Vest (MTV) is composed of 
the carrier with soft armor inserts (15.5 lbs), front and back ESAPI 
plates (12.5 lbs combined weight for size large), and two Side-ESAPI 
plates (combined 4.6 lbs). The system, in size large, weighs a total of 
32.6 lbs.
    The Outer Tactical Vest (OTV) is composed of the carrier with soft 
armor inserts (12.3 lbs), front and back ESAPI plates (12.5 lbs 
combined weight for size large), and side ESAPI plates (4.6 lbs). Total 
system weight in size large is 29.4 lbs.
    The Scalable Plate Carrier (SPC) is composed of the carrier with 
soft armor inserts (8.8 lbs), front and back ESAPI plates (12.5 lbs 
combined weight for size large), and side ESAPI plates (4.6 lbs). Total 
system weight in size large is 24.9 lbs.
    The Marine Corps does not use deltoid armor.
    Question. What is the total weight of each type of body armor 
currently in use?
    Army Answer. The charts below shows the weight comparisons of body 
armor currently in use by US Army Soldiers:

[GRAPHIC] [TIFF OMITTED] T6260A.058

[GRAPHIC] [TIFF OMITTED] T6260A.059

[GRAPHIC] [TIFF OMITTED] T6260A.060

    Marine Corps Answer. The total weight of each type of body armor 
currently in use is as follows:
    <bullet> Modular Tactical Vest (MTV) = 32.6 lbs
    <bullet> Outer Tactical Vest (OTV) = 29.4 lbs
    <bullet> Scalable Plate Carrier (SPC) = 24.9 lbs
    Question. Apparently, some commanders have requested a type of body 
armor called ``Plate Carrier'', which is considerably lighter than 
regular body armor. Do you favor ``Plate Carrier'' as an alternative to 
regular body armor?
    Army Answer. Yes. I am in favor of plate carriers as an additional 
capability for commanders when conditions, e.g. enemy and/or terrain, 
means weight savings and requirements for mobility outweigh the extra 
protection provided by the Outer Tactical Vest/Improved Outer Tactical 
Vest. In order to develop an operational requirement, the Army will 
evaluate selected plate carriers in a Soldier Protection Demonstration 
in May 2009.
    Marine Corps Answer. We are fielding the Scalable Plate Carrier 
(SPC) in addition to the Modular Tactical Vest (MTV). This provides 
commanders in the field with the flexibility to equip Marines based on 
operational requirements in consideration of the threat, environmental 
and operating conditions. The SPC is not a replacement for the MTV, 
which is our primary protective body armor. The SPC is roughly seven 
pounds lighter than the MTV but provides less coverage. It is used with 
the same Enhanced Small Arms Protective Inserts (E-SAPI) as the MTV and 
in the body areas covered by the E-SAPIs, the protection is identical. 
The SPC allows for greater mobility with reduced thermal stress in high 
elevations, thick vegetation and tropical environments than the MTV.
    Question. Is the wearing of body armor ever optional?
    Army Answer. There is no DA policy mandating the wear of body 
armor. Decisions regarding body armor are left to Commanders at the 
appropriate level based on sound tactical and operational requirements. 
When making decisions regarding body armor, the overriding concern of 
Commanders is the welfare of Soldiers.
    Marine Corps Answer. Yes. The intent of the Marine Corps' policy 
defining Armor Protection Levels (APL) is to establish standards to 
enable commanders at the Lieutenant Colonel-level and above to tailor 
protective postures for their units based on the threat, climatic or 
other conditions, and based on guidance or direction from Service or 
theater combatant commanders. The lowest level of protection does not 
require body armor. Higher levels of protection require the Scalable 
Plate Carrier (SPC) or the Modular Tactical Vest (MTV) to be worn. The 
highest level adds the the Enhanced Small Arms Protective Inserts (E-
SAPI) to either the SPC or the MTV.
    Question. In the near term and long term, what is within the 
reasonable art of the possible for body armor? How can we achieve 
better protection with less weight?
    Army Answer. The Army's Science and Technology (S&T) programs are 
pursuing performance enhancements through advances in high performance 
ballistic fiber and textile technologies, transparent polymers, 
composites, nanotechnology, and materials systems integration. The goal 
of this research is to produce lighter materials that will provide the 
same level of protection at significantly reduced weights. Efforts will 
continue to focus on collaboration with the medical S&T community to 
understand the effects of body armor designs on the human body. This 
collaborative approach seeks to provide holistic ballistic and blast 
protection to enhance Soldier survivability.
    Marine Corps Answer. The Marine Corps uses a combination of 
continuous strategic market research, Quarterly Industry Days, and the 
Small Business Innovation Research (SBIR) program to leverage both 
Industry and the Research and Development communities. As it relates to 
body armor and reducing weight, the Marine Corps is currently pursuing 
SBIR efforts in the areas of developing a lighter weight Enhanced-SAPI 
(E-SAPI) plate. Within the current technology, lighter weight can only 
be achieved by trading off areas of coverage within the overall design 
of the system. Long term efforts to reduce the overall weight of body 
armor is likely to be contingent upon the development of a 
revolutionary new material that can meet, or exceed, current 
performance requirements.
    Question. Are adequate inventories of body armor available for 
training and combat operations in the Army and Marine Corps?
    Army Answer. The Army has procured sufficient quantities of 
Interceptor Body Armor (IBA) for combat operations and training 
requirements. The Army is currently procuring an Improved Outer 
Tactical Vest (IOTV) for the IBA to replace the older Outer Tactical 
Vests. The priority for fielding of the IOTV is deployed and deploying 
Soldiers. The Marine Corps will respond to you directly regarding their 
inventory and availability of body armor for training and combat 
operations.
    Marine Corps Answer. Yes, the Marine Corps has adequate inventories 
of body armor available for training and combat operations.

                              Land Warrior

    Question. For a number of years the Army experimented with a 
technology designed to take communications and situational awareness to 
the level of the individual soldier. However, size, weight and power 
supply concerns eventually resulted in program termination. At 
approximately the same time one battalion set of equipment was put into 
service on an experimental basis in Iraq, in a Stryker unit. The Land 
Warrior equipment was found to be very desirable. Army equipment 
developers have resurrected the Land Warrior technology in the Soldier 
Ensemble program.
    How much weight does the Land Warrior component that included in 
the Soldier Ensemble add to the load the individual soldier must carry?
    Army Answer. The Land Warrior capability currently fielded to the 
5/2 Stryker Brigade Combat Team (SBCT) adds approximately 13.3 lbs to 
the Soldier's load. The Land Warrior program was terminated in FY07 and 
is fielded to the 5/2 SBCT as an interim solution. The Ground Soldier 
Ensemble (GSE) program was established as a program of record in FY09 
and passed Milestone A in January 2009. The GSE program is undergoing 
engineering development prototyping and design refinement that will 
determine the final weight of the ensemble. The threshold weight 
requirement is 14 lbs and the objective weight requirement is 10 lbs.
    Question. As research and testing continue, what is the objective 
weight for this communications technology?
    Army Answer. The Ground Soldier Ensemble (GSE) is the program of 
record that replaces the Land Warrior capability that has been fielded 
to the 5/2 Stryker Brigade Combat Team (SBCT) as an interim solution. 
The GSE program is undergoing engineering development prototyping and 
design refinement that will determine the final weight of the ensemble. 
The threshold weight requirement is 14 lbs and the objective weight 
requirement is 10 lbs.
    Question. Does the radio in the Soldier Ensemble replace any other 
radio that is currently carried?
    Army Answer. The radio in the Ground Soldier Ensemble (GSE) will 
not replace any other radio that is currently carried. The initial 
versions of the GSE will use the Combat Net Radio System (CNRS) as 
Government Furnished Equipment (GFE) and replace the CNRS with the 
rifleman radio of the Joint Tactical Radio System (JTRS) family of 
radios as GFE when it is available.
    Question. What is the weight of the spare batteries for the Soldier 
Ensemble that a soldier must carry?
    Army Answer. The Land Warrior program was terminated in FY07. There 
are two battery sizes used for the current Land Warrior system fielded 
to 5/2 Stryker Brigade Combat Team as an interim solution. The LI-145 
weighs 2.25 lbs and the LI-80 weighs 1.15 lbs and are used as the 
mission (long or short) dictates. The current program of record, Ground 
Soldier Ensemble (GSE), may use these batteries, but the GSE is 
currently undergoing engineering development prototyping and design 
refinement. Advances in battery technology that provide lighter more 
powerful energy sources may be applied to GSE when they become 
available and other techniques to reduce battery weight may be used, 
such as improved power management and components that consume less 
power.

  Tactics, Techniques and Procedures (TTPs) to Reduce Injuries Due to 
                              Heavy Loads

    Question. The Army has formal and informal Tactics, Techniques and 
Procedures for doing about everything. Often the best, most effective 
way of doing something in the Army is figured out by the soldiers and 
sergeants and later is adopted by the Army and taught in the school 
house.
    What Tactics, Techniques and Procedures have been developed to help 
foot Soldiers and Marines deal with all the gear they have to haul with 
them, including their own personal gear and the Soldiers' share of 
platoon equipment such as climbing gear or various weapons, ammunition, 
and sensors?
    Army Answer. The Army has formal and informal Tactics, Techniques 
and Procedures (TTP). New TTPs that are adopted by the Army and taught 
in Army schools are often developed by Soldiers and sergeants at the 
lowest levels. Over the course of a deployment, Soldiers become more 
astute at cross-loading gear between patrol members. Soldiers identify 
multifunctional equipment to reduce redundant items. They emphasize 
carrying only mission essential items, leaving behind non-essential 
equipment. Soldiers conceal and cache water and food at forward 
locations for use at a later date and for re-supply. Soldiers have 
effectively planned and used helicopter sling load operations and 
aerial resupply operations. Currently in Afghanistan an average of 11.7 
short tons of supplies--to include liquids--are delivered per day to 
Soldiers via air drop. Over the past 12 months this averages roughly 
750,000 to 800,000 pounds of air-dropped supplies per month. Some 
extraordinary situations permit Soldiers to incorporate the use of pack 
animals, such as the regular resupply efforts for several austere 
Observation Posts in Afghanistan and the use by US Army Special Forces 
in Afghanistan since 2001. Even when these TTPs are incorporated into 
missions, Soldiers often carry three days of supplies for a 24-hour 
patrol.
    Marine Corps Answer. The Marine Corps is proactive in its approach 
to lightening the combat load that Marines carry in the field. We are 
pursuing solutions and exploring future initiatives that range from 
using new, lightweight materials, to policies designed to tailor armor 
protection levels that match threat conditions, to the use of robotics 
to assist in carrying unit equipment. We are keenly aware that the 
heavy loads carried by our Marines impact their endurance, 
effectiveness, mobility, and lethality as they fight lightly equipped 
irregular forces in places like Iraq and Afghanistan.
    The Marine Corps has invested heavily in ``Lighten the Load'' 
initiatives through the Marine Corps Warfighting Lab and the Marine 
Corps Systems Command through the Program Manager, Marine Expeditionary 
Rifle Squad (PM MERS). It is important to note though, that many of the 
best tactics, techniques, procedures, and equipment ideas have been 
developed by individuals and small units during training and while 
deployed. The Marine Corps is committed to finding and following the 
best methods to ``lighten the load,'' improve individual mobility, and 
thereby enhance the survivability of our Marines in combat.
    The Marine Corps completed an extensive survey of individual 
Marines from December 2007 to February 2008, which determined that most 
survey participants believed that excessive combat loads negatively 
impacted their performance. Many of the lessons learned in this survey 
have been successfully addressed, and continue to impact the design, 
procurement, and testing of individual equipment.
    The Marine Corps focuses on incorporating high performance, 
lighter-weight materials for individual weapons, ammunition, personal 
protective equipment (PPE), and uniform items. This focus has resulted 
in the development of such items as the Scalable Plate Carrier (SPC) 
for Marines deploying to Afghanistan. The SPC offers the same level of 
ballistic protection as the Modular Tactical Vest (MTV) in a 
configuration well-suited for the difficult terrain of Afghanistan. The 
SPC has achieved a 7.7 pound, or 24% reduction in weight from the MTV, 
which significantly increases individual mobility and maneuverability. 
Surveys and After Action Reports have told us that Marines have a 
strong preference for this system over the MTV. As a result, we have 
transitioned the SPC to be a program of record and are expanding the 
Acquisition Objective (AO) to 65,000 systems to equip the Marine Corps' 
entire Ground Combat Element (GCE).
    Another item that Marines have expressed their support for is the 
Enhanced Combat Helmet. The Commandant recently made the decision to 
pursue the new helmet, which will be made of a new material that 
improves ballistic protection without increasing the weight of the 
helmet. In fact, the new helmet, which is shaped like the Army Combat 
Helmet, will actually weigh slightly less than a current helmet.
    Other examples of reductions in equipment weight help illustrate 
the success the Marine Corps is achieving in this critical area. In 
response to comments from Marines deployed to Afghanistan, we are now 
developing the 3 Season Sleep System (3S). There is a compelling need 
in Afghanistan for a sleeping bag that increases thermal protection and 
comfort at reduced weight and volume. The 3S gains 15 degrees 
fahrenheit of protection, reduces weight by one pound, and reduces 
volume by 15 percent as compared to the existing Modular Sleep System.
    Question. Are Soldiers trained and inspected on how to pack gear 
for the best distribution of weight?
    Army Answer. Yes, soldiers are trained and inspected on how to pack 
gear in basic training and when they get their unit of assignment. The 
Soldier is taught the importance of packing his gear beginning in Basic 
Training, focusing on weight distribution to prevent injury and 
accessibility. This training is constantly reinforced in our 
operational units. Prior to going out on mission, leaders conduct 
inspections to ensure their Soldiers have the right equipment and it is 
packed properly. Our modular (molle-system) packs and required 
equipment can be modified for each mission. Leaders balance the benefit 
of reducing the weight our Soldiers carry with the risk of not having 
necessary equipment available if needed. During pre-combat inspections, 
Soldiers are inspected on the packing of their gear for the best 
distribution of weight. Our current Army Combat Uniform (ACU) rucksacks 
and ballistic vests are designed to assist the Soldiers by allowing for 
a more effective distribution of weight based on mission requirements.
    Marine Corps Answer. During entry-level and throughout their career 
progression courses, Marines are taught that it is a unit leaders' 
responsibility to plan for and conduct inspections prior to every 
tactical evolution. The Marine Corps includes pre-combat checks and 
inspection tasks for individuals, unit leaders, and small units in our 
Training and Readiness Manuals. Inspections of all types receive close 
attention by unit commanders and the pre-combat checks focused on the 
proper preparation and fit of individual equipment are among the most 
important of these inspections.
    Because of the rapid fielding and improvement of individual combat 
equipment, the Marine Corps has also produced a number of media tools 
and training opportunities that help train individual Marines and their 
leaders on the proper adjustment, fit, and wear of the individual body 
armor. Many of these tools are available online and are accessible from 
Marines' home computers. Experience has shown us that training is a key 
component of ensuring Marines wear their equipment for optimal fit, 
function, and weight carriage. The use of New Equipment Training Teams 
(NETT) has also allowed us to go directly to the Marines to support the 
fielding of new equipment.
    Question. Is there a hierarchy of what gear is left behind beyond a 
certain load weight?
    Army Answer. There is not an Army-wide standardized hierarchy of 
what gear is left behind beyond a certain weight. After considering the 
mission profile and the anticipated threat level, commanders exercise 
command judgment to strike an appropriate balance between the dual 
imperatives of ensuring maximum feasible individual force protection 
and the requirement to accomplish the mission. In addition to 
individual protective equipment, the commander must also identify 
mission critical unit equipment to bring on the operation. Once these 
decisions are made and approved by the higher level chain of command, 
noncommissioned officers then enforce this load discipline and monitor 
Soldier well-being and safety.
    Marine Corps Answer. The Marine Corps emphasizes the conduct of 
mission analysis and estimates of the situation. This essential 
leadership step allows unit leaders to appropriately plan for their 
mission, which includes planning to bring the gear and equipment 
necessary to accomplish their assigned tasks, and to plan for 
contingencies such as emergency resupply and requesting support from 
adjacent units. This planning evaluates guidance from unit commanders, 
environmental conditions, and the enemy threat.
    Many individual Marines surveyed by the Marine Corps Warfighting 
Lab indicated they believed the authority to designate appropriate 
levels of personal protective equipment should be delegated to unit 
commanders. Consequently, the Commandant of the Marine Corps recently 
adopted a service policy granting the authority to determine the 
appropriate level of individual armor protection to unit commanders, 
lieutenant colonel and higher. This policy, which does not interfere 
with Joint or Theater Combatant Commanders' established policies, 
allows Marine commanders to appropriately scale personal protective 
equipment to meet the mission, environment, and threat in order to 
achieve optimum individual combat loads.
    Question. Do units sometimes bring along extra soldiers in order to 
carry mission critical equipment?
    Army Answer. When the Army develops combat systems, we integrate 
the materiel solution with doctrinal concepts, organizational design, 
training programs, leader development, personnel requirements, and, if 
necessary, facilities in order to create the required combat 
capability. Many items of combat equipment require multiple soldiers 
not only to carry but also to employ the system effectively. For 
example, we often cross load ammunition among multiple soldiers for 
unit weapons systems not only to lighten individual loads but also to 
ensure adequate quantities of ammunition make it to the objective. 
Likewise, an assistant gunner for a machinegun crew will not only 
assist with target location but will also carry the tripod to lighten 
the gunner's load. Our process for developing combat capabilities 
accounts for these soldier load and system employment considerations in 
determining organizational designs and personnel requirements. 
Therefore, it would not be correct to state that units sometimes bring 
along extra soldiers in order to carry mission critical equipment. If 
the equipment is mission critical, then the soldier is also critical to 
the unit's ability to accomplish the mission.
    Question. Do units sometimes bring along extra Marines in order to 
carry mission critical equipment?
    Marine Corps Answer. Units conduct pre-mission planning to 
determine the number of personnel, weapons, equipment, and logistics 
required for a particular task. In the event that a unit leader 
determines he requires additional personnel, it is up to them to 
identify their requirement up their chain-of-command for resolution.
    I should point out that the Marine Corps rifle squad is a 13-man 
unit, whereas an Army squad is composed of 9 men. The greater size of 
Marine rifle squads allows a unit to spread their combat and mission-
specific equipment across a greater number of individuals. In addition, 
the Marine Corps is procuring the Infantry Automatic Rifle to replace 
the M-249 Squad Automatic Weapon. This new lighter, more portable 
accurate weapon will consume less ammunition while making the 
individual Marine lighter and more lethal.
    Question. What lessons have been learned thus far from operations 
in Afghanistan about dismounted, backpack operations in rugged and high 
altitude terrain?
    Army Answer. The: leaders of the Army units operating in this 
rugged terrain have recognized that in order to defeat a highly mobile 
adversary, who is familiar with the terrain and often carries 75-100 
pounds less in gear than our Soldiers, that operational changes and a 
lightened load were needed in the execution of missions. Over time 
these units have increased small unit operations that use a variety of 
patrol and infiltration routes, and create a smaller signature and a 
reduced resupply burden. These units have learned to conserve 
ammunition, food, and water, and to use clandestine cache sites and 
other resupply techniques such as helicopters, sling loads, and air 
drops. Brigade Combat Team and Battalion Commanders have authorized 
changes to the equipment posture to reduce weight and to match the load 
to the mission and the threat. Junior leaders in these units have 
adapted planning methods to identify multifunctional equipment and 
tailor loads based on the mission and the environment while also cross-
loading mission essential equipment within the patrol. The Army 
recognizes the importance of replicating this demanding environment at 
the Combat Training Centers and home station pre-deployment training.
    Marine Corps Answer. The Marine Corps Center for Lessons Learned is 
the repository of lessons learned from combat and is available to all 
Marines on the unclassified NIPR network. Each deploying infantry 
battalion produces lessons learned briefs that address a range of 
topics, but nearly always include observations about the impact of 
terrain and climate on individuals.
    Units deploying to Afghanistan report that individual combat loads 
can often exceed 110 lbs. The earliest lessons learned from Afghanistan 
have directly impacted the decision and design of the Scalable Plate 
Carrier and Enhanced Combat Helmet.
    Operations are best conducted by small units, who are able to move 
more effectively than larger units. These operations are often 
conducted for durations of up to a week because of the physical toll of 
moving in mountainous terrain.
    In conducting estimates of the situation, it is necessary for units 
at all levels to conduct risk vs. mobility calculations. Small unit 
experiences in Afghanistan have established new movement rate factors 
for both dismounted and vehicle operations. Both dismounted and vehicle 
operations are significantly impacted by the difficult terrain. Across 
the board, unit commanders point to the training of their small unit 
leaders, Corporals and Sergeants, as one of the best investments that 
can be made to ensure successful operations in Afghanistan.
    Question. What if anything has been done to improve the physical 
fitness of Soldiers to enable them to endure the weight of the pack?
    Army Answer. The Army Physical Fitness School at Fort Jackson, 
South Carolina has drafted a new doctrine called Army Physical 
Readiness Training (Field Manual 3-22.20 / near-final draft) that 
aligns our physical fitness doctrine with our current operations and 
training doctrine. The Army's Training and Doctrine Command has already 
posted the draft manual on the Army Knowledge Online (AKO) for 
implementation and use by our leaders and Soldiers. The new Army 
Physical Readiness Training focuses on improving Soldiers' aerobic 
endurance, muscular strength, muscular endurance, power, and movement 
proficiency which physically prepares Soldiers and units to meet the 
physical demands of full spectrum operations.
    Prior to the release of our new doctrine, many units across the 
Army, with the assistance of subject matter experts, had adopted a 
variety of injury prevention and performance enhancement physical 
fitness programs. For example, Special Forces and many Brigade Combat 
Teams have implemented programs that, in addition to traditional 
aerobic exercise, emphasize core strengthening, short term bursts of 
power, and speed and agility drills.
    Additionally, prior to deployment, Soldiers wear their gear with 
increasing frequency to build physical endurance for long-duration 
missions.
    Question. What if anything has been done to improve the physical 
fitness of Marines to enable them to endure the weight of the pack?
    Marine Corps Answer. In MARADMIN 579/06 the Marine Corps announced 
a Concept for Functional Fitness designed to provoke debate within the 
Marine Corps on the most effective approach for preparing Marines 
physically and mentally for the demands on combat.
    The Functional Fitness Program is the commander's program. This 
program allows flexible, adaptive training that is focused on 
individual and unit requirements. Unit commanders preparing their units 
for operating in mountainous terrain of Afghanistan, for example can 
tailor their program to the specific physical rigors they expect to 
face. Marines, as combat athletes, need a comprehensive fitness program 
that will develop the physical skills necessary for combat; including 
core strength, endurance, speed, and coordination. The Marine athlete 
should be prepared for the physical challenges of combat with a program 
that develops both General and Specific Physical Preparedness--a 
program that integrates strength training based on functional, compound 
movements with multi-disciplinary speed, agility, and endurance 
training. The program should be intense and infinitely varied. The 
program must also be interesting--we want Marines to stick with it, and 
from all indications, it is working. Marines are excelling in the most 
demanding combat environments because of their preparation, training, 
and focus on injury prevention.
    The Marine Corps Combat Fitness Test (CFT) is being implemented as 
a means of evaluating functional fitness by replicating a variety of 
physical challenges that Marines face in combat. The CFT measures 
readiness by requiring Marines in boots and utilities to sprint a timed 
880 yards, lift a 30-pound ammunition can overhead from shoulder height 
repeatedly for two minutes, and perform a maneuver-under-fire event. 
The maneuver-under-fire event is a timed 300-yard shuttle run that 
requires Marines to pair up by size and perform a series of combat 
related tasks.

                                Training

    Question. The Committee understands that Soldiers and Marines carry 
combat loads often exceeding 100 pounds which limits their mobility and 
over time may cause stress injuries. The Committee also understands 
that to be ready for tough combat, the Soldiers and Marines must 
receive tough training.
    While training at home station, do Soldiers and Marines carry the 
same equipment and weight that they will carry when deployed to 
Afghanistan?
    Army Answer. Yes. Based on their anticipated mission, unit pre-
deployment training plans routinely include activities such as road 
marches or negotiating stairs and obstacles with weighted vests and 
rucksacks to simulate combat load equivalent weights.
    Unit commanders seek all reasonably available means to simulate the 
environmental conditions anticipated during the deployment. An 
individual Soldier's equipment weight is often determined by whether 
operations are mounted or dismounted, the duration of the operation, 
the frequency that the Soldier wears all of his equipment, and by 
individual duties.
    Some unique items of equipment, such as special radios, are 
provided in the theater of operation. The units simulate the weight of 
the items when wearing their equipment for physical conditioning.
    Marine Corps Answer. Marines train with the same individual 
equipment that they will deploy with. They will also train with the 
same type of major end items (i.e. Humvees, mortars, etc.), but will 
fall in on the equipment sets already in theater when they arrive in 
Afghanistan. This is the same procedure as Iraq.
    Question. What sort of physical conditioning is done to prepare 
Soldiers and Marines for the heavy loads they will have to carry in 
Afghanistan during home station training?
    Army Answer. Units most apt to carry heavy loads will invest 
additional time in more comprehensive physical fitness opportunities 
such as weight training, obstacle courses, combative activities, and 
timed distances marches over uneven terrain with their equipment. For 
example, Special Forces and many Brigade Combat Teams have implemented 
programs that, in addition to traditional aerobic exercise, emphasize 
core strengthening, short term bursts of power, and speed and agility 
drills.
    Exercise periods are conducted with sufficient intensity, 
frequency, and duration to maintain adequate cardio-respiratory 
endurance, muscular strength and endurance, flexibility, and body 
composition.
    Rather than just emphasizing aerobic and muscular endurance, the 
new draft Army doctrine, Army Physical Readiness Training (Field Manual 
3-22.20 / near-final draft), focuses on improving Soldiers' aerobic 
endurance, muscular strength, muscular endurance, power, and movement 
proficiency which physically prepares Soldiers and units to meet the 
physical demands of full spectrum operations.
    Marine Corps Answer. A combination of strength, mobility and 
anaerobic/aerobic endurance training is conducted by Marines prior to 
deployment. A typical week's physical training plan includes load 
bearing conditioning hikes, weight lifting using compound functional 
movements and agility training such as sprint workouts with changes of 
directions and jumps. The goal of pre-deployment physical training is 
to enhance a Marine's physical capacity across a broad spectrum of 
physical skills. All training is done in a progressive manner with 
controls applied such as programmed rest to allow for adaptations and 
to mitigate injuries.
    Question. How is physical fitness maintained once the unit has 
deployed to Afghanistan?
    Army Answer. Many Soldiers maintain fitness through the routine 
execution of rigorous combat operations on difficult terrain and under 
various, often heavy loads. Physical Training (PT) programs vary by 
location and mission. Most locations offer access to a variety of 
physical fitness equipment and facilities. Units have a variety of PT 
plans based on mission, time, and troops available. Soldiers have also 
demonstrated remarkably innovative methods of constructing PT equipment 
and facilities in austere conditions. In addition, much of the Army's 
Physical Fitness Training Manual (FM 21-20) is dedicated to exercises 
that can be performed without the use of equipment, such as partner 
resisted exercises and calisthenics.
    Marine Corps Answer. During deployment, Marines remain fit through 
the conduct of rigorous missions under demanding operational 
conditions, augmented by the continuous unit and individual physical 
fitness training which is a vital element of our Marine Corps regimen.
    Question. How do the Army and Marine Corps prepare soldiers for 
high altitude operations such as those they will perform in 
Afghanistan?
    Army Answer. The Army prepares Soldiers to conduct high-altitude 
operations by ensuring they are in the best physical condition possible 
prior to deploying. Soldiers conducting rigorous physical fitness 
training will more readily adapt to the demands of high-altitude 
operations. While units may not have the opportunity to train in 
mountainous areas, Soldiers can and do conduct physical training 
wearing their combat gear and incorporate road marches over uneven 
terrain and negotiate obstacles while wearing their equipment. High-
altitude oxygen levels are difficult to replicate prior to arriving in 
theater, but the Soldiers adjust their physical conditioning activities 
upon arrival in theater to further improve themselves prior to assuming 
mission.
    Marine Corps Answer. Fortunately, our Marine Air Ground Task Force 
Training Center (MAGTFC) in 29 Palms, California and our Mountain 
Warfare Training Center (MWTC) in Bridgeport, California closely 
approximate the environmental conditions (to include altitudes) found 
in Afghanistan Regional Commands (RC) South and East. Marine units 
deploying to RC South conduct their mission rehearsal exercise (MRX) at 
29 Palms prior to deploying. Marine Embedded Training Teams (ETTS) 
deploying to RC East in Afghanistan conduct their pre-deployment 
training at the Mountain Warfare Training Center (MWTC) in Bridgeport, 
California, where the altitude ranges from 6,800 to 11,300 feet and 
there is significantly complex, compartmentalized terrain. At these two 
operational venues, Marines conduct a number of tactical exercises 
while exposed to Afghanistan-like environmental conditions.

                   Data Collection at Point of Injury

    Question. The Military is not making informed decisions on 
improving Tactical Combat Casualty Care or body armor because currently 
the Department is not collecting the data. 67% of the wounded are 
returned to duty in theater, and many of those are not treated in a 
hospital. As a result, we have almost no information on what medical 
care was provided at point-of-injury. The OSD Committee on Tactical 
Combat Casualty Care states that less than 1% of all wounded has 
complete documentation.
    Changes to training and equipment for first responders are the 
result of anecdotal ``lessons learned'', not data-based best practices. 
Without systematic data collection and analysis, far-forward medical 
care cannot improve.
    What data would be beneficial in your minds to lighten or alter 
current body armor?
    Army Answer. The following data would be important when assessing 
possible modifications to body armor: type and frequency of injury, 
activity that resulted in the injury, content of combat load carried, 
type of body armor, location (distance traveled, speed, grade), 
environment/climate conditions, length of patrol (days), prior training 
history with current equipment/load, fitness level (aerobic capacity, 
muscle strength, Army Physical Fitness Test), anthropometrics (body 
weight, height), medical history for previous injuries and predisposing 
conditions, job duties, physical activity within country and 
demographics (number of deployments, gender, age, education, etc). It 
would also be beneficial to know how well the body armor fits, if it is 
comfortable, and the frequency and duration that it is being worn.
    Data are being collected from numerous sources: the Army Joint 
Theater Trauma Registry and the Navy Trauma Registry collect extensive 
medical data on wounded in action service members and tracks combat 
injury patterns, general wound trends, treatments and outcomes. The 
Office of the Armed Forces Medical Examiner (OAFME) collects medical 
injury data, to include full-body CT scans on every returning killed in 
action service member and has received over 900 pieces of personal 
protective equipment (PPE). PEO-Soldier analyzes PPE received by the 
OAFME and has implemented PPE collection teams in Iraq to collect body 
armor from wounded-in-action personnel. The data collected includes the 
PPE and the available operational and intelligence data surrounding the 
event. The Army National Ground Intelligence Center tracks operational 
and intelligence data that surrounds fatal and/or wounding incidents. 
The Army Research Laboratory analyzes selected injury-producing 
fragments to identify new or unique characteristics.
    The Joint Trauma Analysis and Prevention of Injury in Combat 
program combines the analysis of operational/intelligence, material 
performance (PPE and vehicular), and medical outcome data from combat 
incidents and integrates the data into actionable information. 
Equipment Analysis characterizes damage to the PPE from the wounding 
incident and drives requirements and design decisions and to develop 
biomedical standards. Threat and Operational Analyses look at weapon 
and material performance, threat trends, and incident lessons learned. 
Medical injury and outcome analyses lead to evidence-based changes in 
clinical practice and treatment. Actionable information derived from 
these analyses have led to direct feedback to combatant commanders to 
alter tactics, techniques, and procedures; confirmed the presence of 
weapons of interest; and guided program managers as they make equipment 
and vehicle modifications and upgrade decisions.
    Marine Corps Answer. Optimally, we would like to lighten the 
service member's combat load without compromising protection from 
injury from every weapon system, including IED devices. This is a 
complex risk/benefit analysis that requires careful study. Lighter 
armor that does not adequately protect a Marine from known hazards is 
not acceptable but neither is armor that is unnecessarily heavy.
    Question. Changes in force protection issues (e.g. body armor, eye 
protection) are not informed by point-of-injury medical information. 
Without this data it is impossible to know if recalled body armor 
performed to standard, and what changes are needed to improve body 
armor. Additionally, data on body armor success are lost when service 
members are treated and returned to duty, so the Army may accidently 
decrease protection. Data collected on body armor use at the hospital 
is error-prone and incomplete--it is something best collected by the 
first responder, not the surgeon.
    If data is not collected adequately, how will increasing/decreasing 
the weight of body armor alter protection of the soldiers?
    Army Answer. Battlefield point-of-injury medical information is 
valuable in helping to inform Personal Protective Equipment (PPE) 
decisions. However, point of injury data is difficult to collect due to 
the constraints of time and distance on the battlefield while working 
to keep wounded Soldiers alive. Arguably, point of injury data is not 
the only source of information for helping DoD in making these 
important PPE-related decisions. PPE development, fielding, and recall 
decisions should be informed by data collected from all available 
sources to include point of injury data, ballistic testing, research 
and development and experimentation data, intelligence analysis, 
operational risk analysis, and modeling and simulation programs.
    Point of injury data provides the developers and managers of PPE 
with valuable information, however, is often insufficient to fully 
inform PPE decisions. For example, the Rapid Equipping Force (REF) 
developed a project to provide lightweight plate carriers to infantry 
units operating in the mountains of Afghanistan. The plate carriers 
would lighten the physical load and reduce thermal load on Soldiers as 
they fight an unencumbered enemy at elevations of 6,000 to 8,000 feet. 
To inform Senior Army Leadership decisions, the REF sought point of 
injury data from Joint Trauma Analysis and Prevention of Injury in 
Combat (JTAPIC) and U.S. Army Materiel Systems Analysis Activity 
(AMSAA) to help inform the decision for a plate carrier. Specifically, 
REF requested all gunshot wound data for all US Soldier combat 
casualties in Afghanistan for the year 2008. Data provided included 
only the gunshot wound points of entry for Soldiers killed in action 
during 2008. While information provided tremendous insight to the Army 
in their equipment selection process, collecting data took extensive 
man-hours and provided a limited data set. Furthermore, the data 
provided did not include the key information requirements of caliber of 
munitions and wounds that caused Soldier mortality.
    Bridging the gap of information, REF requested extensive ballistic 
testing throughout the decision-making process, including Army standard 
protocol ballistic testing and special follow-on ballistic testing. REF 
also sought significant intelligence information from the warfighting 
J2 and the National Ground Intelligence Center (NGIC). In addition, REF 
requested the Army Research Lab's (ARL) support in conducting modeling 
and simulation to characterize the risk to the Soldier wearing a 
smaller vest know as the Modular Body Armor Vest (MBAV). ARL modeled 
injury analysis based on NGIC threat information and the 
characteristics of the MBAV.
    Testing and analysis included actual threat ammunition and 
specialized gel frames that simulate human soft tissue and the actual 
MBAV coverage area. ARL conducted additional ballistic testing and 
extensive modeling to reliably predict both the severity and 
probability of injury to the Soldier based on both the Enhanced Small 
Arms Protective Insert (ESAPI) and soft armor coverage of the Soldier 
against threats the Soldier would likely face in this specific area of 
operations. The ARL data included several thousand gunshots against 
virtual Soldiers using specifically controlled variables to include 
muzzle velocity, caliber, point of aim, and human vital organ location 
relative to the edge of the MBAV, to name just a few. Again, while 
point of injury data is valuable in making PPE decisions, it is not as 
complete in comparison to using point of injury data used in 
conjunction with the data collected through ballistic testing, 
intelligence and modeling and simulation.
    In summary, the REF utilized 2008 JTAPIC gunshot casualty data and 
additional ballistic, intelligence and modeling/simulation data to 
assist in determining the impact of the reduction in level III a (soft 
armor) coverage area of the MBAV. Additional gunshot ``wound'' data 
would have strengthened the analysis, but it was not available. The 
advantages of the approach used by the REF include:
    (1) Infinite number of data points: ARL was able to simulate 15000 
shots in three hours; JTAPIC data only included double digit (actual 
number classified) shots throughout 2008.
    (2) Wide Range of threat: Using AMSAA data, ARL was able to conduct 
analysis simulating fragmentation (grenade), Assault Rifle (AK-47), 
Machineguns (PKM) and sniper weapons. JTAPIC casualty data did not 
identify threat weapon or caliber of threat round
    (3) Experimental Control: Variables can be isolated; confidence in 
results can be increased through repetition; and results can be more 
precisely documented.
    Additional potential improvements that should be considered: 
Although the modeling data provided greatly informed the decisions by 
Army Leadership, both ARL and Natick Soldier Research Development and 
Engineer Center have identified a shortcoming with the existing Soldier 
performance models. The models do not take into account the degradation 
and optimization of Soldier performance based on load or other enhanced 
capabilities relative to the risks of threats. A modeling tool that 
incorporates the threat modeling with soldier performance modeling 
would best show tradeoffs in protection and Soldier performance.
    Also, the medical and intelligence communities would benefit from 
new tools that assist care providers in quickly collecting vital 
information about Soldier wounds. Medical professionals must quickly 
triage, stabilize, treat and evacuate our wounded Soldiers in combat. 
The tools available to medical professionals today lack sufficient 
capability to clearly and quickly collect detailed point of injury 
data. Such tools that help medical care providers quickly characterize 
our Soldiers' wounds would be invaluable in informing PPE decisions in 
the future. NGIC recently approached the REF with the concept of a tool 
that can assist first responders with the capability to collect wound 
data and associated threat data at the point of injury. This tool, if 
developed, could potentially allow more complete battlefield point-of-
injury medical information collection that will not interfere with care 
provided to the injured Soldier.
    Marine Corps Answer. Data on the effectiveness of body armor 
against a particular threat or set of threats is analyzed extensively 
before body armor is procured and fielded. Additionally, it is tested 
continuously as part of the acquisition process. If that test and 
evaluation did not happen then we would run a very probable risk of 
fielding body armor without truly understanding what capability we are 
or are not providing to our Marines, regardless of its weight. 
Additionally, when equipment such as body armor is fielded, we 
routinely conduct user surveys and follow-up evaluations to ensure that 
equipment is meeting mission requirements.

                   Data Collection at Point of Injury

    Question. Limited medical intelligence on the effectiveness of 
enemy weapons is being gathered because of the lack of data collection. 
U.S. forces are unable to detect minor changes to enemy weapons and 
tactics, they can only respond to major changes in hospitalization 
trends--which means a missed opportunity to prevent the injury.
    What data are currently being collected to determine what body 
armor would benefit a soldier in a specific AOR or theater?
    Army Answer. Data is being collected from numerous disparate 
sources: the Army Joint Theater Trauma Registry and the Navy Trauma 
Registry collect extensive medical data on wounded in action service 
members and tracks combat injury patterns, general wound trends, 
treatments and outcomes. The Office of the Armed Forces Medical 
Examiner (OAFME) collects medical injury data, to include full-body CT 
scans on every returning killed in action service member and has 
received over 900 pieces of personal protective equipment (PPE). PEO-
Soldier analyzes PPE received by the OAFME and has implemented PPE 
collection teams in Iraq to collect body armor from wounded-inaction 
personnel. The data collected includes the PPE and the available 
operational and intelligence data surrounding the event. The Army 
National Ground Intelligence Center tracks operational and intelligence 
data that surrounds fatal and/or wounding incidents. The Army Research 
Laboratory analyzes selected injury-producing fragments to identify new 
or unique characteristics.
    The Joint Trauma Analysis and Prevention of Injury in Combat 
program combines the analysis of operational/intelligence, material 
performance (PPE and vehicular), and medical outcome data from combat 
incidents and integrates the data into actionable information. 
Equipment Analysis characterizes damage to the PPE from the wounding 
incident and drives requirements and design decisions and to develop 
biomedical standards. Threat and Operational Analyses look at weapon 
and material performance, threat trends, and incident lessons learned. 
Medical injury and outcome analysis lead to evidence-based changes in 
clinical practice and treatment. Actionable information derived from 
these analyses have lead to direct feedback to combatant commanders to 
alter tactics, techniques, and procedures; confirmed the presence of 
weapons of interest; and guided program managers as they make equipment 
and vehicle modifications and upgrade decisions.
    Marine Corps Answer. No specific data collection is underway at 
this time. The Marine Corps has three principal means to collect data 
and/or identify operational deficiencies. The first is through the 
Urgent Needs Process, whereby Marine units can identify deficiencies 
utilizing and Urgent Universal Need Statement (UUNS). The value of the 
UUNS is that it is submitted via the chain of command so that everyone 
can rapidly be informed of the deficiency and can take immediate steps 
to validate it and correct it. The second is through ongoing collection 
efforts at the Marine Corps Center for Lessons Learned (MCCLL). MCCLL 
archives all collected information, analyzes it, creates and 
distributes reports throughout the Marine Corps. These reports often 
provide the basis for making equipment decisions. Thirdly, individual 
Marines may submit suggestions and recommendations or identify 
deficiencies, via Email, telephone or mail, to the Marine Enhancement 
Program (MEP). The MEP serves to rapidly address requirements, 
particularly in infantry units.

             Preventative Care and Operational Deployments

    Question. The military departments have been focusing on 
identifying and mitigating health risks associated with heavy combat 
loads, through preventive and protective measures associated with 
deployments.
    What specific preventative measures are being taken?
    Army Answer. In general, carrying excessive loads may cause 
injuries or pain to the spine, lower extremities, and shoulders. Proper 
strengthening, conditioning, and training can help mitigate the risks 
associated with heavy combat loads. Many units use physical therapists 
to assist them in injury surveillance, data collection and injury 
prevention, as well as developing performance enhancement programs. The 
Ranger Regiment, Special Forces and several brigade combat teams (BCTs) 
have programs that emphasize core strengthening, muscle power, speed, 
and agility drills which not only strengthen the muscles that protect 
the spine, lower and upper extremities, but also improve the 
physiological responses to exercise. The Center for Health Promotion 
and Preventive Medicine (CHPPM) worked with the Army Physical Fitness 
School from 2001-2005 to develop, improve, and test the new Army 
Physical Fitness doctrine called Physical Readiness Training (PRT). 
They evaluated the PRT concept for its injury reduction potential at 
Individual Entry Training, Advanced Individual Training and operational 
Army infantry training (Fort Polk, 4th Bde of the 10th Mountain (MTN) 
Div). The program for 10th MTN involved PRT exercises, core 
strengthening, a decrease in running to three days a week or less and 
aggressive strength training in multiple planes using pull-up bars, dip 
bars, etc. This resulted in a 20% reduction in overuse injury rates. 
The Rangers also used a performance enhancement program and had similar 
results. BCTs use their physical therapists to develop performance 
enhancement programs that reduce injury rates and improve overall 
fitness.
    Marine Corps Answer. To prevent musculoskeletal injuries, Marines 
remain fit through the conduct of rigorous missions under demanding 
operational conditions, augmented by the continuous unit and individual 
physical fitness training which is a vital element of our Marine Corps 
regimen. Appropriate Operational Risk Management (ORM) procedures have 
been established to assess and mitigate risk with physical training 
while deployed.
    Question. How do you sustain the programs that have been created to 
ensure a healthy force?
    Army Answer. The Army Physical Fitness School at Fort Jackson, in 
collaboration with the Center for Health Promotion and Preventive 
Medicine (CHPPM), researched our physical fitness doctrine and found 
our current model that emphasizes aerobic and muscular endurance does 
not correlate well with the physical fitness requirements of current 
combat operations. To fill this gap, the Physical Fitness School 
designed a new doctrine called Army Physical Readiness Training (Field 
Manual 3-22.20) that aligns with our current operations and training 
doctrine. Army Physical Readiness Training focuses on improving 
Soldiers' aerobic endurance, muscular strength, muscular endurance 
(anaerobic endurance), power, and movement proficiency (incorporates 
balance, flexibility, coordination, speed and agility) which physically 
prepares Soldiers and units to conduct full spectrum operations. In 
addition, physical therapists assigned to the brigade combat teams, 
Special Operations units, and Initial Entry Training, serve as subject 
matter experts in injury prevention and performance enhancement. In 
this role, they assist unit leaders in developing programs that, in 
addition to traditional aerobic exercise, also emphasize core 
strengthening, muscle power, and speed and agility drills. Physical 
therapists also spend significant time educating the leadership on 
proper training techniques, conducting injury surveillance and 
reporting the trends back to the leadership who then modify the 
training based on the injury data. There are multiple injury prevention 
and performance enhancement programs across the Army, run by unit 
leaders with the advice and assistance of physical therapists. Proper 
injury surveillance, injury prevention and performance enhancement 
necessitates a concerted effort between the unit leadership, physical 
therapists, other medical personnel, CHPPM personnel, clinical 
researchers, and other Army proponents such as the Comprehensive 
Soldier Fitness Program. This requires an investment in research 
protocols that help identify best practices and assist in standardizing 
these programs across the Army.
    Marine Corps Answer. Effective sustainment is accomplished by 
adequately resourcing and managing programs. Periodic program review 
and inspection are other program quality controls.
    Question. How have changes in the school house been implemented 
based on injuries sustained during deployments?
    Army Answer. Lessons learned from current operations in Iraq and 
Afghanistan and research conducted by the United States Army Center for 
Health Promotion and Prevention Medicine (USACHPPM), the Army Physical 
Fitness Research Institute (APFRI), and the U.S. Army Physical Fitness 
School (USAPFS) have resulted in significant changes in physical 
readiness training in the Institutional Army (school house). The 
training base has placed greater emphasis on physical conditioning to 
prepare our Soldiers for the rigorous demands of combat. These changes 
are most evident in Initial Military Training--Basic Combat Training, 
One Station Unit Training, Advanced Individual Training, and the Basic 
Officer Leadership Course. A key difference is placing less emphasis on 
the Army Physical Fitness Test and greater emphasis on physical 
conditioning and readiness. In basic combat training, Soldiers wear 
body armor, helmets, and carry their weapons to a much greater extent. 
Soldiers do more marching with rucksacks and other loads. The physical 
readiness program places greater emphasis on nutrition and lessons 
learned from sports medicine on how to avoid injury. Drill Sergeants 
and other IMT Cadre have modified their physical conditioning programs 
to account for the overall lower physical fitness of the teenage 
population volunteering to serve. They have changed fitness readiness 
training with a number of initiatives including a program called ``Four 
for the Core'' which focuses on the core muscles groups as they are 
actually used in the Army. Strengthening these core muscle groups helps 
to reduce injuries. Additionally, Drill Sergeants and other Cadre train 
proper lifting and loading techniques. The Army is staffing a new 
manual--FM 3-22.20 Army Physical Readiness Training. The new manual--
based on the best practices of physical fitness training and sports 
medicine includes greater emphasis on all the components--muscular 
strength, muscular endurance, aerobic endurance, anaerobic endurance, 
and mobility.
    In our officer and noncommissioned officer courses, the Army is 
educating its leaders how to plan and conduct physical readiness 
training, teach nutrition, and train Soldiers to be ``Tactical 
Athletes,'' who are prepared for the rigorous physical demands of 
combat. Officers and noncommissioned officers learn that improved 
physical fitness can lessen the chance of injury but there are physical 
limits to how much weight a Soldier can safely carry. Junior leaders 
learn how to plan patrols and other operations to limit the loads 
placed on their Soldiers. They further learn the importance of 
supervision and pre-combat inspections to prevent Soldiers from adding 
unnecessary weight to their loads.
    Marine Corps Answer. A comprehensive review of USMC fitness 
programs began in Nov 2006. Key outputs of this review resulted in the 
following changes to Physical Training (PT) programs in Entry Level 
Training (ELT) and in guidelines for commanders in designing unit PT 
programs: Greater emphasis on anaerobic (short burst) capacity, de-
emphasis of long distance running, increase in body movement skills 
(agility) and increase in progressive load bearing capacity. These 
changes are reflected in PT application, testing, and also in education 
of Marine leaders in the Training and Education continuum. Nutrition 
education begins in boot camp conducted by Semper Fit and continues in 
the T&E continuum as well.
    Question. How have physical fitness tests been updated to reflect 
the current conflicts ``lessons learned''?
    Army Answer. The lessons learned from the operational environment 
have been applied to physical fitness training. Army training policy 
states, ``Commanders will conduct physical training programs that 
enhance Soldiers' abilities to complete Soldier or leader tasks that 
support the unit's Mission Essential Task List . . . .'' This focus 
ensures that Soldiers can accomplish their assigned tasks in combat 
versus pass a physical fitness test.
    Lessons learned from the current operating environments in Iraq and 
Afghanistan led to a thorough review of physical fitness training and 
testing. This caused a shift from physical fitness training and testing 
to physical readiness training and assessment in support of full 
spectrum operations that we are conducting in Iraq and Afghanistan. 
Specifically, commanders have increased emphasis on total body muscular 
strength, flexibility, and anaerobic training to increase operational 
effectiveness and reduce the risk of injury associated with load 
carriage.
    Marine Corps Answer. In May 2008, the Commandant of the Marine 
Corps (CMC) approved the Combat Fitness Test (CFT) which was 
implemented in Oct 2008. It is designed to be a complement to the USMC 
semi-annual Physical Fitness Test (PFT) which includes a 3 mile run, 
abdominal crunches and pull-ups for males/flexed arm hang for females. 
CFT events are: Movement to Contact (880 yd run), Ammo Lift (repetitive 
overhead lift of a 30 lb ammo can for two minutes), and Maneuver Under 
Fire. The last event is a 300 yd shuttle run which includes sprints, 
numerous changes of direction, a fireman's carry, buddy drag, ammo can 
carries and a simulated grenade throw. The CFT has helped shape USMC 
fitness programs, which will serve to enhance combat-related 
conditioning.

                       Airdrop Logistics Systems

    Question. Soldiers and Marines on field operation must either carry 
their supplies with them or receive periodic resupply in the field. The 
Committee is aware that due to Afghanistan's rugged terrain and lack of 
infrastructure the Army frequently uses parachutes to resupply units in 
the field. Such airdrops use a variety of equipment and tactics to 
accomplish the resupply mission.
    What are the factors that influence the decision to resupply a unit 
by airdrop?
    Army Answer. Airdrop is a field service that can provide additional 
flexibility to commanders. It makes it possible to support ground 
operations that would otherwise be logistically infeasible. Airdrop 
enables forces to rapidly resupply critical items over extended 
distances directly to or near forward units when ground resupply is 
otherwise impractical or cost/risk prohibitive.
    Airdrop is often militarily advantageous because it permits 
sustainment deliveries to units operating away from airfields and 
landing zones or in remote, difficult to access terrain. Airdrop also 
permits sustainment deliveries to units operating in hostile territory 
where ground sustainment convoys become a combat power intensive 
operation in their own right. Airdrop also allows the timely delivery 
of combat forces and materiel, concentrated and in mass, in minimum 
space and time (often with the element of surprise). Finally, some 
airlift aircraft can accurately airdrop personnel and materiel in 
conditions of poor visibility that would otherwise preclude air/land 
operations (e.g., using the adverse weather aerial delivery system).
    Marine Corps Answer. The factors influencing decisions to resupply 
a unit by airdrop are:
    1. Urgency. How fast does the unit need to be resupplied?
    2. The distance between the unit needing resupply and the 
resupplying base.
    3. Surrounding terrain.
    4. Air and ground threats to aircraft.
    5. Rigging time of gear and equipment.
    6. Availability of parachute riggers.
    7. Aircraft availability.

    Question. How many airdrop resupply operations occur on average in 
a month in Afghanistan?
    Army Answer. On average, there are approximately 40 resupply 
operations during the winter months and 50 resupply operations during 
the summer months. There are more during the summer months because 
there are more operational missions during the summer.
    Marine Corps Answer. On average, resupply air drops occur 40 times 
during winter months and 50 times during summer months in Afghanistan. 
Quantity difference is attributed to higher operational tempo in the 
summer months.
    Question. What is the tonnage of supplies delivered by airdrop in a 
typical month in Afghanistan?
    Army Answer. In Afghanistan, we currently average 366 tons of 
supplies delivered via airdrop per month.
    Marine Corps Answer. The typical monthly tonnage of supplies 
delivered by airdrop averages 366.
    Question. Please describe for the Committee the type of airdrops 
that are used, such as high altitude vs. low altitude, and the 
advantages and disadvantages of each.
    Army Answer. During typical high altitude airdrop missions using 
fixed wing aircraft, we drop supplies from between 1500,-3000, above 
ground level (AGL). We can drop supplies from as high as 6000, AGL. We 
base the use of high altitude airdrops mostly on terrain and/or threat 
level. For low altitude airdrops, we can use Low Cost Low Altitude 
parachute systems during which supplies are dropped from 150,-200, AGL.
    High velocity (HV) parachutes are smaller in diameter and descend 
at a faster rate. We use HV parachutes to target small drop zones (DZ). 
We use HV parachutes on an average of six missions a month to deliver 
durable commodities such as water and MREs. For example, two DZs are 
only accessible through the use of HV parachutes because they are so 
small in size (one has a 300 yard radius; the second measures 380 yards 
<greek-e> 110 yards). HV parachutes provide the ability to strike small 
areas with greater accuracy, but HV parachutes tend to ``steal'' air 
causing a few not to inflate thus destroying the load or just landing 
hard. A 10% loss using this method is considered an acceptable loss.
    Low velocity (LV) parachutes are larger and descend at a slower 
rate. We use the LV parachute most often. LV parachutes provide greater 
survivability of loads. A disadvantage of using LV parachutes is they 
are a less precise method of delivery; strong winds can cause the 
parachute to overshoot the DZ making it impossible to recover either 
parachute or load.
    Marine Corps Answer. Aerial Delivery Specialists speak in terms of 
high velocity (HV) versus low velocity (LV) air drops.
    Conventional high velocity (HV) parachute air drops are conducted 
at altitudes of 1,500-3,000 ft above ground level (AGL). High velocity 
(HV) parachute air drops are conducted an average of six times per 
month. High velocity (HV) parachutes are primarily used with durable 
cargo.
    Advantage:
    Conventional high velocity (HV) parachute air drops are more 
accurate compared to conventional low velocity (LV) air drops.
    Disadvantage:
    It's possible that 30% of the cargo being air dropped will be 
damaged.
    Conventional low velocity (LV) parachute air drops are conducted at 
altitudes of 150-1,250 ft above ground level (AGL). Low velocity (LV) 
air drops are preferred for precious cargo.
    Advantage:
    The survivability of cargo being air dropped is higher compared to 
high velocity (HV) air drops.
    Disadvantage:
    It's possible that 10% of the cargo being air dropped will be 
damaged.
    Joint Precision Air Drop System (JPADS) air drops are conducted at 
altitudes of 4,000-24,500 ft mean sea level (MSL). The current Joint 
Precision Air Drop System (JPADS) being utilized in Afghanistan is the 
Joint Precision Air Drop System (JPADS) 2K Screamer, a system fielded 
through rapid acquisition. However, the Joint Precision Air Drop System 
(JPADS) 2K Firefly is the system of record and is currently being 
fielded throughout the Department of Defense (DoD), and will replace 
the Joint Precision Air Drop System (JPADS) 2K Screamer and Joint 
Precision Air Drop System (JPADS) 2K Sherpa.
    Advantages:
    It allows the aircraft to stand off at a greater distance, 
minimizing ground threats.
    The aircraft stand-off will also enable clandestine resupply of 
reconnaissance forces without giving away their positions.
    Increased survivability of load.
    The Joint Precision Air Drop System (JPADS) allows multiple loads 
to be dropped from the same aircraft on one pass with different drop 
zones programmed into the Airborne Guidance Unit (AGU).
    Increased accuracy of desired point of impact.
    Disadvantages:
    Cost of system compared to conventional parachute systems.
    The Airborne Guidance Unit (AGU) will need to be recovered.
    Question. What types of parachutes are available for airdrop 
logistics missions? Are they precision or non-precision parachutes?
    Army Answer. We use five different types of non-precision 
parachutes in Afghanistan. Three Low Velocity (G-11, G-12, Low Cost Low 
Velocity) and two High Velocity (Low Cost High Velocity, 26 foot High 
Velocity). The Firefly is the only precision parachute currently used 
in Afghanistan.
    Marine Corps Answer.
    Non-Precision Parachute Systems (Conventional Parachutes):
    1. G-11B
    2. G-12E
    3. G-14
    4. A family of Low Cost Air Delivery System (LCADS), Low Cost Low 
Velocity (LCLV) and Low Cost High Velocity (LCHV) parachute systems.
    5. 26 Ft high velocity (HV)
    Precision Parachute Systems:
    1. JPADS 2K Firefly
    2. JPADS 2K Screamer (current system being utilized in Afghanistan)
    Question. Are the parachutes recovered after use?
    Army Answer. The Low Cost Low Altitude parachutes are not recovered 
after use. The receiving unit disposes of them. Less than 1% of the 
parachutes returned are reusable.
    Marine Corps Answer.
    Parachutes are normally recovered; however, recovery can be waived 
by units, depending on the tactical situation.
    The Joint Precision Air Drop System Airborne Guidance Unit (JPADS 
AGU) will need to be recovered.
    Question. Are any airdrop operations accomplished by contractor 
support?
    Army Answer. Contractors do not build or inspect the loads. Product 
Manager Force Sustainment Systems' Forward Service Representative (FSR) 
at Bagram Airfield, provides technical support (maintenance, packing, 
software updates to the GPS system, etc.) to the 95 Firefly parachutes. 
Blackwater Aviation pilots fly the CASA 212/235 aircraft from which 
military personnel drop loads using Low Cost Low Altitude parachutes. 
Only military personnel are responsible for pushing the load out of the 
aircraft. Blackwater Aviation employees are based out of Bagram 
Airfield.
    Marine Corps Answer. Xe (formerly known as Blackwater Company) 
conducts a large percentage of the Low Cost Low Velocity (LCLV) air 
drops out of CASA 212 aircraft. They currently conduct these air drops 
three days a week, mostly to the Army Special Operations Forces.
    Question. What is the cost of the various airdrop parachute 
systems?
    Answer. Costs vary from $539 to $36,000, as shown following.

------------------------------------------------------------------------
                       Parachute System                           Cost
------------------------------------------------------------------------
G-11.........................................................     $8,721
G-12.........................................................      3,769
Low Cost LV..................................................      1,680
Low Cost HV..................................................        539
26ft Ring Slot (High V)......................................        911
Firefly precision parachute..................................     36,000
------------------------------------------------------------------------

    Marine Corps Answer.
    1. Joint Precision Air Drop System (JPADS) 2K FireFly--$65,000
    2. Joint Precision Air Drop System (JPADS) 2K Screamer--$30,000
    3. G-11B--$8,721
    4. G-12E--$3,769
    5. G-14--$595
    6. 26 Ft High Velocity (HV)--$911
    7. Low Cost Low Velocity (LCLV)--$1,680
    8. Low Cost High Velocity (LCHV)--$539

         Multifunction Utility/Logistics and Equipment Vehicle

    Question. The foot soldier has always carried a substantial load 
including weapon, water, food and shelter. With advances in warfighting 
technology the soldier's load has added body armor, batteries, mines 
and platoon equipment. The Army may add to the soldier's load an 
individual communications device such as Land Warrior, micro unmanned 
air vehicles, various sensors, small robots, and more batteries. 
Soldiers and Marines that fight on foot are experiencing increasing 
numbers of stress injuries related to the heavy loads they carry. 
However, one of the 14 systems of the Army's Future Combat Systems is 
the Multifunction Utility/Logistics and Equipment Vehicle (MULE). It is 
essentially a small robotic truck. The ``MULE'' is being developed in 
three variants: armed, countermine, and transport.
    Please explain for the Committee how the transport variant might 
somewhat lessen the load for the foot soldier.
    Answer. The MULE-T has the primary mission of supporting dismounted 
infantry by transporting 1900 lbs, which is the equivalent of two 
squads of equipment. Equally important, the MULE-T provides the 
commander flexibly to support many missions. The MULE-T provides other 
options or capabilities such as transporting other provisions necessary 
to the mission: ammo, food, water, batteries; short-term emergency 
casualty evacuation; integrated battery recharger; Chemical, 
Biological, Radioactive, Nuclear detection systems; and Ground Mobile 
Radio, which can provide a communications relay for dismounted 
operations; and utilization as a resupply vehicle, to send back to 
supply points.
    The MULE-T is a force multiplier. It reduces potential injuries and 
eases the wear and tear on the Soldier by shouldering much of the 
Soldier's basic load. The MULE-T will enhance the dismounted Soldiers' 
ability to engage the enemy after long marches over difficult terrain.
    The MULE-T has demonstrated the mobility to keep pace with the 
dismounted Soldier. The MULE Engineering Evaluation Unit (EEU) has 
accomplished the following: climbed a Jersey barrier, traversed a 1-
meter step, negotiated a 1.8 meter gap and achieved speeds of 55kph. 
This mobility supports the rigors faced by the dismounted Soldier, and 
with a maximum speed of 65kph, the MULE can support and keep pace with 
the mounted force.
    Question. How useful would such a vehicle be in rugged, mountainous 
terrain as encountered in Afghanistan? How useful would such a vehicle 
be for the type of operations ongoing in Iraq?
    Answer. Based upon the ability to negotiate 60 degree slopes, the 
Tweel technology and the six-wheel independent articulating suspension, 
the MULE would be very useful in both theaters of operation 
(Afghanistan and Iraq). The MULE is a diverse platform, with three 
variants: Armed Reconnaissance Vehicle-Assault (Light) (ARV-A (L)), 
MULE-T and MULE-Countermine (MULE-CM). Employment in an operational 
environment (OE) is dependent upon Mission, Enemy, Troops, Terrain, 
Time Available and Civilians (METT-TC). Tactically, ARV-A (L) can be 
employed to establish support by fire positions in all OEs, and it can 
be utilized as the first asset to engage enemy combatants with its 
firepower capabilities, thereby forcing the enemy to commit its 
position, giving friendly forces the ability to maneuver and engage the 
enemy out of contact.
    The MULE-Transport can be used to carry two dismounted infantry 
squads' combat equipment, or provide logistical support to mounted and 
dismounted forces by carrying 1900 lbs of resupply, repair parts, squad 
equipment, or perform emergency Casualty Evacuation (CASEVAC) to a 
casualty evacuation point.
    The MULE-CM, together with Ground Standoff Mine Detection System 
(GSTAMIDS) capability, will support mounted force's movement through 
mine detection and neutralization situations. The MULE-CM will have the 
capability to detect, mark lanes, and neutralize anti-tank mines while 
mitigating the warfighter's exposure to life-threatening situations by 
placing an unmanned ground system in danger first.
    Question. How is the MULE powered?
    Answer. The MULE is powered by a diesel electric system. This 
engine, when coupled with the generator, is capable of generating 116KW 
(mech)/100KW (Elec) 610 Volt power. Power is generated to articulate 
each of the six suspension arms independently on the platform. The 
power also provides 610 Volts DC to power the mission equipment package 
for the ARV-A (L) and MULE-CM. The 28 Volts DC is provided to run all 
of the computers and electronic systems.
    Question. Please explain how the autonomous navigation system 
works.
    Answer. The autonomous navigation system (ANS) has four basic modes 
of operation: waypoint navigation or route following, leader-follower 
(vehicle), leader-follower (soldier), and teleoperations. The ANS is a 
unique combination of hardware (sensors), global positioning satellite/
inertial navigation system (GPS/INS), and navigation software that 
takes sensor input and derives a safe and efficient path for the 
unmanned platform to travel.
    In the teleoperations mode the ANS provides situational awareness 
and driver's aids to the operator including obstacle cueing and vehicle 
orientation. The ANS is the primary driving and awareness sensors. The 
sensors provide capability for daytime, low-light conditions, and 
infrared sensors for nighttime operations.
    Semi-autonomous operations are handled in several different modes. 
In the leader-follower (vehicle) mode, the ANS receives position and 
route information from the leader vehicle and commands the MULE to 
essentially follow the same positions. The ANS also provides local 
awareness and obstacle detection/avoidance in this mode, modifying the 
route as required.
    In the leader-follower (Soldier) mode, the ANS provides the same 
services, as well as maintaining a safe distance from the followed 
Soldier.
    In the route-following mode, the ANS receives global information 
from the network. The ANS develops routes and alternative routes, 
utilizing models to select the best route to meet the mobility plan, 
and then generates a route plan.
    Question. Has the transport MULE demonstrated technology readiness 
sufficient for fielding as part of the early spin out of FCS equipment 
to light infantry forces?
    Answer. No, the MULE is not ready for fielding under the early spin 
out. The MULE is an integrated platform requiring not only its mobility 
but the ANS, network communications (radio and waveforms) and the 
Common Controller with its Battle Command Software to control the 
platform. The MULE-T, as an integrated platform with all of the 
supporting subsystems, is preparing for Integrated Qualification Test 
(IQT) in May 2011.
    The MULE Early Evaluation Unit has demonstrated the following 
mobility: climbed a Jersey barrier, traversed a 1-meter step, 
negotiated a 1.8 meter gap and achieved speeds of 55kph. The ANS, which 
provides the critical sensors/software to conduct unmanned operations, 
has demonstrated similar success during the summer of 2008 with 
prototype testing at White Sands Missile Range. The ANS prototype 
platform accomplished speeds of 36 kph with waypoint following with 
obstacle avoidance, 40 kph under leader-follower conditions with 
obstacle avoidance, and a maximum speed of 54 kph with waypoint 
following but no obstacle avoidance.
    Question. Will the MULE be part of the first FCS equipment spin 
out? If so, what is the distribution plan?
    Answer. No, the MULE is not part of the first FCS spin out effort 
to the Early IBCTs. Currently, the MULE program will conduct a dual 
Critical Design Review (CDR): the MULE-T CDR is scheduled for January 
2010, and the ARV-A (L) and MULE-CM CDRs will be conducted in May 2010. 
The MULE-T Individual Qualification Test (IQT) will start May 2011, 
followed by the ARV-A (L) and MULE-CM IQT in November 2011. The MULE is 
currently scheduled to be fielded as part of the Spin Outs to the 
Threshold IBCTs in 2015.

                 Research in New Cargo Carrying Devices

    Question. The Committee understands that the Defense Advanced 
Research Projects Agency is conducting research projects in search of a 
robotic pack mule. One project is referred to by the nickname ``Big 
Dog.'' The device is about the size of a large dog. It has mechanical 
legs, and can carry up to 340 lbs.
    Has the Army or Marine Corps participated in the development phase 
for this or a similar program?
    Army answer. The Tank Automotive Research, Development, Engineering 
Center (TARDEC), as part of the U.S. Army Research, Development, and 
Engineering Command, has executed $2 million since 2003 to develop a 
perception module for the ``Big Dog.'' TARDEC is actively participating 
in DARPA's Source Selection Board for a follow-on effort to the ``Big 
Dog.''
    Marine Corps answer. The Marine Corps supported the most recent 
development phase of Big Dog through a Memorandum of Agreement between 
the Marine Corps and DARPA with a total Marine Corps investment of 
$750,000. During this phase, the Marine Corps established a military 
utility assessment of a legged robot carrying a 81mm mortar, bi-pod, 
base plate, and support equipment (approximately 200 lbs) at the pace 
of a walking Marine over a representative cross-compartment hiking 
trail and for five miles on a flat surface. This assessment was 
completed satisfactorily in August 2008.
    Question. Does the Army or Marine Corps plan to transition this 
device, or a similar device to a service program to develop a system to 
move logistics with the soldier, and to take some of the weight out of 
the soldiers back pack?
    Army answer. The FCS MULE-Transport (approved in the FCS 
Operational Requirements Document) is currently the Army program which 
will provide robotic logistics support to the dismounted Soldier with a 
Milestone C in 2013 and first unit equipped slated for 2014, but not 
all units will be fielded the system. Because the FCS MULE effort 
pursues a mounted formation construct and the Soldier load problem is 
also associated with dismounted Infantry units not utilizing vehicle 
support, the FCS MULE may not be suitable for all formations.
    The Army and Marine Corps are assessing a variety of unmanned 
ground vehicles to lighten the Warfighter's load, but outside of the 
FCS MULE system, there are no other currently validated requirements to 
support the initiation of a Service program.
    The Army and Marines did assess the ``Big Dog'' and will assess its 
follow-on Legged Squad Support System (LSSS) for military utility and 
effectiveness through a series of Warfighter assessments. Currently, 
there is no agreement on ``Big Dog'' in place between DARPA and the 
Army on transition to program of record, acquisition, fielding and 
sustainment. To entertain transition, the Army would have to endorse a 
development path that DARPA constructs that would give confidence that 
a reasonable Technical Readiness Level (TRL) could be achieved such 
that the Robotic System Joint Program Office could complete 
development. ``Big Dog'' is currently assessed at TRL 6 (System 
Prototype Demonstration in a relevant environment) and this assessment 
usually translates to several years required to mature to a producible 
system, if fully funded. Currently, there is no plan to endorse the 
development path. Based on current assessments, the potential for 
operational employment of ``Big Dog'' is not viable in the foreseeable 
future.
    One system currently being assessed that shows promise is the Squad 
Mission Support System (SMSS). A Limited User Test (LUT) is being 
executed in 1st Quarter, FY10 with a follow on assessment in OEF during 
2nd Quarter, FY10. The SMSS Technology Readiness Level (TRL) is 7/8 and 
targets the immediate problem of robotic soldier load solution 
integration. The Capabilities Production Document (CPD) will provide a 
full and open competition solution within three years. The Subsequent 
Product Improvement Program will reflect lessons learned.
    Marine Corps answer. There is currently no plan to transition the 
Big Dog or any similar legged robot to a service program of record. The 
technology still requires considerable refinement before it has 
operational utility. In view of the technological immaturity, DARPA has 
developed a proposed follow-on project called the Legged Squad Support 
System (LS3) which would build on the technical advancements made 
during the Big Dog program. Should this program be approved, the Marine 
Corps Warfighting Laboratory has expressed the intent to continue 
involvement in the development and assessment of the military utility 
of such technology in reducing the load of dismounted Marines and in 
logistically supporting infantry units.
    Question. What would be the desirable characteristics of a small 
mechanical device to assist the dismounted soldier or Marine in 
carrying essential gear?
    Army answer. The following are the desirable characteristics of a 
small mechanical device to assist the dismounted Soldier or Marine in 
carrying essential gear:
    --follow dismounted operator semi-autonomously (follow a designated 
soldier's path)
    --200 meters line of sight (Threshold); 1000 meters line of sight 
(Objective)
    --1.8 miles per hour steady march
    --15 miles per hour burst speed for 200 meters
    --capable of autonomous navigation to preprogrammed waypoints on 
command; high mobility, agility and dexterity; laterally traverse--30% 
slope; climb/descend--60% slope
    --ability to avoid same obstacles as a Soldier
    --sustainable/maintainable
    --maintain operational readiness rate of 92%
    --meantime between system abort--110 hours
    --meantime between essential function failure--37 hours
    --meantime to repair--not to exceed 30 minutes;
    --maximum time to repair--10.5 hours
    --place into operations within 7 minutes with no special tools; 700 
lbs (Threshold); 1300 lbs (Objective) payloads
    --low noise signature--operate at a noise level that will not 
compromise the location of a squad
    --Endurance--24 hours (Threshold); 72 hours (Objective) using 
standard military batteries
    --transportable/deployable--deployable by air, sea, and rail; 
capable to be airdropped
    U.S. Army Training and Doctrine Command began formal staffing of 
the capabilities document for the Squad Multipurpose Equipment 
Transport at the end of April 2009, focusing on leader/follower and 
some semiautonomous movement (threshold payload--700 lbs) to lighten 
Soldier load. The objective is approval of the capabilities document no 
later than 1st Quarter, FY10 with a projected date for Initial 
Operating Capability of 3rd Quarter FY12.
    Marine Corps answer. There is currently no comprehensive Marine 
Corps list of key performance parameters for mechanical devices. 
However, several ``mechanical device'' approaches may have utility in 
assisting the dismounted Marine in carrying essential gear: (1) 
exoskeleton to assist the individual's innate strength and endurance, 
and (2) a robotic ground vehicle. For the first approach to be feasible 
would require that the system provide load bearing capability for a 
representative militarily useful period of use (2 to 4 hours) across a 
variety of terrain at a pace at least equal to dismounted forces, using 
on-board power. For a vehicle to be useful, it would have to carry a 
minimum of 450 pounds, be capable of keeping up with and following in 
trace of dismounted forces in typical cross country terrain, and have 
the capability of conducting a typical 24-hour profile with on-board 
power or fuel. Ideally, a robotic ground vehicle would also be capable 
of ``supervised autonomy'' following a designated Marine at an assigned 
distance, following a roadway or trail, following GPS waypoints, and be 
capable of obstacle avoidance. Both technology approaches must be 
capable of operation with minimal sound signature and be maintained and 
supported by infantry Marines with minimal training and without 
detracting from their tactical responsibilities. Because of ongoing 
experimentation, the Marine Corps is not prepared to formalize the list 
of requirements or establish key performance parameters at this time.
    Question. What are the obstacles facing current efforts to field a 
mechanical mule?
    Army answer. The biggest issues facing a mechanical MULE are 
balancing a solution to various performance requirements for both Army 
and Marine Corps units and unit types that provide military utility for 
a MULE. These range from as simple as vehicle size (i.e. does it 
support a team, Squad, platoon, Airborne, Air Assault?); mobility 
requirements (i.e. should it support only dismounted Soldiers, should 
it support both mounted and dismounted, what are the terrain profiles 
it has to navigate?); technical supporting requirements (i.e. what 
level of autonomy/control should it have, what level of anti-tamper 
should be built into the system, what are its maintenance and repair 
requirements, should it be air droppable?). Each of these requirements 
can drive a drastically different material solution impacting both 
technical and cost risks. The Army is developing a common MULE chassis 
that will be used to support the Soldier logistics of two squads, mine 
detection, and unmanned armed reconnaissance. These UGVs are designed 
to support Soldiers in a following mode both when they're mounted and 
dismounted.
    Marine Corps answer. The Marine Corps has not developed a specific 
requirement for a ground vehicle--a ``mechanical mule''--to 
logistically support or lighten the load of dismounted Marines. Further 
study to define the key performance parameters needed for such a 
capability is necessary before the Marine Corps can determine if this 
approach is supportable, affordable, and the best solution to the 
identified problem.
    Question. Are there any other technologies or devices that the 
Services are looking into as well?
    Army answer. The Army is pursuing multiple technologies that would 
enable the Soldier to carry greater loads. The technologies fall into 
two categories, (a) Soldier borne load carrying technologies and (b) 
autonomous unmanned ground vehicles (UGV) technology similar to the 
robotic pack mule.
    The Natick Soldier Research Development Engineering Center (NSRDEC) 
is pursuing two technologies to enhance a Soldier's ability to carry 
heavy loads in the future. The eXOSkeleton (XOS) for logistic support 
project is a powered, full body wearable robot for human performance 
augmentation. XOS is expected to assist Soldiers by augmenting manual 
handling/materials handling capacities up to 200 pounds (lbs). NSRDEC's 
Enhanced Load Carriage for the Lower Body effort is focused on the 
development of a simple lightweight, low-power, wearable leg brace type 
device to increase Soldiers' load carrying capacity to 150 lbs with 
reduced biomechanical stress to the user.
    The Army is also developing the Multifunctional Utility/Logistics 
and Equipment (MULE) Vehicle, a 2.5-ton Unmanned Ground Vehicle (UGV) 
that will carry 1,900-2,400 pounds of equipment and rucksacks for 
dismounted infantry squads.
    Additionally, there are a number of smaller eXperimental Unmanned 
Ground Vehicle (XUGV) efforts that Army Science and Technology (S&T) 
uses as test beds for the purpose of developing and maturing 
technologies for unmanned ground vehicles. Technologies under 
development and/or maturation include safe operations (detect/track 
moving objects), obstacle avoidance, and platform control ranging from 
tele-operation to semi-autonomous (platform autonomy with Soldier-in-
the-loop).
    Marine Corps answer. The Marine Corps has been observing Army 
experimentation using robotic ground vehicles at Fort Benning and the 
robotic vehicle being explored by the US Special Operations Command 
sponsored Combat Autonomous Mobility System (CAMS) Joint Concept 
Technology Demonstration. In addition, the Marine Corps Warfighting 
Laboratory is exploring the utility of both autonomous ground and air 
systems for sustaining dismounted forces in planned experiments during 
July-August 2009 and has solicited industry response to a Request For 
Proposal for current unmanned air delivery systems capable of 
demonstrating tactical utility as early as this summer.
    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                         Wednesday, March 11, 2009.

                    ARMY AND MARINE CORPS READINESS

                               WITNESSES

GENERAL PETER W. CHIARELLI, VICE CHIEF OF STAFF, UNITED STATES ARMY
GENERAL JAMES F. AMOS, ASSISTANT COMMANDANT OF THE MARINE CORPS

                              Introduction

    Mr. Murtha. This afternoon's hearing is on the readiness of 
the Army and the Marine Corps.
    I am going to put my whole statement that the staff 
prepared in the record, but the meat of it is that only 8 
percent of the Army is C-2 or better. Only 50 percent of the 
Marine Corps is C-2 or better, and we know that is 
substantially lower than it was just a few years ago. So our 
problem is, what do we have to do in order to help you fix that 
problem.
    I know you are under orders from the White House. You can 
only talk about certain things; you don't know exactly what the 
White House is going to propose. But we have been working on 
this subcommittee for years, putting reset money in, putting 
all kinds of things in the budget which we think are so 
important to the troops out in the field.
    And there is a very small percentage of people who are 
actually doing the fighting and very small percentage of 
families that are actually involved. And we know how hard it is 
on them. We want to help alleviate that as much as we can.
    I know you are going to present us a better picture than we 
see. But when I was in the field at Fort Carson, I haven't seen 
as many complaints as I heard since 1974. And I talked to 12 
people at Parris Island in 1974; I talked to 12 people at Fort 
Carson just a few weeks ago. So as I have said over and over 
again, our intelligence hadn't predicted anything, so none of 
us know. But if we continue to stress guerilla warfare and wear 
our troops down, if some other contingency happens, we are not 
going to have what we need in order to meet that contingency.
    So we appreciate your coming before the committee; we 
appreciate your dedication. And you inherited a very difficult 
job, both of you. And so I look forward to hearing your 
testimony.
    But we have a motion from Mr. Young.
    Mr. Young. Mr. Chairman, I move that those portions of the 
hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Murtha. Mr. Young, comments?
    Mr. Young. Mr. Chairman, I appreciate the comments that you 
made. And I think it might be helpful to the committee if we 
had some examples of why the C-2 level, C-3 level, what 
actually causes degradation of the standing, because sometimes 
I understand they are not really that big a deal, but maybe 
they are.
    So I think it would be helpful for us to know that.
    Mr. Murtha. General Chiarelli.

                 Summary Statement of General Chiarelli

    General Chiarelli. Well, sir, as you know, we have and we 
are moving to a readiness system that will take us in two 
directions. One is, we will give you our rating on what our 
core mission is--that mission for which the unit was designed, 
as opposed to our deployment mission; that mission which the 
unit is about ready to embark on.
    Because of the demand on the force, a majority of our 
forces are, in fact, training to and equipping to that mission 
they are going to deploy on, which is much different than that 
mission which they were designed for. And I think when you see 
those low C-2 numbers in the Army--in fact, I know when you see 
those low C-2 numbers--that is for core mission rather than the 
mission they are about to deploy on.
    And we deploy differently for that deployment mission with 
much of the equipment that you pick up when you deploy, what we 
call TPE, theater-provided equipment, that you fall in on when 
you arrive.
    A good example would be MRAP. We have only 25 MRAPs back in 
the States today that we are training on. We are bringing back 
another 26. We have one full motion simulation training at Camp 
Shelby, and we will have another 13 fielded by October of this 
year. So the training on MRAP right now, for the most part, has 
to take place downrange, a conscious decision that we made.
    Why? We made it because we felt it was more important to 
put soldiers going into harm's way in MRAPs rather than bring 
them back and be part of the training base.
    So I think the C numbers you are seeing are because we, 
with the demand on the force, with only having 1 year deployed, 
1.3 months back at home, units are neither equipping nor 
training for their C mission; they are training for that 
mission they are about ready to deploy on, which is different 
than that C-rating you read.
    [The statement of General Chiarelli follows:]

    [GRAPHIC] [TIFF OMITTED] T6260B.001
    
    [GRAPHIC] [TIFF OMITTED] T6260B.002
    
    [GRAPHIC] [TIFF OMITTED] T6260B.003
    
    [GRAPHIC] [TIFF OMITTED] T6260B.004
    
    [GRAPHIC] [TIFF OMITTED] T6260B.005
    
    [GRAPHIC] [TIFF OMITTED] T6260B.006
    
    [GRAPHIC] [TIFF OMITTED] T6260B.007
    
    Mr. Murtha. General Amos.

                   Summary Statement of General Amos

    General Amos. Sir, we have exactly the same system.
    The C-ratings, of course, are a function of training and 
personnel and equipment. As we talked before the hearing, we 
ended up with people that are being pulled out of, and 
equipment being pulled out of, units back in the rear, moving 
forward. So all our forward deployed units, and I have got the 
numbers here, are--94 percent of our units that are forward 
deployed are what you would call C-1 or C-2.
    But for that specific mission that they have overseas, we 
have in Afghanistan a couple of units that are not C-1 or C-2, 
and it is just simply a function of, they don't have enough 
manpower. A couple of battalion, logistics battalion in 
Afghanistan, it is not C-1 and C-2, but we are fleshing that 
out with the advent of the forces or the influx of the forces 
coming up.
    But what you really have is, you have the sorts of this C-
rating which is the design mission of that unit. And we have, 
for instance, two artillery battalions right now in Iraq, one 
doing civil/military ops, the other doing security force 
operations securing the bases, and they are not doing anything 
with regard to artillery. They are C-1 and C-2 for the mission 
assigned in Iraq, but they are C-3 and C-4 for their assigned 
mission, which is their constant, everyday wartime mission.
    So we have the same situation, Mr. Chairman.
    [The statement of General Amos follows:]

    [GRAPHIC] [TIFF OMITTED] T6260B.008
    
    [GRAPHIC] [TIFF OMITTED] T6260B.009
    
    [GRAPHIC] [TIFF OMITTED] T6260B.010
    
    [GRAPHIC] [TIFF OMITTED] T6260B.011
    
    [GRAPHIC] [TIFF OMITTED] T6260B.012
    
    [GRAPHIC] [TIFF OMITTED] T6260B.013
    
    [GRAPHIC] [TIFF OMITTED] T6260B.014
    
    [GRAPHIC] [TIFF OMITTED] T6260B.015
    
    [GRAPHIC] [TIFF OMITTED] T6260B.016
    
    [GRAPHIC] [TIFF OMITTED] T6260B.017
    
    [GRAPHIC] [TIFF OMITTED] T6260B.018
    
    [GRAPHIC] [TIFF OMITTED] T6260B.019
    
    [GRAPHIC] [TIFF OMITTED] T6260B.020
    
    [GRAPHIC] [TIFF OMITTED] T6260B.021
    
    [GRAPHIC] [TIFF OMITTED] T6260B.022
    
                         Remarks of Mr. Murtha

    Mr. Murtha. Well, we want to help you. When Bill Young was 
the chairman we put a lot of money--and how much did we put in 
there, Bill? We put $40 billion or $50 billion in--do you 
remember--for reset and so forth over the last few years.
    But we need some help. You get all kinds of rumors, which 
systems are the most important. But we need you to tell us so 
we can negotiate with the Defense Department about what we need 
to do.
    And we are going to have a supplemental here; we don't have 
the exact schedule, but it has to be done before May or June, 
or the Army will have a real difficult time. We want to make 
sure we do the right thing in the supplemental in order to 
increase readiness not only for the core mission or not only 
for the mission that you have in Afghanistan and Iraq, but also 
for the core mission, which is some contingency that happens 
down the road.
    But I appreciate what you are going through. And we talked 
before this hearing started. I have a great concern about 
getting back to where we should be with the forces, and you 
need to give us a little bit of an idea.
    What I would suggest you do--and I suggested this before 
the meeting started--you need to go out and look at what I have 
just looked at. You need to talk to the troops in the field and 
see what they say. You need to hear about this equipment and so 
forth, not just telling me that, Well, everybody says the same 
thing; they complain a lot.
    We know that. I have heard it before. I heard it in 1974 
and 1975, and we got rid of thousands and thousands of people. 
It was an indication that there was a problem.
    I am saying, there is an indication that there is a problem 
right now, and we need to look at it. Whether it is inadequate 
recruiting, whether it is people being recruited, whether there 
are too many waivers, I don't know what the hell it is.
    But we want to help you, and we can't help you if you don't 
really give us the details of what you suggest we need to do.
    Mr. Young.

                              RESET ISSUES

    Mr. Young. Mr. Chairman, I don't have any further opening 
statement, but I do have some questions. I would like to get 
into the issue of reset.
    This committee has dealt with reset issues quickly and 
effectively once we were made aware of the need, and I would 
like to hear from you what the reset requirements are today and 
what you expect they might be in the future.
    Also, I have a concern about what equipment--when we leave 
Iraq, what equipment will we bring back from Iraq, if any? Will 
we be sending any of that equipment to Afghanistan or just what 
happens there? And what kind of a reset issue will we be 
considering for you when all this happens?
    General Chiarelli. I can't give you a dollar figure on 
reset because, as you know, we are in the middle of putting 
together the budget--or other people are putting together the 
budget. And I am in a position right now, I can tell you, that 
we are going to need to reset. And reset is absolutely 
critical.
    The problem we are having today is the amount of time we 
have back home to both reset equipment and reset personnel. As 
I was explaining to the chairman earlier this afternoon, we are 
currently 1 year deployed, 1.3 years back at home. We are just 
over 1 year, almost a 1-to-1, with some units 1.3 being the 
average. So that puts a pressure on not only resetting people, 
but resetting equipment.
    We are moving a lot of our theater-provided equipment from 
Iraq into sets that are available for forces going into 
Afghanistan. As you know, our numbers aren't as great in 
Afghanistan today, nor will they be based on current plans, 
than they are in Iraq right now. But we are freeing up some 
sets and beginning to set the theater for additional Army 
forces that are flowing into Afghanistan. So some of that 
theater-provided equipment will move over to Afghanistan.

                              AFGHANISTAN

    Mr. Young. So what about Marine Corps equipment, bringing 
back home or sending to Afghanistan?
    General Amos. Sir, right now we have got a little over 
45,000, what we call principal end items in Iraq. And our 
schedule for drawing down in Iraq is over the next 12 months. 
There is an effort--we just stood up kind of a blue ribbon team 
in to join the staff in Iraq, in the Anbar Province for General 
Tryon, to help him develop the plan for the retrograde over the 
next 12 months. So we are going to have to start pulling some 
of that equipment out.
    We are at eight or nine battalions of Marines 3 or 4 years 
ago. By May, we will be down to three infantry battalions, an 
LAR battalion and a security battalion. So a lot of that 
equipment is still in Iraq. There is a natural reluctance by 
the commanders on the ground to say, ``Well, I just might need 
that, you know.'' I don't want to be the commander that says, 
you know, I sent it home and now I need it.
    But those are days that have gone; the commander on the 
ground now understands that. So we are retrograding that stuff 
out over the next 12 months.
    There is going to be--I asked the question, ``How much of 
that is going to find its way over to Afghanistan?'' And 
roughly 15 percent--excuse me, roughly 13 percent of the 
equipment in Iraq right now is going to migrate over to 
Afghanistan. And this is stuff that is quality. I don't want 
you to think we are taking it from the junkyard in Iraq and we 
are going to send it to Afghanistan; this is stuff in what we 
would call class A condition. In other words, it is ready to 
go.
    Some of it is what we would call forward in stores 
equipment, equipment that has been sitting there. So an up-
armored Humvee or an MRAP, in case one gets blown up, now I 
don't have to order one, I just pull it off the lot. That is 
the kind of stuff that is going to find its way into 
Afghanistan.
    So we have got a plan to get the stuff out of Iraq over the 
next 12 months. And that is going to be very difficult because 
we are all going to be in competition for the same highways, 
the same heavy equipment transport, the same airports, the same 
ship berths down at Kuwait, the same wash-down racks. So all 
this like a great ballet.
    We are going have to start getting that stuff out. We have 
a plan, we are marching towards it, and then we are going to 
take a piece of that stuff right now, and it is moving into 
Afghanistan.
    Mr. Young. Thank you.

                              CONTRACTORS

    Mr. Murtha. I asked President Obama the other day, I said, 
you have 150,000 contractors in Iraq, 274,000 in the theater in 
CENTCOM. He was surprised at that.
    He said, turning to the Secretary of Defense or the Chief 
of the Joint Chiefs, he said, How are we getting them out? Can 
you tell me how you are getting those contractors out? Are they 
coming out at the same speed the troops are coming out.
    Mr. Moran. Is that a question to the Generals?
    Mr. Murtha. Yes.
    General Chiarelli. Intuitively, I would say, yes, sir. I 
have not checked on those numbers. The last I looked, when you 
took the whole contractor population, we have 1.1 contractor 
for every soldier currently in Iraq and Afghanistan today.
    I think you are going to find far fewer contractors in 
Afghanistan than you do in Iraq, albeit we are still relying on 
contractors to do much of our maintenance. And part of the 
reason we have been able to keep equipment reliability in 
theater so high--we have seen the highest numbers we have seen 
in the Army in a long time, over 90 percent on track and wheel 
vehicles and over 75 percent on aviation aircraft--is because 
of those contractors and because we are rebuilding and 
resetting some of that equipment right in theater.
    Mr. Murtha. It costs $44,000 more, on average, for a 
contractor than it does for a direct hire. We need a schedule. 
Somebody needs to give us a schedule of how we are bringing the 
contractors out as we are bringing the troops out. If we bring 
out another 20,000 troops and you leave 25,000 contractors 
there, we haven't made much progress. So we need, this 
committee needs to see what you are leaving there and how you 
are bringing them out.
    General Chiarelli. I owe you that, Mr. Chairman.
    [The information follows:]

    The Department of Defense, U.S. Central Command, and to a lesser 
extent the Department of the Army, continually assess the Iraqi 
personnel requirement to ensure the appropriate personnel strength to 
accomplish the mission. Logistics planning is in full swing to weigh 
the requirements for contracted support during redeployment, 
considering declining troop strength as well as increased need for some 
services, for example transportation, base closure and remediation 
support, and property management. The timeline for contractor 
redeployment may not mirror that of the Warfighters and may not be 
proportional. Additionally, as troop numbers grow in Afghanistan, some 
contractors may shift rather than redeploy. Redeployment timelines for 
combat forces and contractors are not discussed in non-secure forums 
due to operational security.

    Mr. Murtha. Mr. Dicks.

                                TRAINING

    Mr. Dicks. Thank you, Mr. Chairman.
    As I understand it, because the Army is rotating so fast 
going back into Iraq, that will change somewhat now. That is 
why--they are only training, as I understand it, for a 
counterinsurgency mission.
    Is anybody training for anything other than that?
    General Chiarelli. At lower levels, they are, sir. But I 
think you are exactly correct in indicating when you have got 
only one----
    Mr. Dicks. One year.
    General Chiarelli. One year or a little bit more than one 
year at home, you are focusing after your reset period almost 
totally on that deployment mission. Now, I think General 
Petraeus and General Liarno would argue that we have not lost 
the ability to synchronize kinetic effects on the battlefield; 
and we do that every single day for shorter periods of time 
than you would see if we were training for our core mission, 
but we still have the ability to do that. So sometimes I think 
we may overstate the degradation in those capabilities, but 
they are definitely degraded.
    Mr. Dicks. But we would definitely have the most combat 
trained force, probably, in American history. I mean, more 
people have been in combat, both Guard and Reserve and active 
forces than in any other time, I would think.
    General Chiarelli. There has never been a more battle-
tested force than you have today; that is correct, sir.

                           READINESS RATINGS

    Mr. Dicks. Now, tell me about these D ratings which would 
measure readiness against a directed mission. We understand 
that this is something the Army is going to do and it is going 
to do rather soon.
    General Chiarelli. We begin in May. We are going to get rid 
of what you used to see was a PCTEF rating. A PCTEF rating went 
from 1 to 4. You would be PCTEF-4 prepared for the next 
mission, but you didn't even know why. It just said PCTEF-4.
    Not only will we provide a D-rating, and that is going to 
be the rating, the readiness rating, for the mission you are 
about to deploy on; but we are going to require commanders to 
tell us, what is. your rating in personnel, what is your rating 
in training, what is your rating in equipment, so that you can 
see how they are doing in those three critical areas and really 
have an opportunity to judge their readiness.
    Commanders will not have the ability to subjectively 
upgrade those individual ratings. They will have the ability to 
subjectively upgrade the overall rating on D, but you will be 
able to see what the actual ratings are and can judge where 
they are in those three critical areas.
    Mr. Dicks. On December 1----
    Mr. Murtha. Let me----
    Mr. Dicks. I yield to the chairman.
    Mr. Murtha. Let me just say, we don't want you to hide from 
us the real readiness capability of the Army. I hope that is 
not what you are trying to do. We need to know if there is a 
problem, so we can fix it.
    I mean, I hear what you are saying, but I get very nervous 
when you are going to come up with a rating other than an 
overall rating. You explained the difference, but I hope you 
don't send over here and start to degrade the C-ratings.
    General Chiarelli. That will not happen.
    Mr. Murtha. All right.
    Mr. Dicks. It would be good, though, that we could assess, 
I think, the readiness to do the mission that they are going to 
be having to do. I think that--I think the more information we 
have, the better off we are. Just, that is my impression.
    Let me also ask you about this. On December 1, 2008, the 
Deputy Secretary of Defense issued guidance elevating the 
importance of irregular warfare to be strategically important 
as traditional warfare.
    Can you tell us what the Army is doing in this core? What 
does this mean or what does it mean for the future?
    General Chiarelli. Well, sir, I could give you all kinds of 
examples. I think that both General Amos and myself would say 
that I think we are proud of both of our services' ability to 
adapt to this new kind of warfare, the kind of warfare that I 
believe is going to dominate our future.
    I will tell you, if you look at how we have restructured 
our force--I think you know we have gone to a modular force. We 
have gone to a readiness system that is based on the Army force 
generation model, which basically says, every unit goes from 
deployment to a reset period of 180 days, then, as long as we 
can, in a train-and-ready phase that gets ready for that next 
deployment. We hope it can be longer than 6 months, sometimes 
it is 8 months, sometimes it is 9 months right now. We would 
like to get it out to a year and a half or even greater. And 
then it goes into a deployment. That is what we have been able 
do with a modular force.
    When it comes to force structure, besides modulizing the 
force, we have grown five battalions of special operations 
additional over what we had in 2001. We have grown 50 companies 
of civil affairs, 3,000 contractors.

                          STABILITY OPERATIONS

    Mr. Dicks. Let me just add one thing; my time is quickly 
running out.
    Secretary Gates recently wrote that the United States needs 
a military whose ability to kick down the door is matched by 
its ability to clean up the mess and even rebuild the house 
afterward.
    What do you think that means.
    General Chiarelli. In my 2 years in Iraq, I saw that every 
single day, the ability to go in, apply kinetic effects and 
follow up immediately with those kinds of things that you would 
consider part of a stability operation. It was an absolute 
requirement. And when we did that, we provided for the safety 
of our forces; when we didn't do that, the neighborhoods became 
much more dangerous for us.
    So Soldiers have to be able to--as Charles Krulak said a 
long time ago, they have to fight that three-block war. One 
minute they are applying kinetic effects, the next minute they 
are ready to go into stability operations; and it can change 
with a snap of your fingers.
    Mr. Dicks. General, do you have anything else you want to 
add to that?
    General Amos. Sir, I think the kind of warfare we are in 
right now, and the Secretary has talked about, is going to be 
around for at least the next several generations. I think he is 
right.
    But he also uses the terminology ``a balanced force,'' and 
the net balanced force, we think the interpretation is, okay, 
our focus can be on this thing called ``hybrid warfare.''
    This kind of warfare that General Chiarelli is talking 
about is, one day you are playing in cowboy stadium; the next 
day you are playing in the parking lot; and the day after that, 
or maybe that same day, you are playing in the Winn-Dixie 
parking lot over there, and you are playing different kind--and 
it all happened at the same time. So that is that hybrid 
warfare.
    But the balance that we owe our Nation is the ability to be 
able to do that. And I think we have proven that we can do that 
really well. And we are doing it, by the way, with young men 
and women that are just good, solid soldiers and Marines; and 
we are training with those skills through all the different 
training regimens we have.
    But we also owe our country the ability to be able to do 
those other things that represent the balanced force. In the 
case of Marine Corps, that is that forcible entry from a naval 
sea base or a naval operation. We are the only force that can 
do that. That doesn't mean the Army can't join us and do that; 
I am just saying that is a responsibility, that is core 
competency for the Marine Corps, and we owe that to our Nation.
    So we need to be able to train and do those things as well. 
The growth of the Marine Corps, the drawdown in Iraq and the 
reasonable approach to Afghanistan are going to provide us that 
opportunity. But I think it is a balanced force; that, I think, 
is what we are talking about.
    Mr. Murtha. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Gentlemen, thank you for the doubleheader today, this 
morning's hearing as well as the one this afternoon.
    Last week we had some of the Air Force brass in here from 
TRANSCOM and the Air Mobility Command, and we obviously had 
extended discussion on airlift needs, the whole tanker issue. I 
don't want to get into that, but I would like your take on 
aviation readiness in a theater where we are going to be 
putting a lot more soldiers, and Marines particularly.
    What is the state of aviation readiness in terms of 
choppers? And both the chairman and I have a keen interest in 
the aeromedevac in Afghanistan, given there is some estimate 
that if someone is wounded, obviously the sooner you get them 
to safety and to a surgical tent or whatever they might need 
for medical purposes.
    Can you sort of talk to us about your general aviation 
readiness and the specific thing which affects the soldier's 
well-being, the ability to evacuate soldiers and Marines that 
are wounded?
    General Amos. From the Marines' perspective, both in the 
Anbar Province, we have had a pretty sizeable air combat 
element on the ground in Iraq for some time. And we have got a 
very small air combat element on the ground in Afghanistan 
right now, and we are about to blow that balloon up. We, are 
going to put a pretty good-sized piece of both rotary wing and 
fixed wing and tactical air in Afghanistan.

                          CASUALTY EVACUATION

    Mr. Frelinghuysen. How many choppers do you have in 
country?
    General Amos. We have four CH-53Es in Afghanistan and four 
attack helicopters right now in Afghanistan for 2,300 Marines.
    Mr. Frelinghuysen. And, General Chiarelli, how-many 
choppers does the Army have?
    General Chiarelli. We will have--we are adding another 
combat aviation brigade for our 2nd Combat Aviation Brigade in 
Afghanistan, which will take us up somewhere in the vicinity, 
depending on the exact table of organization of that 2nd 
Brigade, over 220 helicopters.
    Mr. Frelinghuysen. Aero medevac, where do we stand in our 
ability to get our soldiers out on an expedited basis?
    General Amos. Sir, I was there a month ago. And again this 
is the southern part for the Marine Corps.
    Mr. Frelinghuysen. This is sort of the dedication to CSTAR, 
to some extent?
    General Amos. Sir, it is. And I primarily think it is not 
so much CSTAR as much as casualty evacuation, and the ability 
to do a medevac or a casualty evacuation for a wounded soldier 
or Marine. Again, it is a bit of an immature theater down in 
the Helmand Province right now, and it is about to become more 
mature with the advent of the, or the influx of forces. And we, 
too, are going to bring in a bunch of helicopters, along with 
the Army.
    But right now, when we were there a month ago, the Marine 
battalion commander said it takes about 2 hours and 20 minutes, 
on average, to get a casualty evacuation moved from the point 
of being wounded to what we call Level II care.
    Now, I will tell you, the Department of Defense, the 
Secretary of Defense, has taken that on. And to rearrange 
assets--and that is part of the reason why we are bringing in 
more assets, as well as the Army, to take care of that, but 
part of that is relying on our allies. In other words, having 
to rely on some of our allies to provide a casualty evacuation 
at 2:00 in the morning to a country that doesn't fly on low-
light NVGs at 2:00 in the morning, they won't do it.
    Mr. Frelinghuysen. These are the same allies in some cases 
who are not joining the battle in the same way our people are, 
but they have assets to contribute to this getting our soldiers 
and Marines to get medical help?
    General Amos. Sir, they do in some cases. I will tell you 
that there are--from my personal opinion, there are not enough 
down in the southern part of Afghanistan, but that is about to 
change. And the Secretary of Defense is taking this on 
personally.
    Mr. Frelinghuysen. So the 2-hour thing here is going to be 
measurably shortened?
    General Amos. Sir, our goal is--when it comes to where the 
Marines are and anybody operating in a Marine zone is to get 
back to what we call ``the golden hour,'' and that is, from the 
time you are injured to the time you reach the first medical 
(Level) II treatment facility is inside 60 minutes.
    We did that very well. The Army and the Marine Corps did 
that side by side in Iraq, and it saved an untold number of 
lives.
    We have a lot of motivation to get back to that in 
Afghanistan. We are just not there yet.
    Mr. Frelinghuysen. We have a keen interest in that.
    Thank you, Mr. Chairman.
    Mr. Murtha. Let me just say, the figure we have is a 72-
minute average. Twice as many people die in Afghanistan, 
because they don't get the medical help, as die in Iraq--not 
quite that; it is 19 percent versus 11 percent. But this 
committee sent staff, and I went out to Nellis to look at the 
assets there, and we put $100 million into those assets.
    If we don't know the problem we can't fix it. If you don't 
have the assets, you can talk about trying to put those assets 
out there, but if we don't know soon enough, we can't put the 
money in and get the assets there. This committee is concerned 
about that, but you have got to tell us when there is a 
problem.
    I am surprised that you say that it takes 2 hours and 20 
minutes to get them in. That is a revelation to me, because 72 
minutes is the average.
    General Amos. Sir, that was a battalion commander. That is 
me, looking a lieutenant colonel in the eye and talking about 
the casualty evacuation. I said, ``How long is it taking you?'' 
``On average,'' he said, ``2 hours and 20 minutes.''
    Mr. Murtha. That is unacceptable.
    General Amos. I agree with you, sir.
    Mr. Murtha. Mr. Visclosky.
    Mr. Visclosky. No questions. Thank you.
    Mr. Murtha. Mr. Moran.

                            MISSION CAPABLE

    Mr. Moran. Thank you.
    I have to say, boy, the Committee has a good staff. They do 
terrific work. For example, they bring to our attention that in 
2003--and these are numbers I know that both generals are 
familiar with--50 percent of the Army was C-2 or better, and 
now we are down to 15 percent. And when you account for 
deployment, only 8 percent of Army units, both C-2 or better 
and available to address a contingency operation. And of that 8 
percent only 4 percent are C-1, fully mission capable.
    So this is something the Chairman has been harping on for 
basically 5 years, but every year it just seems to get worse. 
And, of course, it is the critical issue that we are bringing, 
that we are discussing today. The Marine Corps is in better 
shape in that situation.
    And we are concerned. I share the concern of the chairman 
and the vice chair about subjective ratings. Of course, this D 
category is a concern.

                               STOP LOSS

    But the first thing I want to ask you specifically about is 
stop loss. I don't know about my colleagues, but it may just be 
that when somebody is subjected to stop loss, those are the 
ones you hear about. But, boy, I hear a lot about folks that 
have been kept in a voluntary service through what you consider 
to be stop loss. And the subcommittee provided money, $72 
million, to deal with that, yet none of it has been used? Why 
might that be?
    And a stop loss is more an issue with the Army, so let me 
ask General Chiarelli.
    General Chiarelli. Well, sir, both the United States Army 
and Department of Defense are working on a comprehensive stop 
loss plan that will be complete very, very soon that will look 
at all of stop loss, not only those soldiers that are stop 
loss, but stop loss as an instrument that the Army uses in the 
future. And I expect that before too long you will have the 
opportunity to see--I know they are putting the final touches 
on that, and I know it has the personal interest of the Chief 
of Staff of the Army, the Secretary of the Army and the 
Secretary of Defense.
    I do, and I know that no one cares about soldiers more than 
the members of this Committee. And I know we are focused on 
that 1 percent of the Army, less than 1 percent the Army, that 
is stop loss--6 to 7 percent in any one time. And I know that 
this Committee knows that every one of those soldiers signs a 
contract that indicates that that might happen.
    But I will tell you that when we start paying that money, 
you need to understand that stop loss numbers are going to go 
up. Because when Private Chiarelli can reenlist in February 2 
months into a deployment, he is not going to; he is going to 
collect whatever that final amount is until the last month 
before he goes home; and then, if he plans to reenlist, he will 
reenlist.
    Mr. Moran. So you are afraid they are going to game the 
system if you make that incentive available?
    General Chiarelli. Sir, I am not saying we can't make the 
incentive--I am just----
    Mr. Murtha. We have solved this thing. We have put $500 per 
person in for 160,000, whatever it is. We don't want any 
argument from the Army. I have heard all the arguments. The 
Secretary of Defense talked to me about it, and he rejected 
your proposal.
    We expect you to work something out.
    General Chiarelli. Sir, I will do whatever we are told. I 
just wanted to give you----
    Mr. Murtha. I heard all the arguments.
    Mr. Moran. Well, it sounds like we are not going to pursue 
this any further, General. I think the Committee is--on the 
policy is pretty clear. Secretary Gates did say publicly that 
he is going to end it. And there must be a way that you can 
deal with the potential gaming of the system.
    The IRR is a problem with the Marine Corps, though, more 
than the Army. Do you want to address that issue, General Amos?
    General Amos. Sir, it is actually not a large issue now. 
Some time ago the Secretary of Defense authorized us to, 
authorized the Marine Corps to involuntarily recall up to 2,500 
Marines. To date, we have recalled, involuntarily, 1,779 of 
those. Right now, in Iraq we have 463 members on this current 
deployment in Iraq out of 22,000 Marines that are over there on 
IRR involuntary recall. That will end after the end of this 
year. We don't like it.
    But here is the real truth with the IRR recall. A lot of 
these young men and women want to come back on active duty, but 
they can't volunteer because they will lose their jobs. And so 
the agreement we have had with Marine Forces Reserve 
(MARFORRES) are, when you do this and you are about to call 
somebody back on active duty involuntarily, ask them if they 
are covertly a volunteer. And in the clear majority of the 
cases they are. There are some, I am sure, that are not, but 
most of them are; and they say, ``But we can't do that, we 
can't volunteer, so you tell us, and we will be happy to 
come.''
    So we have very small numbers, and we are going to cut 
that, off at the end of the year.
    Mr. Moran. Good. Because the fact that it is such small 
numbers, I think, is probably an even greater argument that it 
doesn't need to exist. Because if there is anybody that is 
involuntarily serving, it diminishes our confidence and pride 
that this is a voluntary Army. So you understand that.
    Mr. Murtha. The gentleman's time has expired.
    Mr. Kingston.

                           DEPOT MAINTENANCE

    Mr. Kingston. Thank you, Mr. Chairman.
    General Amos, you have--27 percent of your equipment is in 
theater right now?
    General Amos. I am sorry, I can't hear you.
    Mr. Kingston. Twenty-seven percent of your equipment is in 
theater; is that what I heard?
    General Amos. I would have to take a look at that. I think 
that is probably--I may have said that in my statement.
    Mr. Kingston. I think it was in there.
    General Amos. It probably is. That number sounds right, 
sir.
    Mr. Kingston. Well, you only have two depots. Is that 
enough to take care of all your stuff?
    General Amos. I only have two what?
    Mr. Kingston. Depots.
    General Amos. It is. It is. In fact, right now, both in 
Albany and Barstow they are working--at least at Albany, I am 
not sure about Barstow, but Albany is working one shift. They 
have the capability through contractors, through temporary 
hires, through overtime, to easily go to two shifts; and they 
are prepared to do that.
    In fact, the plan is under way right now, as we retrograde 
that equipment out of Iraq, that I talked about earlier, that 
will find its way to Blount Island and from Blount Island it 
will get dispersed to either Albany or Barstow for rework. And 
I have been assured that there is plenty of space, head space, 
to be able to rework all the equipment we have.
    Mr. Kingston. So there is actually maybe even a little more 
capacity in Albany than you are utilizing.
    General Amos. There is, sir. In fact, I can tell you, I 
have got it in here, we are doing a significant amount of work 
right now for other companies, other services at Albany.
    Mr. Kingston. In fact, as I recall, about 5 years ago you 
up-armed the Humvees for the Army at Albany.
    General Amos. I can't tell you specifically. I can tell you 
how many Humvees we did at Albany.
    But I will give you an example. Last year, fiscal year 
2008, we did $392 million worth of business at Albany for the 
Marine Corps. The other services we did $85 million, and for 
commercial contracts we did another $26 million.
    So it really becomes a business at Albany. And the 
commander there, Major General Williams, looks for business 
wherever he can get it. He has the capacity to blow that up to 
two shifts a day and take all that stuff in.
    So we do business for the Army, I am sure, but I just can't 
tell you. I don't have those figures in my data.
    Mr. Kingston. Mr. Bishop knows more than I, but I am 90 
percent sure that they did start up-armoring the Humvee for the 
3d Infantry in maybe 2004 or something like that.
    General Amos. I will tell you, we took 934 Humvees in 
fiscal year 2008 and rehabilitated them there at Albany.
    Mr. Kingston. With all the reset that is needed, is there 
more that the depots can do for you right now?
    General Amos. When you say, ``Is there more they can do,'' 
I mean, right now, they are doing everything that we have asked 
them to do with regards to equipment. Where the more comes in 
is, we have got to get them the equipment to be able to work on 
and to be able to rehabilitate. And that goes back to what 
Congressman Young said earlier, How much of that stuff are you 
going to bring out of Iraq? And we never really answered that 
question.
    We are going to bring everything out of Iraq unless it is 
sitting over in a junk pile because it has been blown up, or 
the U.S. Government has authorized a foreign military sale to 
Iraq, the country. But we are going to bring everything back, 
and it will be triaged there at Blount Island. And if it is 
good or it is cost effective to rehabilitate it, then we are 
going to send it to other depots.
    Mr. Kingston. I appreciate that. And I don't know if Mr. 
Bishop has any questions that we can yield on our time.
    With that, Mr. Chairman, I would yield back.
    Mr. Murtha. Mr. Rothman.
    Mr. Rothman. Mr. Chairman, I would be willing to yield to 
Mr. Bishop now since he represents Albany.
    Mr. Murtha. Mr. Bishop.

                              RESET FUNDS

    Mr. Bishop. Thank you very much, my colleague, and thank 
you, Mr. Chairman.
    And welcome again, gentlemen. Reset funding and 
prepositioning equipment sets, two issues that are very 
important to me, very important to Albany as far as the Marine 
Corps is concerned, but let me deal with the Army first.
    This Committee over the past few years has appropriated 
about $8 billion to the Army for reset; and as I understand it, 
about $3.7 billion of that has been obligated. But the Army's 
equipment on hand continues to be an inhibiting factor in the 
readiness status of the forces.
    And it is expected that the Army is going to request 
additional reset funds in the 2009 supplemental. But, of 
course, we don't know what, because I think the Secretary is 
not willing to have that discussed while the budget is still 
being formulated.
    But are you facing any major capacity problems? Is the fact 
that production challenges that are facing the Army reset in 
terms of depot capacity and industry--because I know we were 
doing some of your depot work in Albany, as Mr. Kingston 
alluded to--and do you still have equipment in depots, like in 
Anniston, still sitting out or waiting for repair? And what 
will this supplemental funding request do to your reset 
requirements?
    General Chiarelli. Well, I can tell you there are depots 
who are just doing a magnificent job on reset. And the capacity 
and ability of the depots to reset our equipment, particularly 
given our short dwell time back at home, has been one of the 
true success stories of this conflict.
    Mr. Bishop. I don't mean to interrupt you, but they are 
telling me that lined up outside the depot in Anniston are tons 
and tons of these damaged vehicles that have been sent back.
    General Chiarelli. Let me take that for the record, sir, 
and go and check on the exact conditions in Anniston.
    [The information follows:]

    In order to provide a comprehensive response regarding equipment 
backlog at ANAD, we have verified our depot capacity and programs for 
critical systems at ANAD and the remaining four maintenance depots: 
Corpus Christi, Letterkenny, Red River, and Tobyhanna Army Depots. We 
continue to have ample capacity to meet Army requirements.
    The few cases where our depots have not been able to meet the Army-
directed production schedules have been the result of supply chain 
issues or lack of unserviceable assets, and not the capacity of our 
depots. For example, at Anniston, our slower-than-required production 
of M2 machine gun production during the first part of fiscal year 2009 
(FY09) was the result of nonconforming parts in the supply system. Army 
Materiel Command, Defense Logistics Agency, Headquarters, Department of 
the Army and parts suppliers worked together to resolve these problems. 
Once acceptable parts were available in sufficient supply, ANAD was 
able to quickly increase its production of M2 machine guns from 400 per 
month in 1st Quarter FY09 to 700 per month to meet the Army 
requirements. An example of unserviceable asset shortfall is the M1114 
HMMWV program at Red River Army Depot. Currently there is a shortfall 
of several hundred vehicles scheduled to be shipped from Southwest Asia 
that have not yet arrived, therefore, impacting the production 
schedule.
    Our depots have the capacity to accomplish additional workload in 
all areas, especially considering the additional capability we have 
available through partnering arrangements and national maintenance 
contracts with original equipment manufacturers such as Oshkosh, 
Raytheon, and Boeing Aerospace Engineering.

    Mr. Bishop. Okay. You may continue.
    Sir, were you done?
    General Chiarelli. I will tell you that some of that 
equipment readiness that you allude to is masked by the fact 
that when a commander doesn't have his equipment and it is in 
reset, when he is reporting against equipment on hand, of 
course that equipment is not on hand, it is in reset, which 
makes his C-rating or D-rating go down, particularly his C-
rating. His D-rating really never catches up to get up to where 
we want him to be at D-1 until he gets over and falls in on the 
theater-provided equipment that is only available in Iraq and 
Afghanistan for him to fall on.
    And all our units that are in Iraq and Afghanistan are C-
1--or D-1 for its equipment.

                         PERCENT EFFECTIVENESS

    Mr. Bishop. You haven't implemented the D-ratings as yet; 
you are just in the process of implementing those.
    You haven't fully implemented the D-ratings yet, have you?
    General Chiarelli. We have not, but we have the percent 
effectiveness ratings. And a large majority, or lower percent 
effectiveness ratings you see now, although you can't see it 
because we have never provided that specificity that I talked 
about earlier, a large reason why those percent effectiveness 
ratings stay low until it gets over there is because it falls 
in on that theater-provided equipment.
    Mr. Bishop. Exactly. And that gets us to the question of 
other contingencies.
    If the unit is ready when it is deployed, but the part of 
the unit that is not deployed, that is back home, is in a state 
of unreadiness, a very, very low state of readiness; is that 
not correct? Because the equipment is deployed, the personnel 
is deployed, and basically the unit is depleted except for the 
stay-at-home portions.
    General Chiarelli. At the current demand for our units our 
ratings are lower than they would be if we were able to get 
more dwell time. But right now we have over 32 units when you 
figure in the friction deployed brigade combat teams around the 
world, 32. That is a huge number. And that is why you have that 
dwell time, that 1 year deployed, 1.3 at home.
    Mr. Murtha. Mr. Rothman.

                         FORCES OUT-OF-BALANCE

    Mr. Rothman. Thank you, Mr. Chairman.
    Thank you again gentlemen. Good to see you again. And thank 
you for your service, really outstanding.
    You each in your respective written testimony, and I am 
sorry I was late for your oral testimony, so if you covered 
this the answer to this question, I apologize.
    Talk about your forces out of balance. Does that sound 
familiar? And the question is, given the present trend in 
funding that you reasonably anticipate in the upcoming 
supplemental and in the future, how long before it will be 
before the Army and, respectively, the Marines are in balance?
    General Chiarelli. My in balance number is a factor of 
demand, and that is what is causing me to be out of balance. It 
takes me time to reset both people and equipment. And with only 
a year plus a couple of months between deployments, that is 
what has put me out of balance.
    We expect and we hope----
    Mr. Rothman. So, General, it is not about funding then, per 
se?
    General Chiarelli. My out-of-balance problems right now are 
primarily because of demand, and we hope to be in balance where 
we are 1 year deployed, 2 years at home, or close to--or 18 
months at home; I am sorry, 1 year and 18 months at home. We 
hope to be there by 2011.
    Mr. Rothman. Thank you.
    General.
    General Amos. Sir, I put in my written statement the 
estimate that $20 billion--and I am not getting out ahead of 
OSD on this, but $20 billion today is the rough reset cost for 
the Marine Corps. There are a couple of points I would like to 
make. If the war ended today and we said, this is it, everybody 
come out of Iraq, come out of Afghanistan, it would probably 
take 5 years for the Marine Corps to get rebalanced or 
readjusted. And that is not because Congress isn't being 
generous.
    It is a function of production lines and contracts and some 
things that have gone out that they aren't even making anymore, 
legacy systems, and being placed with a newer generation of 
equipment.
    But $20 billion is a rough assessment. I am told that my 
predecessor, General Magnus, when he sat here last year, when 
asked that question, said it would be about $15 billion.
    I asked my staff. I said, well, so far this Committee has 
generously given the Marine Corps a little over $12 billion for 
reset. So I said, What have we done with it?
    Well, we have gone and we have bought new Humvees, we have 
bought new LAVs, we have bought the stuff that has been blown 
up, the stuff that you see on TV, we are wearing stuff out at 
six times the rate that it was built for. The Humvee, I think, 
has typically averaged 7,000 miles. We are wearing them, out.
    Mr. Rothman. I get it. We have got to grow the force, but 
that all depends on demand on even a growing force, and then 
replace the burned-out equipment.
    I want to make sure I ask one last question, General 
Chiarelli, and I apologize if I am the only one who doesn't 
know the answer to this question. You said in your statement 
only three out of ten applicants are even eligible for military 
service--three out of ten applicants, people applying. Could 
you explain that, please?
    General Chiarelli. They have disqualifying conditions, 
everything from schooling to health problems to obesity, that 
make it impossible for that portion of the population to join 
the Army. So out of every ten Americans that are in that 
population only three qualify.
    Mr. Rothman. Three applicants. That is amazing. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Ms. Granger.
    Ms. Granger. I don't have any questions.
    Mr. Murtha. Mr. Hinchey.

                 TRAINING, CAPABILITIES, AND EQUIPMENT

    Mr. Hinchey. Thank you, Mr. Chairman.
    Thank you, Generals. Thank you very much for your 
leadership and the very important work you are doing for this 
country. Thank you all very much. I appreciate it.
    But reading through the information, I just get the 
impression that your job is getting more difficult and has 
gotten more difficult over the last several years. The 
condition of many people in both the Army and the Marine Corps, 
their capability, the capability of dealing with issues, has 
declined substantially since the invasion of Iraq.
    According to the information that we have, at least 50 
percent of the Army was C-2 or above, and 80 percent of the 
Marines was C-2 or above. Now 15 percent of the Army is C-2 or 
above, and about 50 percent of the Marine Corps is about C-2 or 
above.
    And what you were just answering about the qualifications, 
also, I think, has something to do with that, because the 
qualifications for enrollment in the military declined over the 
last several years. And I think that that has put the military 
in a rather rough situation, in a more difficult set of 
circumstances.
    What do you think should be done about this? Do you have 
any plans? I know you are thinking about it. But do you have 
any ideas about what should be done, how we should handle this, 
how we can deal with the effectiveness of the military now that 
we have 17- going in, 7- of the 17,000 going into Afghanistan, 
particularly in dealing with a different kind of complex 
situation there, different than the circumstance that they have 
been dealing with in Iraq?
    General Amos. Sir, I will take it on first.
    Back to the--kind of the beginning of what you said, 
Congressman, I want to assure you that the C-3 and C-4 ratings, 
especially when it comes to personnel, are not a function--and 
it comes to training--are not a function of the quality of the 
young man or woman we have in, because that young man or woman 
is better today than they were when we crossed the border in 
March of 2003. The quality is there; I can assure you of that.
    The Marine Corps hasn't lowered its standards on anything. 
In fact, just by virtue of the numbers have increased in their 
recruiting. So the quality of it is more than bravery. It is 
that young man or woman making those decisions that we talked 
about in the very last hearing that we were in here. So I want 
to assure you of that.
    The second piece of it is that the training part, when it 
comes to the lower rating of C--50 percent for us, and I really 
think it is 47 percent of our deployed; our nondeployed units 
are at C-3 and C-4--that is strictly a function of the fact 
that we have stripped out those principal players that we need 
back home, to train, and have deployed them in the way of 
individual augments, joint manning documents.
    We have taken a large percentage of the Marine Corps, and I 
think I speak for the Army, and put them forward along with the 
combat forces. So you don't have the leadership back home in 
some cases. It is not willy-nilly. It is not, the prisoners are 
running the battalions. That is not it. But you lack some of 
those unique skills back in the rear.
    The other thing I will tell you is that the equipment piece 
of this thing, we have the bulk of the equipment we need. Now, 
we are wearing it out, blowing it up and whatever, and it is in 
pretty good shape; but we have taken a larger percentage of 
that stuff back in the rear and moved that forward. So now the 
folks in the rear don't have all the equipment that they need 
to train on.
    It is not a function of, you didn't give us the money. We 
have been buying everything that we could get our hands on. But 
the fact of the matter is that the requirements in Iraq and 
Afghanistan are significantly greater equipment-wise for an 
individual unit.
    I will give you an example. A typical infantry battalion in 
the Marine Corps has about 40-plus Humvees. The ones in Iraq 
right now are running around about 160 and 180 Humvees, because 
they are spread out.
    So that is where the equipment has gone. It is in good 
shape. We just don't have enough of it back in the rear to get 
the training levels of--to be able to increase the C-ratings 
that we are talking about.
    General Chiarelli. I have very little to add to what Jim 
says.
    The number one thing to improve those C-ratings for the 
United States Army would be to increase the time at home 
between deployments. It just has such an effect; it has an 
effect on equipment.
    But what we are seeing and what I am faced with right now, 
since the Secretary of the Army has put me in charge of taking 
a look at this whole problem we have with the stress of the 
force and the suicides, the increase in suicides that we are 
seeing, is the stress on individuals. And there is no doubt in 
my mind that when you are on deployments, third and fourth time 
on 12-month deployments----
    I did mention to the chairman just before we started, and I 
think it is noteworthy, that we won't get our last combat 
brigade off of 15-month deployment until June of 2009. We will 
not get our last combat service support and combat service unit 
off of a 15-month deployment until September of 2009 because 
they all deployed before August of 2008 when we went to 12-
month rotation. So that is very, very difficult.
    Those units will come home after a 15-month deployment, and 
if demand stays the same and we are at 1.3, they won't even get 
a 1-to-1 dwell log ratio.
    So many of the problems that we see today, I believe, will 
be well on their way to being solved if we can extend that 
amount of period. And that is what General Casey talks about: 
Get the units back in balance, so they can both train on their 
deployment medal, their core medal, and you will see 
improvements there; and then help recover people and equipment.
    Mr. Hinchey. Thank you.
    Mr. Bishop. Will the gentleman yield?
    Mr. Hinchey. I think my time is up.
    Mr. Murtha. Mrs. Kilpatrick.

                              DEPLOYMENTS

    Ms. Kilpatrick. Thank you, Mr. Chairman.
    The title of this closed hearing is Readiness--I think the 
last two or three, and we are getting around the corner.
    We are not ready. I don't feel like you are ready.
    The 1 to 1.3, which I believe is mandatory, you had two 
young sergeants here earlier today that have been deployed 
twice. Using them as an example, did they get the 1.3? Are we 
about to send them back to Afghanistan without it?
    There was one of each. I know that is an average, so maybe 
one did and one didn't.
    General Amos. Sergeant, the Marine sergeant got 1-to-1 
dwell between. He is working for me right now, so he is into 
his dwell. But between deployments he was gone 7 months and 
home for probably 7 months, maybe even 6 months.
    Ms. Kilpatrick. And is that in the States or was he with 
his family for those months?
    General Amos. Yes, ma'am.
    Ms. Kilpatrick. Yes, ma'am, what? I mean, was he back here?
    General Amos. He was back here.
    Ms. Kilpatrick. Here in the U.S.?
    General Amos. He was back here in the United States. He was 
back at Camp Lejeune between the deployments.
    Ms. Kilpatrick. I guess I am asking, in that 1.3 or 1.8 
that you talk about that is out of the theater, back in the 
States, is that also included with their family or is that not 
included?
    General Chiarelli. I would be more than happy to take that 
on, because I get beat up every time I go to a spouse group of 
deployed spouses. I say, Well, we are giving your husband 1 
year at home, and I get fingers in my face saying, No, you are 
not, General; don't tell me that, General. My husband comes 
home, he has to go to a noncommissioned officer course for 2 or 
3 months. He comes back, he is now in his train-ready phase, he 
goes to the field to train up because we have to train before 
we deploy.
    They say, Don't tell me, General, that my husband is home 
for 12 months; he is not with me for 12 months.
    Ms. Kilpatrick. But is he in the house for 12 months?
    General Chiarelli. No, he is not, when he deploys from Fort 
Campbell to Fort Knox before he goes to the field, and his wife 
is back at home.
    Ms. Kilpatrick. And back at home is in another State?
    General Chiarelli. No, it is probably right there, ma'am.
    Ms. Kilpatrick. I think that makes a difference. And you 
all have said that over in everything we read--family contact, 
children contact is so important.
    So I think we are ready because you said so, and I wouldn't 
second-guess that. But I think not because of the suicides, the 
tension, how we are sending, we are sending you to a new 
terrible terrain for another increase in the war that we have 
been in before we even started in Iraq.
    And you talked about the demand, General. Demand is going 
to be more, it is not going to be less. And your men, 
particularly in the Army men and women, are going to be more 
tired and more worn out because of the short times home, 
because of the toughness of their assignment.
    The chairman said over and over again that we want to help. 
And I know you all are good stewards, and I appreciate your 
service and all that you are doing. But we can't help if we 
don't know. And our number one goal is to save and serve the 
men and women that you command, that they can be whole and well 
and alive when they come back.
    And this is a closed hearing, so I just expected to hear 
something more closed. I am kind of hearing the same thing. And 
I know that is what you are supposed to do, you are in my range 
absolutely and all that.
    But having said that, I don't feel good that we are 
protecting our men and women who commit their lives to our 
country. You are doing the best you can with what you have, but 
I just don't feel like we are helping enough and you are not 
giving it to us enough.
    Nothing to take away from you. It is just that since I am a 
lay and new and all of that. They deserve everything they need, 
much of which is home with their families and that wife you 
just described.
    Being out of theaters is three-fourths of the battle; that 
is good. And of course they have to keep training. But they 
also need time so their children can be healthy and their wives 
can be. Do you know what I mean? That unit and that extended 
family, I don't think anything substitutes for that.
    And whatever we have to do to get you there, which may be 
more enlisted. I mean, let us up the numbers. Nobody has talked 
about that in any of the meetings I have been in yet and how we 
do that. Is that necessary? No one has spoken to that.
    So thank you for your service. I don't even want you to 
answer unless you feel compelled to do so. I have got a raw 
feeling right here. And the demands are going to increase; war 
is not going to end.
    Arbitrarily bringing them home this October or this June, 
that is too arbitrary. And I don't know, Joint Chiefs of Staff, 
they must say something to the President. But together we have 
got to make it better. Ending both of the wars and bringing all 
of the soldiers home is my first wish in life.
    But what you do is major, and it is also tragic. And it is 
war; we are at two wars, so nothing is the same.
    Mr. Chairman, thank you, sir.
    Mr. Murtha. Mr. Young.

                     INDIVIDUAL READY RESERVE (IRR)

    Mr. Young. Just one question. On the IRR, as you deal with 
all these personnel issues, how often have you had to use call-
ups from the IRR?
    And the second part of that question, how long is a person 
considered to be a member of the IRR or subject to call-up from 
IRR?
    General Chiarelli. Any numbers I would give you, sir, would 
be swags right now. If you would let me take that for the 
record, I will get you the exact numbers we are calling up 
right now and try to give you some historical data on the 
number of IRR that we, the United States Army, have called up. 
And I am not sure what the age restriction or time out of the 
service is for calling up the IRR, but I will find out and get 
it to you.
    Mr. Young. That would be fine. Thank you.
    [The information follows:]

    Over the past eight years, the Army has used the Presidential 
Reserve Call-up Authority twice: once for operations in Kosovo and also 
for operations in Bosnia.
    Ready Reservists are currently called to active duty pursuant to 
title 10, US Code, Section 12302, for a period not to exceed 400 days: 
365 days involuntary mobilization, plus 35 days authorized for out-
processing and post-mobilization leave.

    Mr. Murtha. Mr. Dicks.

                         STANDARDS FOR RECRUITS

    Mr. Dicks. Thank you, Mr. Chairman.
    In December--excuse me.
    In addition, for 2008, 83 percent of the active Army met 
the high school diploma benchmark. The Marine Corps, on the 
other hand, attracted highly qualified recruits; 96 percent of 
the Marine Corps recruits are high school graduates, and 66 
percent score in the top three categories in the Armed Service 
Vocation Aptitude Battery Test.
    General Chiarelli, with the state of the economy and people 
more willing to join, will the Army be able to raise its 
standards of recruits from what it has been?
    General Chiarelli. We already have, sir. We have already 
stopped giving the waiver for adult major misconduct. It is no 
longer given. So if you are considered an adult in a State and 
conduct some kind of major misconduct and are found guilty of 
that major misconduct, you cannot join the United States Army. 
That is no longer a waiver.
    I have been following the recruiting figures here in the 
last couple of months. And I think you know that it is very, 
very hard, at least for the United States Army, to get over 90 
percent of the high school graduates in January. Those numbers 
usually go up when you get near the school time and people come 
out of school.
    We have seen our numbers up over 90 percent in the last 2 
months that I have checked, in high school graduates. We are 
because of--and I think it should be, you would all 
understand--seeing a tremendous improvement in the quality that 
we are able to attract to the United States Army because of, I 
am sure, the economic situation our Nation finds itself in.
    Mr. Murtha. Could you be more specific? Exactly what is the 
difference?
    I mean, when you went to a volunteer Army, the reasoning 
was, you would have more high school graduates, the standards 
would be higher, we don't want draftees. That was where you 
were, and where are you going now?
    General Chiarelli. I don't have those figures right in 
front of me, but I know we were down as low as 79 percent. I 
expect those numbers to steadily increase; I know they are 
already up in months.
    Mr. Murtha. Send it for the record.
    General Chiarelli. I will. I will provide you those Mr. 
Chairman.
    [The information follows:]

    In fiscal year (FY) 2005, the regular Army's Tier 1 Education 
recruiting accomplishment (i.e., high school graduates and above) fell 
below DoD's Standard of 90% for the first time since FY83. 
Specifically, the Army's Tier 1 Education recruiting percentage fell to 
87% in FY05, decreased to 81% in FY06, and reached a 79% nadir in FY07 
before rebounding to 83% in FY08.
    In response to this problem, Army leaders implemented programs and 
policies to attract more new recruits with a Tier 1 Education 
credential. Currently, the Regular Army's New Recruit Tier 1 Education 
percentage is 94% and the Army is expecting to close-out FY09 close to 
that percentage.

    Mr. Dicks. General Amos, even though the Marine Corps is 
growing to an end strength of 202,000, the Marine Corps has 
always been very successful at maintaining a high level of 
recruits. Can you explain why?
    General Amos. Sir, the quality of recruits, even from last 
year, has gone up from 96 percent, 96.2 percent high school 
graduates, to 97.2 right now. So I will tell you, I think we 
have it a little bit easier. And I mean that because we recruit 
to a very narrow slice of the American society--the clear 
majority of young men and women don't want to join the Marine 
Corps--and we have an attraction to that very narrow band. We 
promise them----
    Mr. Dicks. Like Mr. Murtha and Mr. Young.
    General Amos. And his brothers and his nephews. But we do, 
and so we have a very narrow band.
    Our numbers, we are going to recruit about 42,000 this 
year. We are well on our way. In fact, we are having to slow 
down the recruiting a little bit. It has been very successful.
    But I do think we have it a little bit easier. And I tell 
you that the young men and women, the athletes, they come out 
and they say, I want to be a part of that organization. It is 
attractive to them. So it has been good to us.
    Mr. Dicks. What about--how do you do your recruiting? Do 
you have professional people that are officers or not NCOs? Who 
do you use to recruit.
    General Amos. Sir, we use NCOs. We have officers that are 
the commanding officers; the recruiting stations, we have 
officers to recruit officers; but the clear majority of our 
recruiters are young sergeants and staff sergeants.
    And the recruiting screen team goes out once a year and 
they pick the best that we have out there. We force them, in 
many cases against their will, to come in to become a 
recruiter. We train them, and then we send them out for 3 
years, and we hold them accountable.
    So it is our NCOs. These kids are ripe. Half of them, in 
fact, probably almost all of them, are wearing combat ribbons 
with multiple deployments. The only reason they don't want to 
go become a recruiter is because it is probably the hardest job 
in the United States Marine Corps. They would rather be in 
combat than have to go around and try to recruit two, three 
recruits every single month per man.

                           TRAINING EQUIPMENT

    Mr. Dicks. That is a good point.
    Going back to just one thing, and I will be done, Mr. 
Chairman. To both of you, what has been the greater hindrance 
to full spectrum readiness--equipment on hand or trained 
personnel or both? It is the equipment that is the problem, 
right? We don't have enough equipment at home to train the 
people when they come back?
    General Chiarelli. My number one problem, sir, is time at 
home to get to those C-ratings that you are looking at. It is 
time at home to do that training in addition to your deployment 
training, because they are two different training sets.
    Mr. Dicks. But we do have a lack of equipment?
    General Chiarelli. We are able to get----
    Mr. Dicks. I know the Guard and Reserve--the Guard does, 
for sure. What about the Army?
    General Chiarelli. We are making great improvements. Thanks 
to the work of this committee, we are making great improvements 
on Guard equipment also, sir.
    It is time at home for the active component force rate.
    Mr. Dicks. That is your biggest problem.
    General Amos.
    General Amos. Sir, there is equipment shortfall back home. 
Again, the aggregate number of pieces of equipment are in the 
Marine Corps. There is just a disproportional amount of it 
forward deployed because of the increased requirement in 
theater, which means we don't have as much we need back at the 
home station to train. So that is absolutely correct.
    The other thing that we lack back home is the time to 
train. Even if we had the equipment back here to be able to do 
the other full spectrum operations, that other piece of the 
balanced core capabilities that you expect of your Marine 
Corps, we don't have enough time to do those kinds of things.
    We are going to get there. I think we are headed in the 
right direction. And I would like to be able to come back a 
year from now and say, I think things are--I think we are 
getting back, I think our dwell is getting better, I think we 
are able to do some of the amphibious kinds of things that you 
expect your Marine Corps to be able to do.
    We just can't do all of that right now. We do pieces of it, 
but we can't do it universally across the Marine Corps.
    Mr. Dicks. Thank you.
    Mr. Murtha. Let me add the recruiting of the Marine Corps.
    Now, when I joined, my mother cried the whole way to the 
recruiting station. And she cried and cried and cried. She 
wanted me to finish college. Then, when my second brother went, 
she cried; the third brother went, she cried.
    The fourth brother, she joined me and said, I am afraid he 
is going to join the Army. So the information the Marine Corps 
puts out has something to do with recruiting people.
    Ms. Kaptur.
    General Amos. Sir, you have got to remember this guy to my 
right is my blood brother right now.
    General Chiarelli. That is okay, sir.
    Mr. Murtha. Ms. Kaptur.
    Ms. Kaptur. Mr. Chairman, I arrived late, so I prefer just 
to listen for awhile.
    Mr. Murtha. We have reached the end.

                                TRAINING

    Ms. Kaptur. Since I haven't heard all the questions, I want 
to thank both Generals for appearing today, and I am sure 
someone else has asked about where and how irregular warfare 
training will be done.
    Has somebody else asked that question?
    Mr. Dicks. We just barely got into it. I think it could be 
followed up on.
    Ms. Kaptur. I was very interested in Secretary Gates' 
statements back in December. And I am just curious at this 
point, for the Corps and the Army, how you are thinking about 
this irregular warfare proposal and where such training would 
be done and how it would be done.
    General Amos. Ma'am, if I can just answer for the Marine 
Corps, it is already being done. It has been done now for the 
last several years, and that is the reason why we have met with 
such success in Iraq.
    We are doing that through not only our professional 
military education, the actual in-house schools that Marines go 
to, but also the training out on 29 Palms, the desert training, 
the things that we call home station training. We do language 
training, we do immersion language training back at the units 
before they even go to the advanced training before they 
deploy.
    We have stood up a Center for Irregular Warfare in the 
Marine Corps. We have stood up a Marine training and advisory 
group which deals with that kind of--that hybrid warfare, kind 
of helping other nations train their military and their police. 
We are doing that right now and we are doing it quite well.
    So we have actually--if you were to say, Marine Corps, 
start irregular warfare training today, I would look at you, 
ma'am, and I would say, ``Ma'am, we are already doing it.''
    When I say, ``There is nothing else that needs to be 
done,'' I don't mean it to sound arrogant, like. I am just 
saying that we have invested a significant amount of the Marine 
Corps training and retorqued it so that we take those young men 
and women and just train them in hybrid warfare.
    Ms. Kaptur. But--your focus is on training your own force, 
but then transferring those skills from a security standpoint 
to the host nation? It does not involve the development of 
civilian systems?
    You stop at the security mission, correct?
    General Amos. Actually, what we do is capitalize on the 
civilian mission.
    For instance, we have police forces. It started with the 
Los Angeles police force, and the Army has it, and we actually 
bring policemen in. A lot of them are Reserves. And we bring 
these law enforcement teams in and they help us; they help 
teach us how to train Iraqis and Afghanis.
    So there are skill levels that are out there that we bring 
in to be able to train other countries. Law enforcement is a 
good example.
    I will tell you one that we need to bring in and develop, 
and that is probably agriculture. When you start thinking about 
trying to transition the poppy fields in southern Afghanistan, 
we are going to need that help.
    Now, I will be honest with you, we have had some talent 
within our services. We have got farmers, but we are going to 
need some help from the other agencies to come in and try to 
give the Afghanis an alternative to growing poppies.
    But there is a good example of some stuff that really needs 
to come into our service to help us.
    Ms. Kaptur. What about Army?
    Thank you, General.
    General Chiarelli. Just to build on that, Jim's last point, 
we have since stood up agriteams. They are National Guardsmen 
from farm States. I just visited one at Camp Atterbury here a 
couple of weeks ago. It was an amazing sight to see, 60 men--
farmers with guns, so to speak--who had been partnered with 
Purdue University for a 9-month period. They were learning the 
exact dialect of Urdu that they would be deploying into in 
Afghan and, at the same time, learning farming techniques that 
could apply in Afghanistan--not the ones that would be used 
here in the United States in Nebraska or Iowa, but the ones 
that could be used in Afghanistan.
    These teams are strategic in nature. They have strategic 
impact. It is one of the most successful programs that we have 
going. We are doing the same kind of thing in our national 
training centers and have been doing it now since 2003-2004.
    I might just add, when I took the 1st Cavalry Division to 
Iraq in 2004, I had to drag my officers kicking and screaming 
to cultural awareness classes and try to get them to pick up on 
their own a little bit of Arabic. When we left, I did an AAR, 
after action review, with young captains and lieutenants. I 
didn't do it, I had a major do it, so I would get through.
    The two things that they said that they would have changed 
in their training program before coming over would have been, 
number 1, ``I would have had more cultural awareness 
training,'' and number 2, ``If you would have brought me to the 
level of language proficiency I was on day 90, I would have 
been there on day 1. If you are all forced to learn the 
language, you just want to have those skills on day 1, rather 
than day 90.''
    I am proud of all our forces and how we have done that.
    Mr. Murtha. Ms. Granger.

                              TIME AT HOME

    Ms. Granger. Thank you.
    Today, we have talked about training and equipment, 
recruitment, meeting your recruitment goals, and contractors. 
But you say the biggest problem is time at home.
    It does go back to Ms. Kilpatrick's question. It is obvious 
to me, you either need more people or you need less mission. So 
is it more people or are you doing--for instance, when you 
talked about, it was quoted, ``rebuilding the house,'' well, is 
it the military who should be rebuilding the house or less of 
that mission?
    General Amos. Ma'am, this Committee 2 years ago, when the 
Marine Corps said, ``We need to grow to 202,000 to increase the 
dwell time''--in other words, to give us that breather in 
between so we can do the things that we have just talked 
about--this Committee supported it in money, in spirit and 
right on up to the fact that we are just about there. So it is 
a function of, you need more people.
    But what has happened in that same period of time, the 
demand in many cases has increased. In other words, when the 
Marine Corps said, ``We need to grow to 202,000,'' the Marine 
Corps was sitting with about 23,000-24,000 Marines on deck in 
Afghan and Iraq. We had nobody on deck in Afghanistan.
    Today, we have about 22,000 Marines in Iraq; 2,300 on deck 
in Afghanistan, putting another 8,000 in there.
    So what has happened is we have begun to eat some of that 
elasticity that we hope to be able to provide our forces back 
home. Now, that is the bad news.
    The good news is that I think the way we are going with a 
drawdown in Iraq and what I hope is a right approach in 
Afghanistan, I think we are going to be able to see what you 
are talking about. But you are not going to see it right now. 
You won't see it in the Marine Corps for probably another 18 
months.
    General Chiarelli. I can control just about everything but 
demand, ma'am. And that is the problem I have right now. The 
demand for Army forces is so great.
    As I indicated, we have 26 brigades deployed worldwide, not 
just in Iraq and Afghanistan, but in other places. The brigade 
that is sitting in Korea today might as well be sitting in the 
middle of Baghdad because I can't get at it. It is deployed.
    And in addition to that, replacing those brigades takes me 
another six brigades' worth of friction at any one time, 
because for a period of time, I have two brigades doing the job 
of one.
    So when you get up in numbers of over 30 that is where I am 
seeing the stress on the forces, in that short period of time 
they have back home, that dwell time, in order to meet this 
demand. And that is the only thing I can't control right now.
    Ms. Granger. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Dicks.

                             AIR REFUELING

    Mr. Dicks. General Amos, whe the Air Force acquires a new 
tanker, would you like it to be able to refuel the Marine Corps 
Osprey, as a personal matter?
    General Amos. Sir, I think you asked me that question last 
year, didn't you?
    Mr. Dicks. Yeah. I think you said ``yes'' last year, too, 
as I recall.
    General Amos. As a matter of fact I believe I took that for 
the record because I didn't really know.
    I know the MV-22 Osprey tanks behind Marine C-130s and Air 
Force C-130s and airplanes like that.
    I don't know that--I think the answer I got; I had better 
be careful here--I don't think we tank the V-22 off of Air 
Force C-135. In fact, I know we don't.
    Mr. Dicks. Wouldn't it be in terms of just flexibility, if 
you would be able to have the ability to do it?
    General Amos. Sir, I am a pilot and I have tanked off of 
every kind of airplane airborne and you can never have enough 
gas.
    So does that----
    Mr. Dicks. Thank you.
    Mr. Murtha. The hearing is adjourned until 10:00 a.m., 
Thursday, March 12th.
    Thank you very much, Generals.
    [Clerk's note.--Questions submitted by Mr. Boyd and the 
answers thereto follow.]

                                Sincgars

    Question. When does the Army expect to make an award on the Request 
for Proposal for SINCGARS?
    Answer. The Army expects to make an award at the end of May 2009. 
The Army delayed the award due to Section 113 of the Duncan Hunter 
National Defense Authorization Act for Fiscal Year 2009, (Public Law 
110-417). Section 113 restricts obligation or expenditure of not more 
than 75 percent of the Fiscal Year 2009 funding until 30 days after the 
Assistant Secretary of Defense for Networks and Information Integration 
provides Congress a report on Army Tactical Radio Fielding Plans. The 
Assistant Secretary of Defense for Networks and Information Integration 
provided the report in April 2009.
    Question. Is the $87M that was fenced in the FY09 Defense 
Appropriations bill included in this RFP award?
    Answer. Yes. The funding will be released to the Program Management 
Office once the following two items are completed: (1) 30 days after 
Congress received the Army Tactical Radio Fielding Plan from the 
Assistant Secretary of Defense for Networks and Information Integration 
in April and (2) The Consolidated Security, Disaster Assistance, and 
Continuing Appropriations Act, 2009 (Public Law 110-329), page 244, 
provides that none of the funds in this Act shall be used for 
procurement of Single Channel Ground and Airborne Radio System 
(SINCGARS) radios until the Secretary of Defense certifies to the 
congressional defense committees that any such procurement of SINCGARS 
radios will use full and open competition to provide the best value for 
the Army radio requirements including consideration of multi-band, 
Joint Tactical Radio System (JTRS) solutions.
    The Office of the Secretary of Defense has given the Secretary of 
the Army the responsibility to address this issue because the Army has 
responsibility for procuring the SINCGARS radio and this certification 
was provided to the Congressional Defense Committees in April.
    Question. How many suppliers are eligible to compete for this RFP?
    Answer. The RFP is open to all manufacturers that can supply a 
tactical radio meeting the minimal requirements listed in the RFP. The 
Army's market research indicated at least two potential suppliers.
    Question. What is the Army's plan for acquiring Commercial off the 
Shelf (COTS) radios that can meet Operational needs per the FY07 GWOT 
directive?
    Answer. The Army responded on June 21, 2007 to the FY07 GWOT 
language provided in House Report 110-60, page 126.
    The Committee directed the Army report to the Congressional Defense 
Committees explaining the strategy to leverage available and qualified 
industrial capacity to produce the needed SINCGARS at a significantly 
faster rate.
    The Army discussed the matter with ITT Corporation who at the time 
was under a competitively awarded contract to produce SINCGARS radios. 
ITT committed to increasing production up to 10,000 SINCGARS per month 
in order to meet Army fielding requirements. A copy of ITT's formal 
commitment to support this increased production capacity was enclosed 
with the original response. Therefore, the surge in ITT production 
capability met SINCGARS fielding requirements and significantly reduced 
delivery times of the needed radio systems.
    The Army also conducted a market survey to determine if other 
qualified vendors could meet SINCGARS requirements to the 
specifications of the SINCGARS Operational Requirements Document (ORD). 
Only ITT was able to meet the full ORD requirements at that time.

    [Clerk's note.--End of questions submitted by Mr. Boyd. 
Questions submitted by Mr. Murtha and the answers thereto 
follow:]

                   Redeploying Contractors from Iraq

    Question. General Chiarelli, the Defense Department has a greater 
number of deployed contractors in Iraq than deployed Military 
servicemembers. How will you ensure that contractors will be redeployed 
proportionately to redeploying servicemembers? What is your schedule 
for redeploying contractors from Iraq?
    Answer. The Department of Defense, U.S. Central Command, and to a 
lesser extent the Department of the Army, continually assess the Iraqi 
personnel requirement to ensure the appropriate personnel strength to 
accomplish the mission. Logistics planning is in full swing to weigh 
the requirements for contracted support during redeployment, 
considering declining troop strength as well as increased need for some 
services, for example transportation, base closure and remediation 
support, and property management. The timeline for contractor 
redeployment may not mirror that of the Warfighters and may not be 
proportional. Additionally, as troop numbers grow in Afghanistan, some 
contractors may shift rather than redeploy. Redeployment timelines for 
combat forces and contractors are not discussed in non-secure forums 
due to operational security.

                 Medical Casualty Evacuation Timeframes

    Question. General Chiarelli, how long (in hours and minutes) has it 
taken to MEDEVAC personnel from Iraq to medical treatment facilities? 
How long (in hours and minutes) has it taken to MEDEVAC personnel from 
Afghanistan to medical treatment facilities? What is the MEDEVAC 
timeline goal? What is the Army doing to achieve MEDEVAC goals?
    Answer. Army analysis (data from Jun 08-Dec 08) shows that the 
average time to evacuate a wounded Soldier to a hospital in Iraq is 45 
minutes and the average time in Afghanistan is 1 hour and 20 minutes. 
Analysis continues, but preliminary numbers show an improving trend in 
OEF (during Oct 08-Dec 08 the average time was 1 hour and 11 minutes). 
The timeline standard for MEDEVAC is one hour. In fact, there is an 
ongoing joint effort to improve the MEDEVAC system to achieve the 1 
hour standard. The Army, as part of this effort, has sourced a forward 
surgical team and four UH60 MEDEVAC helicopters/crews. The Air Force 
and the Navy have also provided additional assets as part of this joint 
effort. In addition, the Army will deploy an additional forward 
surgical team, a medical brigade command and control headquarters, and 
an additional 12-ship MEDEVAC company as part of a combat aviation 
brigade deployment. We expect that the employment of these assets will 
move the MEDEVAC time to less than 60 minutes in MND-East and South.

                     Backlog at Anniston Army Depot

    Question. General Chiarelli, please describe the depot maintenance 
backlog for equipment to be repaired at Anniston Army Depot (ANAD).
    Answer. In order to provide a comprehensive response regarding 
equipment backlog at ANAD, we have verified our depot capacity and 
programs for critical systems at ANAD and the remaining four 
maintenance depots: Corpus Christi, Letterkenny, Red River, and 
Tobyhanna Army Depots. We continue to have ample capacity to meet Army 
requirements.
    The few cases where our depots have not been able to meet the Army-
directed production schedules have been the result of supply chain 
issues or lack of unserviceable assets, and not the capacity of our 
depots. For example, at Anniston, our slower-than-required production 
of M2 machine gun production during the first part of fiscal year 2009 
(FY09) was the result of nonconforming parts in the supply system. Army 
Materiel Command, Defense Logistics Agency, Headquarters, Department of 
the Army and parts suppliers worked together to resolve these problems. 
Once acceptable parts were available in sufficient supply, ANAD was 
able to quickly increase its production of M2 machine guns from 400 per 
month in 1st Quarter FY09 to 700 per month to meet the Army 
requirements. An example of unserviceable asset shortfall is the M1114 
HMMWV program at Red River Army Depot. Currently there is a shortfall 
of several hundred vehicles scheduled to be shipped from Southwest Asia 
that have not yet arrived, therefore, impacting the production 
schedule.
    Our depots have the capacity to accomplish additional workload in 
all areas, especially considering the additional capability we have 
available through partnering arrangements and national maintenance 
contracts with original equipment manufacturers such as Oshkosh, 
Raytheon, and Boeing Aerospace Engineering.

                        Individual Ready Reserve

    Question. General Chiarelli, how many times has the Army used the 
Presidential Reserve Call-up Authority over the past eight years? What 
is the period of obligation once a Ready Reserve service member has 
been called up?
    Answer. Over the past eight years, the Army has used the 
Presidential Reserve Call-up Authority twice: once for operations in 
Kosovo and also for operations in Bosnia.
    Ready Reservists are currently called to active duty pursuant to 
Title 10, US Code, Section 12302, for a period not to exceed 400 days: 
365 days involuntary mobilization, plus 35 days authorized for out-
processing and post-mobilization leave.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                          Thursday, March 12, 2009.

                 ARMY AND MARINE CORPS FORCE PROTECTION

                               WITNESSES

LIEUTENANT GENERAL N. ROSS THOMPSON III, MILITARY DEPUTY TO THE ACTING 
    ASSISTANT SECRETARY FOR ACQUISITION LOGISTICS AND TECHNOLOGY, 
    UNITED STATES ARMY
LIEUTENANT GENERAL JAMES D. THURMAN, DEPUTY CHIEF OF STAFF, G-3/5/7, 
    UNITED STATES ARMY
LIEUTENANT GENERAL GEORGE J. FLYNN, DEPUTY COMMANDANT, COMBAT 
    DEVELOPMENT AND INTEGRATION, UNITED STATES MARINE CORPS

                              Introduction

    Mr. Visclosky. This morning the Committee will hold a 
hearing on force protection in the Army and Marine Corps.
    We are pleased to welcome Lieutenant General James D. 
Thurman, the Deputy Chief of Staff, U.S. Army; Lieutenant 
General N. Ross Thompson III, Military Deputy to the Acting 
Assistant Secretary of the Army; and Lieutenant General George 
J. Flynn, Deputy Commandant for Combat Development and 
Integration, United States Marine Corps.
    Also in attendance, but I am told by General Flynn not 
allowed to speak because he is a Notre Dame graduate, Brigadier 
General Michael M. Brogan, Commander of Marine Corps Systems 
Command, who is with us as well.
    And I would be remiss at the beginning if I did not again 
congratulate General Flynn on Navy's recent victory over Notre 
Dame in football.

                           Opening Statement

    Today we will explore a broad range of topics related to 
force protection, ranging from individual equipment, to MRAP 
trucks, to avoiding fratricide, to countering IEDs and snipers, 
to security of base camps.
    Over the Thanksgiving break, Chairman Murtha visited 
Landstuhl Hospital in Germany and had the opportunity to talk 
to some of our soldiers and Marines hospitalized there. One of 
the conversations dealt with maintenance and recovery of the 
MRAP. During today's hearing, in addition to other items of 
interest, the committee wishes to address specifically 
maintenance and recovery, scheduling design change, and 
contracting of MRAPs. In addition, it has been suggested that 
the MRAP, as design and fielded for the fight in Iraq, may not 
be suited to fight in Afghanistan.
    Gentlemen, we are looking forward to your opening 
statements. But first let me recognize my good friend, the 
distinguished ranking member of the subcommittee, Mr. Young, 
for any remarks he may have.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much.
    And I want to again welcome our distinguished guests back. 
This is beginning to be a habit so far this year. But we are 
always happy to see you.
    We are going to have a series of votes around 11 o'clock, 
which are going to probably interrupt severely the hearing. So 
I am going to forgo any opening statement in the interest of 
time so that we can hear the testimony of the distinguished 
witnesses.
    Thank you, sir.
    Mr. Visclosky. Thank you very much, Mr. Young.
    And, gentlemen, all of your statements will be entered into 
the record. And I believe, General Thompson and General Flynn, 
you have prepared remarks.

                 Summary Statement of General Thompson

    General Thompson. Well, Congressman Visclosky, Congressman 
Young, and distinguished members of the subcommittee, on behalf 
of both myself and General Thurman, thank you for the 
opportunity to discuss Army force protection programs.
    Along with the Deputy Chief of Staff, G-3/5/7, I have a 
joint written statement that I will respectfully request be 
made part of the record for today's hearing.
    Our highest priority is the protection of our warfighters 
in an operational environment that today is both ambiguous and 
unpredictable. Over the last 8 years, we have successfully 
adapted our institutional processes to expedite the development 
and delivery of the latest force protection equipment to our 
deployed forces.
    With the support of Congress and the American people, the 
Army has invested heavily in new equipment and technologies to 
enhance soldier survivability and lethality. We recognize that 
our enemy is highly adaptive, and we established systems, 
enabled by your funding and support, to responsibly and rapidly 
procure equipment and promising technologies to protect the 
force.
    Today's soldiers are better equipped and better protected 
than ever before. The Army's framework for force protection is 
a systems-of-systems approach that integrates layers of 
protection to reduce vulnerability to attacks. These layers--
situational awareness, individual protection, vehicle 
protection, and countermeasures--are integrated through the 
development of appropriate tactics, techniques, and procedures 
based on lessons learned and rehearsed through realistic 
training.
    As you know, today's battlefield has no front lines and 
poses threats throughout the entire area of operations. We have 
equipped our soldiers with precision lethality and advanced 
situational awareness systems required to defeat the asymmetric 
threats. We have developed and fielded extensive equipment for 
soldier survivability, including individual protection programs 
ranging from the advanced combat helmet, to life-saving body 
armor, to clothing that allows our warfighters to adapt to 
varying mission requirements and environmental conditions.

                MINE-RESISTANT AMBUSH-PROTECTED VEHICLES

    Soldier survivability has also increased in the area of 
vehicle protection. The Army worked closely with the Marine 
Corps to field the Mine-Resistant Ambush-Protected vehicle, or 
MRAP, in record time. Presently we have over 9,000 MRAP 
vehicles in use in theater, providing enhanced crew protection 
and saving lives.
    Our industry partners challenged the limits of technology, 
guiding off of our requirements, and evolved the MRAP vehicles 
from providing only improvised explosive device, or IED, 
protection to providing both IED protection and explosively 
formed projectile protection.

                                JAMMERS

    In the area of countermeasures, all MRAP vehicles have CREW 
jammers integrated before deployment. ``CREW'' stands for 
``Counter Radio-controlled IED Electronic Warfare'' jammers. We 
devised joint strategies to keep our current fleet of jammers 
relevant to the constantly evolving threat. And we firmly 
believe that the success of the CREW program has led to 
significant reduction in the radio-controlled IED threat.
    Likewise, the counter-rocket artillery and mortar, or C-
RAM, capability is an acquisition success, where joint efforts 
enabled the rapid development and fielding of a capability to 
detect, engage, and destroy in-flight rocket artillery and 
mortar rounds.
    Soldier survivability has increased dramatically with the 
provision of force protection solutions. And we thank you all 
for your strong support of our efforts. Your commitment to our 
men and women in uniform is widely recognized throughout our 
ranks.
    Sir, this concludes my opening remarks, and General Thurman 
and I look forward to your questions.
    [The joint statement of General Thompson and General 
Thurman follows:]

[GRAPHIC] [TIFF OMITTED] T6260C.001

[GRAPHIC] [TIFF OMITTED] T6260C.002

[GRAPHIC] [TIFF OMITTED] T6260C.003

[GRAPHIC] [TIFF OMITTED] T6260C.004

[GRAPHIC] [TIFF OMITTED] T6260C.005

[GRAPHIC] [TIFF OMITTED] T6260C.006

[GRAPHIC] [TIFF OMITTED] T6260C.007

[GRAPHIC] [TIFF OMITTED] T6260C.008

[GRAPHIC] [TIFF OMITTED] T6260C.009

    Mr. Visclosky. General Flynn.

                   Summary Statement of General Flynn

    General Flynn. Mr. Chairman, Congressman Young, and members 
of the Committee, it is again an honor and privilege to be with 
you all today. I appreciate the opportunity to discuss our 
force protection requirements with you today.
    Make no mistake about it, taking care of our Marines in 
harm's way is our number-one priority. The Marine Corps's 
approach to force protection is balanced and integrated. The 
three key parts are training; better tactics, techniques, and 
procedures; as well as equipment.
    This approach is needed to make sure that we maintain the 
initiative in dealing with a thinking and adapting enemy, that 
we do not rely on a single approach that limits our operational 
flexibility and effectiveness, and that we maintain both our 
individual and operational agility across the range of military 
operations.
    Additionally, we are always searching for and evaluating 
new concepts and technologies to see if they can provide us 
with operational advantage and enhanced force protection. And 
we field them as rapidly as we can.
    I look forward to answering your questions, and I thank the 
Committee for all its support that it has provided us.
    [The statement of General Flynn follows:]

    [GRAPHIC] [TIFF OMITTED] T6260C.010
    
    [GRAPHIC] [TIFF OMITTED] T6260C.011
    
    [GRAPHIC] [TIFF OMITTED] T6260C.012
    
    [GRAPHIC] [TIFF OMITTED] T6260C.013
    
    [GRAPHIC] [TIFF OMITTED] T6260C.014
    
    [GRAPHIC] [TIFF OMITTED] T6260C.015
    
    [GRAPHIC] [TIFF OMITTED] T6260C.016
    
    [GRAPHIC] [TIFF OMITTED] T6260C.017
    
    [GRAPHIC] [TIFF OMITTED] T6260C.018
    
    [GRAPHIC] [TIFF OMITTED] T6260C.019
    
    [GRAPHIC] [TIFF OMITTED] T6260C.020
    
    [GRAPHIC] [TIFF OMITTED] T6260C.021
    
    [GRAPHIC] [TIFF OMITTED] T6260C.022
    
    [GRAPHIC] [TIFF OMITTED] T6260C.023
    
    [GRAPHIC] [TIFF OMITTED] T6260C.024
    
    [GRAPHIC] [TIFF OMITTED] T6260C.025
    
    [GRAPHIC] [TIFF OMITTED] T6260C.026
    
    [GRAPHIC] [TIFF OMITTED] T6260C.027
    
    Mr. Visclosky. Thank you very much.
    Mr. Young.

                          COMMON ACCESS CARDS

    Mr. Young. Mr. Chairman, the issues of force protection, of 
course, are primary because we have to give our soldiers the 
best protection we can in order for them to carry out the 
mission that is important. And I am sure that a lot of the 
members will be discussing specific force protection measures.
    But I want to ask you about the common access cards that 
are made available to contractor personnel, and that so many 
are unaccounted for. Do you see this as a problem? And if so, 
what can you do about it, or what are you doing about it?
    Because having unauthorized personnel have access to 
sensitive areas where our American lives can be threatened is a 
worrisome situation. So I just wonder where we are on the issue 
of these common access cards.
    General Thurman. Congressman Young, first off, the forward 
operating base commander in all the forward operating bases, 
whether it be in Iraq or Afghanistan, control access into the 
base. What we do, to get to your specific point, is we use the 
biometrically enabled card system through the biometrics system 
to screen personnel before they come in to make sure that that 
data on that card is who that person is. And we have been 
working a lot to make sure that we control that access, but the 
commanders do that.
    The other thing that we have is the surveillance systems in 
and around the base, plus the detection screening devices when 
folks come in and out of the base camp.
    General Flynn. Sir, one other thing, based on my experience 
in being able to get around Camp Victory or even down at the 
British camp down in Basra, is we had to have extra additional 
cards, other than the common access cards, to get access to 
different areas. In fact, I carried around four ID badges with 
me, depending on where I was going.
    So I realize the sensitivity of the common access card, but 
we have taken some mitigation things in practice that do 
mitigate it. But I understand your message about having control 
over the cards.
    Mr. Young. Information that the staff has provided us says 
that the Department has approved an estimated 39,000 contractor 
employees for cards without verifying that background checks 
had been initiated or completed. Is this accurate information?
    General Thurman. Congressman Young, we can take that 
information and go back and verify that. I don't have knowledge 
of that right now. But I would be more than happy to go back 
from the Army and tell you what we know, working with General 
Thompson, and provide you what the Army has.
    Mr. Young. Well, I do have a real concern about this 
because access to sensitive areas where American lives can be 
threatened by people who--we might not even know who they are, 
whether they have ever been vetted for security, is worrisome 
and bothersome. So I hope you all pay attention to that.
    Am I talking to the right people? Should I be talking to 
someone else about this issue?
    General Thompson. Yes, sir, I think you are talking to the 
right people here.
    From the standpoint of procedures, the people do have to go 
through background checks. To your specific question about 
contractors, contractors have to go through background checks 
to participate in any of the work that they do for the 
government. And those procedures are in place.
    The other way to control that, and one of the things that 
we have just put in place in the Army recently, is another 
additional step with the country clearances. To make sure that 
when somebody has to go through the process to get a country 
clearance to go into theater, we run the joint checks to make 
sure that person doesn't come up as a convicted felon or has 
any issues that we would be concerned about.

                               BIOMETRICS

    From an acquisition perspective, I think that we are really 
going in the right direction, and it was touched briefly on 
with General Thurman, with biometrics. Leveraging the database 
and the use of biometrics, you know, the fingerprint data, the 
eye scans, is really an area that has great promise in the 
threat environment that we are in theater right now and has a 
great promise for law enforcement. And that is a jointly-run 
program, the Biometrics Task Force for the Department of 
Defense is run by the Army as the executive agent, but all of 
the materiel solutions, from a database to the scanning 
devices, are all jointly developed and jointly worked.
    General Flynn. Congressman Young, I will owe you an answer 
back on our procedures for issuing the card, as well as our 
access procedures. And we will give you that as a record 
response, sir, if that is okay.
    [The information follows:]

    The Army does not prescribe guidance or overarching policy on 
installation or base access. This would fall under the auspices of The 
Office of the Under Secretary of Defense and U.S. Central Command for 
bases on theater.

    Mr. Young. Well, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Thank you, Mr. Young.
    Mr. Moran.

                          COMMON ACCESS CARDS

    Mr. Moran. Thank you very much, Mr. Visclosky.
    This is a shared concern, I think, on both sides of the 
aisle, this issue of common access cards. We had some testimony 
from the Inspector General that was very disturbing. And I 
would like to know, what has happened to all of these common 
access cards that were issued by contractors?
    There were, I think we were told, about 24,000 issued for 
the employees alone; 303 contractors, as I recall, were given 
the authorization to issue common access cards. They were 
issuing them to their employees. And, as Mr. Young has 
suggested, they were giving them to people without requiring 
that they go through the vetting process.
    Are we getting those cards back? You know, you are telling 
us what you are doing in the future, although it seems like 
this has been going on for 6 years now. But what are we doing 
about the cards that exist out there now?
    General Thurman. Congressman Moran, I know that the 
procedures that we just more or less talked about here have 
been implemented. And I know that, in theater, working with the 
contracting office down there, that they are going back and 
attempting to try to regain control of those.
    I think what is important is what we have done with the 
biometrics, with the biometrics identification system and how 
that interfaces with the automated FBI database.
    Mr. Visclosky. General, if you could move your mike up, 
please. Thank you.
    General Thurman. And so what I can do is I can go back to 
the theater and get you exactly the answer to that question. 
And I would be more than happy to do that.
    Mr. Moran. Well, I think it would be useful because, until 
you can respond to the IG's findings, now that we know the 
extent of this, we have some culpability as well if we don't 
deal with it.
    They said that about 93 percent of the cards that had been 
issued to foreign nationals had a government Internet access 
code on them. In other words, they could pass as government 
employees. A large number of the cards mistakenly, erroneously, 
perhaps deliberately, misidentified people as government 
employees rather than contractors. And while the IG can do 
these surveys and give us this information, we need to know the 
extent to which our security has been compromised by people 
getting on the base without proper authority.
    I mentioned a time when I was in Baghdad and there were 
these folks flashing--while we were waiting in line, they were 
going through another entrance. And I asked if he was Army, and 
one of the MPs--I said, ``Who are all of those guys?'' And he 
said, ``Well, they are Halliburton. They run the place.'' Well, 
they had their common access cards that had been issued by 
other Halliburton employees. And, you know, they never should 
have been issued.
    So it is one thing to say you are tightening up, you are 
bringing in more technology. I don't think our concern was so 
much the cards that were issued by the military; they were the 
cards issued by contractors to contractors.
    The Chairman has time and again talked about the fact that 
the contractors are really taking over many of our efforts to 
perform what used to be inherently governmental services. When 
we saw the number of contractors in Iraq, it was as many as we 
had military people. All of them have common access cards.
    The IG also said that 93 percent of those cards have an 
inaccurate expiration date on them. You don't have to write all 
this down; it is in the IG's report.
    We need to follow up on this stuff. You know, if he gives 
us this information, we are made aware of it. If we don't 
follow up and then there is some very serious breach of 
security, as I say, we share some culpability.
    So I am glad Mr. Young raised this. Common access cards 
is--I think that is something that we are going to have to put 
some emphasis on until it is corrected.
    I will assume that you are no longer issuing--letting any 
contractors issue those cards. Is that true?
    General Thurman. Congressman, is--I agree with you, there 
should not be any loose cards out there that are floating 
around. And we owe you the detailed procedures and what we are 
doing about the cards that was in the IG report. And we will 
bring that back to you. We need to go back to theater and get 
their current status of that, and I would be more than happy to 
take that for the record and bring it back.
    [The information follows:]

    The Army does not prescribe guidance or overarching policy. This 
would fall under the auspices of The Office of the Under Secretary of 
Defense, Intelligence and U.S. Central Command.

    Mr. Moran. Thank you, Mr. Chairman.
    I would be interested for the record to know who it was 
that gave the authorization to the contractors to be issuing 
these cards to other contractors. Who is responsible for the 
policy itself, and who actually allowed that to occur?
    It doesn't matter who the contractor was. That was an 
inherently governmental function, and it does compromise our 
security.
    General Thompson. Sir, I do know that the procedures today, 
if you are a government employee, military or civilian, you get 
a common access card and a personal identification number. And 
that is how you get access into or onto a base.
    If you are not a government employee, your access is based 
on the biometrics data, the fingerprint or the iris scan, the 
eye scan. And that is checked against both the FBI database and 
the Advanced Battlefield Information System (ABIS) database, 
which is another database. And that database is both here but 
there is also the local database that is there.
    So we have really tightened up the procedures on access to 
all the bases based on what I just described.
    Mr. Moran. So just having that common access card doesn't 
get you onto the base anymore?
    General Thompson. Doesn't get you onto the base.
    Mr. Moran. Well, they didn't mention that to us.
    General Thompson. Without a pin or, if you are a 
nongovernment employee, without a biometrics scan of some kind, 
either fingerprints or the iris scan.
    Mr. Moran. But not what is on the card. They have to put 
their own fingerprint in, and then they have to check it 
against a database. It is not dependent upon what card they 
happen to be carrying.
    General Thompson. Right. And the database is both local and 
global. And so they update the local database. And if there is 
any doubt, then that individual doesn't get on the base.
    We can go back, like General Thurman said, and detail out 
the exact specific procedures that we go through. But I do know 
that that is the broad description of how they do that today.
    Mr. Moran. Well, if that policy is being followed, it is 
not as much of a concern, but that is not what we were led to 
believe by the IG. Thank you.
    Thank you.
    Mr. Visclosky. Mr. Moran, we will get back to you on the 
authorization and the sequencing too. I think that is a very 
important question.
    Mr. Frelinghuysen.

                         ELECTRONIC FRATRICIDE

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Gentlemen, welcome back. In a hearing like this, you never 
know what might get thrown at you. I have some questions 
relative to electronic fratricide on the battlefield.
    A couple of years ago, I was at Offutt Air Force Base in 
Nebraska. And since it is on the Air Force Web site, the Rivet 
Joint aircraft has some pretty remarkable capabilities. One of 
the things I heard from the crews--I asked them how many 
missions they were flying over Iraq. And I was surprised--this 
was a couple of years ago--when they said none. And it was 
interesting, they explained that the sensors on the aircraft 
were, in effect, being jammed by all the devices deployed on 
the ground. I don't know whether there has been some 
improvement, but I would like your take on what is happening 
there.
    I read in the New York Times, General Thompson, that the 
Army is setting up its own teams for electronic warfare. What 
is the battlefield out there like now? And what should we 
anticipate in this sort of area as we move troops from Iraq 
into Afghanistan? What sort of problems are there? Either from 
a Marine or Army perspective. It is pretty important.
    General Flynn. Sir, one of the things is, there is no doubt 
that the electronic spectrum is getting pretty crowded. And one 
of the key things that we are doing--and I know we are doing 
this in the Marine Corps, and I am sure the Army is--is we are 
deconflicting the frequency spectrum and what has been going on 
in the airwaves based on what missions are being performed. 
Because there are some issues with--some of the devices 
countering out another device.
    So it is almost very similar to what you do in fire support 
coordination. You deconflict based on the mission that you are 
doing. And we have built the expertise at the operational 
planning unit to do frequency deconfliction, and that is what 
we are doing. We have to do it not only for our transmissions 
but also for some of our collection efforts and all those 
things. We do deconflict now, sir, and it is an active part of 
our operational planning and execution matrices.
    Mr. Frelinghuysen. And you are also obviously, both your 
service and the other services, are involved in the IED task 
force. And that, obviously, has----
    General Flynn. Yes, sir. In fact, we took a lot of our 
electronic warfare pilots and we trained them. Actually the 
Navy deployed some of them, with both Army and Marine forces, 
to help us with the management of the frequency spectrum.
    So it is something that we actually have to manage and we 
have to deconflict, sir.
    Mr. Frelinghuysen. Yeah. Well, I am sure.
    I want to hear the Army, where do you stand. I wonder 
whether the issue is being managed here. Obviously, our enemy 
knows of this, sort of, situation, and they can actually 
potentially make it worse.
    General Thurman.

                          SPECTRUM MANAGEMENT

    General Thurman. Congressman Frelinghuysen, what I would 
tell you, sir, is, similar to the Marine Corps, one of the 
things that I learned--and I learned this the hard way going 
into Iraq initially--is how crowded the frequency spectrum is 
getting. When you add things such as our friendly devices as 
Blue Force Tracking, the Force XX1 Battle Command Brigade and 
below systems that we have that shows us where everybody is on 
the battlefield, your Unmanned Aerial Vehicles (UAVs), the full 
motion video--all of that takes spectrum. And then you put in 
our jammers.
    What we had to do on my second tour was make sure that 
before every combat operation that you are constantly 
deconflicting the spectrum.
    And so we have learned a lot about this. It is going to be 
the future.
    Mr. Frelinghuysen. Well, the spectrum is shared. You know, 
in Afghanistan we have our NATO ``allies,'' I say in quotes, 
and they obviously have, you know, their own set of 
electronics.
    General Thurman. Right. And you are absolutely right, we 
have established electronic warfare as a specialty in the Army. 
We learned a lot from the Navy. The Navy helped us with this. 
And we see that as one of the things that we have to continue 
to develop in the future so we can get at those sorts of things 
that you see to make sure our systems are more effective.
    Mr. Frelinghuysen. But, historically, tell me if I am 
wrong, the Army has been relying on the expertise of the Air 
Force and Navy, is that right?
    General Thurman. Sir, initially, we had to go to the Navy 
to help us with the counter-IED effort because that is where a 
majority of the expertise was. And now we are developing our 
own capability in the Army, and we share joint assets.
    Mr. Frelinghuysen. I just want to know whether there is a 
game plan here.
    General Thurman. Yes, sir, there is.
    Mr. Frelinghuysen. Is there a task force?
    General Thurman. Yes, sir. We are documenting electronic 
warfare specialist into the Army force structure.
    Mr. Frelinghuysen. We have--the higher level is obviously 
ongoing cyber attacks.
    General Thurman. Right.
    Mr. Frelinghuysen. And you have other assets which could 
be, you know, compromised.
    General Thompson. What General Thurman, Congressman 
Frelinghuysen, is pointing out is that we did rely, initially, 
heavily on the Navy and the Air Force, because they had 
electronic warfare specialists as part of their force.
    Mr. Frelinghuysen. And you are training some of them up, 
according to what I am reading.
    General Thompson. We have created that capability in the 
Army. We are starting to train soldiers from a force structure 
perspective, which is the process that General Thurman 
controls. We are growing that capability inside the Army.
    And from a systems perspective, we look to deconflict that 
spectrum before we field something to a unit. So, in a lot of 
the labs and the chambers that we have, we put CREW devices 
with Blue Force Tracking, as an example, to make sure that 
there is not spectrum deconfliction. When we get a threat and 
we know the threat is using a different part of the spectrum, 
based on the intelligence reports, we adjust.
    When you see upgrades to things like the CREW system, the 
anti-jam system, it is based on the threat moving to a 
different part of the spectrum. So we update the system and we 
do that deconfliction as much as possible.
    Mr. Frelinghuysen. This is a huge issue. It is a moving 
target. And you are giving us some pretty good clear assurance 
here across the services that you have this issue in hand?
    General Flynn. Yes, sir.
    General Thurman. I would just caveat one thing. We just 
have to continue to be adaptable to the threats as they emerge 
and as we field more systems to make sure, from a joint 
perspective, that we fully understand what we are doing in the 
joint domain of the spectrum. The spectrum is a huge, 
complicated issue.
    Mr. Frelinghuysen. The enemy has been looking over our 
shoulder, you know.
    General Thurman. Yes, sir.
    Mr. Frelinghuysen. Not only in Iraq, but obviously there 
are other adversaries. And I assume they know there is a 
certain degree of--I won't say chaos, but some difficulty in 
this issue of deconflicting.
    General Thurman. Yes, sir.
    Mr. Frelinghuysen. Is that accurate?
    Okay, thank you, Mr. Chairman.
    Mr. Visclosky. Ms. Kaptur.

                            MRAP MAINTENANCE

    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome. Good to have you before us this morning.
    I just wanted to focus on MRAPs and the maintenance of 
those and how they are being received by soldiers and Marines 
in the field.
    Our chairman, Mr. Murtha, has on several occasions spoken 
about encounters he has had, one in particular with a Marine in 
Germany at Landstuhl who commented that when they had a 
breakdown in theater that the Marines really weren't trained to 
fix it. And, in fact, the MRAP had to be winched and put on a 
flatbed and then hauled in to a repair site where contractors 
worked on it.
    And my question is, is the field repair of MRAP vehicles 
beyond the training level of our Marines and soldiers? And are 
these repairs now being handled by contractors, or are you 
integrating this into the training of our regular force?
    General Flynn. Ma'am, I think there are two parts to your 
question there.
    Out in the field, if an MRAP loses its mobility, the 
ability to recover that by another vehicle--for example, if it 
can still roll, you can self-recover with another MRAP, meaning 
you can hook up to it and you can tow it back into the 
operating base. If it has a severe mobility loss, meaning lost 
wheels, axles, we have to send out a pretty heavy vehicle, 
normally a tank retriever, to bring it back just because of the 
weight of this vehicle.
    When the program was fielded, we did contract for 2 years 
at the operating bases for contractors to do that maintenance. 
That is not necessarily a bad thing for us, because it meant 
that we could keep Marines focused on doing other things, and 
we just bring it in to the garage to get fixed.
    We don't do repairs on the road. We recover and bring them 
back to the operating base. And the issue there--and I 
understand where that Marine was coming from--is it is a heavy 
vehicle, and the only way you can bring it back really is with 
a vehicle of equal size and equal power to bring it back in, 
ma'am.
    Ms. Kaptur. So you are telling me that the repairs right 
now, General, are being done by contractors then?
    General Flynn. In the forward operating bases, yes, ma'am.
    Ms. Kaptur. Are you considering transitioning contracts to 
insourcing rather than outsourcing the repairs?
    General Flynn. Ma'am, when the vehicle was fielded, we had 
a 2-year maintenance contract that was part of how the program 
was developed. And right now we are looking at the way ahead on 
how to continue on with the maintenance of the vehicle.
    Ms. Kaptur. Who handles that? Is it just one contract with 
one major company?
    General Flynn. Ma'am, I would like to take that for the 
record. I am not sure how many companies are involved in that.
    [The information follows:]

    The following companies have contracts to perform maintenance on 
MRAPs in the Forward Operating Bases: (1) MANTECH (Afghanistan/OEF 
contractor logistics support only); and (2) MRAP Original Equipment 
Manufacturers (OEMs) provide Field Service Representatives (FSRs) as 
technical support to both OIF and OEF. The OEMs include BAE, Navistar 
Defense, General Dynamics Land Systems--Canada, and Force Protection 
Industries, Inc. Additionally, government mechanics from Red River Army 
Depot provide sustainment-level maintenance support in Iraq and Kuwait.

    General Thompson. I can add to that a little bit. And the 
real expert on MRAP is sitting behind us here. But, from a 
broad standpoint, it is not atypical to do contractor logistics 
support for the first couple of years a system is fielded. And 
MRAP is no different.
    The emphasis on MRAP initially was getting the most 
vehicles out there as fast as possible. And although you like 
to bring the logistics package and the sustainment package 
along, we took conscious, purposeful decisions to field more 
systems. And we are catching up a little bit on the sustainment 
packages. But we do have the contract logistics support. 
Because there are different variants of the systems, it is with 
the contractors that built those systems, for the most part.
    We did the same thing with Stryker a number of years ago 
when we fielded the Stryker vehicles. We made a decision to 
field those with mostly contract logistics support. And we are 
now bringing that capability to maintain the Strykers back in 
and training the soldiers to do that and putting that force 
structure into the Stryker formation.
    And so, as we go forward on MRAP, ma'am, depending on how 
many and what variants we keep in the force structure, we will 
train soldiers and Marines on how to take care of those things 
and not rely exclusively on the contractors.
    Ms. Kaptur. I am glad to hear that, because we have some 
information here. For instance, a soldier doesn't know how to 
release the air brakes prior to the vehicle being towed, or 
they can't do simple repair like headlights. This is according 
to information that we have.
    So I am just curious, I mean, you would think the soldier 
would be at one with their equipment, or at least there would 
be people trained in theater to handle whatever might occur 
since these are so essential. We have had over 60 percent of 
our injuries due to explosive devices-related----
    General Thompson. When those soldiers and Marines that are 
using those vehicles get those vehicles fielded to them, they 
get new equipment training. So they are taught the things that 
they need to be taught in order to operate those vehicles 
safely and to do the operator-level maintenance. We call it 
``Dash 10'' level maintenance, but it is the operator-level 
maintenance. So it would surprise me that we didn't take that 
soldier through the training to know how to release that brake 
on the system, because that is part of operator-level training.

                       MRAP VEHICLE IMPROVEMENTS

    Ms. Kaptur. Mr. Chairman, time has probably expired, but I 
also wanted to ask questions for the record dealing with the 
actual comfort of the soldier or Marine in the vehicle and any 
after-market changes that have been made so that they are not 
bumping their head or it is easier for them to get down.
    I know that, when we were over there, we looked at several 
pieces of equipment; we talked to the soldiers and the Marines 
who were using them. And what changes have been made or are you 
considering making in the after-market arena to make it more 
functional?
    For instance, they were complaining that when they had to 
sit in the back, they were facing inward rather than outward, 
so that they could see the field. And I don't know whether that 
has been changed or not.
    Do you have any comments you want to make on after-market 
changes?
    General Thompson. We continue to take feedback from the 
soldiers and the Marines in the field and make improvements to 
those vehicles. We do that not just on MRAPs but on all 
systems.
    To the specific question about the soldiers facing inward, 
I mean, one of the issues there----

                           GUN PORT ON MRAPS

    Ms. Kaptur. They can't fire through the ports. That is the 
issue.
    General Thompson. Yes, ma'am. But gun ports on the sides of 
the vehicles were something that was looked at initially, and 
we elected not to go with the gun ports--and I can ask Mike 
Brogan to correct me if I am wrong--because a port is a hole in 
the side of the vehicle, and that creates a seam, if you will, 
or an area of vulnerability. And so the vehicles are being used 
as transport--we don't necessarily want to fight from those 
vehicles. And so, having gun ports on the vehicles is not 
something that we want.
    And because of the protection from the undermine, the 
vehicle has got a V-shaped hull. So the configuration that the 
manufacturers did--we left it up to them, based on our 
requirements. But if you can imagine a V-shaped hull, where the 
space is, the leg room, if you will, is in the center where the 
V goes down. And so a lot of the seats facing to the center are 
because of leg-room considerations and space considerations 
inside the vehicle.
    Mr. Visclosky. The gentlelady's time has expired.
    Ms. Kaptur. I thank the gentleman.
    Mr. Visclosky. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.

                      HUSKY MINE DETECTING VEHICLE

    General, I wanted to ask on the Army side of things--and I 
am not sure if the Marines are using the Husky or not. But I 
actually did not know about the Husky until the National Guard 
brought it to my attention and they wanted funding for it, the 
Georgia National Guard.
    But, as you know, since 1979 the USDA has been using 
ground-penetrating radar to study soil samples and 
archaeological and cultural resources and things like that, but 
that the Husky puts this to use for IED detection. And yet--I 
have to confess full ignorance, there may be a lot of money in 
the budget already for it, but I have never heard about it from 
the Army. I heard about it from the Army Guard.
    So I was just wondering, is this something that is very 
useful? Somewhat useful? Does it have problems? And do we need 
to support more money for it?
    General Thurman. Congressman Kingston, the Husky, what our 
experience has been, it is a good vehicle. It is good to look 
at shallow buried IEDs. We have those in our route clearance 
teams operating in Iraq today. We are going to be putting some 
into Afghanistan. They have asked about those.
    And what it does, it looks for nonmetallic and metallic 
IEDs and for underbelly threats. That was one of my biggest 
complaints, as a division commander, is having some type of 
ground-penetrating capability that you can find deep-buried 
IEDs. And we are still working through that. The Joint IED Task 
Force has been working that. But this is an important system to 
keep in our route clearance teams.
    Mr. Kingston. Well, why is it, just to kind of explain it 
to me, that the National Guard is asking for it as opposed to, 
say, the MRAP?
    And this Committee, as you know, got very excited about 
MRAPs 2 or 3 years ago. And you hear so much about the 
reduction in fatalities and injuries because of MRAPs, but we 
don't hear about ground-penetrating radar systems like the 
Husky as one reason that the fatalities have decreased.
    How many are there in there? How wide is the use, for 
example? And is it something that this committee should really 
be more enthusiastic about?
    General Thurman. Congressman, what I would tell you, as a 
guy that takes the requirements into the Army, is we look at a 
myriad of route clearance capabilities. And Husky is one of 
those that we have in the system--or in our route clearance 
capability. And we can give you the full lay-down of all of 
those capabilities and show you the importance of each one of 
those. And I would be happy to lay that down for you.
    But, yes, right now Afghanistan has asked for 80 of them to 
go in there. And the 48th Brigade, who I have been working very 
closely with, out of Georgia, they will fall in on the MRAPs 
that are over there. But we are going to put more route 
clearance capability into Afghanistan.
    Mr. Kingston. So if we request an earmark for more of that, 
that would be something that we would get Pentagon support for?
    General Thurman. Sir, I will take the requirement and I 
will pass that up once we validate that, depending upon the 
other balance of capabilities they are asking for in 
Afghanistan.
    Mr. Kingston. I think that the 48th got--is Kentucky 
Guard----
    Mr. Visclosky. Excuse me, if I could. General, if you could 
move the mikes closer to you? Thank you. That would be 
terrific.
    Mr. Kingston. But they seem to have gotten, you know, fired 
up about it from the Alabama National Guard. But as they were 
about to go over there, they said, ``We really would like to 
have these.'' And so----
    General Thompson. I think what we should do, Congressman, 
is go back and look at what we have as the total requirement, 
which is the purview of the G-3. How many of those do we think 
we need in the force structure? And I, frankly, don't have that 
information right in front of me, and how many we have bought 
to date and the distribution of those assets in theater.
    If the Guard is asking for them, there is no preference to 
give them to, active soldiers versus Guard soldiers. Whatever 
soldier needs that capability is going to get that capability.
    And we do look at the balance of those. And Huskies, like 
General Thurman said, are part of the dedicated route clearance 
and convoy clearance teams that go out there in advance of a 
convoy or a mission to do whatever they can to eliminate the 
IEDs that could be out there in the force. And Husky is a great 
system. And from a requirements perspective, we should take 
that number back to you and lay that out.
    Mr. Kingston. All right.
    [The information follows:]

    The total Army Program of Record requirement for Huskies is 710. 
This is based on a Modified Table of Organization and Equipment (MTO&E) 
requirement for 672 Huskies in 28 Route Clearance Companies and for 38 
Huskies to support Table of Distributions and Allowances (TDA) units. 
In addition, the Army has a validated Operational Needs Statement (ONS) 
for a total of 286 Huskies in both the Iraq (222) and Afghanistan (64) 
Theaters. We have fielded 201 to U.S. forces in Iraq and 44 to U.S. 
forces in Afghanistan. We will begin fielding systems to fill MTO&E 
requirements in FY10.

    General Flynn.
    General Flynn. Sir, my experience, I have actually been on 
route clearance with the Husky. I was with the Alabama National 
Guard. So it is a valuable capability for the IED.
    But it goes back to the larger issue, that the way to 
defeat the IED is through multiple platforms. There is no one 
silver bullet. And this capability is one of those 
capabilities. Just like, right now we are looking at other 
capabilities that we would like to take into Afghanistan to 
enhance our counter-IED capabilities. So all these are pieces 
to the puzzle of putting the enemy on his back heels and us 
maintaining the advantage. But it is an effective capability.
    And my understanding of this equipment is, when units 
deploy into the theater, they fall in on it. So it was a key 
part of the 20th Engineers Brigade route clearing teams, no 
matter what area of Iraq they were operating in.
    Mr. Kingston. Well, we certainly want to work with you guys 
on this, because we want to make sure everybody--you know, 
where it is practical, that we can support the effort together.
    Mr. Chairman, thank you.
    Mr. Visclosky. Thank you.
    Mr. Dicks.
    Mr. Dicks. Why don't we go ahead with the regular order? I 
will come in at the end.
    Mr. Visclosky. Mr. Bishop.

                               BODY ARMOR

    Mr. Bishop. Thank you very much, Mr. Chairman.
    Thank you, Mr. Dicks.
    Gentlemen, welcome. I am interested to explore body armor.
    General Thurman, recent news articles in the Army Times and 
Defense Review, along with your testimony, indicate that the X 
Small Arms Protective Insert XSAPI plates will provide better 
protection than the current Enhanced Small Arms Protective 
Inserts. And in your testimony you state that the Army is going 
to procure 120,000 sets of the X Small Arms Protective Inserts 
in 2009. And you say that the plates will be shipped to Kuwait 
as a contingency stock, and they will be available for use by 
the theater commander.
    If the X Small Arms Protective Insert plates are better 
than the other plates, why are you storing them as a 
contingency stock rather than getting them out to the soldiers 
immediately?
    And wouldn't you say that there is a greater need for the X 
Small Arms Protective Insert plate in Afghanistan, particularly 
where, according to news accounts, the enemy is using the 
Chinese armor-piercing rounds, which are copycat rounds of our 
armor-piercing rounds? So wouldn't you think that it would be 
urgent to get that out to the soldiers immediately as opposed 
to stocking them in Kuwait as a contingency?
    General Thurman. Congressman Bishop, we made that decision, 
on the 120 sets, to go ahead and move those into theater 
contingency stocks, because the theater had not asked 
specifically for those to be issued. And that is why we 
positioned those forward.
    Now, in a classified sense, we can show you the data that 
we have on the threat. And we would be more than happy to show 
you that, with the penetration capability and all of that and 
what that defeats.
    [The information follows:]

    The Army G3 and ASA(ALT) have worked in conjunction with SAFM-BUL 
to arrange a classified briefing for Congressman Bishop on the topic of 
the current threat level in Afghanistan and how it relates to body 
armor.

    Mr. Bishop. But you do, in summary, think that it is better 
than the ones currently used?
    General Thurman. I will let General Thompson address from 
the perspective of body armor, because he works that every day. 
But I would tell you I think the body armor we have today is 
very good, the Interceptor Body Armor that we have.
    Mr. Bishop. I was just trying to understand if one was 
superior to the other. And according to Army Times and Defense 
Review, the X Small Arms Protective Inserts are better than the 
enhanced.
    General Thompson. Sir, I would answer the question this 
way, if I could: ``Better'' is in the eyes of the beholder. So 
does XSAPI provide a higher level of protection? Yes, or we 
wouldn't have procured it.
    Do we need that level of protection based on the threat? 
And that is what General Thurman is referring to. That is 
something that we cannot discuss here.
    Mr. Bishop. Okay. I understand now.
    General Thompson. But the XSAPI is heavier. And so it is 
the balance, it is the better--from the commander's 
perspective, do I want something that is maybe high level of 
protection, but if it is heavier, how does that impact my 
soldier or Marine's ability, especially in a place like 
Afghanistan, to carry all that extra weight and be able to do 
his mission.
    Mr. Bishop. Yeah, we had a hearing on that yesterday, so I 
appreciate it.
    General Thompson. Yes, sir. And so it was part of the 
decision calculus. And that is why having it available in 
theater so, if the threat materializes or the commander thinks 
he needs that, then it is available to them. So that is where I 
leave that question at that point.

                           BODY ARMOR TESTING

    Mr. Bishop. That is understandable.
    Do the Army and the Marines collaborate in the process of 
improving the body armor?
    The DoD Inspector General (IG) recently reported that there 
were some deficiencies in the Army's data recording process for 
the testing of the body armor. Can you, kind of, tell us in 
terms of those deficiencies that the Inspector General 
discovered?
    And describe for us the stages that body armor is actually 
tested. And tell us--and Ms. Kaptur has stepped out, but the 
subcommittee is very, very concerned about--well, very, very 
interested in, I should say, the extent to which the testing is 
contracted out.
    General Thompson. There are a couple parts to your 
question.
    Do the Army and the Marine Corps collaborate on personal 
protection equipment for soldiers and Marines? The answer is, 
absolutely. That data is shared.
    The standardization of test processes and test criteria is 
something that is ongoing right now. And that was one of the 
subjects of the DoD IG report. And that effort, not just with 
the Army and the Marine Corps but also with the Special 
Operations Command, is ongoing right now.
    We have addressed, well before the IG report was written, 
the systemic issues and the test processes and the test 
procedures on all personal protective equipment at multiple 
levels inside of the Army and the Marine Corps. We have a 
process called the Army and Marine Corps Board where we look at 
these requirements and look at how do we develop those joint 
solutions so if, for example, if we go to a higher level of 
protection on a combat helmet, is it just the Marines that are 
going to do that or are the Army and the Marines going to do 
that together? And those are the kinds of discussions we have 
all the time.
    The body armor that the soldiers have is the best in the 
world. The body armor protects the soldiers against the threats 
that are out there. We test the body armor through multiple 
means. You can't even begin to produce body armor unless you go 
through a first article test to go into production. And then, 
when you are in production, every production manufacturer has 
lot acceptance tests, where we test the individual lots before 
they are issued, even after they have gone into production.
    And then we have a very detailed surveillance testing 
program, where we pull plates out of the inventory and test 
them with nondestructive test equipment. We X-ray them, and 
then we bring them back and shoot them to make sure that, 
depending on how long they have been out there in the field, 
they are still providing a level of protection.
    So I am very confident that the overall testing process 
that we have in place makes sure that the plates are good when 
they are issued and that they are good after they have been in 
the field for a while.
    Mr. Bishop. Is that process contracted out, or do you do 
that in-house?
    General Thompson. Part of the testing has been done by 
National Institute of Justice-certified lab facilities in the 
past, with the appropriate government oversight. And this is an 
issue we are working through right now.
    From a policy perspective, we have elected to bring in-
house the testing of body armor, because we think it is an 
inherently governmental thing. If the capacity is not there to 
do it in-house in a government facility, we may do some of that 
in the contractor facility, but it will have the appropriate 
inherently governmental oversight of that process from the 
standpoint of the program office and the Defense Contract 
Management Agency.
    And even if it was done in the contractor facility in the 
past or could be done in the contractor facility in the future, 
it will be done against the standard test protocol and process.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Visclosky. Ms. Granger.

                   HELICOPTER SURVIVABILITY UPGRADES

    Ms. Granger. Thank you.
    My question has to do in Afghanistan with the consideration 
of our airborne assets, specifically helicopters. And we have 
had hearings and know that the Army and Marines both are 
increasing the number of helicopters.
    My concern is the leftover missiles from the Soviet-Afghan 
conflict. And my report said there could be as many as 2,000 
Stinger missiles and portable surface-to-air missile systems 
that I know are outdated, but how do we--what do we 
specifically know about their capability and the danger to our 
helicopters, particularly with, like, the SAM-7, the Stinger 
assets in there left by Iran? And can you address that, please?
    General Thurman. Yes, ma'am. What I would tell you, as far 
as the specifics of what we know about that, that is classified 
information. And we could do that in a closed hearing with you 
on that.
    [The information follows:]

    The Army G2 has worked in conjunction with SAFM-BUL and OCLL to 
arrange a classified briefing for Congresswoman Granger on the topic of 
leftover missiles from the Soviet-Afghan conflict.

    I would tell you that is a concern of ours. And that is why 
it is so important to continue to upgrade our countermeasures 
systems on all of our aviation assets as we put more airframes 
into Afghanistan. But we can tell what you we know about that 
in a classified sense.
    Ms. Granger. We will make sure that happens.
    General Thurman. All right, ma'am.
    General Flynn. Ma'am, from the Marine side of the house, 
too, since the beginning of our operations in Iraq and 
Afghanistan, we have continually been upgrading the aircraft 
survivability measures that are on the airframes. So we can 
give you the capabilities of those systems in a classified 
forum, as well as what we think the threat we are going to 
face. And that is the best forum to do that, and we will be 
happy to do that.
    Ms. Granger. We will do that.
    Thank you.
    Mr. Visclosky. Mr. Hinchey.

                      JOINT LIGHT TACTICAL VEHICLE

    Mr. Hinchey. Thank you, Mr. Chairman.
    And thank you, Generals. Thanks very much. I very much 
appreciate what you are doing and very much appreciate the 
answers that you are giving to these questions. It is very 
informative, and I think it helps us a lot.
    One of the things I wanted to mention to you is the focus 
of attention that you give on the safety and security of the 
military operations, the vehicles and things of that nature. 
And, as I understand it, there is a new vehicle that is under 
development, the Joint Light Tactical Vehicle. The focus of 
attention for this vehicle apparently is on the circumstances 
that are known and, to some extent, anticipated in Afghanistan 
rather than Iraq. And, as I understand it, this vehicle is 
still undergoing analysis, or it hasn't gotten to the point of 
development yet. And I would appreciate anything that you could 
tell us about that.
    In addition, I understand also that there is a possibility 
that there may be a requirement for a hybrid in that Joint 
Light Tactical Vehicle. Is that the case? Or is something else 
as sophisticated as that moving forward?
    General Flynn. Sir, we are very interested in the Joint 
Light Tactical Vehicle. It is a joint program. And, as I read 
the other day, the Australians are also interested. So also 
some of our allies are interested.
    One of the things on the Joint Light Tactical Vehicle is, 
it is in the technology demonstration phase right now. And that 
phase will last about 24 to 27 months. There are three 
different manufacturers, with three variants each, that are 
going to go through this demonstration phase for us to find the 
best possible alternative.
    The key part about this vehicle is what we are seeking to 
do in the development of the vehicle is we are seeking to get 
the right balance between what we call the iron triangle--to 
balance payload, performance, and protection--and to get the 
best out of all three. Because there is protection in mobility, 
and there is also, you know, the ability to payload. The 
heavier you armor the vehicle, the less payload you have. So in 
this vehicle we are trying to balance all three. And we are 
trying to get back some of our battlefield mobility in this.
    And also the transportability of the vehicle, we want to be 
able to have it to be helicopter transportable by the CH-47 and 
by our heavy lift assets as well. And I know that, as we are 
looking at the vehicle, we are going to press technology to 
deliver the best they can in terms of the power train, in terms 
of the engine. All those things are things that we are going to 
look at, as this goes through its technology demonstration 
phase right now, sir.
    General Thompson. And, sir, if I could just add to that 
from an acquisition perspective, where MRAP is led by the 
Marine Corps program office with full Army participation, the 
Joint Light Tactical Vehicle is led by the Army with full 
Marine Corps participation. So these are two great examples, I 
think, where we look together at what the requirements are and 
try to develop joint solutions.
    And everything that General Flynn just described is exactly 
correct. We are at the first part of the technology 
demonstration phase for the three contractors that were 
competitively selected. And there was a protest to the GAO by 
two contractors that weren't part of the three that were 
competitively selected to go into source selection. And the GAO 
ruled in favor of the government and said our source selection 
process was done fairly. And so we will evaluate those three 
contractors over the next 27 months.
    Mr. Hinchey. Is the hybrid issue going to be included in 
this?
    General Thompson. The three designs that are in the 
technology demonstration phase do not include a hybrid 
solution. But at the end of the technology demonstration phase, 
those three and any other competitor out there that wants to 
propose against our requirements will be fairly evaluated and 
taken forward. So if somebody has a hybrid solution in a 
vehicle that meets the other requirements, they will have an 
opportunity to compete again and be selected.

                    FORWARD OPERATING BASE SECURITY

    Mr. Hinchey. Thanks very much.
    If I have time for just one more brief question about the 
situation that is developing in Afghanistan, last July there 
was an attack in eastern Afghanistan against our military 
forces. And I think that there were a number of military forces 
at that time who were killed. I think that number was nine or 
something in that neighborhood. There were something in the 
neighborhood of 200 people that caused that attack, and they 
were very well armed with a variety of materiels. And I think 
that it is to be expected that something similar to that is 
going to happen again; we are going to experience those kinds 
of things coming up in the future.
    Can you now, under these circumstances, tell us how many 
operations there are in eastern Afghanistan, anticipating what 
is going to happen in the future? And what kind of technology 
is about to be used or is in the process of being used to try 
to determine when those kinds of attacks are likely to occur? 
Is there anything like that that you can talk about right now?
    General Thurman. Congressman, I know exactly what you are 
talking about, about the attack that you referred to.
    The theater commander, General McKiernan, in Afghanistan, 
working with CENTCOM over there, can tell you, you know, from 
an operational perspective what they are doing.
    As far as technologies, what we are trying to do is to give 
them the surveillance capabilities, the sensors, the cameras. 
They have asked for that to protect those combat outposts and 
forward operating bases. And we are pushing some of those 
capabilities forward. As a matter of fact, recently I saw some 
of it in use. So you have that around the base perimeter or the 
combat outpost to provide that early warning and sensors.
    But it goes back to what General Flynn said a while ago. 
There is no silver bullet with the way they are operating, and 
it requires training and constant awareness of the enemy and 
the threat you are facing.
    General Flynn. One thing I would like to add to what 
General Thurman said: This all starts back in the United States 
when we do our predeployment training. Right now, what we are 
focusing on is developing at the company level, which is a new 
twist of how we are operating now, intelligence cells and 
operation cells at the company level because of how we are 
spreading out on the battlefield to deal with this threat.
    We are also providing them with the ability then to 
integrate the intelligence that they are getting from various 
sources, to include human intelligence, on the ground. Like 
General Thurman said, we have developed for Afghanistan for our 
forward-operating bases a new ground-based surveillance system 
that they can use, both--some that are--you have the big 
version that you need a tractor trailer to move; you have a 
medium one that can move with a Humvee-type vehicle; and then 
we also have one that is man-portable.
    So we are not only equipping Marines and soldiers with the 
things that they need to be safe, but we are training on how to 
do it. And we need to make sure that they know how to do it 
before we deploy them. So that is all a key part of doing the 
things and to make sure we are not surprised out in the field, 
sir.
    Mr. Hinchey. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Dicks.

                        MRAP ALL TERRAIN VEHICLE

    Mr. Dicks. Thank you, Generals.
    Maybe you have covered this, but I am just going to ask it 
one more time. We understand that some of the MRAPs are too 
heavy and would have a problem going offroad. And now going 
into Afghanistan, you know, you are talking about the all-
terrain vehicle, or there is another one, the Joint Light 
Tactical Vehicle.
    Are we in a situation where we are buying too many of the 
MRAPs that are too heavy and are not as flexible? There has 
been a concern about that. Or are we adapting and going with 
the lighter vehicle? And can you give us the status on it?
    General Flynn. Sir, from the Marine Corps perspective, what 
we developed last summer was a comprehensive ground tactical 
wheeled vehicle strategy, or a ground tactical vehicle 
strategy. And what we are trying to do in that strategy is to 
field the number of vehicles that have different capabilities 
in the right numbers that gives us balance, that we could use 
vehicles where they could best be used situationally dependent. 
For example, the current MRAP we have does very well in certain 
areas of Iraq; it wouldn't do so well in some areas in 
Afghanistan.
    We are looking for a lighter vehicle. We are looking for 
vehicles with more flexibility so that we could use them over a 
wider range. And we do have that plan to do it, and we are 
actively pursuing it.
    The key thing for us to do is to balance the needs of each 
of those vehicles, that we get the right number and have just 
the right amount of capability and not excess capability in any 
one area, sir. And that is our approach.
    Mr. Dicks. Okay.
    What is the Army's approach?
    General Thompson. Sir, it is the same. The total 
requirement for MRAPs to date has been over 16,000 vehicles. 
About 12,000 of them are for the Army.
    Mr. Dicks. Are we buying ones that we don't need?
    General Thompson. No, sir. We are at the end of the 
requirement and the production for the MRAP. The MRAP all-
terrain vehicle is a requirement to get a lighter vehicle that 
can handle some of the offroad mobility with the levels of 
protection that we seek. We are in the source selection process 
right now to get a lighter MRAP to handle some of the 
challenges in Afghanistan.
    Mr. Dicks. So how many have we bought so far?
    General Thompson. The total requirement and buy for MRAPs 
has been 16,238.
    Mr. Dicks. But how many have we bought now?
    General Flynn. We have bought them, sir.
    Mr. Dicks. This is for both the Marine Corps and the Army?
    General Thompson. And the Navy.
    Mr. Dicks. So the light ones are on top of the 16,000?
    General Thompson. That is correct.
    Mr. Dicks. Are there going to be extra ones that are not 
used in Iraq or Afghanistan that are going to be deployed in 
the United States back to the units?
    General Thurman. Yes, sir.
    General Thompson. Yes, sir. What the services have done is, 
we have looked at the enduring requirement for MRAPs. A lot of 
those type of vehicles will be in route clearance companies.
    But we know what we think the requirement is for MRAPs and 
the MRAP all-terrain vehicles in Afghanistan. From an Army 
perspective, for Afghanistan it is about 2,670 MRAPs. And we 
think the requirement right now today is for about 2,000 of the 
lighter MRAP all-terrain vehicles. None of the MRAP all-terrain 
vehicles have been bought yet because we are just now in the 
evaluation process.
    Mr. Dicks. So you need 4,600?
    General Thompson. No, sir. The Army requirement right now 
is 2,080 for the MRAP all-terrain vehicle.
    Mr. Dicks. Okay. But you are not going to use any of the 
regular MRAPs?
    General Thompson. No, we are, sir.
    Mr. Dicks. How many of those?
    General Thompson. The requirement for Afghanistan is 2,675. 
That is a subset of the 16,000 that have already been bought. 
So we are going to use them in Afghanistan and are looking--if 
we have a viable solution against the requirement for a lighter 
vehicle, we will put some of them on contract as we go forward.
    Mr. Moran. Would the gentleman yield?
    Mr. Dicks. I yield.

                            MRAP PROCUREMENT

    Mr. Moran. Thank you, sir.
    The IG also told us that, with regard to these purchases, 
oftentimes you don't seek out quantity discounts, and, in one 
case, spent $90 million more than needed to be spent because no 
quantity discount was requested or provided.
    Mr. Dicks. That was the Marine Corps that did that.
    General Flynn. Sir, let me answer that, sir, if I could.
    Mr. Moran. There was a 1,500 MRAP order, I grant you. But 
they also talked about the fact there was a disparity in the 
price of MRAPs from $300,000 to $1.1 million. And that applied 
to the Army, as well as the Marine Corps.
    But go ahead.
    General Flynn. Sir, the best way I can answer that was the 
Marine Corps was the program lead for the entire Department of 
Defense. And we have reviewed the IG report, sir. And keep in 
context that when the MRAP program was under way then, and we 
were trying to field those vehicles as quickly as we could. We 
went out to nine or 10 different manufacturers of those 
vehicles to ask them to give us the best that they could give 
us and that we would push them through so that we could get 
these vehicles as quickly as we could to the soldiers and the 
Marines who needed them.
    And, as the IG reviewed that, you know, we understand what 
is in the report, sir. We took the lessons learned and we will 
apply that to procurements in the future. But, again, sir, this 
was one where speed was important, and that is what we did, 
sir.
    Mr. Young. Mr. Dicks, would you yield for a question here?
    Mr. Dicks. Yes, I yield.

                            MRAP DISPOSITION

    Mr. Young. The issue of MRAPs in Iraq is a bookkeeping item 
here. As we withdraw from Iraq, we won't be using nearly as 
many MRAPs in Iraq. The MRAP is not the ideal vehicle for 
Afghanistan because of the terrain, because of the lack of 
paved highways, because of the mountains, et cetera.
    So the MRAP ATV is, as Mr. Dicks has been discussing--what 
is the plan for the MRAPs that we will no longer use in Iraq, 
that we will not send to Afghanistan? Are we going to bring 
them home? Are we going to leave them in Iraq? Are we going to 
sell them to somebody? What is the plan.
    General Flynn. Sir, from the Marine Corps, we own about 
2,225 MRAPs. And our plan right now is to keep about 800 
operational, and we would put the remainder into our 
prepositioned stocks for use in an area that they would be 
well-suited to be operated, sir.
    So that is what we are looking at right now. It is not 
finalized. But some would remain in the operational inventory, 
depending on where they were needed, and then the rest would be 
put in our prepositioned stocks. And some could even be put in 
our sea-based prepositioned stocks. But we are still working 
through the plan, but that is the general approach right now, 
sir.
    Mr. Dicks. Can the MATV be transported on a C-130?
    General Thompson. I am just checking with General Brogan.
    The requirement is to be able to. So that is one of the 
things that we will be able to evaluate from the offerors that 
are in the source selection right now, is can they meet the C-
130 transportability.
    Mr. Young. Can we get General Thompson's response to the 
question, what do we do with the MRAPs?
    Mr. Dicks. Yeah, of course. I yield.
    General Thompson. I am going to let General Thurman answer 
that one, because it is more of a requirements issue, sir. And 
so he is going to give you that answer.
    General Thurman. Congressman Young, what we have looked at 
is, right now there is a need right now for 702 training 
vehicles to eliminate some of the training concerns that we 
have had with soldiers going over, you know, getting new 
equipment fielding. There is a requirement right now. We are 
trying to fill that. So there is a training requirement to put 
that at our combat training centers in our training centers so 
we get that training.
    The Army is much like the Marines. We are going to put some 
forward stations in our Army prepositioned stocks. We are going 
to put some of them in our other formations to enable them--or 
maneuver enhancement brigades or sustainment brigades. There is 
a requirement for command and control vehicles in some of our 
logistical units.
    So what we have looked at is how we use all those. We 
intend to integrate the MRAPs in a lot of our force structure 
in the Army. So they are not going to be sitting being wasted. 
We don't see that. And that is what we are undergoing right now 
as we look at all our force structure.
    Mr. Young. Well, I thank you.
    Thank you, Norm.
    Mr. Dicks. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Ms. Kilpatrick.

                       Remarks of Ms. Kilpatrick

    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Good morning, Generals, one more time.
    That is where I was going with some of that, but let me ask 
you this. From the discussion I have heard this morning and the 
reading, the Marines service is in charge of the MRAPs 
procurement, the coordinating and all of that.
    General Flynn. That is correct, ma'am.
    Ms. Kilpatrick. And the JLTV, which is another joint 
operation, the Army is going to be in charge of that.
    General Thompson. Yes, ma'am.
    Ms. Kilpatrick. Similar vehicles, right? MRAP and the JLTV, 
is it a different vehicle, is it similar?
    General Flynn. Yes, ma'am, it is different in a number of 
ways. The MRAP vehicle--for example, the MRAP all-terrain 
vehicle that we are looking at developing, as General Thurman 
said, it is going to be C-130 transportable.
    Ms. Kilpatrick. And is that the same, when you talk about 
the MRAP vehicle, the ATV vehicle, is that the JLTV?
    General Flynn. No, ma'am.
    Ms. Kilpatrick. That is a third.
    General Flynn. They are two different vehicles. And 
primarily you can distinguish them by weight and capability. 
The MRAP all-terrain vehicle, we are hoping that that weight is 
going to be somewhere around 22,000 pounds. On the JLTV we are 
looking for a vehicle that--I would hope, optimistically, is 
transportable by helicopter, so you have got to be in about the 
15,000-pound range.
    Ms. Kilpatrick. ATV's weight, what is that?
    General Flynn. An all-terrain vehicle, 22,000 pounds is 
about where we are look at. I think max on a C-130 is about 
25,000 pounds.
    Ms. Kilpatrick. And both of those are anticipated to be 
used in Afghanistan?
    General Flynn. I think the JLTV, because it is going 
through the technology demonstration phase right now, we are 
not going to see that vehicle until, I think, 2015, is when we 
are going to have that.
    Ms. Kilpatrick. So it won't be immediately in Afghanistan. 
I hope we are out of there long before that.
    General Flynn. That is what we are looking at, ma'am, is we 
are not seeing complete fielding of the vehicle until 2015.

                            FORCE PROTECTION

    Ms. Kilpatrick. So do we have the force protection 
available as we move into Afghanistan, in terms of the 
equipment and all? Not just the body armor, but the whole 
arena. Are we ready to protect the forces with what we have 
today?
    General Flynn. Ma'am, I think if you go back to what I said 
a little bit in the beginning, is that force protection is a 
combination of a number of things.
    Ms. Kilpatrick. Sure.
    General Flynn. We have made tremendous, I think, progress 
in how we train the force before it deploys. We are using new 
techniques. We are using new observation techniques. We are 
using new tracking techniques. Our goal at times is to always 
be the hunter and never be the hunted.
    Ms. Kilpatrick. Except we are being hunted at the moment.
    General Flynn. And we are the hunters now. And we give 
Marines that mindset. And part of that is knowing the 
environment that you are operating in, anticipating changes in 
that environment, and knowing exactly when that changes. And 
that allows us to spot IEDs. That allows us to figure out 
people who don't belong.

                             ARMORED TRUCKS

    Ms. Kilpatrick. Okay. Let me stop, because--thank you, 
General. And I appreciate it. Thanks for that dedication.
    So, therefore, if the JLTV is not going to be ready, and 
you said the MRAP ATV might be ready, will we have the quantity 
we need in the terrain of Afghanistan to protect the troops and 
win the war? Now, ``win the war'' is a whole philosophical 
thing, but protect the troops is--is it enough? I mean, do we 
have enough to go in there? The President has already announced 
that we are sending so many thousand into Afghanistan. Are my 
troops going to be protected?
    General Flynn. Ma'am, the short answer is your troops are 
going to be protected.
    Ms. Kilpatrick. And will they have what they need to fight?
    General Flynn. Yes, ma'am.
    Ms. Kilpatrick. All right, General, please.
    General Thurman. Ma'am, if I could, every single day and 
week we look at the requirements through a process inside the 
Army of meeting the needs of the commanders to make sure not 
only do they have what they need in theater but also the next 
deployers. I look at that every single day in the Army over 
there to make sure that we are meeting those needs.
    And I would just say what General Flynn said. We have a 
combat-experienced force now, and we are leveraging everything 
we learn every day in terms of what we are seeing on the 
battlefield. But I can assure you that we are going to make 
sure, from an Army sense and a Marine Corps, that we provide 
the best equipment we have.

                           COMMON ACCESS CARD

    Ms. Kilpatrick. Okay. And if the President announces and we 
are not ready, will the services speak out and say, ``Mr. 
President, we may need a little bit of time to get ready for 
this''? We were not ready when we went into Iraq, and 
consequently we went in there with the wrong vehicles and too 
many IEDs and all of that. I am hopeful we don't repeat, and it 
sounds like we are more ready for this one.
    Which is that common access card. It is not the combat 
vehicle, but it is just as important. And it would help today, 
General Thompson, when you talked about the other two lines of 
verification being biometrics, because that is important. The 
last time I think we heard just the card, and contractors were 
issuing the card to contractors. And we didn't feel like the 
monitoring--which is why some of my colleagues spoke about that 
today. It is so important.
    And you are going to get back with us with some more 
information.
    General Thompson. Yes, ma'am.
    Ms. Kilpatrick. Contractors issuing cards to other 
contractors with little monitoring, that is not a good thing.
    Thank you. Please protect the troops. Do your jobs. We love 
you and appreciate your service. Thank you.
    Thank you, Mr. Chairman.

                      FORCE PROTECTION CHALLENGES

    Mr. Visclosky. Thank you very much.
    Gentlemen, I would like to talk to you about force 
protection challenges for logistics units. It certainly 
received national attention in March of 2003, during the second 
Gulf War, when a convoy of the U.S. Army's 507th Maintenance 
Company and elements made a wrong turn and were ambushed.
    Could you provide us an overview of the organizational 
training and equipment improvements made to improve force 
protection for Army and Marine Corps logistics units?
    And the other question would be, how have any doctrine or 
training programs been changed to try to improve circumstances?
    General Thurman. Mr. Chairman, I would be happy to answer 
that. I am very familiar with 2003.
    What we have done is--it is not one piece of kit, if you 
will, that protects a convoy. First off, it is the training 
that we have done at our combat training centers. But convoy 
protection has been improved in what I would classify in about 
four distinct areas.
    It is improved situational awareness. And what am I talking 
about there? I am talking about having the right communications 
gear in the vehicles: the blue force tracking system, which 
tells everybody where they are at and exactly the location. We 
have issued satellite communications. The use of also our 
normal onboard SINCGARS radio.
    IED detection is a second component that we have had, that 
we have talked about with CREW devices. Vehicle survivability; 
the individual soldier protection. The convoys that move back 
and forth are either in an up-armored Humvee or they are in an 
MRAP. The commanders decide the distribution of that. The other 
thing that we have done is we have put the armored security 
vehicle out there, in helping escort these convoys.
    So, you know, soldier protection, the vehicle survivability 
and IED detection, and just having a knowledge of what is going 
on on the battlefield of the threats.
    And, last, it is training. And you can never be satisfied 
with your training levels. That is what I have learned as a 
professional. And you never can believe your own publicity. And 
you have to constantly take those lessons learned and integrate 
them in our training centers.
    Mr. Visclosky. And how has the training evolved, General?
    General Thurman. Sir, what we have done, at least in the 
Army, at our three major combat training centers at Fort Irwin 
and at the Joint Readiness Training Center down at Fort Polk 
and the Joint Multinational Readiness Center (JMRC) in 
Hohenfels, Germany, our joint multinational training center, we 
do extensive convoy live fire, role players, use of contractors 
against uncooperative irregular threats, if you will. And we 
have issued a lot of convoy planning tools that have been 
distributed widely across the Army.
    I think we have done a lot. And we learned a lot, making 
sure that we have the right basis of issue in terms of 
equipment, how we equip our logistics formations.
    General Flynn. Sir, the key thing is, it all starts first 
with individual training and combat skills, and then we move to 
unit training. The key part is all our units, before they 
deploy, have to get certified through their predeployment 
training. You actually get a report card, if you will, or an 
evaluation of how effective your unit is in an immersive 
environment. And we actually do it all live-fire, so we know if 
you can handle the situations.
    Like General Thurman said, improve situational awareness on 
the battlefield, knowing where everybody is, and also knowing 
what threats you are likely to face. Better mission planning 
before you go outside the wire and execute those logistics 
support missions. And improve survivability on the vehicles, 
and also enhancements to those vehicles in terms of not only 
survivability but also our weapons mix in that, and also the 
addition of CREW devices to the systems that counter the IEDs.
    So it has been a comprehensive approach, and it is one that 
we test before they leave here to make sure they have what it 
takes to survive.

                            COUNTER SNIPERS

    Mr. Visclosky. If I could ask about countering snipers, 
too, which obviously can disrupt operations, could you address 
what technology-based solutions are currently being used? And, 
again, getting to the issue of training, situational awareness, 
any changes in evolution that has taken place, as far as 
countering snipers?
    General Flynn. Sir, there are two approaches to countering 
snipers. One is pre-shot, and the other one is post-shot. The 
best counter to a sniper is another sniper. And we make sure 
that we train our snipers to be the best and most deadly on the 
battlefield. And they are. The pre-shot deals with enhanced 
optics for your observation skills. Post-shot, we are looking 
at technology for muzzle flash and also for different acoustic 
devices on the battlefield.
    So it is a multiple approach to counter sniper but one 
that, again, starts with the basics of training and basic 
observation skills. But we leverage technology in the areas of 
optics and acoustics.
    Mr. Visclosky. Could I just ask, is it a growing problem? 
Has it always existed? Is it static, as far as incidence? Is it 
diminishing in Iraq and Afghanistan? I don't want to make an 
assumption either way.
    General Flynn. I am not sure if it is--I think snipers on 
the battlefield will always be a challenge. And I think it will 
be situational-dependent. And one type of area where you are 
operating could be the best place for a sniper to operate. So 
the enemy is going to try to take advantage of that situation. 
And we have to do all that we can to maintain the advantage 
over the enemy where we think snipers are likely to operate, 
sir.
    General Thurman. Mr. Chairman, what I would tell you is, 
for counter-sniper, what we have done in the Army, similar to 
the Marine Corps--it is just something I think we will have to 
see in the future and on any battlefield--but what we have done 
is we have employed the acoustic gunshot detection system 
Boomerang and the gunshot detection C2 system on some of our 
platforms. We have used closed circuit televisions.
    And I agree that, in order to defeat a sniper, you need to 
have more snipers on the battlefield and awareness of the 
enemy. The SWAT system, which is individual gunshot detection, 
we have fielded in Iraq right now today roughly 350 sets. We 
just put 100 sets with the 56th National Guard Brigade Stryker 
that deployed. The use of binoculars, thermal imagery 
magnifiers. The measures such as just veils and protection.
    The other system that we have put in theater is a Common 
Remotely Operated Station (CROWS) system, which is to protect 
the gunners on our combat platforms. It has been integrated on 
the M1, the up-armored Humvee. I had the opportunity to test 
that, when it first came out in Baghdad. So you can mount, 
obviously, all your machine guns or your MK-19 grenade 
launcher.
    So it is a combination of those types of technologies. But, 
more importantly, it gets back to training levels and awareness 
of the environment you are operating in. And I can't 
overemphasize that.
    Mr. Visclosky. Thank you.
    Mr. Young.
    Mr. Young. No more questions.
    Mr. Visclosky. Mr. Dicks.
    Mr. Dicks. No further questions.
    Mr. Visclosky. Mr. Frelinghuysen.

                          BLUE FORCE TRACKING

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    That CROWS system is pretty neat and pretty important. 
Thank you for mentioning it.
    Just a comment. On the blue force tracking, this is sort of 
a work in progress, isn't it? You invoked the blue force 
tracking system as if it was complete. Hasn't it been worked on 
for 4 or 5 years?
    General Thurman. Well, I will let General Thompson talk 
about the system itself.
    Mr. Frelinghuysen. I sort of got the feeling that it is not 
totally mature.
    General Thompson. That is correct, Congressman.
    Mr. Frelinghuysen. I think it is important to know. I mean, 
we have issues of the enemy doing things to us, but, in 
reality, we have so much of our own equipment over there, we 
are potentially jamming our own ability to communicate.
    General Thompson. But on all our systems, not just blue 
force tracking. But we are constantly upgrading those systems 
based on the changes, if the technology is available, the 
threat materializes. We go through a change proposal, an 
engineering change proposal process. We do software upgrades 
for software-intensive systems. And so, depending on what 
system you are talking about, you could be in multiple versions 
of software. But that is just part of the normal acquisition 
process in response to the requirements.
    Mr. Frelinghuysen. For the record, I would like to get for 
the Committee a description of where we stand relative to the 
various technologies that are included in that system.
    General Thompson. In the blue force tracker?
    Mr. Frelinghuysen. Yes.
    General Thompson. Yes, sir.
    [The information follows:]

    The Force XXI Battle Command, Brigade and Below (FBCB2) Blue Force 
Tracking (BFT) system has been a major combat multiplier since its 
introduction to our combat formations in 2003. Since first use in 
Operation Iraqi Freedom, Program Management FBCB2 has fielded over 
70,000 BFT systems to Active, Guard, and Reserve components. FBCB2-BFT 
is the primary ground and air platform battle command system for our 
joint forces. It provides Situational Awareness (SA) information (where 
am I, where are the friendly forces, where is the enemy?), and Command 
and Control (C2) messaging between our platforms, remote tactical 
operation centers, and headquarters locations.
    There are several reasons why our Soldiers and Marines continue to 
request more systems: (1) ease of use, (2) supports their mission 
across extremely large operational areas, and (3) provides reliable 
communications, even with all the other electronic equipment on the 
platform. Feedback from Soldiers and commanders in theater indicates 
that BFT is often the only means they have to communicate beyond line-
of-sight while on the move in remote, high threat environments. PM 
FBCB2 implemented an accelerated design, development, production, and 
fielding of a BFT capability that does not interrupt existing Counter 
IED capabilities. The key to ensuring these remain an enduring 
capability is close collaboration with the organizations that provide 
Counter Remote Controlled IED (RCIED) Electronic Warfare (CREW) 
capabilities. Furthermore, BFT provides the ability to communicate 
using free text messaging with anyone else who has BFT, regardless of 
whether they are different units, ground or air, Army or USMC--it does 
not matter.
    While BFT is a critical enabler in its form today, there are 
additional critical areas that are addressed in our Joint Capabilities 
Release (JCR) software development. The FBCB2 JCR software will include 
the application that incorporates these capabilities in the following 
paragraphs. Government acceptance testing commences early May 2009. In 
August 2009, we will conduct testing to ensure software 
interoperability with other Army and joint warfighting systems. The 
FBCB2 JCR will be postured to begin fielding after a successful 
operational evaluation in April 2010. Capability will include but not 
be limited to the following improvements:
    1. Simplifying the Database. FBCB2 JCR will allow users to start up 
and join a network with minimal pre-configured information, and then to 
send ``Self Descriptive SA'' to share address book information with 
others (like address, role name, alias, map symbol code and task 
organization) to support SA and C2 messaging. With JCR, networks will 
no longer be related by hierarchy, are extremely simple to plan, and 
are not affected by task reorganization.
    2. Securing the network: Achieving a Secret L-band capability is 
one of the most sought after improvements requested by our Soldiers. We 
have developed a technical solution to achieve this using the 
Programmable In-line Encryption Device (short title KGV-72). This 
capability prevents unauthorized exploitation of BFT data while in 
transit over the network, and is scheduled to be fielded with the JCR 
software as part of the Army's Battle Command Capability Set beginning 
in 
FY11/12. Fielding will be in accordance with Department of the Army 
priorities.
    3. Improving the speed of the L-Band network. PM FBCB2 will 
complete the development and testing of the Blue Force Tracker 2 (BFT 
2) satellite network/transceiver in FY 10, and will insert this widely-
requested capability into the Battle Command Capability Set FY11/12 
baseline once ready. BFT 2 will provide update rates (increased 
position accuracy) and enable the distribution of more tracks to meet 
the additional FBCB2 fielding density. This greatly improved bandwidth 
(over 10 times greater) opens the possibility of pushing other types of 
data down to our platforms across the battlefield. The BFT 2 Satellite 
Network Upgrade Program will expand the performance, capacity and 
capability of the FBCB2 satellite communications network.
    4. Improving the hardware. PM FBCB2 has had great success with 
maintaining a reasonable pace with the commercial computer market. We 
have started fielding ruggedized platform computers with dual core 
processing capability, two times the random access memory, and four 
times the hard drive capacity. We continue to improve the performance 
of our system while continuing to reduce the cost per platform. 
Furthermore, we are engaged with other project offices, exploring ways 
that we can leverage common computers, and looking for ways to reduce 
the number of unique systems on our tactical platforms.

                              MRAP TRAINNG

    Mr. Frelinghuysen. I, sort of, wanted to get a question 
on--you know, everybody loves the MRAPs, and obviously they 
have done a remarkable job in saving lives--the training 
aspect.
    I think before testimony before the House Armed Services 
Committee back in January, I understood that the Army had only 
filled 4 percent of its vehicle requirements for training. Was 
that accurate? And if that is accurate, has that been improved 
considerably?
    General Thurman. Yes, sir. First off, that was accurate. We 
made a conscious decision to push all the MRAPs forward, so we 
had the protection first. And then we knew all along we would 
have to make up a training requirement.
    Currently, the requirement is for 702 full-up MRAPs to do 
training. We have also----
    Mr. Frelinghuysen. But in terms of actually--those who are 
qualified. You know, this isn't driving a Humvee. You know, 
this weighs a billion tons. There are not too many people that 
are capable of doing that. I just sort of wondered where the 
Army stands relative to those that are qualified to actually 
run the vehicles.
    General Thurman. Well, we license those soldiers to make 
sure that--obviously, they have had the required training. That 
is documented. It is documented with the units.
    Mr. Frelinghuysen. I asked the question, if we are sending 
1,800 into Afghanistan--and the picture I have is MRAPs stuck 
in the mud, and then you have to use a vehicle of a similar 
weight to pull them out, because there are so few roads over 
there. And then there is the issue of rollovers here. There 
have been considerable rollovers. I assume that has something 
to do with lousy infrastructure, either in Iraq or Afghanistan. 
In Afghanistan, you virtually don't have any, other than the 
roads we have built.
    Are the people trained that are using these vehicles, as 
well as the new ones?
    General Thurman. Yes, sir. Currently, the Army is fielding 
a drivers trainer, a common drivers trainer with 
interchangeable cockpits, if you will. And then we are doing a 
rollover egress trainer that we will push forward, that, if the 
vehicle rolls over, there will be a trainer. And that will be 
in Iraq and in Afghanistan.
    Mr. Frelinghuysen. The issue for me is training 
requirements. How many people are qualified?
    General Thompson. Sir, we won't let--not just on MRAPs, but 
we go through a licensing process for every type of vehicle in 
the Army's inventory. And so you get the training that you need 
to be able to operate that vehicle, whether it is a tank, an 
MRAP, a Humvee, a Bradley fighting vehicle.
    To the specific numbers on MRAPs, we have, because of what 
General Thurman said, we pushed the vehicles forward because we 
wanted the protection there as much as possible. We now have 25 
of those vehicles in the training base in the United States, 
another 25 en route. And the total requirement of the training 
base is the 702 that General Thurman alluded to.
    We have got common driver training, simulators. The 
requirement is for 20 of those; seven of those have been 
fielded to date. Rollover trainers, the requirement is for 25; 
five of those were shipped to theater this month. And we know 
where we want to put the other 20. So we are putting them where 
the soldier population is greatest, and so that the soldiers 
that are on orders to deploy get to learn and experience that 
vehicle in a simulation training environment.
    Mr. Frelinghuysen. So there is some lagging in training. 
And do the training hours match what the Marines are doing? 
Marines are required to drive 125 training miles. I mean, do 
you match what the Marines are doing, in terms of their 
training requirements?
    General Thompson. I don't know the answer to that question. 
We would have to go back and look at the hours and the types of 
training.
    Mr. Frelinghuysen. The bottom line for me--you know, we may 
be exiting from Iraq. We are moving more MRAPs into 
Afghanistan, and their use is limited because of the lack of 
anything to drive on. And I just wondered whether the people 
that are going to be using those MRAPs are--if you have enough 
backup. Can you get it for the record, if we don't have it 
here?
    General Thompson. From my perspective, the way I would 
answer that is that you want to do more training rather than 
less training. And so the availability of vehicles and the 
availability of the simulator trainers and the rollover 
trainers is lagging a little bit from what we would like to 
see. You want more actual hands-on training done and more 
simulation training done. And we have both the systems being 
fielded and the money to be able to do that today.
    Mr. Frelinghuysen. You have the money?
    General Thompson. We have the money to do that. That is the 
issue.
    General Thurman. Congressman, if I may, also we did field 
some surrogate trainers at our combat training centers. We took 
some of the five-ton vehicles and we modified them to try to 
get ahead of the training issue.
    Mr. Frelinghuysen. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Dicks.
    Mr. Dicks. Is the training done in Kuwait? Or where is it 
done?
    General Thurman. Congressman, for the folks going into 
Iraq, they train in Kuwait, and then we do new equipment 
training in Afghanistan. That is why it is important, at least 
that is from the Army. As we get more trainers, we want to put 
them out at certain installations so we can catch up with this.
    Mr. Dicks. So they are in Kuwait, and then they go into 
Iraq. Are you going to use Kuwait for Afghanistan, as well? Did 
I hear you say that?
    General Thurman. They need to do the new equipment training 
in Afghanistan.
    Mr. Dicks. And then we are going to get some so we can do 
some equipment training in the United States?
    General Thurman. Yes, sir, that is how we are doing.

         JOINT IMPROVISED EXPLOSIVE DEVICE DEFEAT ORGANIZATION

    Mr. Dicks. Okay. Let me ask you this: How do you work with 
JIEDDO, with General Meigs?
    General Flynn. Sir, I work very closely with them, sir. The 
Marine Corps warfighting lab works for me, and we are directly 
linked to JIEDDO on a daily basis.
    Mr. Dicks. It looks like, when I just saw the briefing, the 
numbers in Iraq are coming down rather dramatically, of IED 
attacks, but they are going up in Afghanistan. Is that how you 
see it?
    General Flynn. Sir, in the latest data I saw this week, 
that is true. But, also, our force levels are going up. And 
when you track the data, because our force levels are going up, 
there is a relationship. For example, the Marine Corps, we just 
went back to Afghanistan, so our encounters with IEDs are going 
up right now. And it is on an upward trend, and it is on an 
almost near-zero trend in Iraq right now. So, as we are meeting 
with the enemy, sir, we are seeing them employing IEDs.
    Mr. Dicks. General Thurman, do you have anything you would 
like to add to that?
    General Thurman. I would just add to that, Congressman, 
that is exactly what we are seeing in the Army. And what you 
have to worry about are those areas that maybe you haven't been 
in.
    Mr. Dicks. Yeah.
    General Thurman. And that is where you really have to pay 
attention there, because you will stumble onto something there 
if you are not careful. But that is what I would tell you. But 
I have been watching--you know, I watch IEDs every day. But we 
work very close with General Meigs.
    Mr. Dicks. I liked what the General said here earlier, that 
it takes a multitude of technologies. It isn't just one silver 
bullet on this in this IED world. And I think the JIEDDO thing 
has been a big success.
    And the other thing that was interesting about the 
briefing, this isn't just Iraq and Afghanistan. This now is a 
worldwide event that we are going to have to work with our 
allies and friends around the world in adapting to. We have 
been very fortunate that we haven't had attacks like this in 
the United States, but in other parts of the world, it is a 
pretty common occurrence.
    General Thurman. Yes, sir.
    Mr. Dicks. Thank you.
    Mr. Visclosky. Mr. Kingston.

                             CH-47F CHINOOK

    Mr. Kingston. Thank you, Mr. Chairman.
    General, I wanted to ask you about the CH-47F Chinook 
helicopters, again, that the Guard uses. I understand they are 
28 short. And I was wondering what a statistic like that really 
means, when they say 28 short. They are asking for a plus-up in 
the budget of six, and I just wanted to get your opinion on 
that.
    General Thurman. From the requirement perspective, we are 
short some aircraft. One thing, since the start of the war, in 
terms of the combat losses, actual combat losses, we have lost 
112 aircraft. That was my latest account. And then you add on 
the attrition, so it takes you up to about 100. That is not CH-
47s. That is all aircraft. And, to date, for the combat losses, 
we have had about 28 return--we have had 28 returned, for an 
all total of 40 when you look at what has been washed out or 
from a safety standpoint.
    We do not have all the aircraft we need right now, due to 
losses and that. And when we went through the aviation 
transformation, we reorganized inside the reserve components 
and the Army to make our combat aviation brigades more capable. 
So what we have done is we make sure that the units that are 
going into the theater are full up. That is how we manage 
aircraft. And we work close with the National Guard Bureau and 
the Army National Guard to make sure that they have what they 
need.
    We can get you the complete laydown on CH-47s, and I would 
be happy to do that, of the total requirement of where we are 
headed with the CH-47F. And I can take that and show you by 
State.
    [The information follows:]

    The Army has a requirement for 489 CH-47 aircraft. It is now 
modernizing from the CH-47D to the CH-47F and will complete this by 
2018. Today, the Army has 457 CH-47 on hand. This includes 56 MH-47 for 
Special Operations, 63 CH-47F, and the remaining 338 aircraft being CH-
47D. Of the 338 CH-47D, 29 are currently inducted to the 
remanufacturing line and will be returned as new CH-47F. Seven CH-47D 
aircraft are at Corpus Christi Army Depot and will be returned as 
recapitalized, like-new, CH-47D.
    The Army National Guard and the United States Army Reserve have a 
requirement for 195 CH-47 aircraft. This includes 159 aircraft in the 
National Guard and 36 in the Army Reserve. Both the Army National Guard 
and the United States Army Reserve requirements are authorized for 
units that in many cases are spread across several states.
    The Army National Guard maintains CH-47 units in 24 states. The 
Guard resources units to 100% of authorization one year prior to 
mobilization. Deployed units have their full complement and this 
includes Pennsylvania, Connecticut, Illinois and South Carolina with 
six on hand of six required; Texas and Oklahoma deployed with one extra 
aircraft above their 6 required to meet mission requirements. Alabama, 
Georgia and Washington have 6 of 6 as they prepare for deployment. 
California and Hawaii have 10 of 12. Oregon and Mississippi have five 
of six. Nebraska, Colorado, Florida, Iowa, Minnesota, Ohio, Michigan, 
Nevada, and Montana have four of six. Maryland and New York have three 
of six.
    The United States Army Reserves maintains three CH-47 companies: 
one in Fort Lewis, WA, one in Fort Eustis, Virginia, and one company 
split between Olathe, Kansas and Fort Carson, Colorado. Currently, the 
company from Fort Lewis is deployed with eight of its 12 aircraft. Two 
of its remaining four aircraft are at Corpus Christi Army Depot and 
Fort Carson, Colorado.

    Mr. Kingston. If we requested the plus-up of six in the 
fiscal year 2010 budget, is that something you would support? 
Or how would you feel about that?
    General Thurman. Sir, as a G-3, I need to go back, because 
the budget from DoD has not been sent out on fiscal year 2010. 
And so I would have to go back and just look at what the total 
requirement is on what you are asking specifically, on the six.
    Mr. Kingston. One reason why their request caught my 
attention is yesterday we had a hearing where we discussed the 
average weight of an infantry soldier right now is 93 pounds, 
in terms of the fully equipped rucksack and everything that 
goes on him. And, you know, particularly in Afghanistan where 
you have such rugged terrain and mountains and so forth, it 
would appear that those Chinooks would be very helpful in terms 
of lightening the infantry load.
    General Thurman. Yes, sir. And we are, in fact, increasing 
aviation in Afghanistan just for those reasons. Helicopters are 
one of the most high-demand items that comes in to me as a 
requirement.
    Mr. Kingston. Well, I would love to get your opinion on it, 
particularly the fiscal year 2010 budget.
    General Thurman. Yes, sir.
    Mr. Kingston. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Bishop.

                                MEDEVAC

    Mr. Bishop. Thank you very much.
    I would like to talk about medevac, if you will, for a 
moment. In January, before the House Armed Services Committee, 
Secretary Gates addressed the difference in medevac response 
times in Iraq and Afghanistan. And of course he said the goal 
in Iraq was to have a wounded soldier at a hospital in an hour 
and, in Afghanistan, close to 2 hours. And he directed that 
there would be an increase in the number of medevac helicopters 
and medical professionals that would be assigned to 
Afghanistan.
    What were the shortages in medevac assets in Afghanistan 
that he identified? And what additional assets, both medical 
and aircraft, have actually arrived in Afghanistan since that 
time, and what is on the way? What is the average time to 
evacuate a soldier now in Afghanistan?
    And we understand that certain combat search and rescue 
aircrews have been reconfigured to help with the medevac 
problem and the shortfall. What are the pitfalls of taking the 
combat search and rescue aircrews and assigning them to this 
medevac, as opposed to their search and rescue functions? And 
that would be of interest, of course, to Mr. Kingston. He 
represents Moody Air Force Base, which does significant search 
and rescue. And have those search and rescue operations been 
helpful in Afghanistan to solving the medevac shortfall?
    General Thurman. Congressman, we have done extensive work 
with the Marine Corps, as well as the other services. You know, 
this is a joint war, down in Afghanistan, and we need to use 
all joint assets that are available to extract our people off 
the battlefield in a timely manner.
    We are going to put more medevac aircraft, at least from 
the Army side, into Afghanistan. You are correct, we were not 
meeting the standard. But, you know, it is the size of that 
country, as compared to Iraq, is considerably different. I 
equate it to Texas versus West Virginia, about that size.
    That said, what we are trying to do is look, also, with our 
forward surgical team capability, to put more of those assets 
in, so you can quickly treat a soldier, Marine, airman, sailor, 
or whoever is out there, contractor, in a quick manner. We are 
not there yet, on dropping that down to an hour. But we are 
serious about this. We need to use all assets that we have in 
there, is what I would tell you in this environment.
    General Thompson. I think the exact numbers, I mean, the 
forward surgical teams, is about a 40 percent increase that is 
going to go into Afghanistan. And the numbers of medevac 
aircraft that we plan on putting over there is about a 75 
percent increase over there today.
    Mr. Bishop. What is the timeline on that?
    General Thurman. Sir, we are working that right now. We are 
talking in the next 30 days, as we work that.
    General Flynn. Sir, on the medevac, we have changed our 
force deployment posture. At the beginning of the year or just 
prior to the beginning of the year, we only had an infantry 
battalion over there. We have now since changed, and we are 
actually deploying our air assets with it.
    And, just like General Thurman said, it is not just the air 
assets. It is also the level-two surgical care. So we are doing 
a number of things.
    And, you know, for the record, in a classified setting we 
can give you the medevac laydown of where are all the different 
aspects of the care, is I think is the best way to answer the 
question for you now, sir, as well as what is going on now and 
what is projected for the future to be in theaters.
    [The information follows:]

    This is a more complex situation than we have faced in Operation 
Iraqi Freedom; and as such, we are ensuring that we get it right on 
behalf of our Soldiers. I will have my staff coordinate with your 
office to provide you a detailed classified briefing on MEDEVAC 
operations in Operation Enduring Freedom at first opportunity.

    Mr. Bishop. But basically medevac for Marines is provided 
by the Navy.
    General Flynn. No, sir.
    Mr. Bishop. You are doing it jointly?
    General Flynn. Army, Marine, Air Force, you know, sir, they 
are all part. When you see the medevac laydown, it is a number 
of assets that do it, just like the hospitals.
    Also, it is coalition, as well, too, sir. Because in the 
areas we are working, a lot of the areas that we work are under 
the control of our NATO allies. And, in some cases, that is 
where the medevac and the medical treatment facilities are, as 
well, sir.
    General Thompson. A wounded service member is a wounded 
service member. So they get cared for or medevac'ed, if 
necessary, by whatever asset is available.
    General Thurman. Congressman, we would be very happy to 
come over and give you a complete medevac briefing, and to any 
of the other members, on exactly what we are doing in Iraq and 
Afghanistan.
    Mr. Bishop. I would love to have that, sir.
    General Thurman. But particularly in Afghanistan.
    Mr. Bishop. Thank you.
    Thank you, sir.

                                STRYKERS

    Mr. Visclosky. Thank you very much.
    Gentlemen, the Army recently notified the Committee that 
the Stryker order was being modified and that 270 medevac 
variants would be changed to other variants, such as infantry 
combat vehicles, in order to establish a Stryker brigade combat 
team equipment set in Afghanistan.
    I would have two questions on the situation. The first is, 
will the Army request funds to replace the 270 Stryker medevac 
vehicles that were deleted from the order? And secondly, what 
is the Army's overall strategy and timeline for replacing the 
M-113s and heavy brigade combat teams with updated vehicles?
    General Thurman. First off, Mr. Chairman, we did do that, 
because, to answer the Stryker question upfront, you know, we 
are moving a Stryker brigade combat team into Afghanistan. We 
have not done that before. So what we are doing--you know the 
Lines of Communication, the ground LOCs? It takes longer to get 
equipment into Afghanistan rather than coming in from Kuwait 
and driving into the next country over. So to cut down on the 
need for a strategic area, we need to establish a theater-
provided equipment base, because we see Strykers being replaced 
in Afghanistan. That was requested by the theater commander.
    So we needed more Strykers, in this case. We believe we can 
use the MRAP amulets and integrate that in the Strykers. So 
that is what we think we need to do so we can establish 
theater-provided equipment over there. And we can get you the 
exact requirement on that, in terms of funding, of what that 
would be.
    We do have a strategy to replace--we do need to replace the 
M-113s. And that is part of our overall strategy in the Army, 
that we would be happy to lay that down for you, too, and show 
what you we are trying to do here with that. Because that 
vehicle, frankly, will not survive in this environment.
    [The information follows:]

    We are working closely with the Office of the Secretary of Defense 
on a strategy to replace our aging fleet of combat vehicles, which 
includes the M113. When the budget is released, we will be able to 
discuss where we are in the deliberations to date. More generally 
however, the Army's modernization strategy is focused on building a 
versatile mix of mobile, networked BCTs that can leverage mobility, 
protection, information, and precision fires to conduct operations 
across the spectrum of conflict. As part of that effort, we will 
institutionalize a full spectrum set of Mine Resistant-Ambush Protected 
(MRAP) vehicles that incorporates MRAP and Up-armored HMMWVs (UAH) into 
our formations. We are also conducting a holistic review of the 
capability requirements for our combat platforms, focusing on the 
wartime lessons learned by Soldiers, commanders and the Joint community 
that are applicable to our current and near future operations.

    Mr. Visclosky. So you will have a request for funds?
    General Thurman. That is being worked in the building right 
now. And I don't have all that with me right now, exactly what 
that would be.
    General Thompson. If I can just add to that just a little 
bit, so what General Thurman is describing, if you are going to 
put a Stryker brigade into Afghanistan, very difficult to get 
vehicles into theater. So once you get them there, you would 
like not to have to send another Stryker brigade in and send it 
in with its vehicles. So the vehicles that will go there will 
be left behind in the theater and maintained in the theater.
    The diversion of assets from the planned production of 200 
medical vehicles to something else--and that is the plan that 
is being worked for approval inside the Pentagon right now--is 
to then convert those vehicles to the other vehicle 
configurations, so when that unit that is going over there 
comes back, they can come back and have an equipment set that 
they can train on. Because it is our plan that there will be an 
equipment set that is left in theater for a while for Stryker 
units to fall into.
    We will integrate that into the force structure. There is 
going to be battle damage and losses to those vehicles. But 
that is being worked right now. And that was the genesis or the 
reason for the request to divert those assets from one type of 
vehicle to another.
    Mr. Visclosky. And for the record, you will provide more 
information on the replacement program for the 113s then?
    General Thurman. Yes, sir.
    Mr. Frelinghuysen. If the chairman would yield?
    Everybody likes to be in the Stryker brigade, but Stryker 
vehicles like roads as well. They prefer, you know, what we 
call normal roads.
    What are their capabilities in Afghanistan, given what we 
have with the weight problems with MRAPs? And, obviously, the 
Stryker vehicles have a degree of vulnerability, as remarkable 
as they are, that the MRAPs don't have.
    So on the issue--and maybe you want to put it in for the 
record--you know, what are the limitations if we are going to 
move, you know, the Stryker brigade in there on these vehicles, 
given just the topography, terrain, and lack of infrastructure?
    General Thurman. Congressman, we can give you more 
information on this. But what I would tell you is, the theater 
commander asked to use those in certain areas, because he felt 
he needed the mobility and the infantry capability.
    [The information follows:]

    Like MRAPs, or any other heavy vehicle, Strykers have mobility 
limitations. Steep mountainous terrain with unimproved roads present 
challenges to the Stryker's maneuver capability. Aware of these 
limitations, the theater commander requested that a Stryker Brigade 
Combat Team (SBCT) be deployed specifically to Regional Command South 
in Afghanistan where the terrain is more suitable for Stryker maneuver.
    The SBCT is a full-spectrum, wheeled combat force designed and 
optimized primarily for confronting low-end and mid-range threats that 
may employ both conventional and asymmetric capabilities--like the 
threat we are facing in Afghanistan. The SBCT's capabilities differ 
significantly from those found in traditional brigades. In addition to 
its three infantry battalions, the SBCT has a cavalry squadron for 
reconnaissance, surveillance and target acquisition (RSTA), a brigade 
support battalion, a field artillery battalion, a military intelligence 
company, an engineer company, a signal company, an anti-tank company, 
and a headquarters company. This mix of capabilities allows the SBCT to 
cover a larger operational area and to provide greater firepower than 
an Infantry Brigade Combat Team (IBCT). Additionally, because of the 
common chassis in its formation, the SBCT allows a smaller sustainment 
footprint than a Heavy Brigade Combat Team or an Infantry Brigade 
Combat Team outfitted with multiple variants of MRAPs. This is vitally 
important considering limitations on our lines of communications in 
Afghanistan.

    Mr. Frelinghuysen. They sure are. I am just worried about 
the ability of vehicles getting from point A to point B.
    General Thurman. Yeah, I think the terrain--and I don't 
want to get into the operational employment of what he intends 
to do. I think we will support what he is trying to do over 
there for that particular capability. It is a valid concern, 
with the concerns you brought up. But we can show you that.
    All of them have slat armor on there. We will equip them 
the same way we do in Iraq. But there are mobility challenges, 
depending on where you are in Afghanistan. But we can show you 
that in more detail, if you would care to have that.
    Mr. Frelinghuysen. Okay. Thank you, General.
    Thank you, Mr. Chairman.
    General Thompson. And I think--and I am not the operator 
here; I am the acquisition representative. But I think that the 
theater commander asked for that Stryker brigade and will put 
that Stryker brigade in places in Afghanistan where the unit 
capability is maximized.
    Mr. Frelinghuysen. I want you to strut your stuff. But, in 
reality, I want to make sure, if we get Stryker vehicles over 
there, that they can be, you know, as best we can, widely used. 
And since we don't own the whole country, you know, we are 
somewhat limited in the areas which we have responsibility for. 
It would be interesting to know how we are matching, you know, 
our ability to maneuver on what you and I would call roads, of 
which they have very few, and what they call, you know, 
highways.
    Thank you.
    Mr. Visclosky. Mr. Bishop.

                   MRAP COMPATIBILITY TO AFGHANISTAN

    Mr. Bishop. Thank you.
    Gentlemen, we have talked a lot about MRAPs today. But one 
thing for sure is that they are pretty huge vehicles. And 
throughout the services, I think about 11,000 of them being 
used in Iraq, 2,000 to 3,000 in Afghanistan, and a lot more 
being used for training.
    For each of the services, could you tell me, with the troop 
levels coming down in Iraq in the coming year and the lack of 
MRAP compatibility to the Afghanistan terrain, and since they 
are expensive to transport and operate, what are you going to 
do with the MRAPs in Iraq following our withdrawal over there, 
or, I should say, our redeployment from there? Will they be 
kept in Kuwait to be a part of our prepositioned equipment set?
    Will the U.S. retain all of the remaining MRAPs, or will a 
portion of them be allocated to foreign military sales? I know 
that there are some plans on the shelf, ready for execution on 
command, for moving some of the equipment back.
    But, you know, for each of you, what is it that you are 
going to be doing? And how much is going to stay? How much is 
coming back? And is it possible, fiscally, for us to move all 
of this expensive equipment back, logistically?
    General Flynn. Congressman Bishop, we own about 2,200 
MRAPs. What we are going to do is we are going to take about 
800 of them and they will remain in the operating forces. And 
then the remainder we are going to return to our prepositioned 
stocks.
    So that is our basic plan right now. It is still being 
refined. But that is where we are right now in the planning 
process, sir.
    General Thurman. Congressman Bishop, depending upon how 
long we are deployed, obviously there is a requirement for 
MRAPs as long as we are deployed, whatever those troop levels 
end up being. So they will stay forward with the units.
    What we are going to do if the demand drops down, we have 
already documented 1,400 into our route clearance companies 
that we intend to document in the force structure.
    Mr. Bishop. What does that mean? That means preparing them 
to bring them back home?
    General Thurman. Yes, sir. We are going to bring a number 
of these back, and we intend to integrate them into our force 
structure. And we are working that right now inside the Army, 
in our force structure.
    There is a requirement right now for approximately 702 MRAP 
training vehicles. And then there is another requirement to be 
pushed into our--and replenish our Army prepositioned stocks 
that we have that would be forward deployed in Kuwait, in this 
case.
    And then we have looked to put some in the enabling 
formations, our logistics formations, to include, like, the 
sustainment brigades for command and control purposes. We have 
fires brigades, C2. So we can give those the level of 
protection in there that they would need.
    And so we are working right now, working with our Training 
and Doctrine Command, and seeing how we document these vehicles 
and put them in the actual force structure as a requirement.
    Mr. Bishop. What about Guard and Reserve? For training 
purposes? Is that included in the 700 that you put in for 
training?
    General Thurman. Yes, sir. There are X number going to Camp 
Shelby, Camp Atterbury, around to our mobilization sites that 
we have in the Army.
    But when I speak of total Army requirement, I talk for the 
Army, the Army Reserve, and the Army National Guard.
    Mr. Bishop. One of the concerns that the National Guard, in 
particular, has is that they have not, in the past, had 
sufficient equipment on which to train and, when they were 
called up, were only able to get abbreviated training on the 
equipment that would be used. And, of course, the MRAPs were 
fairly recent. And initially, when they were deployed, they 
didn't have those, didn't have training on them. The result was 
a lot of accidents, rollovers and the like, because they 
weren't adequately trained on it.
    How will the Guard be assured of getting the actual 
equipment on which to train so that, in the future, we don't 
have those kinds of injuries and accidents?
    General Thurman. Congressman, we will make sure that, for 
instance, we have done extensive work and improvements on Guard 
equipping. First off, we will make sure that they have the 
required equipment and not outdated equipment to do the 
homeland defense mission that they have to do with their Title 
32. We call that dual-use equipment. I think you are familiar 
with that.
    Mr. Bishop. Right.
    General Thurman. And then what we make sure of on every 
unit that is going to deploy, we treat them no different from 
an active unit. We make sure that they have every piece of 
equipment that they need prior to deploying. We make sure of 
that in the Army. So they can do the required training.
    Mr. Bishop. Because even the active-duty Army, as far as 
the most recent engagement with Iraq, have not had the actual 
equipment, the most updated equipment for their pretraining, 
and they didn't get it until they went to the desert, just 
prior to deployment. And that was limited, because that was a 
limited exposure. Whereas if the back sets were at home, they 
could train on them constantly as a part of their reset and 
their dwell time.
    General Thurman. What we are doing in the Army today, we 
manage on our equipment readiness through the Army force 
generation process. And we have established an equipping 
strategy that we are going to equip units to a certain level as 
they flow through this force deployment model. And we can show 
you how we are thinking about doing that, and we would be more 
than happy to do that.
    Mr. Bishop. Okay. You did not mention--you mentioned the 
700 and several thousand. But you have about 11,000 all 
together. You didn't respond to the foreign military sales. Are 
you going to put some of them up for foreign military sales?
    General Thompson. I think that the planning right now is of 
the roughly 12,000 MRAPs, Army MRAPs, that, with the training 
and the prepositioned sets and in the force structure, we have 
accounted for using about 9,500 of those 12,000 MRAPs.
    So we haven't gotten to the end-state yet on how we would 
use the other 2,500. Maybe some more of those would go in the 
force structure. But that is the ongoing analysis. So that is 
the rough math.
    Foreign military sales or leaving some of them behind with 
the Iraqi forces is certainly a possibility. We haven't done 
any of that yet. There are no foreign military sales cases 
pending today that I am aware of related to MRAPs.
    But that is the rough math.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Kingston.

                        Comments of Mr. Kingston

    Mr. Kingston. Thank you, Mr. Chairman.
    I just want to make a statement as much as anything. But, 
you know, this whole hearing, of course, has been about 
equipment, which, of course, that was its purpose. But we all 
know that the number-one asset is the individual soldier.
    But one thing that frustrates me about today's military--
and I understand the ``Army of one'' culture, which is, you 
know, a great concept. But sometimes you need a Chesty Puller 
or an Audie Murphy or a Jimmy Doolittle or a Eugene Fluckey to 
get a message across to people. And we don't ever talk about 
individual soldiers in Iraq or Afghanistan unless they have 
done something wrong or, you know, there was a tragedy 
involving them.
    Who are the school kids going to read about? When you are 
recruiting a 19-year-old, who do you get them to be inspired by 
if they don't know somebody personally who has been in Iraq or 
Afghanistan?
    And does that bother you at all? Because I have talked to 
people about it, and they have said, you know, ``Army of one, 
everybody is a hero,'' which is right. But I think, for all of 
us, when we go, you know, not just to Walter Reed but people 
who have not been injured--you know, there is a lot of heroes 
and a lot great stories out there, but we never get them out to 
the public. And I think that would be useful in terms of 
putting a face on the soldier.
    And I know that is not your job description and not the 
purpose of the hearing, but I just wanted to mention it. I 
don't know if you can comment or not.
    General Flynn. Sir, like you said, I think all the men and 
women who wear the uniform of the United States are heroes in 
their own right. And I think they are an example for all of us, 
you know, for all citizens.
    Just within the last month, I had the privilege of going to 
the Navy and Marine Corps Museum at Quantico. And the Secretary 
of the Navy awarded two Navy Crosses posthumously to the 
families of two Marines who manned their post in the face of a 
suicide vehicle coming to their checkpoint, which saved the 
lives of well over 50 individuals. And they stayed until they 
stopped the vehicle.
    When you looked around in the audience there, there were a 
lot of Marines there, there were soldiers there, there were 
sailors there, and there were a lot of individuals who had 
served in the military. It was a publicized event, but that is 
who came.
    So I think there is a message in what you are saying, is, 
you know, we do have heroes out there. Just this week I read in 
the newspapers about the Air Cross being awarded to an airman. 
I think it is one of the few times that the Air Cross has been 
awarded, you know, in recent times for heroism on the 
battlefield.
    So those things are happening. It is just that sometimes 
they just don't seem to get the publicity that they should.
    Mr. Kingston. If we can get it outside of the circle of 
those who wear the uniform and get it inside those who buy $2 
coffees at the coffee shop, that would really, I think, be very 
helpful. And I don't--I mean, we all have a responsibility on 
that, I think.
    General Thurman. You know, Congressman, I think that is a 
very good point that you bring up. We can cite similar acts of 
bravery and actions on the battlefield of what our men and 
women do. And, as I always say, there is nothing more important 
than a soldier. You know, the experiences that I personally had 
in Iraq, as I walked in--just this morning, I got an e-mail 
from a soldier, specialist, who said, ``Do you remember me? You 
came in the operating room and gave me a coin, and I have lost 
my coin. Can you get me another one?'' And I said, ``Give me 
your address, and it will be out today.''
    But the commitment that we have in this war, I think we 
need to probably make sure that everybody is aware of that. 
And, you know, we are all modest people because we care about 
this country. And I think it would probably help this country 
more if we got that information out more.
    Mr. Visclosky. I thank the members.
    Generals, thank you very much, each one of you, for your 
service and for those you command.
    And we are adjourned.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

              Counter-Rocket, Artillery and Mortar (C-RAM)

    Question. Starting in 2005 the Army began to deploy a land version 
of the Navy's 20 mm Phalanx Close-In Weapon System. The Army's version, 
the Counter Rocket, Artillery, and Mortar or C-RAM is a system used to 
destroy incoming artillery, rockets and mortar rounds in the air before 
they hit their ground targets. The system has been deployed to protect 
large fixed facilities in Iraq such as the Green Zone and Camp Victory.
    Do both the Army and Marine Corps use the Counter Rocket, Artillery 
and Mortar System (C-RAM)?
    Army Answer. No. C-RAM systems have been fielded to multiple 
Forward Operating Bases (FOBs) in Operation Iraqi Freedom (OIF) (Army, 
USMC, coalition) by the Army. FOBs with C-RAM Sense and Warn are manned 
Army personnel, and FOBs that also have the Phalanx Intercept 
capability are operated by a combination of Army and Navy personnel.
    C-RAM Sense and Warn capability was initially fielded to 4 United 
States Marine Corps (USMC) FOBs in Iraq where it was operated by U.S. 
Army personnel but integrated into the USMC Base Defense Operations 
Centers. Available USMC sensors at these FOBs (AN/TPQ-46 Firefinder 
radars) were integrated into the C-RAM system. As the threat was 
reduced, the 4 C-RAM systems at the USMC FOBs were relocated to 
different FOBs in OIF.
    Additionally, while not fielded in Afghanistan, C-RAM has completed 
integration and testing with the USMC Hostile Artillery Locator (HALO), 
an acoustic detection system for mortars and artillery, and with the 
USMC SCAN EAGLE, an unmanned aerial vehicle with an electro optical 
sensor.
    Marine Corps Answer. The Marine Corps does not currently have a 
capability similar to C-RAM or a shoot down capability against enemy 
indirect fire. In Iraq and Afghanistan the U.S. Army has responsibility 
for Forward Operating Base (FOB) counter indirect fire interdiction. 
The Marine Corps provides radar and sensor support for Army C-RAM at a 
number of FOBs. Currently there is no requirement for C-RAM in the 
Marine Corps.
    Question. Please provide an overview of where C-RAM is deployed and 
describe its operation.
    Army Answer. C-RAM is deployed to 15 Forward Operating Bases (FOBs) 
in Iraq. Three of these FOBs (Two U.S. and one coalition) have 
Intercept capability along with Sense and Warn capability. The 
remaining 12 have Sense and Warn capability only.
    Sense. The operation of the C-RAM system is initiated by Sensing 
(detection) of a rocket or mortar round directed toward a C-RAM 
protected FOB by U.S. Army/Marine Corps indirect fire sensors: 
Lightweight Counter Mortar Radars (LCMR); Firefinder Radars (AN/TPQ-36, 
37 or 46); Giraffe radars (foreign system); or the radar on the Land 
based Phalanx Weapon Systems (LPWS). Sensing of rocket and mortar 
rounds is performed at both C-RAM Sense and Warn FOBs and C-RAM 
Intercept FOBs.
    Warn: Warning is the action controlled and implemented by C-RAM to 
warn personnel within the hazard area of incoming rockets and mortar 
rounds. Warnings are dependent on detection of incoming threats by the 
indirect fire radars. The Army/Marine Corps indirect fire radars report 
both the Point of Origin (POO) of the rocket or mortar round and its 
projected flight path. The POO and projected flight paths from the 
indirect fire radars are correlated by the C-RAM Command and Control 
(C2) system. To reduce the probability of false warnings that might be 
issued based on a false detection by an Indirect fire radar, 
correlation of data from two or more indirect fire sensors is required 
to validate that there is in fact a rocket or mortar round inbound (The 
radars on a large base may produce as many as 500 false detects a day). 
This correlation normally occurs within 6-8 seconds. If C-RAM C2 
validates that there is an inbound threat, it calculates the predicted 
Point of Impact (POI), then identifies all of the audible and visual 
alarms required to warn personnel within the hazard area in the 
vicinity of the POI, and initiates a warning with just these essential 
warning devices. This localized warning ensures that personnel who are 
not within the hazard area can continue their work, while those in the 
hazard area seek protection. Warnings are typically initiated 10-20 
seconds prior to expected impact. Warning is performed at both C-RAM 
Sense and Warn FOBs and C-RAM Intercept FOBs.
    Response. Response is action taken to respond to an insurgent 
rocket or mortar launch crew with either lethal or non-lethal effects. 
Response is coordinated by the C-RAM systems through its integration 
with Army, U.S. Air Force (USAF) and USMC Battle Command Systems. 
Concurrent with validation of an inbound rocket or mortar round, C-RAM 
C2 reviews the POOs reported by the indirect fire radars and if 
necessary calculates a new POO. C-RAM C2 then provides the new POO to 
Army, USAF and USMC Battle Command systems. This information enables 
the Battle Captain to review the possible means for response 
(counterfire, quick reaction force, UAV, Army aviation, AF fixed wing 
aircraft, Electro-Optical/Infrared Sensors for Positive Identification, 
etc.) and then to select the optimum method of either lethal or non-
lethal Response. Response is performed at both C-RAM Sense and Warn 
FOBs and C-RAM Intercept FOBs.
    Intercept. For those FOBs that are equipped with an Intercept 
capability, the C-RAM C2 will also receive the location and track of 
any friendly aircraft in the vicinity from Sentinel radars. Concurrent 
with initiating Warnings and with providing POO to Battle Command 
systems, C-RAM C2 will calculate the location of the incoming round and 
send this information to those Land Base Phalanx Weapon Systems (LPWS) 
that are in a position to acquire, track, and destroy the threat. Those 
LPWS then acquire and track the round with their own fire control 
radars. The location and velocity of any friendly aircraft in the area 
is provided to LPWS, which use the location of friendly aircraft to 
calculate a dynamic ``Do Not Engage Sector.'' This establishes a volume 
around each friendly aircraft location as it moves that precludes any 
firing that might endanger the aircraft. If the incoming round comes 
within range of the LPWS and engaging the incoming round will not 
endanger any friendly aircraft, the Engagement Control Officer will 
view the imagery from the LPWS Forward Looking Infrared (FLIR) camera 
and visually verify that the target is in fact a rocket or mortar round 
and that there are no friendly aircraft within the field of view of the 
FLIR. If he confirms this, the Engagement Control Officer will direct 
engagement of the incoming round by LPWS. The rounds used by the LPWS 
that do not impact with the rocket or mortar round self destruct, 
precluding lethal effects and minimizing effects on the ground. 
Intercept of rockets and mortar rounds is performed only at C-RAM 
Intercept FOBs.
    Marine Corps Question. Please provide an overview of where C-RAM is 
deployed and describe its operation?
    Answer. The Marine Corps does not have C-RAM. The Army should 
answer.
    Question. Is C-RAM deployed to Afghanistan as well as Iraq?
    Army Answer. Currently C-RAM systems are only deployed by the U.S. 
Army in Iraq. However the U.S. military headquarters in Afghanistan is 
reviewing a draft requirement requesting the fielding of C-RAM systems 
to multiple Forward Operating Bases in Afghanistan.
    Additionally, a partner in the NATO command in Afghanistan has 
deployed a limited C-RAM Sense and Warn capability to one NATO Forward 
Operating Base in Afghanistan. There are currently no C-RAM systems 
deployed in Afghanistan by U.S. Forces.
    Marine Corps Answer. Marine Corps does not have C-RAM. The Army 
should answer.
    Question. How has C-RAM performed in Iraq and Afghanistan?
    Army Answer. The C-RAM System-of-Systems has performed well in Iraq 
with over 800 timely and accurate warnings of incoming rockets or 
mortar rounds, with a success rate over 70 percent and over 100 
successful intercepts of rockets or mortar rounds without endangering 
any aircraft.
    C-RAM systems deployed in Iraq have averaged a greater than 90 
percent operational availability rate.
    The CENTCOM Deputy Commander identified C-RAM as a force multiplier 
that is saving lives and has recommended that C-RAM be transitioned 
from supplemental funding to the base budget.
    There are currently no C-RAM systems deployed in Afghanistan.
    Marine Corps Answer. Marine Corps does not have C-RAM. The Army 
should answer.
    Question. Given that our fixed facilities are sometimes located in 
densely populated urban areas, how is collateral damage avoided?
    Army Answer. Multiple procedures/hardware systems have been 
incorporated to prevent collateral damage by the C-RAM intercept 
systems fielded to three Forward Operating Bases in Iraq.
    First, the C-RAM Interceptor, the Land Based Phalanx Weapon System 
(LPWS), uses ammunition that self-destructs after a fixed time of 
flight. Thus, rounds that are fired at a rocket or mortar round that do 
not strike the target self-destruct into small fragments.
    Second, the C-RAM system has established minimum firing elevation 
limits (both physical and software) for each LPWS position. This 
ensures that any rounds fired that do not intercept the intended rocket 
or mortar round, detonate in the air at an altitude sufficient to 
ensure that any fragments falling to the earth do not cause any lethal 
collateral damage. The minimum altitude for this self-destruction was 
established based on testing by an Army test agency.
    Third, physical and software cut-outs have been established and 
incorporated for each LPWS position, which precludes firing in 
directions where structures or other obstructions do not allow 
sufficient range for the bullet fly-out and safe self-destruction.
    The Sense and Warn systems at 12 FOBs in Iraq are passive, thus 
there is no potential for collateral damage.
    Question. Are sufficient C-RAM systems available for our deployed 
forces and for training purposes?
    Army Answer. There are sufficient C-RAM systems to meet current 
requirements of the Warfighter in Iraq and to support training. We have 
and must continue to enhance system-of-system capabilities of deployed 
and training systems to address changing enemy tactics and evolving 
threats.
    If C-RAM Sense and Warn requirements are validated for Afghanistan, 
procurement of additional C-RAM Sense and Warn systems will be 
required.
    Marine Corps Answer. Marine Corps does not have C-RAM. The Army 
should answer.

   DoD IG Findings Concerning the Marine Corps' Procurement of MRAPS

    Question. In his testimony before this subcommittee on February 
26th, the DoD Inspector General stated the Marine Corps Systems Command 
did not properly determine that contract prices were fair and 
reasonable when they awarded nine firm fixed price contracts for Mine 
Resistant Ambush Protected (MRAP) vehicles. The per vehicle price that 
the Marine Corps paid for Category I vehicles ranged from $300 thousand 
to $1.1 million. He further stated that the Marine Corps also did not 
obtain volume discounts from two contractors for orders in excess of 
1,500 vehicles at an additional cost to the taxpayer of $90 million. 
The Director, Defense Procurement and Acquisition Policy, Office of the 
Under Secretary of Defense for Acquisition, Technology and Logistics, 
agreed with the IG's conclusions.
    General Flynn, are you aware of the DoD IG's findings that the 
Marine Corps failed to establish fair and reasonable prices on MRAPs 
and failed to request quantity discounts? Would you comment?
    While we understand that the Marine Corps sought to procure MRAPs 
swiftly, how do you justify the omission of an independent cost 
analysis?
    Answer. Provided below:
    1. Purpose. Provide the House Committee on Appropriations, 
Subcommittee Defense (HAC-D) with information, for the record, as to 
the Marine Corps' position on the Procurement and Delivery of Joint 
Service Mine Resistant Armor Protected (MRAP) Vehicles DoD IG Report--
29 January 2009 (Report No. D-2009-046). On 10 March, LtGen George 
Flynn, Deputy Commandant of the Marine Corps' Combat Development and 
Integration, served as a witness before this committee. LtGen Flynn 
stated, he would provide ``additional information, for the record, as 
to what we agree with and what we don't agree with in the report.''
    2. Take Away. Both the ASN(RDA) and the Marine Corps provided 
written comments to the DoD IG report and disagreed with a number of 
assertions in Finding C.
    3. Key Points
    The Marine Corps agrees with the following:
    Finding A. Actions Taken to Accelerate Mine Resistant Ambush 
Protected Vehicle Delivery
    <bullet> DoD IG concluded that the combination of actions executed 
to address the urgent need for accelerating the delivery of MRAP 
vehicles to theater was innovative and effective.
    <bullet> The DoD IG found that Marine Corps System Command (MCSC) 
implemented aggressive contractual delivery schedules to meet the 
theater demand for MRAP vehicles as directed by the Secretary of 
Defense.
    4. Recommendations
    <bullet> The Marine Corps has incorporated the DoD IG report 
recommendation that future procurements for MRAP vehicles are properly 
competed or justified on a sole-source basis. Our acquisition 
strategies included this consideration for the MRAP II and sole-source 
award of MRAP CAT III procurements. MRAP-All Terrain Vehicle (M-ATV) 
prices for each part of the competition will be negotiated separately.
    <bullet> MCSC has communicated to its contracting officials the 
importance of making price reasonableness determinations and ensuring 
cost or pricing data are requested. MCSC is building a framework for 
the price reasonableness determination that will be used for the M-ATV 
procurement. This procurement, though part of the overall Joint MRAP 
Vehicle Program, is being conducted by the U.S. Army Tank-Automotive 
and Armaments Command (TACOM).
    <bullet> We will attempt to build sufficient flexibility into the 
production contract to deal with both planned and potential quantities. 
We also sought both step and cumulative quantity discounts as part of 
the Request for Proposals for the M-ATV procurement. An OSD Peer Review 
was conducted before the request for proposal (RFP) release, and a 
second Peer Review is being conducted during M-ATV source selection.
    The Marine Corps disagreed with the following:
    Finding C. Price Reasonableness Determination
    <bullet> We disagree with the DoD IG report conclusion that the 
MCSC contracting officer chose an inappropriate contract type for the 
MRAP procurement. The Director of the Defense Procurement Acquisition 
Policy and Strategic Sourcing (DPAP), also agreed that firm fixed price 
was the correct contract type. He stated ``The use of firm fixed price 
contracts would be perfectly appropriate if buttressed with the 
appropriate analysis to determine fair and reasonable prices.'' We 
believe our approach, vetted with OSD, was appropriate. We believe that 
the contracting officer reasonably determined that a fixed-price 
contract was appropriate for the MRAP procurement.
    <bullet> We believe that MCSC netted actual savings of $127 million 
by negotiating bilateral contract modifications to produce more than 
the 1,500 vehicles that were originally contracted for in the base 
year. We purchased those vehicles at base-year price rather than 
option-year pricing. The difference between ordering at base-year 
rather than option-year pricing of 4,186 vehicles was $127 million. We 
understand the approach suggested by DoD IG. The DoD IG method suggests 
potential savings of $45.6 million by using volume discounts. We should 
have asked for an additional volume discount. We do not believe we 
would have received both discounts. We believe our method was a better 
investment for the government, as reflected in net actual savings of 
$127 million versus a hypothetical savings of $45.6 million.
    <bullet> We believe the price range in the chart on page 25 is 
misleading. In January 2007, nine vendor proposals demonstrated 
potential to meet the program's overarching objective--field the 
maximum number of survivable, safe, sustainable MRAP vehicles in the 
shortest period of time--received contract awards to each deliver two 
CAT I and two CAT II for initial test and evaluation. We believed from 
the onset that ``some'' of the vehicles may not pass production 
verification and survivability tests, but we could not tell that 
definitively from the paper proposals. For that reason, it was decided 
that leaving any high potential producer that ``could possibly'' 
manufacture a survivable vehicle on the sidelines was an unacceptable 
risk when the Joint Forces had an urgent need for these vehicles.
    Of the nine vendors, Oshkosh Truck (OTC), at $306,199, was the 
least expensive, but failed Limited User Evaluation (LUE); General 
Purpose Vehicles (GPV) was the most expensive at more than $1 million 
per vehicle, but was terminated for convenience because the company 
failed to deliver any test vehicles. GPV's paper proposal offered an 
enhanced maneuverability and mobility solution (the only vendor to 
offer this capability). GPV's contract award was terminated, and the 
entire $5.1 million was de-obligated. The unit prices on page 25 
reflect unit pricing for a procurement order quantity of 1 to 200 
vehicles. Approximately 95% of the MRAP vehicles actually procured were 
purchased at higher step ladder quantity pricing where unit price 
ranges did not range so greatly among the vendors.
    <bullet> As of 16 March 09, MCSC has ordered 16,242 vehicles to 
meet DoD requirements. Of the five vendors that produced significant 
quantities of vehicles, the top vehicle unit price paid by the 
Government was $629,800 (for 75 vehicles); the lowest was $443,000, 
representing an average base variant cost of $507,860 with an average 
unit price variance across vendors of $112,891.*
    *The actual average cost of a CAT I = $507, 728; the actual average 
cost of a CAT II = $508,472
    <bullet> Ultimately, MCSC ordered large quantities of CAT I and CAT 
II vehicles from five fully qualified vendors. These manufacturers 
proved their ability to produce vehicles with the required production 
numbers and to deliver within established timelines.

                     Joint Light Tactical Vehicles

    Question. In response to an operational need and an aging fleet of 
light tactical wheeled vehicles, the Joint Services developed a 
requirement for a new tactical wheeled vehicle platform that would 
provide increased force protection, survivability, and improved 
capacity over the existing up-armored HMMWV (UAH) while balancing 
mobility and transportability requirements with costs.
    Since the initiation of the JLTV program the military departments 
have procured over 16,000 Mine Resistant, Ambush Protected (MRAP) 
vehicles. Over 13,000 have been delivered to the combat theaters. 
Currently the MRAP Joint Program office is in the process of procuring 
400 light variants of the MRAP for duty in Afghanistan, and a more 
mobile MRAP All Terrain Vehicle is being considered. Meanwhile, the 
JLTV program continues.
    How have the requirements for JLTV changed based on the experiences 
of U.S. forces in Iraq and Afghanistan?
    Army Answer. The Army and Marine Corps will continue to refine 
their requirements as the JLTV program progresses through its 
Technology Development Phase. Our experiences in Iraq and Afghanistan 
provide a wealth of insight into user requirements and the challenges 
of balancing the sometimes competing or contradictory requirements of 
performance (mobility and transportability), protection, and payload, 
with protection having the most negative effects on other requirements. 
Operations in both locations, as in most other places in the world, 
indicate a need for more of all three of these major requirements. The 
JLTV requirements have been heavily influenced by our experiences with 
improvised explosive devices while at the same time realizing that the 
heavy armor used in the MRAP program to mitigate that threat has 
severely limited the off-road utility and payload capability of those 
vehicles while at the same time creating significant air and shipboard 
transportation challenges. The combination of MRAP testing results 
(understanding of underbody blast phenomenon for specific hull designs) 
and medical analysis of occupant injury (understand injury mechanisms 
of all sources) is informing a more comprehensive and effective 
description of protection/survivability requirements to define the JLTV 
requirement for the next phase. The resulting JLTV requirements seek a 
balance in the required capabilities through modular, selective, and 
scalable protection.
    Marine Corps Answer. The Army and Marine Corps will continue to 
refine their requirements as the JLTV program progresses through its 
Technology Development Phase. Our experiences in Iraq and Afghanistan 
provide a wealth of insight into user requirements and the challenges 
of balancing the sometimes competing or contradictory requirements of 
performance (mobility and transportability), protection, and payload, 
with protection being the most difficult to balance against the other 
requirements. Operations in both locations, as in most other places in 
the world, indicate a need for more of all three of these major 
requirements. The JLTV requirements have been heavily influenced by our 
experiences with improvised explosive devices while at the same time 
realizing that the heavy armor used in the MRAP program to mitigate 
that threat has severely limited the off-road utility and payload 
capability of those vehicles while at the same time creating 
significant air and shipboard transportation challenges. The 
combination of MRAP testing results (understanding of underbody blast 
phenomenon for specific hull designs) and medical analysis of occupant 
injury (understanding injury mechanisms of all sources) is informing a 
more comprehensive and effective description of protection/
survivability requirements to define the JLTV requirements and the 
resulting requirements will seek a balance in the required capabilities 
through modular, selective, and scalable protection.
    Question. On 29 October 2008, the Pentagon narrowed the field of 
vendors to the Lockheed Martin, General Tactical Vehicles and BAE 
Systems/Navistar teams to compete for the final version and contract 
for the JLTV. However, there have been media reports of a new 
requirement to develop a hybrid electric propulsion capability, a 
technology that none of the three chosen teams offered. Requirements 
creep has driven up the cost and extended the schedule for many 
programs. Please explain the late decision regarding hybrid electric 
propulsion.
    Army Answer. There is no requirement to develop a hybrid electric 
propulsion capability. The JLTV Purchase Description (PD) is a 
performance based document. The PD specifies requirements for fuel 
efficiency, mobility, carrying capacity, etc. The vendors propose their 
solution to meet these requirements. The media report was incorrect.
    Marine Corps Answer. There is no new requirement to develop a 
hybrid electric propulsion capability. The JLTV Purchase Description 
(PD) is a performance based document. The PD specifies requirements for 
fuel efficiency, mobility, carrying capacity, etc. The vendors propose 
their solution to meet these requirements. The media report was 
incorrect. The JLTV program requirements are unchanged.
    Question. Two of the losing bidders, teams that were not chosen to 
go forward with the development effort, filed protests. What is the 
status of resolving the protests?
    Army Answer. Northrop Grumman and Textron Marine and Land Systems 
filed protests with the Government Accountability Office (GAO) 
following the contract awards for the JLTV Technology Development 
effort. GAO denied both protests on February 17, 2009 and contract 
performance has resumed.
    Marine Corps Answer. Northrop Grumman and Textron Marine and Land 
Systems filed protests with the Government Accountability Office (GAO) 
following the JLTV TD contract announcement. The Army responded in 
accordance with GAO guidelines. GAO denied both protests on February 
17, 2009 and contract performance, which was stopped during the 
protests, has now resumed.

                          Disposition of MRAPS

    Question. Throughout the services, there are some 11,000 MRAPs 
being used in Iraq, with some 2,000 to 3,000 in Afghanistan, and even 
more used for training.
    I would like each service to respond:
    With troop levels drawing down in Iraq in the coming year, and with 
the lack of MRAP compatibility to the Afghan terrain, and since they 
are expensive to transport and operate, what will the US military do 
with MRAPs in Iraq following a US withdrawal from that conflict?
    Army Answer. We are exploring the long term placement of all Army 
MRAPs in the force structure, not just the ones in Iraq. As a first 
step, the Army is retrograding some of the early model MRAPs out of 
Iraq. The first 126 of these vehicles will be used to fill operational 
requirements of support units based in Kuwait. An additional 702 MRAPs 
will be cascaded out of theater to train units preparing to deploy. 
There will also be 167 MRAPs kept in Kuwait to provide additional 
training opportunities for these units as they enter theater. Finally, 
approximately 150 vehicles will be held in Kuwait as Theater 
Sustainment Stocks.
    Question. Will MRAPs be kept in Kuwait to serve as part of 
prepositioned equipment sets?
    Answer. Initial indications are that a number of MRAPs will be 
placed in Army Prepositioned Stocks (APS). HQDA G-3/5/7, Army Materiel 
Command, Army Training and Doctrine Command and Army Central Command 
are currently reviewing required quantities and variants to be placed 
in APS.
    Question. Will the US retain all of the remaining MRAPs, or will a 
portion of these items be allocated for foreign military sales?
    Answer. The Army is analyzing possible roles for MRAP once they are 
no longer needed in theater, but has not made final decisions on the 
disposition of all MRAPs and plans to make decisions on this matter by 
the start of FY10. Some of the issues that will influence future 
decisions are: the number of vehicles available at the end of the 
conflict; the condition of the vehicles, lessons learned concerning 
reliability mobility, and suitability of each variant. In the event 
that some variant(s) are deemed unsuitable for placement in the force 
structure, they could be made available for FMS.

                            Task Force ODIN

    Question. Please describe Task Force ODIN, including its mission 
and capabilities, and structural components.
    Answer.------
    Question. How effective has Task Force ODIN been in countering IED 
bomb makers and placers?
    Answer. Overall IED Activity in Iraq has significantly declined 
since the Army made a combination of changes. We deployed Task Force 
ODIN, MRAP vehicles and conducted a Surge of forces in a short period 
of time. The specific reduction in Army casualties from IEDs and 
changed enemy tactics because of these changes cannot be identified.
    Question. What, if any, relationship does the Army have with JIEDDO 
with regard to the task force?
    Answer. The Army Aviation Directorate works closely with JIEDDO on 
many projects that support Task Force ODIN. JIEDDO funded many of the 
sensors and technologies that are employed by Task Force ODIN and we 
continue to leverage their technology enhancements as they support Army 
requirements.
    Question. What is the relationship of Task Force ODIN to ongoing 
Secretary of Defense efforts to increase ISR assets available in 
theater?
    Answer. The Army proposed many of the technological solutions for 
Task Force ODIN Afghanistan to the Secretary of Defense ISR Task Force 
for funding support. Beyond funding, the ISR Task Force also helped 
ensure rapid integration with combat support agencies and accelerated 
the OEF theater ISR architectures, improving dissemination of Task 
Force ODIN information.

                           Medical Evacuation

    Question. On January 27th, 2009, in testimony before the House 
Armed Services Committee, Secretary of Defense Gates addressed the 
difference in medevac response times for Iraq and Afghanistan. He noted 
that the goal in Iraq is to have a wounded soldier in a hospital in an 
hour. However for Afghanistan the time is closer to two hours. 
Secretary Gates has directed increases in the number of medevac 
helicopters and medical professionals assigned to Afghanistan.
    What are the factors that cause medevac to take significantly 
longer in Afghanistan than in Iraq?
    Army Answer. From the Army's perspective several factors affect 
operations. Afghanistan's geography differs significantly from Iraq. A 
combination of size, mountains, and weather directly contribute to 
increased response times in Afghanistan. The array, or geometry, of 
evacuation assets across the area of operations is a second factor that 
varies between theaters and cause increased response time. This array 
is tactically determined by the challenging terrain, limited operating 
bases, and a finite number of operating assets. Thirdly, the lack of 
parity in operating assets between theaters also contributes to the 
increase response time in OEF. Since the two areas of operation pose 
different challenges and characteristics, Multi National Forces Iraq 
(MNF-I) and International Security Assistance Forces (ISAF) Afghanistan 
until recently applied different planning standards for acceptable 
risk--one hour in Iraq and two hours in Afghanistan. The differing 
standards were based on terrain, mission assessment, medical assets, 
and maturity of the infrastructure. Additionally, in Afghanistan, the 
participating NATO countries operate using their own countries rules 
which differ from those in the U.S. Military.
    Question. What are the factors that cause medevac to take 
significantly longer in Afghanistan than in Iraq?
    Marine Corps Answer. This response is a collaborative effort 
involving the Joint Staff J-4 HSSD, HQMC I&L, Offices of the Army and 
Air Force Surgeons General, and OPNAV N-931.
    At the time of SECDEF January, 2009 testimony, there were a number 
of factors causing significantly longer MEDEVAC mission times in 
Afghanistan as compared to Iraq. Factors were geographic/weather 
related and also included the actual force lay down locations which 
supported the asset. Additionally, in Afghanistan, U.S. forces were 
required to operate under NATO business rules which differ from our own 
rules as it relates to MEDEVAC procedures. This situation has been 
remedied and U.S. forces are now able to launch MEDEVAC helicopters and 
provided the required NATO information when requested/required after 
the fact.
    Question. What additional medevac assets, both medical facilities 
and aircraft have actually arrived in Afghanistan, and what additional 
assets are on the way?
    Army Answer. Army MEDEVAC assets, both medical facilities and 
aircraft, form part of the joint effort to increase MEDEVAC assets in 
Afghanistan. One Army forward surgical team has arrived. Additional 
Army assets scheduled to arrive include one forward surgical team, a 
medical brigade command and control headquarters, four additional 
MEDEVAC aircraft and crews, and one 12 ship MEDEVAC company. These Army 
assets are part of a joint effort to increase overall MEDEVAC 
capability in Afghanistan. The Joint Staff has oversight of all joint 
additional assets supporting Afghanistan.
    Marine Corps Answer. This response is a collaborative effort 
involving the Joint Staff J-4 HSSD, HQMC I&L, Offices of the Army and 
Air Force Surgeons General, and OPNAV N-931.
    Naval Service forward medical facilities and CASEVAC capability 
along with Army and Air Force MEDEVAC assets, both medical facilities 
and aircraft, form part of the joint effort to increase MEDEVAC 
capability in Afghanistan. At this time, one direct support Marine 
Corps forward surgical team and one general support Army forward 
surgical team has arrived. Additional forward Naval Service and Army 
assets are scheduled to arrive including three direct support Marine 
Corps forward surgical teams, one general support Navy forward surgical 
team, one additional general support Army forward surgical team, four 
additional Army MEDEVAC aircraft and crews, and one 12-ship Army 
MEDEVAC company. This joint effort will increase overall MEDEVAC 
capability in Afghanistan.
    Question. Are there remaining shortages of medevac aircraft; 
aircrews; and Forward Surgical Teams in Afghanistan?
    Army Answer. The Army has not identified any remaining shortages of 
MEDEVAC assets in Afghanistan for Regional Commands (RC)--East or 
South. Army MEDEVAC assets, both medical facilities and aircraft, form 
part of the joint effort to increase MEDEVAC assets in Afghanistan. One 
Army forward surgical team has arrived. Additional Army assets 
scheduled to arrive include one forward surgical team, a medical 
brigade command and control headquarters, four additional MEDEVAC 
aircraft and crews, and one 12-ship MEDEVAC company. These Army assets 
are part of a joint effort to increase overall MEDEVAC capability in 
Afghanistan. The Joint Staff has oversight of all joint additional 
assets supporting Afghanistan.
    The additional assets will achieve parity between OIF and RC--East 
and South. The Joint Staff is leading efforts to improve the evacuation 
system in RC--North and West.
    Marine Corps Answer. This response is a collaborative effort 
involving the Joint Staff J-4 HSSD, HQMC I&L, Offices of the Army and 
Air Force Surgeons General, and OPNAV N-931.
    The Marine Corps and Army have not identified any remaining 
shortages of MEDEVAC assets in Afghanistan for Regional Commands (RC)--
South or East. The additional assets described in the answer to 
Question 2 above will achieve parity between OIF and OEF RC--South and 
East. In addition, the Joint Staff is leading efforts to improve the 
evacuation system in RC--North and West.
    Question. Today, what is the average time to evacuate a wounded 
soldier to a hospital in Afghanistan?
    Army Answer. Army analysis shows that the average time to evacuate 
a wounded Soldier to a hospital in Afghanistan was 80 minutes with data 
from Jun 08-Dec 08. Analysis continues, but preliminary numbers show an 
improving trend in OEF (Oct 08-Dec 08 the average time was 71 minutes).
    Marine Corps Answer. This response is a collaborative effort 
involving the Joint Staff HSSD, HQMC I&L, Offices of the Army and Air 
Force Surgeons General, and OPNAV N-931.
    Army analysis shows that the average time to evacuate a wounded 
service member to a hospital in Afghanistan was 80 minutes with data 
from Jun 08-Dec 08. Analysis continues, but preliminary numbers show an 
improving trend in OEF (Oct 08-Dec 08 the average time was 71 minutes). 
As of today, USCENTCOM will reassess evacuation times after receiving 
the additional assets described in Question 2.
    Question. The Committee understands that certain Combat Search and 
Rescue aircrews have been reconfigured to assist with the medevac 
shortfall. What are the pitfalls of this alternative?
    Army Answer. From the Army's perspective, the challenge is the 
standardization and integration of the U.S. Air Force Combat Search and 
Rescue aircraft into the Army evacuation structure and standards. 
Differing equipment, medical protocols, training, aircraft 
configuration, procedural standardization, control, reporting, and 
resourcing integration are all potential pitfalls to this alternative.
    Marine Corps Answer. This response is a collaborative effort 
involving the Joint Staff J-4 HSSD, HQMC I&L, Offices of the Army and 
Air Force Surgeons General, and OPNAV N-931.
    The Marine Corps does not employ Combat Search and Rescue aircrews. 
Through conversations with and documentation from the Army, the 
challenge is the standardization and integration of the U.S. Air Force 
Combat Search and Rescue aircraft into the Army evacuation structure 
and standards. Differing equipment, medical protocols, training, 
aircraft configuration, and procedural standardization are all 
potential pitfalls to this alternative. In addition, procedural, 
command and control, reporting, and resourcing integration are also 
possible pitfalls. Air Force emphasized that HH-60G Combat Search and 
Rescue (CSAR) helicopters are conducting ``when requested'' OEF MEDEVAC 
missions. The main adverse impact of utilizing Air Force CSAR assets 
for MEDEVAC is the decreased availability of assets for other potential 
missions, such as humanitarian assistance and other unplanned 
scenarios. The Air Force has temporarily ceased advanced training at 
the HH-60G Weapons School (Nellis AFB, NV) to support the MEDEVAC 
mission. The Navy is currently manned at 54% (75/139) with Search and 
Rescue Medical Technician (Navy Enlisted Code 8401) making it difficult 
to maintain inLieu-Of sourcing solutions for MEDEVAC.
    Question. What if any are the significant limitations of our 
medevac helicopters that are in use in Afghanistan?
    Army Answer. For Army MEDEVAC helicopters, the significant 
limitations are degraded performance during high altitude operations, 
communications, and night illumination. MEDEVAC helicopters performance 
starts degrading at altitudes of approximately 5000 feet and above and 
worsens with increasingly high altitudes. The Army has mitigated this 
risk by installing more powerful engines in the MEDEVAC aircraft going 
into theater. The 701C and 701D engines increase performance and 
improve high altitude operations. These engines are part of the Army 
mission equipment package for MEDEVAC aircraft going into Afghanistan. 
Line-of-sight air-ground and air-to-air communications are 
significantly impacted by the high terrain. To improve communications 
in MEDEVAC aircraft, the Army fields satellite communication radios to 
improve the non-line of sight, or over-the-horizon, communications 
capability. Finally, low night illumination severely limits night 
vision goggle MEDEVAC operations. Commanders developed control measures 
for night flying to mitigate the risk associated with this limitation. 
The control measures are the use of flight corridors and elevation of 
risk approval authority for missions not flown on designated corridors. 
Although the Army has fielded a forward looking infrared system (FLIR) 
to MEDEVAC helicopters, this system is used to identify personnel at 
the landing zone.
    Marine Corps Answer. This response is a collaborative effort 
involving the Joint Staff J-4 HSSD, HQMC I&L, Offices of the Army and 
Air Force Surgeons General, and OPNAV N-931.
    The Army has determined that its MEDEVAC helicopters significant 
limitations are related to: degraded performance during high altitude 
operations, communications, and night illumination. MEDEVAC helicopters 
performance starts degrading at altitudes of approximately 5000 feet 
and above and worsens with increasingly high altitudes. The Army has 
mitigated this risk by installing more powerful engines in the MEDEVAC 
aircraft going into theater. The 701C and 701D engines increase 
performance and improve high altitude operations. These engines are 
part of the Army mission equipment package for MEDEVAC aircraft going 
into Afghanistan. Line-of-sight air-ground and air-to-air 
communications are significantly impacted by the high terrain. To 
improve communications in MEDEVAC aircraft, the Army fields satellite 
communication radios to improve the non-line of sight, or over-the-
horizon, communications capability. Finally, low night illumination 
severely limits night vision goggle MEDEVAC operations. Commanders 
developed control measures for night flying to mitigate the risk 
associate with this limitation. The control measures are the use of 
flight corridors and elevation of risk approval authority for missions 
not flown on designated corridors. The Army has fielded a forward 
looking infrared system (FLIR) to MEDEVAC helicopters in order to 
enable location of personnel at pick up sites.
    Question. How have Air Force Combat Search and Rescue helicopters 
and crews contributed to solving the medevac shortfall in Afghanistan?
    Army Answer. From the Army's perspective the Air Force Combat 
Search and Rescue (CSAR) helicopters have provided an acceptable ``in 
lieu of solution to the Combatant Commander's need for MEDEVAC 
helicopters. The U.S. Air Force has six dual mission (MEDEVAC and 
Combat Search and Rescue) CSAR aircraft operating in Afghanistan. An 
additional six CSAR aircraft have been deployed as a bridging solution 
until the Army's Combat Aviation Brigade arrives with its organic 
twelve UH-60 aircraft MEDEVAC Company. However, the additional six CSAR 
aircraft will redeploy out of Afghanistan in late summer 2009. The USAF 
is best able to provide the specific contributions of its CSAR 
helicopters during MEDEVAC operations in Afghanistan.
    Marine Corps Answer. This response is a collaborative effort 
involving the Joint Staff J-4 HSSD, HQMC I&L, Offices of the Army and 
Air Force Surgeons General, and OPNAV N-931.
    Dating back to 2006, the Air Force Combat Search and Rescue 
helicopters and crews have been contributing to the MEDEVAC missions in 
Afghanistan. In a contributable effort to solving the MEDEVAC shortfall 
in Afghanistan, all Air Force HH-60G helicopters in Afghanistan are 
tasked to perform the MEDEVAC. This includes the six additional 
helicopters received in early 2009. U.S. Army MEDEVAC capability 
arrives in Afghanistan in mid-2009 at which time U.S. Air Force MEDEVAC 
employment will be reassessed.

                   Identification Friend or Foe (IFF)

    Question. The range and lethality of modern weapon systems can 
result in accidental or friendly fire or fratricide situations. The 
Army long sought technology to assist with the battlefield 
identification of friendly forces on the ground and in the air. During 
the first Gulf War, during the hours of darkness, an Army Apache 
helicopter fired an anti-tank missile on a U.S. armored personnel 
carrier mistakenly identifying the M113 as Iraqi. In April of 2004 
former professional football player Pat Tillman was mistakenly engaged 
and killed by small arms fire from his fellow Army Rangers. In both 
cases the only means of identification was visual.
    What technology is currently available to U.S. forces to positively 
identify friend from foe?
    Army Answer. Since the first Gulf War we have made significant 
investments in improved sensors, optics, battle command systems, and 
markings that have enhanced overall combat effectiveness while 
significantly improving our capability to identify friend from foe. 
Technologies available during the first Gulf War consisted of Optical 
Sights, Thermal Integrated Sight Unit, a limited number of Global 
Positioning Systems (GPS), and various rudimentary markings, such as 
the Korean War vintage VS 17 Cloth Panel and inverted ``V'' markings. 
Today, most of our Stryker Vehicles, Abrams Tanks, Bradley Fighting 
Vehicles, and Apache helicopters are equipped with Second Generation 
Forward Looking Infrared (FLIR) sights and Soldiers are being equipped 
with improved thermal sights and night vision goggles (NVG). These 
devices have greatly extended the range at which battlefield entities 
can be identified, particularly during hours of darkness and during 
limited visibility. In battle command, we have fielded thousands of 
Force XXI Battle Command Brigade and Below/Blue Force Tracking Systems. 
These systems, combined with the proliferation of GPS, have given 
commanders much better battlefield situational awareness, enabling them 
to avoid situations, such as incidental contact between friendly units, 
that could lead to fratricide. The Land Warrior and future Ground 
Soldier Ensemble capabilities provide unparalleled dismounted combatant 
location fidelity and situational awareness, greatly reducing the 
chance of fratricide with small units. The fielding of Unmanned Aerial 
Systems (UAS) with a variety of sensor packages and the Long-Range 
Advance Scout Surveillance System has also added greatly to overall 
improvement in battlefield situational awareness and target 
identification. Regarding markings, we have fielded thousands of the 
Joint Combat Identification Marking System (JCIMS) kits that provide a 
relatively inexpensive, and low technology capability to assist in 
identifying friend from foe. JCIMS kits include metal and cloth panels 
covered with a special film that produces a unique thermal signature 
visible by FLIR and thermal sights and a small infrared beacon that 
emits a unique strobe that can be seen by ground platforms, 
helicopters, and dismounted combatants using NVG. Collectively, these 
investments, combined with improved training, doctrine, tactics, 
techniques and procedures, and rules of engagement have essentially 
mitigated the types of fratricide incidents experienced during the 
first Gulf War.
    Marine Corps Answer. The ability to positively identify friend from 
foe requires a complex interaction of training, doctrine, tactics 
techniques and procedures (TTP) and rules of engagement (ROE), and 
information derived from command and control/blue force tracking (C2/
BFT) and cooperative target identification (CTI) systems. Within the 
current available technologies there is not a capability that would 
allow for the positive identification of friend from foe at the shooter 
level. However there has been a great deal of Joint and Coalition 
effort completed that will, at the platform level, provide the 
capability to identify a like equipped platform as a friend and a non-
equipped platform as an unknown. C2/BFT systems support the reporting 
and display of friendly position location information (PLI) on 
digitized map displays that provide a commander-focused general 
knowledge of friendly forces on the battlefield to facilitate C2 and 
mission execution requirements. At the individual platform/shooter 
level, CTI systems are required to provide real-time information to 
facilitate force sorting and enable a ``shooter-focused'' shoot/don't 
shoot decision for detected entities in a weapon sight.
    <bullet> Ground-Ground Operations. In ground-ground operations, 
we've made significant investment in the Force XXI Battle Command 
Brigade and Below (FBCB2), Data Automated Communications Terminal 
(DACT), and Mini Transmitter (MTX) C2/BFT technologies to improve a 
commander's situational awareness (SA) of friendly force locations on 
the battlefield. We've also invested in improved optics and visual 
marking systems to better enable the visual identification at the 
shooter level of detected ground platforms and individual combatants. 
While the investment in C2/BFT, optics, and JCIMS partially address the 
Combat Identification (CID) technology gap in the ground-ground 
environment, they do not negate the need for a positive CTI capability. 
At the shooter level in direct-fire ground engagements, SA (blue icons 
on a digitized map) is not sufficient--there will always be a data 
correlation problem between the gun sight and the SA tool--regardless 
of the accuracy of the friendly force SA data. OEF/OIF friendly fire 
data validate the continued need for a CTI (interrogation and reply) 
capability to support ``force sorting'' and fratricide mitigation for 
detected entities in the gunner's sight.
    <bullet> Joint Fires Operations. In the Joint Fires arena, we've 
fielded the Target Location Designation Handoff System (TLDHS), 
Remotely Operated Video Enhanced Receiver (ROVER) technologies to 
support Digitally-aided Close Air Support (DaCAS), and the LITENING 
advanced targeting pod to better enable the visual acquisition and 
identification of ground targets at the terminal control node. These 
technologies, combined with significant improvements in standardized 
Joint Tactical Air Controller ( JTAC) training, and the development of 
Joint TTP for DaCAS have significantly mitigated the likelihood of 
repeating early OEF and OIF air-ground fratricide events--but do not by 
themselves negate the need for an air-ground CTI technology.
    <bullet> Surface-Air and Air-Air Operations. In surface-air and 
air-air arena, the Mark XII Mode 4 IFF system continues to be the 
primary system for the identification of U.S. and Coalition friendly 
aircraft.
    Question. What advancements in technology are in development by the 
Army and Marine Corps?
    Army Answer. Over the next two years we plan to invest resources in 
Science and Technology to mature battlefield identification 
technologies that will enable us to address remaining capability gaps 
in the areas of dismounted combatants, air-to-ground, and light 
vehicles. Promising technology options in development for these 
applications include the following: Radio-Based Combat Identification/
Situational Awareness for dismounted combatants, air-to-ground, and 
light tactical vehicles; Millimeter Wave Question and Answer technology 
for air-to-ground and light tactical vehicles; Laser/Radio Frequency 
for light tactical vehicles, Reverse Mark X11A Mode 5 Identification 
Friend or Foe and Radio Frequency Tags for air-to-ground and dismounted 
combatants; Optical Combat Identification System for dismounted 
combatants; Combat Identification Server for dismounted combatants and 
air-to-ground; and Joint Battle Command-Platform for improved and 
increased battlefield situational awareness. These efforts are underway 
to reduce the cost of Millimeter Wave Question and Answer technology 
for use on heavy turreted platforms, such as the Stryker, Abrams tank, 
and Bradley Fighting Vehicle. We are working with the Marine Corps in 
all of these endeavors.
    Marine Corps Answer. The Marine Corps is continuing its pursuit of 
Cooperative Target Identification technologies providing our shooters 
with a capability to positively identify and sort friends from 
potential enemies at the point they are detected on the battlefield. 
The following technologies were assessed at the Coalition Combat 
Identification Advanced Concept Technology Demonstration (CCID ACTD) 
Urgent Quest and were identified as technologies warranting further 
investment:
    Battlefield Target Identification Device (BTID). A STANAG 4579 
compliant, coalition interoperable, millimeter wave-based ground-ground 
CTI technology providing a shooter-focused interrogation-reply 
capability supporting the identification of friendly vehicles in a 
gunner's sight in less than 1 second. BTID also provides an inherent 
Digital Data Link (DDL) and Data Exchange Mode (DEM) to mitigate SA 
latency of equipped coalition vehicles in the immediate vicinity of the 
host platform. Current applications of C2/BFT technologies do not allow 
for the update rate that is provided by BTID resulting in latent data 
unsuitable for split second decision-making. BTID will mitigate this 
problem. BTID is the only interrogation and reply technology with 
proven military utility and effectiveness in the ground-ground 
operational domain. While not formally assessed, air-ground BTID 
technologies have been demonstrated at past ACTD events and are 
scheduled for formal assessment at the CCID ACTD Bold Quest 
Demonstration scheduled for October 2009. Additionally, private 
industry has demonstrated a capability to track dismounted combatants 
through portable, miniaturized BTID transponders. Based on a successful 
military utility assessment at the 2005 CCID ACTD Urgent Quest 
demonstration, the Marine Corps has resourced an Army-led joint BTID 
acquisition approach endorsed by the Army Marine Corps Board, Joint 
Requirements Oversight Council, and Service Secretaries for the ground-
ground BTID technology. Recent reprogramming of FY10 and FY11 BTID 
funding by the Army have caused an OSD-directed internal Army review of 
its strategy to bring itself back into compliance with the joint BTID 
acquisition strategy. Along with the U.S., the United Kingdom, Italy, 
Spain, Sweden, France, and Canada have obtained or procured BTID 
devices for testing and demonstration purposes, but are awaiting a 
decision by the United States as to whether or not to continue to 
pursue the technology from a coalition/NATO perspective. The Marine 
Corps continues to support and fund a Joint effort with the Army 
identified as Component Lead.
    Radio Based Combat Identification (RBCI). A software waveform 
upgrade to the SINCGARS radio providing an interrogation/reply 
capability for an operator selectable geographic point. RBCI provides 
an ``area clearance'' capability for indirect fires (i.e. artillery, 
mortars, naval gunfire, etc) and CAS--it is not designed to provide a 
point-to-point interrogation/reply CTI capability for ground direct-
fire weapons. Based on the results of the 2005 CCID ACTD Urgent Quest 
demonstration, the AMCB directed the Services fund the integration of 
RBCI transponder (reply) software on all U.S. SINCGARS radios (Army and 
Marine Corps) and subsequently the Marine Corps integrate an RBCI 
interrogation capability into its Target Location Designation Handoff 
System (TLDHS) for indirect fires and CAS area clearance.
    Joint and Coalition Technology Development (Air-Ground). In air-
ground operations, the CCID ACTD Bold Quest 09 demonstration scheduled 
for October 2009 will assess and/or demonstrate air-ground technologies 
with significant joint and coalition interest. Bold Quest 09 will 
include five aircraft air-ground CTI technologies (Pod-mounted BTID, 
Pod Mounted RBCI, Reverse IFF (Mode 5), Reverse IFF (Mode S), and the 
CID server--a net-centric tactical service oriented architecture using 
existing equipment and infrastructure to provide requesting aircraft 
with 5 closest ground friends in the vicinity of an identified target 
or geographical point of interest. Bold Quest 09 assessment results 
will be used by the Joint community to support a follow-on Analysis of 
Alternatives (AoA) to inform the way-ahead for a joint/coalition air-
ground CTI capability. Joint and Coalition Technology Development 
(Surface-Air and Air-Air). In surface-air and air-air operations, U.S 
and Coalition forces are currently developing a MARK XII Mode 5 IFF 
capability as a replacement for the existing MARK XII Mode 4 capability 
which is currently providing a friendly identification capability in 
the surface-air and air-air operational environments. Within the U.S. 
Joint Services, a Joint Mode 5 fielding schedule has been coordinated 
through the JFOCM-chaired Combat Identification-Blue Force tracking 
Executive Steering Committee and endorsed by the JROC to establish an 
Initial Operating Capability in 2014 and Full Operational Capability in 
2020 for the Joint Services.
    Question. Is there a technology solution that can be easily shared 
with allied military and police forces?
    Answer. We continuously share information on our identification 
friend or foe technology efforts with the Five Power Senior National 
Representatives--Army countries and with our NATO Allies through active 
participation in the Working Groups and as a party to NATO 
Standardization Agreements. We also work closely with various allies in 
Advanced Concept Technology Demonstration (ACTD) projects. The 
Coalition Combat Identification ACTD is an example of successful 
cooperation and sharing of technology with our allies. This U.S.-led 
ACTD included the United Kingdom, France, Germany, Italy, Canada, 
Sweden, Denmark, and Australia, and its goal was to evaluate the 
military utility of various identification friend or foe technologies 
to minimize fratricide incidents and provide increased combat 
effectiveness in Joint, Allied and Coalition operations. The capstone 
event for this ACTD was a force-on-force operational demonstration 
conducted in fall of 2005 at the United Kingdom's Salisbury Plains Army 
Training Facility. On a case-by-case basis friend or foe solutions 
developed for U.S. forces may be shared with allied military forces 
through the Foreign Military Sales (FMS) process. This is particularly 
true with allies who participate as coalition members with the U.S. in 
combat operations in order to achieve interoperability. Recent examples 
include the transfer or lease via FMS of numerous night vision devices, 
Force XXI Battle Command Brigade and Below/Blue Force Tracking, Joint 
Combat Identification Marking Systems, Ground Laser Target Designators, 
Unmanned Aerial Systems (RAVEN), and Forward Looking Infrared 
technology. Recipient countries include Canada, Australia, Spain, 
Croatia, Albania, Bosnia, the United Kingdom, Denmark, Estonia, 
Germany, Hungary, Latvia, Lithuania, Netherlands, Romania, and 
Slovakia. In addition, Section 1202 of the National Defense 
Authorization Act allows Combatant Commanders to provide command and 
control technologies on a loan basis provided directed provisos for 
such loans are met. Upon completion of coalition combat operations 
these articles are returned to the Combatant Command. Technology 
sharing with police forces is much more difficult due to proprietary, 
export control, and security classification restrictions.
    Marine Corps Answer. The following technologies can be shared with 
allied military and/or police forces--Joint Combat Identification 
Marking Systems (STANAG 2129 compliant).
    Question. Is any such technology now in use by the security forces 
of Iraq and Afghanistan?
    Army Answer. U.S. friend or foe technologies are not currently in 
use by Iraqi and Afghan security forces. Some export variant night 
vision equipment and basic Forward Looking Infrared (FLIR) technologies 
have been or will be transferred to Iraqi and Afghan security forces. 
The main purpose of these transfers is to build night fighting 
capability for these forces. Identification of battlefield entities as 
friend or foe during hours of darkness is a secondary benefit to these 
transfers. U.S. forces are well trained in fratricide avoidance 
involving Iraqi and Afghan security forces.
    Marine Corps Answer. The following technologies are now in use--
Joint Combat Identification Marking Systems (STANAG 2129 compliant).

                               Biometrics

    Question. Biometrics is the science and technology of measuring and 
analyzing biological data. It can be used to identify humans by their 
fingerprints, hand prints, DNA, facial shape or eye scan.
    How is biometric technology employed to assist with force 
protection in Iraq and Afghanistan?
    Army Answer. With respect to force protection, Army forces 
fundamentally use biometrics capabilities to account for and facilitate 
population management within an area of operations.
    At detainee facilities, host nation police academies, forward 
operating bases, and within battlespaces, Soldiers collect biometrics 
data on individuals within those areas using both fixed-site base 
access systems and handheld devices. Soldiers then transmit those 
collections to the DoD biometrics database for potential matching and 
subsequent intelligence exploitation. Once vetted, Army forces use that 
biometrics data to verify an individual's identity with certitude. If a 
biometrics identity is not flagged within their devices following the 
vetting process, Soldiers can confidently and safely grant access and 
privileges (e.g. training, hiring). If the biometrics identity is 
flagged within their devices, Soldiers take the appropriate action 
against the flagged individual (e.g. detain, deny access, deny 
training) upon encounter.
    Marine Corps Answer. Biometric tools are used in combat patrols, 
detainee screening, vehicle checkpoints, entry control points, and for 
the screening and badging of Iraqi and Afghan Security Forces. 
Aggressive employment of biometric systems has restricted the enemy's 
freedom of movement appreciably, aiding in the disruption of enemy 
operations.
    Question. Does the Army employ biometric identification in other 
places?
    Answer. Yes, Army Special Operations Command (ARSOC), under the 
operational control of the joint regional Special Operations Commands 
(SOCs), actively employs biometrics worldwide in conjunction with host 
nation military forces. In addition, Army conventional forces have 
employed biometrics in a force protection capacity during operations in 
Bosnia.
    Marine Corps Answer. The Marine Corps is running a pilot project at 
MCB Camp Pendleton to determine the utility of biometric technology for 
base access. PP&O (PS) is leading this effort.
    Question. Looking to the future, what are the additional 
applications to use biometrics to contribute to force protection?
    Army Answer. Critical to the DoD and Army's biometrics advancement 
is the development of ``stand-off'' technology that will allow Army 
forces to verify identities from afar. This technology and approach is 
more proactive in nature and will allow Soldiers to identify enemy 
prior to their advances at check points or gates.
    In the future, biometrics employment will also extend to the 
protection of Army forces at CONUS and OCONUS home stations. A 
biometrically-enabled approach to physical and logical access to 
installations, facilities, and networks would provide greater 
protection than the badge-based approach that is currently employed. In 
conjunction with local and federal law enforcement partners, even those 
non-DoD individuals with access to home stations (e.g. deliverers, 
contractors) would be biometrically vetted prior to entry.
    Marine Corps Answer. As DoD biometric technology and employment 
matures, and as global collection of biometric signatures expands, DoD 
will realize an unprecedented capability to positively identity, track, 
and locate persons of intelligence and security interest.
    Question. Does the Army and Marine Corps currently employ any long 
range biometric devices? (For example at automobile check points?)
    Army Answer. No, Army forces do not currently employ any long-range 
biometrics devices. Of course, Army forces possess various long-range 
surveillance systems but none are currently equipped with facial 
recognition or iris technology. However, on a limited scale, the DoD 
Biometrics database does have the capability to match facial images 
extracted from video and still photography.
    With respect to automobile check points, the Government of the 
Islamic Republic of Afghanistan (GIRoA) is currently working with the 
Combined Security Transition Command--Afghanistan (CSTC-A) to field a 
long-range camera system within Kabul that will have an Automatic 
Number Plate Capability, but the system has no biometrics capability.
    At the forefront of DoD and Army Research and Development efforts 
is the development of ``stand-off'' biometrics systems that will allow 
for increased collection, screening, and targeting using facial 
recognition and iris technology.
    Marine Corps Answer. No, the Marine Corps is closely watching this 
technology evolve, however. In particular, iris-on-the-move and at-a-
distance could enable faster throughput at checkpoints.

                           Countering Sniper

    Question. One sniper can seriously disrupt a unit's operation and 
mission accomplishment. Countering the efforts of enemy snipers is 
accomplished both through material solutions and through better tactics 
and training.
    What are the technology-based solutions currently in use to detect 
and counter snipers?
    Army Answer. The materiel solutions currently being fielded as part 
of the Army's ongoing Counter Sniper equipping effort are:
    <bullet> Boomerang III Acoustic Gunshot Detection System
    <bullet> SWATS (Soldier Wearable Acoustic Targeting Systems)
    <bullet> Vanguard (Remote Weapon Station integrated with a Gunshot 
Detection System)
    <bullet> Handheld Thermal Imagers (Mini Thermal Monocular)
    <bullet> Stabilized and Ruggedized Binoculars
    <bullet> 3x Magnifier for the Close Combat Optic
    <bullet> Security Veils (for Guard Towers)
    <bullet> Perimeter Security Veils
    <bullet> Turret Nets
    <bullet> Fast Obscurant Grenades
    Marine Corps Answer. The Marine Corps has and is investigating 
several technologies to combat snipers. Currently, there are over 100 
Boomerang acoustic counter sniper systems being used by Marines in 
theater. This is not a USMC program of record, but one that the Army's 
Rapid Equipping Force (REF) has allowed us to use. In addition, we have 
investigated a variety of Optical Augmentation devices, and the Ground 
Wearable Acoustic Counter Sniper (GWACS) system.
    Question. Who in the Army and Marine Corps has the responsibility 
for organizing, manning, and equipping the forces in the field for the 
counter-sniper fight?
    Army Answer. The Secretary of the Army is responsible for the Title 
10 functions of Organizing, Supplying, Equipping, and Training Army 
Forces. As a general rule, the VCSA approves and the DCS, G-3/5/7 
implements organizational design changes proposed by the Commander, 
Training and Doctrine Command (TRADOC) for all Army Operating Forces 
including incorporating a counter-sniper capability based upon current 
and emerging doctrine and an approved requirements determination. To 
accomplish this, TRADOC has established the Sniper Defeat Integrated 
Capabilities Development Team at the Maneuver Center of Excellence 
(MCOE) which consists of representatives from across TRADOC to include 
the Combined Arms Center (CAC), Combined Arms Support Command (CASCOM), 
the Maneuver Support Center (MANSCEN), and the Intelligence Center. 
This team also coordinates with the ASA(ALT) and Army Materiel Command 
for materiel solutions to counter-sniper operations.
    Marine Corrps Answer. Currently there is not a dedicated Program 
Manager for counter-sniper operations within the Marine Corps Systems 
Command, nor has a formal requirement been defined. Within the Marine 
Corps Warfighting Lab and Combat Development Directorate, there are 
counter-sniper programs that work closely with each other, and both 
also stay in contact with the relevant Program Managers in the Marine 
Corps Systems Command, such as PM MERS, ICE, Small Arms, and Optics.
    Question. Currently, what are the sniper detection devices fielded 
to deployed units for individuals, vehicles and fixed bases?
    Army Answer. The materiel solutions currently in use that are 
designed to detect the location of snipers are:
    Boomerang III Acoustic Gunshot Detection System--a vehicle mounted 
system that pinpoints incoming small arms fire from an enemy shooter 
based on the acoustic signature made by the passing bullet and the 
muzzle blast from the rifle which fired it. Since October 2008, the 
Army has fielded over 700 Boomerang IIIs to units in Iraq and 
Afghanistan and plans to field over 2000 more this year. Boomerangs are 
being installed on Mine Resistant Ambush Protected (MRAP) vehicles and 
M1151 Up-Armored HMMWVs.
    Soldier Wearable Acoustic Targeting System (SWATS): a lightweight, 
Soldier portable system which locates hostile rifle fire in the same 
manner described above. Since November 2008, the Army has fielded over 
1000 SWATS to units that have requested the system through the Army's 
Rapid Equipping Force (REF) or via an Operational Needs Statement 
(ONS).
    Fixed location gunshot detection was not part of the Counter Sniper 
equipping effort. The few fixed site gunshot detection systems that 
have been employed and assessed in theater did not meet the criteria 
for inclusion on the Counter Sniper equipment list.
    Marine Corps Answer. Through the Marine Corps Warfighting Lab, the 
Marine Corps has and is investigating several technologies to combat 
snipers. Currently, there are over 100 Boomerang acoustic counter 
sniper systems being used by Marines in theater. This is not a USMC 
program of record, but one that the Army's Rapid Equipping Force (REF) 
has allowed us to use. In addition, we have investigated a variety of 
Optical Augmentation devices, and the Ground Wearable Acoustic Counter 
Sniper (GWACS) system. Early Attack Reaction System (EARS), a more 
technologically mature system manufactured by QinetiQ, has been 
employed by the Army as Soldier Wearable Acoustic Targeting System 
(SWAT). The Marine Corps Combat Development Command, Combat Development 
Directorate is currently investigating if the requirement the Army has 
generated for that program could be used by the Marine Corps as well. 
We also continue to actively investigate potential new systems through 
industry, academia, and other agencies within the government and 
Department Of Defense in our efforts to find the most cutting edge 
technology to protect our Marines from the sniper threat.
    Question. Please describe the current threat to U.S. forces in 
Afghanistan and Iraq due to snipers.
    Answer. ------.
    Question. Is sniper detection equipment available for training at 
home station?
    Army Answer. Optical-based sniper detection equipment, such as 
hand-held thermal imagery devices and stabilized and ruggedized 
binoculars, are part of unit equipment when authorized by their 
modified table of organization and equipment, and as such, are 
available for use during a unit's home station tactics training. 
However, the more advanced acoustics-based sniper detection equipment 
systems currently being used in Iraq and Afghanistan are not yet 
available in sufficient quantities to support training at home station.
    To date, all initial commercial-off-the-shelf purchases of 
acoustics-based vehicle-mounted and individually-worn sniper detection 
equipment systems were fielded directly to tactical units in Iraq and 
Afghanistan. Initial training on the systems fielded to date is 
accomplished through new equipment training teams. For all subsequent 
training, it is conducted by outbound units training inbound units 
prior to their transition of authority for the mission.
    Marine Corps Answer. Yes, boomerang acoustic counter sniper systems 
currently being utilized and tested by Marines are available for 
training. In addition to technology the Marine Corps has implemented a 
program that identifies and teaches skills to make Marines more 
efficient ``hunters'' in all environments, especially urban. The goal 
is to improve operational effectiveness, while reducing casualties. 
Marine Corps Combat Development Command directs the development of the 
Combat Hunter Program to ``be the hunter, not the hunted''. The Marine 
Corps War fighting Lab brought in Subject Matter experts such as 
hunters and police officers to teach Marines to become more efficient 
``Hunters''. Civilian experts with big game hunting, tracking, and 
profiling experience supported the experiments.
    The mission of Combat Hunter, which is now a training program 
available for deploying units, is the creation of a mindset through 
integration of enhanced observation, combat profiling, and combat 
tracking in order to produce a more ethically minded, tactically 
cunning, and lethal Marine better prepared to succeed across the range 
of military operations.
    Marine snipers are used as counter-snipers and as such are well 
suited for detecting and engaging enemy snipers. One of the 0317 Marine 
Sniper Military Occupational Specialty (MOS) tasks in the Training and 
Readiness (T&R) manual is to conduct counter sniper operations. This is 
taught as a learning objective in the USMC Weapons Training Battalion 
Scout Sniper Team Leader Course, and it is an advanced 2000 level 
skill.
    Question. Please explain how the Army coordinates the efforts of 
urgent war time fielding efforts and regular order procurement 
programs.
    Army Answer. The Army has two processes which act as linkages 
between the equipping efforts required for current operations and the 
institutionalized acquisition programs which are focused on 
modernization and transformation.
    The Senior Budget Requirements and Program Board (BRP) is focused 
on coordinating Army staff elements in identifying and resourcing 
equipping solutions to meet the validated requirements of currently 
deployed and future deploying units to Iraq and Afghanistan. The 
resourcing decisions made by the BRP involve numerous ongoing 
acquisition programs and items that are in sustainment. The Army's 
acquisition community and the Army Materiel Command (AMC) work very 
closely with the BRP to ensure all war time equipping requirements are 
met.
    The Capabilities Development for Rapid Transition (CDRT) process 
identifies non-standard systems (commercial-off-the-shelf and non-
developmental items) which were inserted for limited use in current 
operations that should become standard Army equipment and transition 
into institutionalized acquisition programs via the Joint Capabilities 
Integration Development System (JCIDS). The CDRT monitors the 
nonstandard equipment which is inserted into Iraq and Afghanistan in 
order to bridge capability gaps identified by the requesting unit(s). 
Based on the feedback of the unit and other operational assessments, 
the CDRT council makes recommendations to senior Army leadership on 
whether the technology should remain in theater as a sustainment item, 
terminate, or transition into a formal acquisition program.
    For example, there are two potential acquisition programs that 
involve Sniper Detection technology which came about as a result of the 
CDRT process. The Gunshot Detection System and the Individual Gunshot 
Detector programs now have JCIDS compliant requirements documents and 
will compete for funding in the FY12-17 Program Objective Memorandum 
(POM). These programs were the result of the CDRT council carefully 
evaluating the feasibility of earlier versions of acoustic gunshot 
detection systems and recommending to Army decision makers that it 
become an enduring capability.
    Marine Corps Answer. In addition to close coordination with Army 
for counter-sniper solutions. We also continue to actively investigate 
potential new systems through industry, academia, and other agencies 
within the government and Department Of Defense in our efforts to find 
the most cutting edge technology to protect our Marines from the sniper 
threat. Both the Marine Corps Warfighting Lab and the Marine Corps 
Systems Command work closely with the Army as well as other DoD 
organizations to investigate, test and procure technologies to help 
combat the enemy sniper threat.
    Question. Is there a plan to issue sniper detection equipment to 
all Army and Marine Corps units including National Guard and Reserve 
units?
    Army Answer. Yes. The equipment which is being fielded to units in 
Iraq and Afghanistan as part of the ongoing Counter Sniper equipping 
effort is fielded in accordance with the priority established by the 
local command. Thus, the units which receive the equipment may be an 
Active, National Guard, or Reserve unit if the local command determines 
that unit meets the criteria for receiving Counter Sniper equipment. 
Furthermore, Counter Sniper equipment is accounted for as Theater 
Provided Equipment (TPE) and will therefore transfer from losing unit 
to gaining unit during Relief in Place/Transfer of Authority 
(regardless of what component the units are). The Marines have counter-
sniper equipment in the. field for assessment but have not yet begun to 
issue these items across their deployed force.
    Marine Corps Answer. Currently, there are over 100 Boomerang 
acoustic counter sniper systems being used by Marines in theater. We 
are also investigating a man wearable acoustic counter sniper system 
called the GWACS. A more technologically mature system manufactured by 
QinetiQ called EARS has been adopted by the Army as a program of 
record. The Marine Corps Combat Development Command, Combat Development 
Directorate is currently investigating if the requirement the Army has 
generated for that program could be used by the Marine Corps as well.

                              Lost Weapons

    Question. In recent testimony before the Subcommittee on National 
Security and Foreign Affairs, of the Committee on Oversight and 
Government Reform of the House of Representatives, a witness from the 
Government Accountability Office (GAO) reported on the weaknesses in 
the system to maintain accountability for weapons provided to the 
Afghan National Security Forces, (the Afghan National Army and Afghan 
National Police). From 2002 to 2008 the United States Government, with 
the U.S. Army and Navy as action agents, purchased and transferred to 
the Afghan Security Forces over 242,000 light weapons and small arms, 
at a cost of about $120 million. Other countries have provided another 
130,000 weapons for the Afghan National Security Forces. However, 
lapses in accountability occurred throughout the supply chain. The GAO 
found that the Army and Combined Security Transition Command--
Afghanistan did not maintain complete records for an estimated 87,000 
of the 242,000 weapons, and that it is impossible to determine their 
disposition or location.
    General, can you explain for the Committee the loss of 
accountability for 87,000 weapons that were provided to the Afghan 
security forces?
    Army Answer. There are two accountability issues regarding the 
87,000 weapons reported in the Jan 2009 GAO audit (GAO-09-267). The 
first is serial number accountability and the second is physical 
accountability of the weapons in Afghanistan. The Army can only address 
the serial number accountability as the physical accountability of 
weapons is not under the control of the Army Acquisition Community and 
should be addressed by Central Command and the Combined Security 
Transition Command--Afghanistan (CSTC-A).
    In the case of some 46,000 weapons acquisitions for Afghanistan, 
the requirement for serial number accountability and tracking was not 
included in Army contract provisions let by the U.S. Army Security 
Assistance Command (USASAC). Due to this oversight, serial numbers were 
not provided by the commercial brokers with shipments of these weapons, 
and not entered to the DoD Small Arms Serialization Program (DODSASP) 
registry. USASAC has since gone back to the contractors and received 
all the missing serial numbers for the Afghanistan contracts. All 
future contracts will contain, as a condition of the contract, a 
requirement for the vendor to provide serial numbers at time of 
shipment. USASAC is providing CSTC-A with all serial numbers and is 
working to ensure the entry of all serial numbers into the DODSASP 
registry as required by regulations.
    Question. Is it likely that some of these weapons may now be in use 
by the Taliban and others who regularly strike at our Soldiers and 
Marines and our allies?
    Answer. The Army does not have that data.
    Question. How have U.S. forces improved accountability for weapons 
transferred to Afghan Security Forces?
    Answer. The Army does not have oversight accountability of weapons 
provided to the Afghan Security Forces. As we understand, Combined 
Security Transition Command--Afghanistan (CSTC-A) is currently 
recording and tracking the serial numbers of all U.S. procured weapons. 
For any additional information, Commander, U.S. Central Command can 
provide the most current data.

                                Sensors

    Question. The Army is proceeding with plans to take technology that 
is ready now in the Future Combat Systems program, and ``spin it out'', 
that is, field it ahead of the rest of FCS to Infantry Brigade Combat 
Teams. One of the items to be spun out is ``Unattended Sensors'', both 
tactical and urban.
    What is the difference between a tactical sensor and an urban 
sensor?
    Answer. The Tactical-Unattended Ground Sensors (T-UGS) can be used 
to perform various mission tasks including perimeter defense, 
surveillance, target acquisition, situational awareness and Chemical, 
Biological, Radiological, Nuclear early warning. The gateway nodes 
organize and maintain the cluster; collect, process, and correlate 
sensor data; and automatically report preprocessed contact and hazard 
data to the Common Operating Picture (COP) via Joint Tactical Radio 
Systems (JTRS) links to the network. The T-UGS clusters will be 
distributed initially through soldier emplacement and ultimately via 
unmanned ground and air platforms.
    The Urban-Unattended Ground Sensors (U-UGS) is a network-enabled 
reporting system that brings force protection into an urban setting and 
residual protection for cleared areas or for other Military Operations 
in Urban Terrain (MOUT). U-UGS will be hand employed by Soldiers or by 
robotic vehicles to monitor and provide early warning and situational 
awareness. U-UGS provide remote monitoring and warning capability to 
the Brigade Combat Team (BCT) and small unit (platoon) in a MOUT 
environment for securing areas such as tunnels, caves, sewers, 
structures, and buildings. The U-UGS system will be used by the BCT to 
support dismounted operations in urban environments via intrusion 
alerts for closed areas that have been cleared of enemy soldiers, by 
monitoring urban congestion points such as corridors and stairwells; 
and guarding other avenues of approach such as sewers, culverts, and 
tunnels. Consisting of small, lightweight, and inexpensive sensors and 
associated processing and networked communications assets, the U-UGS 
system will support BCT operations by providing efficient, economical, 
and persistent coverage of areas of special interest to the BCT 
commanders. Inexpensive local networked communications will be 
interoperable with the JTRS network at the U-UGS gateway node to 
provide the urban situational awareness.
    Question. How are the new FCS sensors different from the unattended 
sensors used during the Vietnam War?
    Answer. There are significant differences between FCS sensors and 
those used during the Vietnam War. The drivers for these differences 
revolve around the advances in technology development, computer 
processing, and Battle Command software being used in the development 
of the FCS network. Rather than a standalone sensor, the FCS sensors 
are networked and provide the Soldiers with enhanced situational 
awareness.
    UGS systems were developed to monitor the movement of enemy 
personnel. The original sensors were actually air-dropped radio 
sonobouys that were adapted by the U.S. Navy for ground use by 
replacing existing hydrophones with microphones and geophones (seismic 
sensors). These seismic/acoustic sensors were the only type to receive 
widespread deployment during the Vietnam War; these were produced in 
hand implanted and air-dropped versions, both containing common 
modules. Without modern electronics these sensors were easily 
susceptible to background noise. While able to detect footsteps and 
vehicles at ranges in excess of 30 meters, false alarms were often 
generated by events such as aircrafts overhead, wind, thunder and rain. 
To combat these problems the several sensors were planted in strings 
(lines), real targets would be expected to set off the sensors in 
sequence, while background interference would set off all the sensors 
simultaneously.\1\
---------------------------------------------------------------------------
    \1\ Source: Investigation of an Unattended Wireless Ground Sensor 
System; George F. Hahn Department of Electrical and Computer 
Engineering, University of Auckland, Auckland, New Zealand.
---------------------------------------------------------------------------
    The FCS sensors include: Ground Sensor Suite, Air Sensor Suite and 
UGS. Combinations of these sensors provide the FCS (BCT) with the 
ability to ``see first'' and provide the warfighter with actionable 
information.
    The FCS UGS will provide a variety of remote sensing capabilities 
intended to enhance the commanders' tactical situational awareness and 
intelligence picture. As an integral component of the FCS layered 
sensor network, the remotely deployable UGS will provide enhanced 
threat warning, situational awareness and force protection in both 
tactical and urban environments for extended periods. FCS UGS provides 
Intelligence, Surveillance and Reconnaissance/Chemical, Biological, 
Radiological, and Nuclear (ISR/CBRN) awareness to the BCT of areas not 
covered by manned/unmanned ground/air vehicles. It also detects and 
locates intruders, monitors cleared rooms during structure clearing 
operations (protecting the rear), and monitors cleared structures for 
re-entry.
    Question. Are these sensors in use in Iraq or Afghanistan?
    Answer. Currently FCS UGS are not used in Iraq or Afghanistan. 
While there are other UGS systems currently employed in Operation Iraqi 
Freedom/Operation Enduring Freedom, FCS UGS are designed to meet the 
FCS Net-Centric Key Performance Parameter as part of the overall FCS 
System of Systems solution. Critical command and control, fusion, and 
other FCS Battle Command functionality built on the FCS-unique System 
of Systems Common Operating Environment are an integral part of the FCS 
UGS systems. The Army Deputy Chief of Staff, Intelligence has 
determined that FCS UGS are the Army's UGS Program of Record, and that 
all UGS-related requirements should be provided to and synchronized 
within the FCS program.
    Training and Doctrine Command Capability Manager FCS in conjunction 
with Program Manager FCS have been actively involved in applying 
lessons learned from Operation Iraqi Freedom/Operation Enduring Freedom 
UGS. Consequently, the FCS T-UGS program has adopted a new form factor 
(NFF) design that is a smaller hand emplaced variant of the original T-
UGS design. These NFF T-UGS will also incorporate increased battery 
life technology and radio range extension nodes. This smaller design is 
a result of lessons learned in theater.
    Question. How will these new sensors contribute to force protection 
in the field or in base camp?
    Answer. U-UGS provides the BCT enhanced situational awareness and 
force protection in urban environments. The U-UGS provides remote 
monitoring and warning capability for the current force small unit 
(section) in caves and in urban environments such as tunnels, sewers, 
structures, and inside of buildings. The U-UGS will be used by the BCT 
to support dismounted operations in urban environments. The U-UGS 
network will support current force operations by providing efficient, 
economical, and persistent coverage in urban areas and caves.
    Utilization of both the T-UGS and U-UGS systems greatly enhances 
the Soldiers force protection by denying enemy forces freedom of 
maneuver and early detection capabilities.
    Question. When will the first Army Brigade Combat Team receive 
fielding of these tactical and urban unattended sensors?
    Answer. Fielding of T-UGS/U-UGS to Spin Out Infantry Brigade Combat 
Teams begins in FY11.
    Question. What prevents enemy forces from picking up our sensors, 
or booby trapping them so as to harm our soldiers when they are 
recovering a sensor?
    Answer. The UGS sensor will send an alert to the Common Operating 
Picture identifying the approach of enemy forces or individuals into a 
sensor field by various acoustic, seismic, magnetic and imaging 
sensors. These sensors are also used to characterize the approach of 
the target. However, if disturbed, the FCS UGS incorporates anti-tamper 
technology alerting the FCS network and renders the ``disturbed'' node 
useless. The disturbed node must be recovered and sent back to a Depot/
Contractor repair facility for rework before it can be re-issued for a 
future employment.

                          Common Access Cards

    Question. One of the key components of force protection is 
controlling access to military bases or sensitive facilities within the 
bases. An area of special emphasis is controlling the access of non-
federal, contractor employees. Access control becomes a critical area 
of force protection at forward deployed bases where the majority of 
contractor employees may be host country or third country nationals. 
Gentlemen, how do you rate your service for base access control both in 
the United States and at forward deployed locations?
    Army Answer. The Army does not prescribe guidance or policy on 
installation or base access. This would fall under the auspices of The 
Office of the Under Secretary of Defense, Intelligence and US Central 
Command.
    Marine Corps Answer. Marine Corps forces that are forward deployed 
maintain a strong security posture at bases and outposts. The 
combination of manpower, technology, tactics and Military Working Dogs 
give base security forces a demonstrable capacity to control access and 
screen personnel and equipment. Marines employ technology with proven 
performance, including biometric systems, surveillance systems, 
personnel and cargo scanning systems and barrier systems. The 
continuous application of Random Antiterrorism Measures by commanders 
ensures that: 1) Marines keep terrorists and insurgents tactically off-
balance and 2) we remain ``hard to kill''.
    USMC installations in the United States have also used the same 
security capabilities. The continuous application of Random 
Antiterrorism Measures present a number of security challenges to those 
who may wish to harm us. That said, there are a number of challenges 
for USMC installations in CONUS. These include, but are not limited to, 
the age of the entry control facilities, continued growth in and around 
our installations that limits expansion and the requirement for 
substantial infrastructure investment in order to implement the most 
effective access control procedures.
    Question. The primary access control tool in use at our military 
bases throughout the world to include forward based facilities and 
outposts in Iraq and Afghanistan, is the Common Access Card (CAC). The 
Department of Defense Inspector General, in recent testimony before 
this Committee, reported serious concerns about the use of the CAC 
Card. Thousands of cards were not affiliated with a contract and 
thousands more did not have expiration dates linked to contract 
completion. The IG testified that contractors could approve and issue a 
CAC card which grants an individual unfettered access to military bases 
with no government oversight. One of the contractors who had issued CAC 
cards is KBR. The Inspector General reported that 39,000 applications 
for a CAC had been approved without the required background checks and 
about 212,000 contractor personnel had email addresses that 
misclassified the contractor personnel as U.S. Government personnel. 
The IG testified that an individual who had no affiliation to DoD (as 
either an employee or contractor) obtained a CAC and stole 10 million 
gallons of fuel from Iraq. This misidentification is also a potential 
security risk because individuals who obtain CAC cards could 
misrepresent themselves both in person and on DoD networks to 
improperly obtain sensitive information.
    Gentlemen, are you familiar with the various problems the Inspector 
General identified with the issuing, use, and termination of Common 
Access Cards?
    Army Answer. Yes. The Army was briefed regarding the DoD Inspector 
General Audit, Project No. D2007-D000LA-0199.001, Controls Over the 
Contractor Common Access Card Life Cycle.
    Marine Corps Answer. The Marine Corps is aware of the findings with 
regards to issuance, use and termination of CACs to contractors. The 
Marine Corps has found no evidence that the Inspector General findings 
have occurred within the Marine Corps, however in light of these 
findings we have undertaken an aggressive audit and training initiative 
to ensure that those government personnel in positions to sponsor and 
issue CACs are abiding by and understand DoD and Marine Corps policy.
    Question. What is your service doing to get control of Common 
Access Cards and base access control?
    Army Answer. The Army does not prescribe guidance or policy on 
installation or base access. This would fall under the auspices of The 
Office of the Under Secretary of Defense, Intelligence and US Central 
Command.
    Marine Corps Answer. The Marine Corps has consistently applied DoD, 
DoN and Marine Corps policy with regards to the CAC program and in 
doing so has maintained program control. The Marine Corps has 
implemented internal program reviews (audits) to ensure that:
    1. The Marine Corps has appropriate policy for the issuance, use 
and termination of CACs, which is aligned with DoD policy.
    2. All Marine Corps Contractor Verification System (CVS) Trusted 
Agents (TA) are government civil servant or Marines, as sponsorship for 
a CAC is an inherently governmental responsibility.
    3. The Marine Corps applies consistent and effective corrective 
action. The Marine Corps has a wide range of possible corrective 
actions that may be taken, including training, revocation of 
credentials/access, and punitive action for non-compliance with DoD and 
Marine Corps policy.
    With regard to base access control policy, the Marine Corps 
established a standard baseline installation access control policy 
throughout the Marine Corps. MARADM1N #533/08 identifies the Common 
Access Card (CAC) as the primary token for all Marine Corps 
installation access control systems. While access control systems must 
use the CAC as the primary token, possession of a CAC does not 
automatically equate to installation access. The CAC, as an 
authentication credential, identifies the individual and should be used 
in conjunction with access control policy and procedures to implement a 
comprehensive installation access control program.
    Question. Do you agree that the best fence and most fortified entry 
points are rendered useless is access if given to, or perhaps sold to, 
an adversary?
    Army Answer. Yes.
    Marine Corps Answer. And in light of that threat, the Marine Corps 
continues to look for technological solutions that will enhance the 
capabilities of the staff at our access control points in an effort to 
effectively screen persons attempting to enter our bases, deny 
unauthorized access/entry, and simultaneously maintain safe and 
efficient movement of authorized personnel.
    Question. Should there be service-wide, or Department of Defense-
wide, guidance for the issuance, use and termination of contractor 
Common Access Cards?
    Army Answer. The Office of the Under Secretary of Defense 
(Personnel and Readiness) DTM 08-003, ``Next Generation Common Access 
Card (CAC) Implementation Guidance'', dated 1 Dec 08 provides guidance 
for the issuance, use and termination of contractor Common Access 
Cards. This guidance will be further amplified when DoD publishes the 
required DODI.
    Marine Corps Answer. Both the DoD and Marine Corps have published 
policy for the issuance, use and termination of contractor CACs. The 
Under Secretary of Defense, Personnel and Readiness (USD (P&R)) has 
published Directive Type Memorandum (DTM) 08-003, ``Next Generation 
Common Access Card (CAC) Implementation Guidance'' provides the 
overarching directive for the DoD. In conjunction with the USD (P&R) 
DTM 08-003, Headquarters, United States Marine Corps has published 
Marine Administrative Message (MARADMIN) 624/08 ``MCBUL 5512. Homeland 
Security Presidential Directive (HSPD) 12 Compliance Within the Marine 
Corps'' detailing the requirements for issuance of CACs to contractors 
within the Marine Corps.
    Question. Did someone in the US Military give KBR authority to 
decide who would receive Common Access Cards?
    a. If so, who was that person?
    Army Answer. The Army Human Resources Command provided the Army 
Material Command (AMC) Logistics Civil Augmentation Program (LOGCAP) 
the capability to issue Common Access Cards (CAC) to DoD Contractors 
deploying in support of Operations Enduring Freedom and Iraqi Freedom 
(OEF/OIF). This authority was given under the stipulation that CAC 
issuance would be in accordance with DoD policies in effect at the time 
and under government supervision and oversight.
    b. When was the decision made? Has anyone been reprimanded for this 
decision to hand over the CAC vetting process to KBR?
    Answer. The decision to provide a CAC issuance capability to LOGCAP 
was made following a formal request of 19 June 2003 from the Program 
Manager for LOGCAP. LOGCAP program management was responsible for 
ensuring that background vetting was accomplished in accordance with 
policies in effect at the time.
    Marine Corps Answer. We have found no evidence that the Marine 
Corps gave KBR the authority to decide who would receive CACs. The 
Marine Corps follows DoD policy as issued by OUSD P&R with regard to 
the vetting and issuance of the common access card (CAC). Issuance of a 
Common Access Card to a contractor requires sponsorship by a Marine or 
government civilian employee. Issuance of the CAC at a Marine Corps ID 
Card Facility is accomplished by military, civil service or contracted 
employees supporting that facility. The issuance process requires a 
minimum of a two (2) person validation:
    1. The government official acting as the sponsor through the 
Contractor Verification System (CVS) (CVS Trusted Agent (TA)),
    The Real-time Automated Personnel Identification System Verifying 
Official, who validates the identity documentation and issues the CAC.
    The CAC can only be issued to individuals who meet the vetting 
requirements; have a government sponsor; have a valid record in the 
Defense Eligibility Enrollment Reporting System (DEERS), and presents 
two forms of valid identification, one being a government issued 
picture ID, to the Verifying Official for validation and scanning as 
part of the card issuance process.
    Question. Are KBR employees still approving CACs independent of DoD 
review?
    Answer. No. Eligibility and verification for contractor CACs issued 
at KBR's Houston, TX deployment facility are processed by a government 
Trusted Agent (TA) via the Contractor Verification System (CVS).
    Marine Corps Answer. We have found no evidence that KBR employees 
are approving CACs independent of DoD review within the Marine Corps.
    Question. If no formal DoD decision was made to give KBR authority 
to issue CACs, has anyone from KBR been held accountable for 
overstepping their approved role in granting the cards?
    Army Answer. KBR never had the authority to issue CAC independent 
of LOGCAP management and oversight.
    Marine Corps Answer. This question is not applicable to the Marine 
Corps.
    Question. If KBR did not have DoD approval to decide who would 
receive CACs, were DoD personnel in the field aware that KBR employees 
were issuing the cards in violation of their contract and DoD security 
guidelines?
    Army Answer. The Army Human Resources Command provided the Army 
Materiel Command (AMC) Logistics Civil Augmentation Program (LOGCAP) 
the capability to issue Common Access Cards (CAC) to DoD Contractors 
deploying in support of Operations Enduring Freedom and Iraqi Freedom 
(OEF/OIF). This authority was given under the stipulation that CAC 
issuance would be in accordance with DoD policies in effect at the time 
and under government supervision and oversight.
    The decision to provide a CAC issuance capability to LOGCAP was 
made following a formal request of 19 June 2003 from the Program 
Manager for LOGCAP. LOGCAP program management was responsible for 
ensuring that background vetting was accomplished in accordance with 
policies in effect at the time.
    Marine Corps Answer. This question is not applicable to the Marine 
Corps.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                           Tuesday, March 17, 2009.

                      AIR FORCE MILITARY PERSONNEL

                               WITNESSES

HON. CRAIG W. DUEHRING, ASSISTANT SECRETARY OF THE AIR FORCE, MANPOWER 
    AND RESERVE AFFAIRS
LIEUTENANT GENERAL RICHARD Y. NEWTON, III, DEPUTY CHIEF OF STAFF, 
    MANPOWER AND PERSONNEL, UNITED STATES AIR FORCE

                              Introduction

    Mr. Rothman. The Committee will come to order. This morning 
the Committee will discuss Air Force Personnel. We are pleased 
to welcome the Honorable Craig Duehring, Assistant Secretary of 
the Air Force For Manpower and Reserve Affairs; and Lieutenant 
General Richard Newton, Air Force Deputy Chief of Staff for 
Manpower and Personnel.
    The realities of the world have changed dramatically and 
continue to change daily. In response to these changes, the Air 
Force is embracing a collaborative and supportive role in the 
types of ground operations being conducted in Iraq and 
Afghanistan. In general, Air Force leaders have adjusted 
quickly by developing efforts to meet challenges not 
traditionally borne by Air Force personnel.
    The Air Force has stepped up to meet these challenges. 
However, this places a greater demand on its personnel. Unlike 
the Marines and Army, which are both expanding, the Air Force 
has a force-shaping plan in effect to reduce personnel.
    However, the Air Force ended the reductions to meet these 
new requirements. Air Force leaders are working toward the 
right mix of airmen, and the committee is very interested in 
what force-shaping measures the Air Force will use to recruit 
the right people, train them properly, maintain high standards, 
and grow experience in a manageable way.
    We look forward to the testimony and to a spirited and 
informative question-and-answer session.
    And now, before we hear your testimony, gentlemen, I would 
like to call upon Congressman Frelinghuysen, my colleague from 
New Jersey, who was the senior member here on the Republican 
side.

                      Remarks of Mr. Frelinghuysen

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    The record should note that both the ranking and the 
chairman, probably for the first time in history, are leading 
the debate on this public hearing. So thank you very much for 
the recognition.
    And welcome to both of our distinguished guests.
    Secretary Duehring, I note, from looking at your resume, 
your distinguished career. You were awarded the Silver Star; 
flew over 800 missions in Vietnam, that is one hell of a lot of 
missions.
    And I want to recognize your long public service, as well, 
General Newton, thank you for your service.
    I am told that the Air Force has been in a continual global 
combat engagement since 1990, and I am sure that, over the 
years, it has been to differing degrees of severity, but it is 
an extraordinary fact nonetheless. Despite this unprecedented 
operation tempo, the Air Force continues to reach most of its 
recruiting and retention goals, an impressive achievement. Yet 
I know that several areas remain difficult, such as medical 
professionals and certain enlisted retention zones.
    I look forward, knowing that there is a renewed focus on 
the nuclear enterprise and additional Intelligence, 
Surveillance, Reconnaissance (ISR) mission that have caused you 
to reserve planning reductions to your end-strength numbers, a 
process that is neither quick nor cheap.
    But like the Chairman this morning, I welcome you here for 
this very important hearing.
    Thank you, Mr. Chairman.
    Mr. Rothman. Thank you, Congressman Frelinghuysen.
    Now, Secretary Duehring, we understand that you and General 
Newton will each make a brief opening statement. You may 
proceed. Your entire statement will be placed on the record. 
And let me echo my friend and colleague from New Jersey, we are 
honored to have such two distinguished gentlemen and heroes 
here today. We hope that your service in your present 
capacities will be the crowning jewels of each of your 
respective distinguished and remarkable careers.
    Mr. Secretary.

                Summary Statement of Secretary Duehring

    Mr. Duehring. Thank you, Mr. Chairman. You set a very high 
standard now.
    Mr. Chairman, members of the Committee, thank you for this 
opportunity to speak with you today about our United States Air 
Force's military personnel.
    I want to take this opportunity to thank the members of 
this Committee and the entire House of Representatives for your 
unwavering support of our men and women in uniform and their 
families.
    Our Airmen have been continuously deployed and globally 
engaged in combat missions for over 18 straight years. While we 
remain committed to winning today's fight in preparing for 
tomorrow's challenges, we have further refined our priorities. 
We are focusing on reinvigorating the Air Force nuclear 
enterprise; partnering with the joint and coalition team to win 
today's fight; developing and caring for Airmen and their 
families; modernizing our air and space inventories, 
organizations, and training; and recapturing acquisition 
excellence.
    In order to continue engaging both current and emerging 
global threats, our recruiting mission goes beyond simply 
finding the right numbers. It includes ensuring the right 
quality and the right skills are present in potential 
candidates so they can effectively support the Air Force's 
diverse mission.
    We also continue to invest in retaining the high caliber 
men and women that we recruited. In fiscal year 2008, overall 
active duty enlisted and Air Force reserve, enlisted and 
officer retention rates finished below annual goals. While the 
active duty officer corps and the National Guard met or 
exceeded all of other aggregate of retention goals.
    The first quarter of fiscal year 2009 shows overall active 
duty retention is trending slightly upward. But some of our 
critical stressed specialties continue to experience 
significant shortfalls. And we continue to rely heavily on 
bonuses and quality-of-life initiatives to resolve these 
shortages.
    With the heightened operations tempo we are experiencing, 
we remain mindful of the increased stressed placed on our 
Airmen and their families. The Air Force employs a variety of 
screening tools to monitor Airmen's health, to enhance 
detection of psychological issues, and provide for early 
intervention when required. Almost 13 years ago, we created the 
Air Force Suicide Prevention program, which centers on 
effective education, detection and treatment for persons at 
risk. While we are making significant progress on suicide and 
mental health issues within the Air Force, we continue to work 
with our sister services to make our programs more effective.
    Today's Airmen are clearly in this fight. As Air Force 
leaders, we are committed to doing our part to manage end-
strength efficiently to maximize capability, recruiting and 
retaining the highest quality and diverse Airmen, while 
continuing to focus on the health, well-being and readiness of 
our Airmen and their families. We appreciate your continued 
support to the men and women of our Air Force, and I look 
forward to your questions.
    Mr. Rothman. Thank you, Mr. Secretary.
    General.

                  Summary Statement of General Newton

    General Newton. Thank you, Mr. Chairman, and members of the 
committee, I also want to thank you for this opportunity to 
discuss our efforts to ensure we attract and recruit and 
develop and retain a high quality and diverse fighting force.
    Today Airmen are fully engaged in joint operations across 
the globe and stand prepared for rapid response to asymmetric 
as well as to conventional conflicts.
    The Air Force is totally committed to winning today's fight 
with the innovative combat spirit our airmen demonstrate on a 
daily basis regardless of the task. As of this morning, we have 
approximately 38,000 Airmen, active duty, Guard, and Reserve, 
deployed in support of global operations, and approximately 
217,000, total force airmen supporting all 10 combatant 
commanders.
    These airmen are doing amazing things for the joint 
warfighting team. Our aim is to improve capability by tapping 
into all available recruiting and retention sources so we do 
not lose the war on talent. As we prepare for an uncertain 
future, we are transforming the force to ensure we are the 
right size and shape to meet emerging global threats with 
joint- and battle-trained airmen. This requires a commitment to 
invest in our people and our quality-of-life programs.
    This commitment includes continued support for special 
paying allowances to address specific recruiting and retention 
concerns. And for example, the Air Force continues to develop 
both accession retention incentives to ensure the right mix of 
health professionals. Additionally, our most critical 
warfighting skills require special focus on retention due to 
the demands of the high operations tempo placed on Air Force 
airmen who perform such duties as para rescue and combat 
controller, tactical air control party and explosive ordinance 
disposal.
    Just as important, we are committed to taking care of 
families and wounded warriors as an essential piece of 
retaining a highly effective force. Special emphasis has been 
placed on our reintegration efforts for our returning deployers 
and their families to ensure that we practically tackle any 
difficulties that they may experience. Our airmen and family 
readiness centers along with professionals in the medical 
community work together as a seamless team at the base level to 
meet the needs of our airmen and their family members.
    In conclusion, our airmen are integral to the success of 
the joint warfighter while executing the Air Force mission and 
keeping the Air Force on a vector for success against any 
potential threats. Again, thank you for your unfailing support 
to the men and women and our families in our Air Force, and I 
look also forward to your questions.
    [The joint statement of Secretary Duehring and General 
Newton follows:]

[GRAPHIC] [TIFF OMITTED] T6260C.028

[GRAPHIC] [TIFF OMITTED] T6260C.029

[GRAPHIC] [TIFF OMITTED] T6260C.030

[GRAPHIC] [TIFF OMITTED] T6260C.031

[GRAPHIC] [TIFF OMITTED] T6260C.032

[GRAPHIC] [TIFF OMITTED] T6260C.033

[GRAPHIC] [TIFF OMITTED] T6260C.034

[GRAPHIC] [TIFF OMITTED] T6260C.035

[GRAPHIC] [TIFF OMITTED] T6260C.036

[GRAPHIC] [TIFF OMITTED] T6260C.037

[GRAPHIC] [TIFF OMITTED] T6260C.038

[GRAPHIC] [TIFF OMITTED] T6260C.039

[GRAPHIC] [TIFF OMITTED] T6260C.040

[GRAPHIC] [TIFF OMITTED] T6260C.041

[GRAPHIC] [TIFF OMITTED] T6260C.042

[GRAPHIC] [TIFF OMITTED] T6260C.043

[GRAPHIC] [TIFF OMITTED] T6260C.044

[GRAPHIC] [TIFF OMITTED] T6260C.045

[GRAPHIC] [TIFF OMITTED] T6260C.046

[GRAPHIC] [TIFF OMITTED] T6260C.047

[GRAPHIC] [TIFF OMITTED] T6260C.048

[GRAPHIC] [TIFF OMITTED] T6260C.049

[GRAPHIC] [TIFF OMITTED] T6260C.050

[GRAPHIC] [TIFF OMITTED] T6260C.051

                          END-STRENGTH NUMBERS

    Mr. Rothman. Thank you, General.
    I think, if one reads the biography of each of these 
distinguished gentlemen, they will be extremely impressed. It 
was noted that the secretary flew 800 missions, but I just 
thought I would mention that Lieutenant General Newton was a 
command pilot with over 2,900 flying hours in aircraft such as 
the B-2, B-1B, B-52 and T-38 as well.
    But now you gentlemen have different responsibilities.
    If you could, Secretary Duehring, explain what the end-
strength number is that you project and the budget projects for 
the 2010 fiscal year and how you got there.
    Mr. Duehring. Yes, sir, I will give you some history as to 
how we got there. A few years ago, I believe it was in 2005, 
when the previous secretary and chief of staff determined that 
the Air Force would reduce 40,000 people, and our new goal then 
was 316,600 people. We began ramping down at that time.
    About this time last year January, February, the Army and 
then the Marine Corps announced that they were increasing their 
numbers. And of course, because we are tied so closely to what 
they do, we have to provide the air lift and a lot of other 
support, we reassessed what our bottom line should be. And our 
best guess at that point started building on some of the 
missions, cyber mission, cyber mission came back up; we had the 
incident with the nuclear weapons, of course, we needed to get 
our arms around again, just regular support for the Army and 
Marine Corps caused us to reevaluate exactly where we were.
    They took this discussion to the Secretary of Defense, and 
in June of last year he said, okay, you are now pretty close to 
330,000, and why don't you stop right in here? What happens 
when you have taken actions to decrease total end strength is, 
you can't turn it off overnight. It is sort of like an airplane 
in the descent; you have to pull back, and it is still going to 
go down a little ways, so we did. We are back up to about 
329,000 plus change right now. It caused a little problem in 
that we needed to fund that, and we needed to find funding out 
of the existing budgets at that time, because we were planning 
on going down, and we had always spent those dollars.
    The final answer to your question, Mr. Chairman, is really 
in the fiscal year 2010 Presidential budget, which will be 
coming out very shortly, but we are pretty close to where we 
will probably end up. I do want to make the point that we 
didn't add back people that we had planned on removing. We 
built up in these other areas because of new missions that we 
saw. So it as an adjustment like that.
    Mr. Rothman. In my opening remarks, I mentioned that there 
were activities that the Air Force was providing that were not 
part of its traditional mission. We spoke earlier, but I think, 
for the record, I would like to hear the numbers of Air Force 
personnel doing those nontraditional things and what those 
constitute.

                        NON-TRADITIONAL MISSION

    Mr. Duehring. Yes. I have some of those at my fingertips. 
The average over the last 5 years of the numbers of Airmen who 
have been deployed for OIF-OEF tasking has been about 80,000 
per year. Now we do a check, we checked it this morning again 
to make sure we had the latest information. About 38,000 
deployed at any given time, and if you are talking about 
CENTCOM, of that number, 28,000 are in CENTCOM.
    And you have to remember that we have a lot of commitments 
around the world in other areas as well. We have about 4,000 
people who are involved in what we call Joint Expeditionary 
Tasking (JET). JET used to be called in-lieu-of tasking. In-
lieu-of tasking doesn't really tell what we are doing. In-lieu-
of tasking sounds like we are there for a moment and we are 
pulling back out. That is not the impression we want to give, 
because we are very much part of the joint team, the combined 
team, the allied team. And so we are going to stay as long as 
we have to.
    Now, in addition, what people don't see is that we have a 
lot of folks who, in effect, fight from home station. The Army 
has to deploy if it is going to go fight a battle. The Marine 
Corps deploys. The Navy takes the fleet and goes over the 
horizon. The Air Force, in many, many, many cases, to the tune 
of about in 217,000 people, actually fight to one degree or 
another from their home station. Now this could be folks in the 
space business who are monitoring or keeping the satellites, 
the global-positioning satellites, in proper orbit. This could 
be the new Global Strike Command that we are setting up. This 
could be the cyber programs that we are setting up as well. And 
we discussed earlier some of the intelligence programs that, 
because of the capabilities we have now, allow us to bring 
information back here to be evaluated. It is just an increase 
in technology, which by the way is good for us, because we 
don't have to deploy more people. It is cheaper, plus they like 
sleeping in their own beds every night.
    Mr. Rothman. That includes operation of the UAVs from here.
    Mr. Duehring. It does. We have a number of bases. That is 
going on as we speak.
    Mr. Rothman. Thank you.
    General, did you want to respond to something.
    General Newton. Sir, if I may, just quickly, again, as the 
secretary alluded to, our 217,000 Airmen as they are directly 
in line in support of providing capabilities to all 10 
combatant commands, keep in mind that, again, as we are 
engaged, we are engaged across a spectrum from Operation Noble 
Eagle which began on the morning of September 11th, 2001, we 
have flown 54,000 Operation Noble Eagle missions since then; to 
providing capabilities to General Petraeus in the Central 
Command region, as we have highlighted as well; all the way to 
the high end with regard to providing strategic deterrence for 
this Nation.
    So it is, again, as our Airmen, we are an expeditionary 
force, again, with the challenges that we face in the 21st 
century, we see ourselves not only fighting from in garrison or 
in place but also from a deployed location as well. So it spans 
again across a spectrum of capabilities but also conflicts for 
this Nation.
    Mr. Rothman. Thank you.
    Congressman Frelinghuysen.

                      AIR FORCE NUCLEAR ENTERPRISE

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    One of the other hats I wore, I was ranking on Energy and 
Water, and I have a keen interest in the Air Force nuclear 
enterprise. In his report on the state of the military nuclear 
enterprise, former Secretary Jim Schlesinger said, ``The 
decision that junior officers assigned initially to ICBMs will 
spend the remainder of their careers in the space mission area, 
and thus outside the broader Air Force, both devalue the 
mission area and have the effect of reducing the depth of Air 
Force nuclear experience, especially among mid-career and 
senior officers.''
    I would say, with apologies to General Newton, I think 
everybody who joins the Air Force wants to fly via a fighter 
pilot. What are we doing relative to changing the attitude that 
many felt has been somewhat current about getting into those 
parts of the nuclear and space enterprise which are very 
essential to our national security?
    General Newton. Chairman, if I may, I am speaking as an 
experienced bomber pilot from our Strategic Air Command days, 
and also the son of a bomber pilot, as well. But our chief of 
staff and our secretary have put as a top priority 
reinvigorating the nuclear enterprise of the U.S. Air Force. As 
we discussed previously, when we had the unauthorized weapons 
transfer back in the summer of 2007, August 30th specifically, 
of 2007, if you recall from Minot to Barksdale and so forth--
    Again, stemming from that instant back in August of 2007 
that was, from my personal view, a significant wake up came 
from the United States Air Force. And as we refocused on a 
nuclear enterprise, and we have taken, not only from a 
commander-directed investigation but all the way through a Blue 
Ribbon Review that the Air Force undertook, through Dr. 
Schlesinger's report and so forth, we have come a long way. We 
still have a ways to go.
    We are planning on setting up an Air Force Global Strike 
Command. We have already set up Air Force Global Strike Command 
Provisional. We plan on again bringing that command up to 
strength here soon. We have assigned both, the plan is to 
assign both B-52s and B-2 bombers, for instance, as well as 
intercontinental ballistic missile forces to that Global Strike 
Command. We are also taking a look at how we, not only from an 
equipment standpoint, but how we are organized and trained as 
well, but also how we develop our force. In your question, you 
alluded to the fact, I take license with your comment, that 
some of the experience and the capabilities in our airmen 
perhaps atrophied away.
    Mr. Frelinghuysen. Institutional memory is important.
    General Newton. Yes, sir. As Secretary Schlesinger reported 
on, we are going to, again, take a lot of the insights that 
Secretary Schlesinger and the Commissioner provided us and put 
more emphasis and more focus on nuclear duties. For instance, 
an ICBM officer serving at Minot Air Force Base today will 
serve there perhaps in the capacity as a lieutenant and a 
captain, but can also, will continue to develop one's career 
across the nuclear enterprise, where many of our men and women 
just like we have done in the past can serve in a variety of--
--
    Mr. Frelinghuysen. So how are you proceeding to attract and 
retain the people you have and, more importantly, get ready 
shall we say to incentivize those who would enter the Air Force 
to get into the nuclear enterprise? How are you identifying 
people that are highly capable who you want on your nuclear and 
space team?
    General Newton. Part of that is a recruiting effort, but it 
is also how we assess, particularly within our officer ranks, 
also how we retain----
    Mr. Frelinghuysen. How are you doing it now? The wake-up 
call was delivered.
    General Newton. It was. We are meeting most of the 
requirement with the nuclear enterprise. We are short in the 
bomber pilot and the bomber navigator force; that has been an 
issue to deal with not only within the nuclear enterprise but 
also across the rated community, particularly in the bomber and 
the navigator ranks and so forth. We are going to provide, 
again, many opportunities not only for them to serve but for 
them to also reach their full potential with a career in the 
United States Air Force, those who have come from the nuclear 
ranks.
    Mr. Frelinghuysen. So, as you go out there to attract and 
retain the people you need, where are you getting the money to 
do it?
    General Newton. Yes, sir, with regard to recruiting and 
retention, we are large across the Air Force. We feel confident 
we will meet our recruiting goals as well as our retention 
goals certainly through fiscal year 2009. We feel that we have 
at this point the resources to do that as well as to provide 
the opportunities to get back to the nuclear issue and provide 
them the opportunity for not only duties in a nuclear 
enterprise but also for them to advance their careers.
    Mr. Frelinghuysen. So you turned the corner in terms of 
making sure that this part of the Air Force is indeed a career 
path and is of value?
    General Newton. Yes, sir, it is. I go back to my initial 
comment by the Chief of Staff General Schwartz and our 
Secretary, Secretary Donley making this absolutely a top 
priority. Part of reinvigorating the nuclear enterprise is not 
necessarily just with equipment, but I think more focused on 
our Airmen and giving them the opportunity to reach their full 
potential in the nuclear enterprise. And that is where we 
believe we have indeed turned the corner, but we still have 
work do. I am confident that we will again provide for those 
opportunities and for the career development.
    Mr. Frelinghuysen. Let me just say, for the record, my 
chairman has come in, Chairman Visclosky, we are asking about 
the Air Force's role on the nuclear enterprise, and we have 
been assured that there has been a huge about-face here. And 
whatever the cultural roadblocks that were there have been 
removed, and indeed, you are making some considerable progress.
    General Newton. Yes, sir, we are.
    Mr. Frelinghuysen. Thank you very much, Mr. Chairman.
    Mr. Rothman. Thank you.
    Now Congressman Dicks, please.

                         OPERATION NOBLE EAGLE

    Mr. Dicks. What is the status of Operation Noble Eagle? To 
date, how many combat air patrol missions supporting Operation 
Noble Eagle has the active Air Force flown?
    Mr. Duehring. Sir, we have that information. There are 
quite a few numbers involved. If I could, I would like to just 
take it for the record and give it to you in a document, but I 
can tell you the status right now is that we still participate 
in Operation Noble Eagle. In fact, that is the oldest mission 
we have on the war on terrorism. I would like to highlight the 
Air Force's roles for those of us who were here on September 
11th and remember that when the first aircraft approached the 
East Coast, the first response was by the United States Air 
Force. Specifically it was the Air National Guard. It was a 
unit from North Dakota, the Happy Hooligans, who happened to be 
flying out of Langley Air Force Base, Virginia at that time, 
were vectored and diverted from their mission toward the 
aircraft and then, after that, the tankers from Bangor, Maine, 
one on the runway and one getting ready to taxi out. We had the 
Air National Guard from D.C., followed by the Marine Corps Air 
Reserve flying F-18s out of Andrews Air Force Base, Maryland at 
that time. So that is our oldest mission. We continue to fly 
it. It has changed the number of Combat Air Patrols (CAPs), 
more people on alert rather than CAP, depending on the need at 
the time. I am happy to give you a better----
    Mr. Dicks. Give us an update. That would be great.
    We understand that the Air National Guard is not flying 
these patrols anymore, that they are just on alert status at a 
number of installations. Is that correct?
    Mr. Duehring. The Air National Guard still has the primary 
role for the Air Sovereignty Mission, but the Air Sovereignty 
Alert status is what they are in when they are on the ground, 
and as soon as they raise off the ground and become Operation 
Noble Eagle, and I would say as requirements dictate and I am 
thinking in terms of political conventions, the inauguration, 
other events where we may want to have people a little closer 
to the action, those aircraft can easily be put into a CAP.
    Mr. Dicks. I just was curious because our staff here says 
that the Air National Guard is not flying these patrols.
    Mr. Duehring. When they wouldn't be----
    Mr. Dicks. But is on alert status at a number of 
installations. So are you saying that, unless there is some 
reason, they are not doing these patrols?
    Mr. Duehring. That is largely correct, yes, sir. Because 
you are using up the air frames, of course, and somebody has to 
decide, you know, when is the threat great enough to have 
people airborne? We can get them up there pretty darn fast. For 
example, the Air National Guard performed 481 ONE CAP sorties 
during 2007 and 304 during January through August of 2008 in 
addition to their ASA missions.
    Mr. Dicks. You will give us an update on that?
    Mr. Duehring. Yes, sir.
    Mr. Dicks. The Navy has individual augmentees that are 
serving in Iraq. What about the Air Force?
    Mr. Duehring. We do, too. It is a Reserve program. These 
are people who differ from your traditional drilling reservist 
in that they would not have a Reserve unit. With an 
intelligence unit, I belong to the 153rd Intelligence Squadron. 
My unit gets called up, and away I go. Individual Mobilization 
Augmentees are more assigned to a specific job against an 
active Duty billet with an active Air Force unit, wing, WIA 
Team or other headquarters position.
    Mr. Dicks. How many Air Force augmentees are serving either 
in Iraq or Afghanistan?
    Mr. Duehring. I would have to get that for you.
    [The information follows:]

    The Air Force Reserve has 138 Individual Mobilization 
Augmentees serving in Iraq and Afghanistan.

    Mr. Dicks. The Navy number was like 12,000 down to 10,000.
    General, do you have any idea?
    General Newton. I believe you are referring to our Joint 
Expeditionary taskings. We provide capability in the U.S. 
Central Command (US CENTCOM) region, for instance, either by 
unit or by individuals. Right now, we have----
    Mr. Dicks. But these were people who were actually serving 
in Iraq, they were volunteers. I know the Navy people call it, 
they were not part of--they would be part of a unit but----
    General Newton. Like you said, individual augmentees. We 
task ours to do Joint Expeditionary taskings. We have 
approximately 3,500 of them serving under these Joint 
Expeditionary taskings.
    Mr. Dicks. Is that affecting readiness in any way?
    General Newton. Sir, it is not. Again, we have Airmen 
tasked to provide capabilities to the joint warfighter from, 
120 days to 179 days to 365 days. But, again, part of what you 
alluded to in terms of these individual taskings.
    Mr. Dicks. So you guys are going to reduce your overall 
personnel by what 20,000 or what I think the number was or 
40,000.
    Mr. Duehring. 40,000, yes sir.
    Mr. Dicks. But now Secretary Gates has said, no, don't do 
that. So how will this affect your ability to go out and buy 
equipment? That was the reason you were going to reduce 
manpower.
    Mr. Duehring. No. Well, what we did was, when we made the 
decision to reduce by 40,000, that took us back to 316,000, 
which was still our goal, but because of the new missions, 
including the nuclear mission which we had to reevaluate, the 
cyber works, some Special Operations requirements and, of 
course, associated maintenance, other programs that evolved 
because the Army is increasing their numbers and the Marine 
Corps is increasing their numbers, we have built up from that 
point. It looks like we are buying back, but that is not really 
what we are doing.
    These are missions we didn't know about in 2005 when we 
made the decision to draw down. So the Secretary said, level 
off at about 330,000; you have my approval to do that, and 
let's reassess exactly what you need. We had to ask the Army 
and Marine Corps for their numbers. And where we are going to 
actually give you a finite amount will be in the President's 
budget for fiscal year 2010, which is coming very soon.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Rothman. Thank you.
    Congressman Tiahrt.

                           AIR NATIONAL GUARD

    Mr. Tiahrt. Thank you, Mr. Chairman.
    It is nice to see that the sun is shining in New Jersey 
with both the ranking member and the chairman here in control.
    I wanted to talk a little bit about this National Guard 
thing because I think there has been some effort in the Air 
Force to sort of take the teeth away from the Guard. I know, at 
McConnell Air Force Base, our Air National Guard unit had done 
a lot of fighter training over the years. We eventually went to 
B-1s and we had the B-1 wing for a while, and it had the 
highest readiness rate and did an excellent job responding to 
everything that was thrown their way. And we had a great place 
for them. They only, even during midnight launches, only 
received one call from Derby, Kansas, which is right south of 
the base and that is the flight path. And it was a lady who 
wanted to know when you were going to quit launching the B-1s 
so she could let her dog out because she was worried that her 
dog might bark at the planes and disturb the neighbors. She 
wasn't worried about the B-1s, but she was worried about her 
dog barking.
    I do think that there has been some shift to move the Guard 
to a more of a transport and tanker command rather than having 
them fly fighters, and I think they have a very important role 
in having teeth in the Guard. So I wanted to let you guys know, 
as part of the Air Force, that we think the Guard plays a very 
important role, and we are very proud of the job they do. And 
we ought to keep them active in flying jets and bombers.

                        PROCUREMENT SPECIALISTS

    Now I want to talk about procurement as a career path. I 
know that General Shackleford now is somehow heading up 
procurement, and I am confident that he is competent, but are 
you familiar with the Gansler Commission from 2007? It was done 
by the Army, and it looked at sort of the procurement problems 
that they were facing, just to refresh your memory. If you 
haven't seen it, you ought to go look at it. It said basically 
that we ought to set up a career path within the services for 
procurement.
    Now if you look outside the Defense industry and you look 
outside the Department of Defense, you will find that many 
companies have specialists that focus on this area. And it is a 
career path where they can specialize in buying other things. 
The Boeing Company, for example, they call it materiel. It is 
the people within Boeing responsible for getting supplies lined 
up and providing resources to that company. Other companies 
have different names for it.
    But, basically, it is a career path where you have 
specialty, people who specialize in dealing with contractors 
and dealing with engineers and dealing with finance people, 
dealing with all those items necessary to bring services and 
hardware on line. But it seems like, within the services that 
we are having a hard time setting up that career path. We will 
have people come in for a couple of years and go out. It is 
part of the checking a box to get this overall career path 
satisfied. And it really doesn't give people an opportunity to 
focus on this very essential part of what Department of Defense 
does.
    If you think about the billions of dollars that we spend 
every year and compare that to the private sector, and we 
really need some specialists. We have people who specialize in 
this, and they are buying a whole lot less dollar wise, and 
when it comes to national security, a whole lot less important. 
So here we have the Department of Defense and, in particular, 
the Air Force, where we are looking at the next-generation 
bomber; where we are going to replace the tankers with KC67s 
eventually, hopefully this year, and C-17s and kinds of these 
high dollar items, yet we don't have somebody who has this 
extensive knowledge in, how do you stabilize a design? How do 
you stabilize requirements? How do you stabilize the price? And 
I think what happens is, we get a user who comes in and takes 
over the top procurement, and he has his own views of what 
would be nice add-ons to a product, and we never hold a 
baseline. And the result is that we have a longer development 
and procurement and development process. It becomes less and 
less popular, and then we start cancelling product. Like the F-
22, at some point in the past, we should have drawn a baseline 
and said, this is what the plane is going to look like; we will 
build it; and then at the first PDM, we will add on these 
things. My point is, I think a specialist would save money. I 
think they would save us schedule, and these very important 
hardware items would come on line and would do so in a timely 
fashion.
    What consideration is the Air Force giving today to setting 
up a career path in procurement?
    General Newton. Sir, if I may, your points are well taken.
    Our Chief, General Schwartz, and our Secretary, Secretary 
Donley have set forth a number of priorities, from 
reinvigorating the nuclear enterprise, as we previously 
discussed, to developing our men and women and their families, 
but also they have put a premium on acquisition excellence. And 
that is not only from a process standpoint, as you alluded to, 
from determining requirements all the way to delivery of the 
capability of the joint warfighter, but also making sure that 
we are properly organized, trained and developing our people. 
And therefore, I know, having had many conversations with 
General Schwartz, our Chief of Staff, about this is making sure 
as we return to an acquisition excellence effort within the 
United States Air Force, that the premium has to be put on how 
we develop our people. We give them the training, and we give 
them the education, but we also need to give them the career 
development that would not just be a touch-and-go opportunity 
within the acquisition community. We have to put a premium on 
their service, not only from building experience but also 
building relationships across the entire DoD enterprise.
    I have not read the Gansler Report but am least being 
familiar with it, and I know one of the tenants was that 
relationship, in terms of that acquisition excellence across 
not only Service but the DoD, is absolutely critical. And so 
that is where we are placing a premium and significant amount 
of importance to a new tanker and new capabilities within a new 
designed bomber and so forth.
    Sir, may I retack on the teeth part of your comment, if I 
may?
    Mr. Tiahrt. Yes.
    General Newton. Again, this is a total force capability we 
have in the United States Air Force, regardless of whether it 
is from a fighter platform, a space platform, or from a bomber 
or a tanker. But if I may, I think one thing that really makes 
us a world class premium United States Air Force across any air 
force in the world, it is our tanker capability. It is our 
ability to put people, equipment and, quite candidly, bombs on 
target is not necessarily just from a shooter perspective but 
from a tanker capability as well. And the men and women who 
serve the total force, particularly in the Guard, do that every 
day, and they do it wonderfully.
    Mr. Tiahrt. Well said.
    Thank you, Mr. Chairman.
    Mr. Rothman. Thank you.
    Mr. Visclosky.
    Mr. Visclosky. I would associate my words with Mr. Tiahrt 
and pay respect to the State of New Jersey.
    Mr. Rothman. Bless you.
    Mr. Dicks. May I have one second? I understand that 43 
percent of the acquisition spots in the Air Force are vacant; 
is that correct?
    General Newton. Sir, let me take that one for the record.

                         AIR FORCE ACQUISITION

    Mr. Dicks. It is a big number, and I think Congress is 
responsible. The former chairman of the Armed Services 
Committee, who no longer serves, he used to call the 
acquisition people ``shoppers'' in a very derogatory attention 
to it. Now we don't have enough people to do these programs, 
and we have the kind of scandalous result that occurred on the 
tankers, which is, in my judgment, was a, with eight different 
grounds of reversal by the GAO and many generals outside of the 
Air Force retired were shocked to see this happen. And so 
something is wrong with Air Force acquisition. If it is a lack 
of personnel or whatever, we have got to got this straightened 
out.
    Thank you, Mr. Chairman.
    Mr. Rothman. Surely. I just want to exercise the rare 
privilege of me being the Chair. Do you acknowledge and accept 
the notion that the failure in the tanker situation was as a 
result of insufficient acquisition personnel?
    General Newton. Mr. Chairman, rather than alluding to that 
particular tanker issue, what I do acknowledge is the absolute 
necessity that we provide the opportunities for men and women 
to serve in the acquisition career field, that we nurture their 
development and that we give them the opportunity to reach 
their full potential in the acquisition community.
    Mr. Rothman. I understand that. But is there a deficiency 
in that area now?
    General Newton. Sir, I believe we can improve that area. I 
believe that we, as part of the top priorities that the Chief 
of Staff has as to how we go about ensuring that we provide 
acquisition excellence within the United States Air Force, that 
it starts with our people. And again, we give them every 
opportunity. It is the due diligence, just like was referred to 
in the previous comments with regard to the nuclear enterprise, 
the same level of effort or a similar level of effort needs to 
be provided to our professionals.
    Mr. Rothman. Thank you.
    Mr. Moran.

                           CONTRACT SERVICES

    Mr. Moran. Thank you, Mr. Rothman.
    The National Defense Authorization Act last year required 
each of the services to come up with a full inventory of all of 
the contracted services, the number of contractors, the number 
of contracts, et cetera. The Army did that, and obviously, the 
Army had the biggest task ahead of them. It is the largest of 
the services that we know, but the Air Force hasn't. Why would 
you not have complied with that authorization requirement to 
come up with the full inventory to have contract services?
    Mr. Duehring. I am sorry, sir, I honestly don't know why 
they didn't.
    Mr. Moran. Well, it is a concern of this Committee, and it 
is something that the Appropriations Committee wanted as well 
as the authorizing committee. We found out that much of the 
combat effort, at least the support of the combat effort, was 
contracted out. And we had as many contractors over in Iraq as 
we had military and civilian personal.
    Do you consider the contract workforce part of the total 
Air Force workforce?
    General Newton. Sir, if I may ask, I think I understand 
what you are asking, are you talking about the----
    Mr. Moran. The number of people contracted who are not Air 
Force civilian or military personnel.
    General Newton. This is a reduction of reliance on 
contractors and now part of the civilian workforce. If I may 
provide, I will take the question for the record in terms of 
providing specific numbers, but I do believe that we are, based 
on the NDAA specific, abiding by that, and we have reduced our 
contractors by approximately 500. And we are starting to see 
some savings in terms of how we are actually increasing because 
of the reduction in civilian contracts. We are seeing an 
increase in our civilian workforce to nearly approximately 800 
to 850 civilians. What I see is a growth through the out-years 
of increasing that number to perhaps 2,500 in terms of adding 
to our civilian workforce.
    Let me, please, if I may, provide specific numbers for you.
    Mr. Moran. Well, I don't doubt that you made some efforts 
in bringing back some of those inherently governmental jobs 
that have been contracted out, but the committee wanted to know 
what the inventory is. How many contractors do you have? How 
many contracts? And we haven't gotten that. And we need that to 
make our decision with regard to the proper allocation and the 
like. The Army did it. As I say, we haven't gotten that 
information from the Air Force, and it raises red flags. If you 
don't know how many contractors or contracts, that is a problem 
in and of itself.
    General Newton. Sir, I am not prepared to answer that now, 
but I will certainly take the question for the record and get 
back with you.

                   EXPAND TRADITIONAL AIR FORCE ROLE

    Mr. Moran. I notice that there is a new initiative within 
the Air Force to expand your traditional Air Force role. For 
example, some of the Air Force personnel are conducting ground 
combat operations, which was not a traditional Air Force role, 
but you have been doing that in Iraq and Afghanistan. Normally, 
when people are recruited, that is not what they are 
necessarily recruited for. And then there are other roles that 
most people would not have originally assumed were traditional 
Air Force missions and requirements. And it is a change, as has 
been mentioned, to the Air Force culture. What we wonder about 
is, how are they trained? Who does the training? Do you sort of 
contract out the training to the Army and Marine Corps for 
roles that traditionally had been performed by them? How do you 
go about doing this?
    Mr. Duehring. For those who come into basic training, last 
year we increased our time in basic training by 2 weeks, from 6 
and a half to 8 and a half weeks. This was to introduce combat 
skills training. I think the first graduate came out last fall 
in the October time frame. That still is not going to prepare 
them for the roles. They will go from there to the skills 
training, and they still get combat skills training throughout 
this time, but once they get to their base, and they get into 
the AEF rotation. Or if they are in one of the career fields 
that goes more often than that, quite frankly, for longer 
periods, like civil engineers, the vehicle operations who very 
often go out in the convoys with the Army, we will send them, 
yes, to schools.
    We started initially, as I recall, about 2004 when the Army 
first said it could use a little help in some of these areas, 
and vehicle operations I remember very clearly because the 
first group who went over there wasn't prepared very well. They 
were pretty good drivers and could fix the trucks. We took them 
into Kuwait, and I was in DoD at that time; I wasn't in the Air 
Force. But I watched what happened. They got their top-off 
training there. We don't do that anymore. Well, there is still 
training there, of course, but we have schools back here, 
whether it is in New Jersey at Fort Dix; we have a lot of folks 
come through Fort Dix.
    Mr. Frelinghuysen. Good.
    Mr. Duehring. More coming I am sure. We have also some 
places in Texas that we have been going to, near San Antonio. I 
have been to Fort Hood and seen some of the work there. I have 
seen Air Force people at Fort Bragg, but now, to the degree 
that we can, we are trying to do some of that training 
ourselves, realizing that, because the threats change, the 
types of improvised explosive devices (IEDs) that they might 
encounter, the attacks, however they are doing it this week, 
can change, they still will get some top-off training even as 
they go into country.
    So it is a joint program. Some of it is ours, and some is 
the Army's. I go on the road every month. I visit two to five 
bases a month; I say, do you feel trained, or do you feel 
comfortable in what you are doing? I always hit the forces. I 
always hit Explosive Ordnance Disposal (EOD). I always hit the 
vehicle operations guys, and I say, how comfortable are you? I 
am getting very positive responses, and that was not true back 
in 2004.
    Mr. Rothman. Mr. Kingston.
    Mr. Moran. Well, thank you.
    Mr. Chair, let me underscore the fact that we want this 
information. We are asking for it from all the services: What 
is the extent of the contracting out? Where is it? What roles 
are contracting? We want to know the total number of contract 
personnel, number of contracts, that kind of thing. We are 
trying to get our hands around what is the real total workforce 
here, how it is being distributed, who is fighting the wars, et 
cetera. Thank you.
    Mr. Rothman. Thank the gentleman.
    Mr. Kingston.

                            PHYSICAL FITNESS

    Mr. Kingston. I want to follow-up on Mr. Moran's questions 
in terms of the physical fitness. We had a hearing last week 
with the Army about the amount of equipment a soldier carries, 
which can weigh up to 93 pounds. Are you having the same 
problem with particularly against your security forces because 
they would be the ones carrying the most on the ground, right?
    General Newton. Yes, sir, we are very much committed to a 
fit-to-fight total force, specifically within the security 
forces community. Again, nothing has come to my attention in 
terms of any type of inadequacy in terms of physical fitness 
amongst our security forces.
    However, I can tell you I have been to the schoolhouse down 
at Lackland Air Force Base outside of San Antonio, Texas, and I 
can tell you, it is a very fit training regimen. It goes also 
back to emphasis with regard to fit-to-fight starting in basic 
military training. But our airmen are, as we focus not only on 
their fitness but in terms of their health and wellness as 
well, but again, to go back more to your point, nothing that I 
had knowledge of relates to what you just described the Army 
may be having.
    Mr. Kingston. Well, what my question is, do you know how 
much their equipment weighs? And for the infantry soldier in 
the Army, it was about 93 pounds.
    General Newton. Yes, I recall seeing that information for 
the Army. I will have to get back to you in terms of 
specifically.
    Mr. Kingston. You probably don't have the same problem 
because, otherwise, you would probably have been asked this 
several times, I would imagine.
    General Newton. Yes, sir, but I can, not only within our 
security forces, but we also have a number of Airmen who are 
assigned to providing capabilities to Army or ground units 
engaged, for instance, our tactical air control party and so 
forth, because they are tasked to carry the same capabilities 
with them as they deploy with their counterparts, even within 
the ground forces or Special Operations Forces.
    Mr. Kingston. Well, if they are at Lackland training, then 
the altitude is going to be a lot different in Afghanistan. And 
I wonder if you have problems with altitude sickness, or is 
that something that takes about a week to get adjusted to, and 
then for the guys on the ground, they are okay with it?
    General Newton. Yes, sir. That is part of any unit that is 
being deployed, particularly from a garrison force that, as you 
alluded to, is not at altitude; it takes a period of time for 
them to be acclimated to the theater or the local operation 
that they happen to be engaged with.
    If I may also say when you deploy to places like 
Afghanistan or any other place around the world, as we find our 
Airmen deployed globally, it does take some time to get 
acclimated. Also there can be varying degrees of training that 
you can start in garrison to be deployed in.
    Mr. Kingston. What do you do for that? Is it mostly the key 
time on the ground before they really go out in full 
engagement, so that their bodies can get use to it? Or do you 
take a pill or drink lots of liquid? How do we get a guy 
jumping out of a plane to hit the ground running?
    General Newton. Yes, sir, we have a commander's program, 
particularly when they deploy to a variety of, in many cases, 
austere locations to get their Airmen fit. I do not have a 
specific regimen for you. It is not only your physical 
activity, but one must ensure you are not dehydrated, having 
flown long durations, sorties for instance and so forth. It is 
a type of diet that allows you to be fully engaged.
    And the last point I would make is that it is not 
necessarily the training, but it is also the duration of 
mission that they are tasked to do, extended hours and so 
forth, so there was a lot of physical regimen involved.
    Mr. Kingston. Another question. Some Army Non-Commissioned 
Officers (NCOs) had said that some of the new recruits are able 
unable to pass the physical readiness test. Is the Air Force 
finding that to be true?
    Mr. Secretary, you are shaking your head.
    Mr. Duehring. That is true, because I think the number that 
we hear very often is, only 27 percent of the high school 
graduates are actually eligible, qualified to join the 
military. And that includes, of course, not only physical 
fitness, but lifestyle decisions and things like this. But this 
is something that is in the papers a lot. We get feedback from 
the recruiters that kids just aren't as tough as they once 
were.
    Another problem, doesn't affect us too much, but it does 
affect the SEALs, and I have some friends in that business, is 
the kids coming in don't know how to swim, because we don't 
take our kids off to a Red Cross beginners course like they did 
when we were kids. It is a real challenge, and we have to work 
with them.
    Mr. Kingston. How about kids on Ritalin, is that a problem?
    Mr. Duehring. I have heard something about this. I would 
like to take that back before I misspeak, because it has been 
quite some time since I have heard that discussed. But I don't 
think you can come in--I am thinking now that you can't come in 
if you are on Ritalin, of course, as an 18-year-old or 19-year-
old.
    Mr. Kingston. I don't think you can.
    Mr. Chairman, this is my last question, if I could finish 
it.
    From time to time, we get calls from kids who want to join 
the services, but they are unable to because they are on 
Ritalin. It is a widespread use, as you know, particularly I 
think in private schools where the parents are saying, oh my 
kid is not going to get in med school because he is in 6th 
grade right now and doesn't have a 3.5 average, and so they 
panic and put them on Ritalin. What happens to them is, they 
play football and soccer; they have a full high school 
experience, full college experience. And then one day they want 
to get into the military, and they find out that if you have 
been taking Ritalin, it is considered a disability, and it is a 
shock to them. And I was just wondering. So if you can go back 
and look at that.
    Mr. Duehring. I would like to get a medical opinion on 
that. We are happy to provide that for you, sir.
    Mr. Kingston. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rothman. Ms. Kaptur.

                  DEPLOYMENT AND PSYCHOLOGICAL HEALTH

    Ms. Kaptur. Thank you, Mr. Chairman.
    I apologize for being late. I had a conflict this morning 
and will have to leave shortly after the questioning to go back 
to the other committee as well.
    Thank you for your service, and I want to focus my 
questions on the psychological health of warriors. I wanted to 
just ask, General, whether you would consider F-16 units that 
are based at Guard bases under your command?
    General Newton. I am sorry, would you rephrase that 
question? I am sorry.
    Ms. Kaptur. Yes, I am just curious as to whether war-ready 
units that are under the auspices of the Guard in a given State 
like Ohio, F-16 units that are under Army Air, and whether you 
consider them under your command because they are war-ready 
units.
    General Newton. Yes, ma'am. In the United States Air Force, 
it is a total force perspective, regardless of units, our 
Airmen, for that matter, serve in a capacity of inactive duty 
or Guard or Reserve. And so we very much approach how we 
organize training equipped from a total force perspective. So, 
yes, we would consider them a part of the total force Air 
Force. However, Air National Guard units fall under active Air 
Force command when they are activated to title 10 Status. 
Otherwise, ANG units remain under their respective State 
governor's control.
    Ms. Kaptur. I thank you very much for that, because I am 
interested in the portions of your testimony. I am interested 
in it all, but the part dealing with deployment and 
psychological health.
    We in Ohio, over several cycles now, have been attempting 
to work with the Guard there, Army and Army Air, including our 
F-16 units, but many other units around the State, to test the 
returning veterans through the Guard.
    Is it difficult in Ohio because we have so may Guard and 
Reserve based units, plus we have Wright Pat for active duty, 
and we have many soldiers returning home and Airmen returning 
home where there is no base. And we have a very extensive 
psychological testing program that we are undertaking.
    One of the issues we have confronted, and I would like to 
give you a piece of paper on this, and we are working with 
several universities, Case Western University, Western Reserve 
University, University of Toledo Medical University, University 
of Michigan. So it is a region-wide consortium that are trying 
to embrace these returning vets and to follow them through 
their life to see when PTSD might onset and so forth. Of all of 
services, the Air Force is the least prevalent. I mean, Army 
and Marines are much more than Air Force in general. But one of 
the difficulties we have had with the Ohio Guard, and we are 
not sure what level this decision is being made, we wanted 
voluntary genetic testing. We want to create a DNA profile of 
susceptibility to these illnesses.
    Ms. Kaptur. And at some level they are saying, well, you 
know, we cannot do this. And we cannot figure out whether it is 
at the national level, whether it is the Guard bureau, whether 
it is some commander at some level that we do not know, 
somebody at DoD.
    I am wondering if you could help us with that, because we 
really want to--we know all medical conditions have genetic 
markers, whether it is Alzheimer's, whether it is PTSD; and the 
goal is to create the largest epidemiological profile ever 
done, with over 3,000 returning soldiers and airmen who 
voluntarily agree to be tested.
    Then there is a real, you know, sophisticated sampling 
technique that they use and so forth. But this has proven to be 
a bit of a stumbling block. And I would just like to have the 
right person contact me because it is nettlesome.
    I told these people, I said before, when we get started on 
this I want a Nobel prize out of you; I do not want anything 
less. We are going to understand this and we are going to treat 
it. We are going to identify it and we are going to treat it, 
and we have got to have this.
    So I would like to know if you could help us with that, 
work with our Guard bureau, work with whoever at DoD is 
responsible for this. And let's get a really excellent research 
profile that will yield the results that we need.
    Mr. Bishop. Would the gentlelady yield?
    Ms. Kaptur. I would be pleased to yield to the gentleman.
    Mr. Bishop. Thank you.
    In that regard, I would like to remind the gentlelady--
there was at some point some research being done by the Army 
with regard to PTSD and some genetic markers and some DNA that 
would be predictable. And at some point there was some 
controversy about the study because there was a need for high 
recruitment, and they were afraid, some say, that these genetic 
markers would prevent their reaching the recruitment goals 
because it would predict who was likely to be susceptible to 
PTSD, which was a very interesting thing, and the study was 
stopped for some other supposedly unrelated reasons.
    We touched on that last year in Committee.
    Ms. Kaptur. I thank you. Well, maybe we are running into 
the same speed bump here. I do not know. But it is a very 
important speed bump. And I would like to have a discussion 
with whoever is involved in the decision-making chain. General 
Wayt, the Ohio Guard commander, is very involved in these 
issues, but I am not sure that this is not above his pay grade.
    General Newton. If I may, your points are well taken, and 
certainly I will take that back. But we in the United States 
Air Force--regardless, active duty, Guard, Reserve, civilian, 
family members and so forth--are very much concerned and/or 
focused on the health and wellness of our airmen and their 
families. And in a high operations tempo environment, we are 
seeing stresses that again are imparted by either duty deployed 
in such places as Iraq or Afghanistan or 135 other locations 
around the world where we find Airmen serving, as well as 
stresses that we have back home in garrison at our bases as 
well.
    So I take your point, and again--the focus is on the health 
and wellness of the men and women who serve, as well as their 
family members. It is absolutely essential that we not be in a 
reactive mode, but we get ahead of this and we focus on it as 
well.
    Ms. Kaptur. I thank you, General, and I look forward to 
hearing from you.
    Mr. Rothman. Ms. Granger.

                              DEPLOYMENTS

    Ms. Granger. Thank you. We have heard from the Army that 
their deployments are down to 1 year--they were at 15 months--
and the Marines Corps is at 7 months. And my question to you 
is, going back to what Mr. Moran said about combat roles and an 
increase in difference in your role, will this change the 
deployment time? And how will it affect it?
    Mr. Duehring. Let me give us a little background on how we 
got to where we are and what I think is going to happen in the 
future. The Air Force had a continuing commitment starting 
before 9/11. I remember working for OSD at the time, watching, 
you know, all the Services. And because the Services were all 
being committed, the Air Force obviously had to play its role. 
And the Guard and Reserve, for example, going back to pre-first 
Gulf War, maybe fewer than a million man-days a year on active 
duty. And by the time we got up to around the end of the 
century, shall we say, it was 13.1 million man-days a year, so 
you could see that this workload was increasing.
    What the Air Force did was establish the AEF rotation 
policy, the Aerospace Expeditionary Force rotation policy. Very 
simply, it put all of the forces, with the exception of a few 
that we kept in reserve, into groups, of which there were--
well, actually five basic groups that went for three months at 
a time, and they just kept rotating. And what this meant was 
that if you, as a member of the first group, went for three 
months--first of all, you were going to know well in advance 
when you were going and you knew when you were coming back--
very good for the Guard and Reserve right away, because they 
could tell their employers as well.
    And you knew that when your turn came, it would not be on 
Christmas again. If you had missed Christmas or missed 
somebody's birthday, you were going to be pushed three months 
down the road.
    Well, this served us well. We then pushed it to--that was 
not quite long enough to be in theater. So we voluntarily moved 
it to 120 days, 4 months, and it just--the cycle just got a 
little bit bigger and longer. I remember when General Blum, who 
had recently taken over as the chief of the National Guard 
Bureau, came up with--he called it the hurricane charts, which 
is how he wanted to move the Army National Guard; and it was 
the same type of idea, to give predictability. This idea now 
has really spread throughout all of the Department.
    The Army, of course, likes--they move large units. They 
like to have them on the ground for a year. So that meant, 
whatever action has to go ahead of time and then there is some 
action on the back side, that is, in addition to it.
    And then they moved up to 15 months, because as you may 
recall, the threat--it peaked about a year or two ago, and we 
started keeping people longer and longer and longer, okay?
    The Air Force tried tenaciously to stick to its AEF 
rotation cycle, but we found in certain career fields we could 
not do it. And remember, I talked about vehicle ops; those guys 
went and they drove with the Army. We talked about EOD, and 
still, to this day, our EOD people are embedded in Army units. 
You go out there you will see them; in fact, sometimes they 
wear Army uniforms. There is a whole laundry list of ones that 
we have talked about, these joint expeditionary taskings.
    These folks, the Army wanted to keep for a year. We 
honestly do not think that is a good idea. We find that the 
stress after about eight, nine months--by the way, you noticed 
the Marines stayed at seven months. They have always stayed at 
seven; they believe in that.
    But we found if we stayed longer, the stress starts going 
up dramatically and all these other issues take place. If we 
can get them back after six months, let them calm down, let 
them get back with their families and adjust, we can call them 
up again. They will be ready to go again.
    So what we did is, we took the 12-month rotation that the 
Army wanted and divided it in half and said, Mr. Army, would 
you accept that? And they have, by and large, accepted that. 
There are some exceptions to it. Usually people volunteer if 
they want to stay longer than that, okay?
    So we knew that civil engineering, we knew EOD, we knew 
that some of the medical people, intelligence, stress career 
fields were going six months, and this messed up our AEF 
rotation cycle. So we said, okay, let's identify those people 
and say they are going to go for six months. And what that did 
was, it allowed us to clearly identify who was stressed, which 
career fields we just did not have the right number of people 
in for this new mission.
    And the other thing it gave our people was predictability. 
And we said, okay, we admit you are going for six months now, 
179 days, whatever the case may be. And at least, you know, 
next August you will probably go again. And that helped 
tremendously.
    To answer your question, long answer to a short question 
is, about 52 percent of our deployments now, by counting 
people, is six months or greater. As long as we are in the 
program, the Joint Expeditionary Force, we are going to have 
units that are going to be committed at six-month intervals.
    We would still like to stay with the AEF rotation cycle, 
and the greatest pressure comes from the Guard and the Reserve. 
Example: If you are an airline pilot and you are flying F-16s 
in Ohio, wherever the case may be, and you go downrange and you 
are flying a 767 back home, you are going to run out of 
currency in 90 days. And it is extremely expensive for the 
airline to requalify you in that airplane. So what we have 
worked out with the airline industry is, if you take them for 
six months--I am sorry, I am sorry--two months, 60 days, bring 
them back, get a few flights in the 767, you can have them back 
again because you have just reset the clock.
    So in cases like this where it works to our advantage, we 
would like to stay with the AEF rotation cycle. But we 
recognize in probably a dozen career fields it is just not 
possible. But at least our folks know what is happening when.
    Mr. Rothman. Mr. Bishop.

                           SUICIDE PREVENTION

    Mr. Bishop. Thank you very much. And again welcome, 
gentlemen. And I appreciate it very much, the enlightenment you 
have shared with us.
    With regard to the increased stress level that I heard you 
discussing, the last suicide prevention study by the Air Force 
was done in 2005. And you have talked about the additional 
missions and the impact that has had on your personnel.
    Do you think that it is time now to upgrade that, 
considering the fact that the Army and the Marine Corps, 
because of their missions, have experienced a tremendous 
challenge with regard to suicide- and PTSD-related to the 
extended deployments and the new missions? That is the first 
question.
    The second question relates to the high operational tempo, 
which has put a real strain on your personnel accounts, causing 
the funding to run out before the end of the fiscal year. 
Talking about the 2009 fiscal year execution, can you tell me 
what the monthly burnout rate for your personnel costs are and 
when, in this fiscal year, you expect that your personnel 
accounts will run out of money?
    Three quick questions.
    Mr. Duehring. Let me start with the second one because it 
is the easiest one to answer.
    The monthly burnout rate is 2.2 billion. And the going 
broke date right now we estimate is around 12 September; and we 
are hoping that the supplement will pick up in there.
    The suicide issue, I will give you the simple answer first, 
which is, we can give you whatever you would like on suicides 
any time. We do review it in house. We do a review of the 
suicide rates at the Air Force level, the major command level, 
and the wing level; for those more oriented towards the Army, 
think of it as a base level.
    We have what we call a Community Action Information Board--
I think it is at each one that reviews this--twice a year. And, 
of course, commanders, we at our level see it a lot more 
frequently than that. We get a summary every week, and if there 
is an incident----
    Mr. Bishop. Do you see any trends?
    Mr. Duehring. Trends, we have--I have got a couple of 
figures here.
    Mr. Bishop. That you can relate particularly to the op 
tempo?
    Mr. Duehring. We are kind of holding our own.
    Let's see, pre-1996, in our comments we talked--in my 
comments I talked about the new holistic program that we had 
adopted in 1996. And our rate prior to that was 13.5 percent, 
and since then it has been 9.8 percent, although it is----
    Mr. Bishop. That is the suicide rate?
    Mr. Duehring. Yes, sir.
    Mr. Bishop. Thirteen percent?
    Mr. Duehring. Yeah, we are below the national average. Yes, 
13.5, I am sorry, 13.5 based on 100,000.
    Mr. Bishop. Oh, okay.
    Mr. Duehring. I got talking. I got so wrapped up in it, I 
am sorry, sir; 13.5 per 100,000?
    Mr. Bishop. Out of 100,000?
    Mr. Duehring. Yes, sir. And then, after that, 9.8.
    Mr. Bishop. And you attribute that to your 1996 program?
    Mr. Duehring. Yes.
    Mr. Bishop. But you have not really been keeping up with it 
since 2005?
    Mr. Duehring. No, we do. Within the organization we have. 
There has not been a request from Congress to provide that 
information. We can certainly give it to you any time that you 
would like to have it.
    Mr. Bishop. I think it would be very helpful to us, because 
we have got the information from the Army and the Marine Corps, 
and with the increased tempo of the Air Force, particularly as 
you describe the high stress level, we probably need to know 
that also. Because there might be something we may need to look 
into with regard to what is happening with your Air Force 
personnel----
    Mr. Duehring. Yes, sir.
    Mr. Bishop [continuing]. And their families.
    General Newton. Sir, may I add just a brief comment?
    From a commander standpoint or previous commander 
standpoint, one suicide is one too many, and we are always 
striving to prevent the next. And so what we have in place 
through the years is a very focused, engaged commanders program 
at the unit level or at the base level all the way up to our 
Chief of Staff and our Secretary of the Air Force as well.
    And so, we are constantly engaged. We are not only engaged 
within the United States Air Force, but are looking for 
successes perhaps in other programs that the United States 
Army, United States Marine Corps, and United States Navy have 
engaged with as well.
    So it is not just the Air Force, isolated. In fact, I have 
engaged with Lieutenant General Mike Rochelle, who is the Chief 
of Personnel for the Army on the Army suicide program and what 
they are doing. So it is a matter of us also integrating and 
understanding what other Services are going through.
    Mr. Bishop. So is that because you have seen some trends 
and you expect that that might increase and so you are trying 
to anticipate it?
    General Newton. Yes, sir. We are obviously--as the 
Secretary referred to, it still remains a very high operations 
tempo environment. We do not want to put ourselves in a 
reactive mode; we want to be proactive.
    And to go back to my first point, one suicide is one too 
many, and we are always striving to prevent the next one as 
well.
    Mr. Bishop. Just one follow-up with respect to the search 
and rescue missions of the Air Force, I know at Moody Air Force 
Base in Georgia there was a period, particularly at the 
beginning of the Iraq war, where they had been called upon 
pretty heavily; and of course, that was a lot of stress there 
among families and there were some suicide attempts there. And, 
of course, there was a lot of family disruption and family 
violence on return, and divorces.
    That seemed to have been at the beginning, and I don't know 
how it has developed since 2001-2002. But I certainly would 
like to have that information.
    General Newton. Yes, sir, I'd be delighted to provide you 
with that information. We could spend a lot of time talking 
about some of the preventive measures and programs we have 
engaged.
    [The information follows:]

    During 2001 and 2002 the rate of substantiated child maltreatment 
at Moody AFB, GA was significantly higher than the Air Force average 
rate (FY01: 14.72 vs. 7.35 per 1,000; FY02: 15.25 vs. 7.32 per 1,000). 
Substantiated spouse maltreatment was elevated in 2001 (19.15 vs. 16.12 
per 1,000). From 2002 to 2008 the child and adult maltreatment rates 
dropped to a rate at or below the Air Force average. Variation between 
Family Advocacy Officers (FAO's) substantiation rates was a concern in 
family advocacy at all bases. In 2004, the Central Registry Board was 
implemented and helped reduce variation in the substantiation rates 
among different bases. The Central Registry Board implementation 
accounts for part of the decrease in the substantiation rates during 
2002-2008. Additionally, FAO's and their staff received robust training 
to address their basic processes, to include variation of 
substantiation rates. This training improved the quality of the FAO's, 
their staff, and the overall program capabilities.
    From January 1, 2000 to December 31, 2008 there were three 
completed suicides at Moody AFB, GA. The deaths occurred in 2001, 2006, 
and the last in 2007.

    Mr. Rothman. Ms. Kilpatrick.

                       FAMILIES OF SERVICEMEMBERS

    Ms. Kilpatrick. Thank you, Mr. Chairman.
    General, Secretary, thank you. Good morning. Thank you for 
your service. It has been very interesting, the discussion 
here.
    And I notice from what I read, health care, health 
professionals within the Air Force, is down from where you 
would like it to be. You have several incentive programs, 
including scholarships and the like, to help get that number 
up. In light of the last discussions we have had in this room 
this morning talking about health care, but I think I want 
focus on the children of service people, because I think there 
might be some relationship between being in theater, and I 
think Ms. Granger talked about the time between that in their 
tours, as well as when they come home, and suicide. Somewhere 
is some correlation.
    And whatever reports you would provide, I would like to see 
some of that if there is some correlation on that, health care 
in the services and your need for--what you have for the 
enlisted as well as for the families. How adequate is it? How 
short are we? What needs to be done? And children particularly.
    In my own district, children of service people who come 
home between deployments, not long enough because it is 
probably never long enough when you are fighting two wars, the 
children seem to suffer mental stress.
    General Newton. Yes, ma'am.
    If I may add, I am the son of an Air Force officer, and 
recall, when my dad was in Vietnam for a year and so forth, I 
candidly experienced some of the--certainly the separation 
between myself and my father and saw the stresses that my mom 
had. Of course, that was a different era, different war, and so 
forth.
    And being the father of two daughters we talk a lot about 
this in terms of the stresses that we see in our force.
    I am very confident of the health care that the United 
States Air Force is providing to our members, as well as the 
family members. I certainly agree with you that the stresses 
that the members, particularly those serving in deployed 
locations, but also back home at bases, the stresses that they 
are undergoing, it does have an impact on our Air Force 
children, if I may call them that; and that we go into this 
knowing and understanding that a stressed force has impacts on 
family members as well.
    And, therefore, we are striving to understand what those 
stresses are--we are not accepting the fact that they do not 
exist; they do--that we need to be proactive in dealing with 
family stresses as well. And so I would be delighted to provide 
you much more information on these programs.
    Ms. Kilpatrick. And how we can help to make sure we meet 
those goals of health care professionals.
    General Newton. Absolutely.
    [The information follows:]

    The Air Force supports Airmen and their families from the front 
line to the home front by offering proactive services and programs that 
assist in identifying and resolving concerns that bring about family 
stress, and to provide a variety of avenues to reduce stress.
    At home station, information and referral services are offered 
directly to spouses and families, such as: pre-deployment briefings for 
members and families, free weekly morale calls to keep families 
connected and help reduce their sense of isolation, reintegration 
briefings for 22,000 spouses that prepared them for changes during the 
separation and to improve the quality of the reunion-22,000 
reintegration briefings were conducted over the last year alone. The 
Air Force also offers communication/life skills development workshops, 
free oil changes funded by Air Force Aid Society for each deployed 
family, and financial counseling at home station and at deployed 
locations. The Airman Readiness Center at Al Udeid provided over 8,000 
consultations on topics that covered financial readiness, 
reintegration, and reunion with families and workplaces. Over the last 
year, the Air Force also provided employment and career education 
assistance for 40,000 spouses to prepare for portable careers.
    The Air Force offers many other programs to help our Airmen and 
their families through stressful periods. For instance, the Extended 
Duty Child Care program provides 16,000 hours of free child care each 
month, and is designed to assist Airmen who have to work longer hours, 
evenings, overnight, and weekends. The Give Parents a Break program 
provides parents with a few hours break each month from the stresses of 
parenting--and the Air Force partners with the Air Force Aid Society to 
provide free child care to parents who are subject to unique stressors 
due to the nature of military life such as deployments, remote tours of 
duty, and extended hours. The Air Force Aid Society provides invaluable 
support to our Airmen and families, and funds 5,000 hours of respite 
child care annually. Department of Defense funded Military and Family 
Life Consultants are also available at all Air Force locations to 
provide non-medical counseling to Airmen and their families and help 
resolve some of the stressors associated with the military lifestyle.
    Also, Air Force Youth Programs partner with the National Military 
Family Association Operation Purple Camps to provide 7-10 free, week-
long camps to help military kids experience fun while learning coping 
skills to deal with war-related stress. Children of deployed members 
receive priority to participate in the Youth Camping Program, which 
offers residential and specialty camp opportunities and experiences for 
more than 20,000 youth annually. This year, the Air Force Reserve 
Command hosted a Deployment Camp for children of Air National Guard and 
Air Force Reserve Airmen.
    Additionally, the Air Force has made great efforts to expand or 
create fitness programs and facilities that cater specifically to 
parents and families. It is hard to find a fitness center in the Air 
Force that does not have a family-oriented fitness room that allows 
parents to workout with their children. At Ramstein Air Base in 
Germany, fitness professionals show their commitment to families by 
creating programs such as Mommy and Me, Yoga for Kids and 
Strollerobics. Through innovative approaches like these, family members 
have an avenue to reduce stress during spouse deployments as well as to 
help reduce the stresses of post-partum depression and weight gain.

    Ms. Kilpatrick. Then my other question relates to, last 
session the Congressional Black Caucus met with the Joint 
Chiefs of Staff regarding flag officers and the lack thereof of 
minorities--all minorities, I might add. Has there been any 
report or anything out on how that is going, from one star up 
and how the pipeline is? Are there people being prepared for 
that? I mean, do we need to do something?
    General Newton. Yes, ma'am. Again, under the leadership of 
our Secretary Donley and, particularly, General Schwartz, our 
Chief of Staff, we are making sure that we provide the 
opportunity for every Airman to reach his or her potential. The 
fact that our Nation----
    Ms. Kilpatrick. We found last year that sometimes they 
transfer out before they--got to stay in the stream. Sometimes 
they transfer out.
    General Newton. Yes, ma'am. It is not only an issue with 
regard to recruiting and accessions, but also retention. It is 
a matter of mentoring our men and women, who want to strive to 
meet their potential, that they have the opportunity to do 
that.
    Our Nation is evolving in terms of, the talent that it has. 
As your Deputy Chief of Staff for Manpower and Personnel for 
the United States Air Force, there is a war for talent out 
there. Certainly General Schwartz feels that we need to go to 
every community that this Nation has to offer to be able to 
take the talent that every man and woman who is eligible to 
come into the United States Air Force--not just a recruiting 
effort, though.
    Ms. Kilpatrick. It is retention and it is about those being 
in now. Because you have to start somewhere; we understand 
that.
    General Newton. Yes, ma'am.
    Ms. Kilpatrick. In the pipeline now, have we done anything 
over the last couple years? Is there any reporting where really 
the flag officers, one star and up, can----
    General Newton. We have a number of general officers who 
are certainly African American and other demographics as well.
    Again, I believe we need to diversify our capabilities and 
diversify our force, I believe that is a mission imperative, 
that is a national strategy imperative. It is the right thing 
to do, but it is about mission effectiveness.
    I could probably provide you numbers off line if you would 
like to.
    [The information follows:]

    Current Air Force general officer demographics break down into six 
categories; women, black, Asian/Pacific Islander, Hispanic, American 
Indian and white. Based on the most recent numbers, our total general 
officer population is 299 of which we currently have 27 women (1 
lieutenant general, 5 major generals and 21 brigadier generals), 13 
African Americans (1 lieutenant general, 5 major generals and 7 
brigadier generals), 3 Asian/Pacific Islanders (1 major general and 2 
brigadier generals), 4 Hispanics (1 lieutenant general and 3 brigadier 
generals) and 1 American Indian serving as a brigadier general.

    Ms. Kilpatrick. And I read about that 27 percent, and I 
think this is related to that. I think when you have flag 
officers who are of those very multiethnics, then you get a 
stronger force. Our retention and recruitment may be down, but 
all that plays into getting where we want to be, I believe.
    General Newton. A couple weeks ago I attended the Black 
Engineer of the Year award in Baltimore, for instance. And you 
have got a number of youngsters in this case who are steeped in 
math, technology, engineering and sciences who come to 
Baltimore on an annual basis. I want to make sure that we have 
an opportunity to go--again, recruit across the entire U.S. 
population, but perhaps to communities that we have not focused 
on very effectively in the past.
    Ms. Kilpatrick. Perhaps Members of Congress can be of 
assistance in that.
    General Newton. I would be delighted to have that 
discussion. I know my Chief would as well.
    Ms. Kilpatrick. Thank you.
    General Newton. And also for your insights and support.
    Ms. Kilpatrick. Appreciate that, General.
    Thank you, Mr. Chairman.
    Mr. Rothman. Call on the ranking member, Mr. Frelinghuysen.

             INTELLIGENCE, SURVEILLANCE AND RECONNAISSANCE

    Mr. Frelinghuysen. Thank you very much, Mr. Chairman.
    General Newton, ISR--intelligence, surveillance, and 
reconnaissance--what are its manning requirements?
    General Newton. Yes, sir, based on the requirement of the 
joint warfighter, particularly in the U.S. Central Command 
region, we have been tasked to provide an increase in 
intelligence, surveillance, and reconnaissance capabilities 
that are particularly borne out in our unmanned aerial vehicles 
program, the Reaper and the Predator. We have been tasked by 
the Department's leadership that we provide 50 combat air 
patrol capability.
    Mr. Frelinghuysen. The CAPs?
    General Newton. CAPs, yes, sir.
    Therefore, as we look to the proposed active duty end 
strength of 330,000, the number that we have discussed 
previously that we put as a priority towards that end strength, 
we also put a high priority to providing those ISR, 
particularly in the platform of----
    Mr. Frelinghuysen. You have put a high priority on it. Are 
you providing incentives, financial incentives?
    General Newton. Yes, sir.
    For instance, our men and women who fly or who operate the 
unmanned aerial vehicles out of Creech Air Force Base just 
outside of Las Vegas, they are our bomber pilots and fighter 
pilots and navigators and so forth, we provide them aircrew 
continuation pay or aircrew incentive pay.
    Mr. Frelinghuysen. So you are meeting that obligation?
    General Newton. Sir, we are. There is a very high 
operations tempo environment at Creech Air Force Base, as you 
well know, because of the demand----
    Mr. Frelinghuysen. Some remarkable things are going on 
there.
    General Newton. Yes, sir. And we are meeting the demands 
and capabilities of the joint warfighter, and see increased 
demands on the horizon.
    Mr. Frelinghuysen. There are some jobs that are, should we 
say ``down and dirty,'' some pretty tough areas, which if you 
look at recruiting and retention, EOD, explosives, combat air 
controllers, pararescue of securities, how are we doing in 
those areas?
    This sort of gets back to our previous discussion here. A 
lot of people sign up for things and then, you know, these are 
part of your overall mission. How are we doing in those types 
of areas?
    I remember at, I think, Offutt Air Force Base you had a 
pretty good linguists school. You know, how are we doing in 
those areas--EOD, rescue, combat air controllers?
    Mr. Duehring. Some of those, of course, have an increase in 
the requirements, which is a challenge in that, as soon as the 
requirement comes down and we have to fill it--and you cannot 
just fill it overnight. So we use the bonus authority that we 
have been given, very often to encourage people to come into 
those career fields.
    Now, EOD has some problems in the middle level. We would 
try to retain those people. We would emphasize retaining those 
folks because of the stress.
    Mr. Frelinghuysen. You retain them with bonuses and other--
--
    Mr. Duehring. We do. Yes, sir.
    Mr. Frelinghuysen. And there has been some level of success 
in that area?
    Mr. Duehring. There has.
    Also we are trying to reduce the stress; you know, we 
look--are there other people who can do the job? We work with 
the other Services in trying to space out the deployments, 
actively--very, very actively looking at who is available to do 
what.
    In the ISR program last fall we felt we were getting pretty 
thin in the number of people that we had available to actually 
fly these CAPs day in and day out. And what we did is, we 
looked at each of the bases. In this case, North Dakota found 
that they had a couple extra folks who were not that heavily 
tasked, and we moved them in temporarily, or we gave the CPA to 
another base to do it.
    It is a lot of creative work to try to take the stress off 
as well as put people in from the bottom.
    Talking ISR, we are looking at some Navy assets, people 
who--you know, the Navy is closing down a lot of their P-3 
operations, and certainly on the Reserve side of the house, the 
FA-18s are going away, others. We have got pilots there: We 
would love to have you; we have got this great job if you would 
like to come over.
    So we look everywhere we can to try to take the pressure 
off, as well as to build the force up from the bottom.

                        RECRUITING AND RETAINING

    Mr. Frelinghuysen. The last question I have: What are you 
doing about recruiting and retaining civilian and military 
people that are, shall we say, knowledgeable about mental 
health?
    Mr. Duehring. Well, of course there has been a significant 
increase in the requirement, the whole medical career field.
    Mr. Frelinghuysen. I sort of remember where some of the 
other services are, but quite honestly I cannot remember what 
your percentages were. How do they stand?
    There is a lot of competition out here----
    Mr. Duehring. Absolutely.
    Mr. Frelinghuysen [continuing]. From the civilian side, 
just in the general population. But how about on the Air Force 
side of things?
    Mr. Duehring. I will give you just a tidbit, and then I am 
probably going to have to take the rest to give you an answer 
back.
    But I know that we have 600 active duty mental health 
providers now. And we added 200 civilians to that recently. I 
just got that information as we were preparing for this 
hearing.
    But as far as the overall numbers, I would be happy to send 
those to you if I could.
    Mr. Frelinghuysen. I would like to have those for the 
record.
    Again, thank you both for your testimony.
    [The information follows:]

    Air Force active duty and reserve/guard components are using all 
accession and retention pay authorities established by 37 USC Chapter 
5. The Office of the Assistant Secretary of Defense (Health Affairs) 
sets rates for medical specialties in each military component, with 
input from medical departments of all three services. Pays for a 
particular specialty are generally level across the three Services. 37 
USC Sec 335, Consolidation of Special Pays, will allow accession and 
retention pays for mental health specialties that previously had been 
ineligible for these pays. It is anticipated this guidance will allow 
each Service the authority to better focus available funds to support 
accession and retention of critically short specialties.
    Air Force active duty and reserve components also use 10 USC 
Chapter 105 and 10 USC Sec 16302 for the Health Professions Scholarship 
Program and Health Professions Loan Repayment Program with regards to 
these accession and retention programs. The Active Component also uses 
Department of Defense Instruction 6000.13 for implementation guidance 
for many of our accession and retention programs.
    Our civilian component has multiple tools to attract and retain 
civilian mental health providers:
    <bullet> Recruitment bonuses for new accessions (up to 25% of base 
salary)
    <bullet> Retention allowances to sustain high caliber employees (up 
to 25% of base salary)
    <bullet> Credit for non-federal and Uniformed Service experience 
for annual leave accrual for new employees
    <bullet> Student Loan Repayment for new accessions ($10K per year 
with $60K max payment)
    <bullet> Superior Qualification Appointments (for GS employees 
only) provides an advance in-hire rate up to Step-10 of assigned grade

                                            MENTAL HEALTH SPECIALTIES
----------------------------------------------------------------------------------------------------------------
                                                                                                       Retention
                                                       Civilian    Civilian     Active      Active     rate * at
                      Specialty                          auth/      percent   duty auth/     duty     mid-career
                                                       assigned     manned     assigned     percent    (10 YOS)
                                                                                            manned     (percent)
----------------------------------------------------------------------------------------------------------------
Psychologist........................................       18/18         100     256/205        80.1           6
Social Worker.......................................     168/165        98.2     199/209       105.0          53
Psychiatrist........................................         1/1         100       87/94       108.0          25
Mental Health Nurse **..............................         1/1         100       47/55       117.0          39
Mental Health Technician............................       11/12         109     763/695        91.1          22
----------------------------------------------------------------------------------------------------------------
Table taken from 2008 HMPDS Report.
* Retention Rate added by AF/A1I based on current data. Mid-career (10 yr point) used as commonality among
  career fields with differing educational obligations and requirements.
** Mental health Nurse: Due to small population size, Retention Rate may have high error rate.

                            Retention Rates
    The average career length (ACL) for mental health providers is as 
follows:
    (Time is in Commissioned Years of Service (CYOS))
    ACL--Social Worker--12.78 CYOS
    ACL--Mental Health Nurses--11.22 CYOS *
    * Mental Health Nurse (46P) authorizations are extremely small 
(<100); data based on 3-yr average (FY06-FY08)
    ACL--Psychiatrists--8.78 CYOS
    ACL--Psychologists--5.47 CYOS
    The decision point is where all military and educational 
obligations have been fulfilled and the individual is first able to 
separate. Based on historical data, retention for Mental Health 
Providers is as follows:
    Clinical Psychologists--20% after their military obligation is 
complete (4yrs)
    Mental Health Nurses--58% after their military obligation is 
complete (4 yrs)
    Psychiatrists--25% after their military obligation is complete (9 
yrs)
    Social Worker--88% after their military obligation is complete 
(4yrs)

                         PILOTS AND NAVIGATORS

    Mr. Rothman. I am going to ask a couple of follow-up 
questions.
    General, you mentioned briefly that there was some 
additional need for bomber pilots and navigators. Could you 
describe that a little bit?
    General Newton. Yes, sir, I can. Again, it is not just 
within the bomber community per se in terms of our what we call 
``rated community,'' those who are trained specifically for 
flight duties on the officers' side.
    There is--throughout our Air Force, some needs that need to 
be met across the rated community. It is not just Airmen who 
are flying aircraft, but those who are assigned particular 
duties that may be outside the cockpit. For us, it is staff 
that requires their expertise at a staff level.
    And so, as we focus on reinvigorating the nuclear 
enterprise as our very top priority, we are making sure that we 
have the appropriate number and quality of air bomber pilots 
and navigators to fulfill those tasks. Again, we see that as an 
increased requirement, and we are going to make sure that we 
fulfill those requirements.
    Mr. Rothman. And is it fair to say that the 2010 budget 
submission will reflect your attention in that area?
    General Newton. Sir, our plan is to make sure that we 
indeed fulfill those requirements.

                        PERSONNEL AND READINESS

    Mr. Rothman. Let me ask you, if you were sitting up here, 
what question would you ask? What should we know that we have 
not asked about with regard to Air Force personnel and 
readiness?
    General Newton. I will save the last for you.
    But, sir, if I may, I believe the discussion--if I could 
take a reflection on the last hour and a half or so: The 
discussion with regard to all things people in the United 
States Air Force is, first, a very top priority of ours. We are 
an Air Force that provides total force capabilities to the 
joint warfighter, as I mentioned, to nearly over 135 locations 
around the globe.
    As we meet the demands of today, the issue is not 
necessarily just an end strength issue in terms of what the 
number is, but in terms of how we are going to shape that 
force, how we are going to shape that force for the joint 
warfighter today, but also for tomorrow.
    That compels us to put our priorities, sir, as our previous 
discussion with regard to intelligence, surveillance and 
reconnaissance capability. It requires us to put a priority 
into the nuclear enterprise, to reinvigorate the nuclear 
enterprise. It also compels us to make sure this growing cyber 
capability with regard to network attack and network defense is 
at an absolute premium. It is to make sure that we continue to 
maintain a capability to provide acquisition excellence to this 
Nation and to this Department.
    Also we have to do effective maintenance with our aircraft. 
It is all based on priorities, from reinvigorating the nuclear 
enterprise, and partnering with the joint and coalition team to 
winning today's fight.
    It is certainly about taking care of our Airmen and their 
families. It is making sure that we continue to modernize our 
aircraft, and space inventory as well, and recapturing 
acquisition excellence.
    The last point I would raise, what I could have described 
to you would have been in terms of platforms, things, aircraft, 
space capabilities. What we focus on is our people. We provide 
opportunities for development and take care of our Airmen and 
their families.
    Mr. Rothman. Mr. Secretary.
    Mr. Duehring. You know, I started out in the Air Force a 
long time ago and retired, and then fortunately came back after 
working for a while with OSD. And my Air Force has changed 
quite a bit.
    I was a fighter pilot--and we talked about that a little 
bit in the beginning--but that is not necessarily where most of 
the work is being done today. You know, that may well be more 
tomorrow's mission. And right now, I do not think that the 
American public realizes how much we are in the fight every 
single day because we do not deploy to do it.
    If you go to Minot Air Force Base, if you go to North 
Dakota, the Guard unit up there, the Predator Guard unit, if 
you go to Creech, if you go to any of the missile career 
fields, if you go to the space folks out in Colorado Springs or 
if you go up to Fort Dix and watch the people who are going 
through--on their way over, of course--you then would get some 
sense of the day-in-and-day-out participation, seven days a 
week. And this brings about some problems that we have to watch 
out for.
    The stress is not always associated with deployments. The 
stress could well be the individual sitting there in a secure 
environment at Creech who is actually launching missiles on 
targets and then has to decompress as he walks out the door, 
get into his car, go home and listen to how little Johnny did 
in first grade. That is difficult for the human mind to do. You 
do not have the time that we used to have, that we had when we 
came back from Southeast Asia just to kind of heal and get back 
into the flow.
    It is a different kind of stress, and so that is why I 
think we have to watch our folks from all aspects, but 
appreciate the contributions they make.
    And I want to put in a pitch for the Guard and Reserve. 
Many people still think of the Guard and Reserve as a strategic 
reserve; and in fact, we have lost all the people who I think 
signed up for the 39 days a year and the education benefits 
they could get for it. Folks coming in today know that if they 
are going to be working in the Guard or Reserve it is going to 
take more time than 39 days a year, and they are willing to do 
it. If we meet their needs, they meet ours. And this is true of 
the employers as well.
    We did not talk about employers. Very, very critical to 
this huge part of our family. And yet after eight years in this 
war on terrorism, the employers, the Guardsmen, the Reservists, 
their families as well as our active duty people keep coming 
back, coming back, coming back.
    I am astounded, frankly. I thought we were going to go off 
a cliff years ago. We did not go over that cliff. It is amazing 
that these people still come, and it is a tribute to some very 
good programs that I think we have going.
    Mr. Rothman. Thank you very much. And I just want to 
conclude my part with what our illustrious chairman always 
says. We are in the appropriating business. We want to make 
sure that we appropriate to meet the needs that you have. And 
so it is up to you to let us know what needs you have. And 
again, our assumption is going to be that the 2010 budget 
submission addresses all the needs that you have. And if not, 
you will let us know.
    Mr. Kingston.

                           SERVICE ACADEMIES

    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Secretary, I was at West Point this summer, and one of 
the things I was shocked to learn is that there are 18 Members 
of Congress who do not utilize appointments to West Point.
    Is that number, 18, also true for the Air Force Academy.
    Mr. Duehring. I do not know the exact number, but I know 
this is a topic of discussion at our Board of Visitors 
meetings. And what they did--I am in an oversight position, so 
it is up to them to do--is, our members--I think you could talk 
to Congressman DeFazio, Congresswoman Sanchez, would be good 
people to talk to, they and their staffers are working 
laterally within the organization, within Congress, because we 
found that in many cases the staffers do not understand the 
program.
    And they are the first people that someone would come to 
look for information. How do I do this? I am interested. Where 
do I go? And to make sure that they are aware of it. Because we 
found at the last meeting that the Members are interested, but 
you get involved in a lot of other subjects, a lot of other 
priorities. And so they have instituted a program to kind of 
help give a boost, the input.
    And this touches on the diversity issue that Congresswoman 
Kilpatrick talked about earlier, too, which is a big concern 
for us at the Academy. So I would perhaps mention that those 
people are available to whittle down that number.
    Mr. Frelinghuysen. Jack, would you yield?
    Mr. Kingston. Yes.
    Mr. Frelinghuysen. I serve on the Board of Visitors for the 
Naval Academy. And they have turned the whole issue around. 
They have gone after, you know, I think in a very comprehensive 
way, all those Members of Congress that for one reason or 
another have not been, you know, fulfilling their appointment 
obligations. They have a very comprehensive plan. And I assume 
most of the service academies are doing something similar.
    But I feel a lot better, certainly, on the diversity side.
    Mr. Kingston. I wanted to give you an opportunity to make 
sure everybody in the room realized that was going on, that 
there are 18 Members, and yet people have--you know, will stand 
up and smack you around. I cannot believe a Member of Congress 
would not know about this or would--let staffers get away with 
not knowing the process.
    So Members of Congress need to step forward and say, Look, 
I disagree with the whole system, and that is why I am not 
going to do it instead of feigning ignorance about the process.
    But I am glad you guys are taking steps forward, because I 
think it is just something people need to know here as we talk 
about recruitment, that we have Members that are not giving 
young men and women in their own district an opportunity to 
participate in one of the best educational opportunities in the 
world. And it is not necessarily a career in the Air Force. And 
so if you do not want to go full-time career, you can still get 
that education.

                             LASIK SURGERY

    But the second question I had on LASIK surgery. You know, 
we are all taught from youth on that you have to have great 
eyes to be a pilot. Has LASIK surgery changed that for those of 
us who do not have that gift?
    Mr. Duehring. I know that there is a difference in the 
accession policy for pilot training between the Air Force and 
the Navy, and it may well be on this. I am getting into a gray 
area that I do not know a whole lot about.
    Would you like for us to give you the latest policy on 
that? I am sure that is readily available.
    Mr. Kingston. I think people it would be good for us to 
know, because I am assuming that if Air Force or Navy pilots 
are allowed to have corrective eye surgery, then it is really a 
strong endorsement of the procedure, and that is why I am 
asking it.
    Mr. Duehring. I would be guessing at this point, sir. And I 
would like to just give you a straight answer, if I could, by 
going back to our Surgeon General.
    Mr. Kingston. There is probably a lot of data out there now 
that was not out there 10 years ago, I would imagine.
    Mr. Duehring. We could look at it. Yes, sir.
    Mr. Kingston. Thank you, Mr. Chairman.
    [The information follows:]

    The USAF-Refractive Surgery (USAF-RS) Program permits both advanced 
surface ablation (ASA) and intra-stromal ablation (ISA) procedures in 
eligible Air Force active duty and Air Force Reserve Component members 
including pilots and pilot applicants. ASA approved procedures include 
photorefractive keratectomy (PRK), laser in-situ epithelial 
keratomileusis (LASEK), epi-LASIK and wave-front guided photorefractive 
keratectomy (WFG-PRK). ISA approved procedures include standard laser 
in-situ keratomileusis (LASIK) and its variants, wave-front guided 
laser in-situ keratomileusis (WFG-LASIK), and technological advances in 
the basic LASIK procedure, such as femtosecond technology. The 
incorporation of WFG treatments into refractive surgery is expected to 
improve visual outcomes, particularly in low light and low contrast 
situations.
    Other refractive surgery procedures, such as a radial keratotomy, 
intracorneal rings, hyperopic (>+0.5 diopters) PRK and hyperopic LASIK 
are less predictable, are associated with more complications and may 
not achieve acceptable levels of stabilization. Therefore, these 
procedures are not allowed for either trained flight personnel or 
applicants. In addition, monovision treatments (one eye corrected for 
distance and the other eye corrected for near) are not allowed for 
aircrew.
    The Air Force Medical Service can authorize both PRK and LASIK for 
aircrew. PRK is currently preferred due to its proven track record and 
issues regarding corneal flap healing. The Navy allows both LASIK and 
PRK. Pre-refractive surgery refractive error limits are similar for 
both Air Force and Navy, though the Navy will accept a greater degree 
of far-sightedness (most refractive surgery candidates are near-
sighted).
    Data from the USAF-RS Registry to date shows the clinical results 
after PRK have been excellent with nearly 100% of flying duty personnel 
returned to full operational activity. Following PRK, about 1% of 
pilots and 5% of other aircrew are required to wear spectacles to 
achieve distant 20/20 vision. Only 1% cannot achieve pre-op best 
corrected level of vision after surgery. Average duty not to include 
flying time is currently 13 weeks for PRK. Statistics on LASIK are not 
available due to the few numbers of aircrew that have undergone this 
treatment.

    Mr. Rothman. Ms. Kaptur.

                                SUICIDES

    Ms. Kaptur. Thank you, Mr. Chairman. Thanks for the second 
round.
    I wanted to go, General Newton, back to my interest, one of 
my interests here. Out of the 208,000, according to your 
testimony, total force Airmen, do I read it correctly that 189 
committed suicide since 2003? Is that right, based on the 
numbers that are in your testimony?
    General Newton. Yes, ma'am. I would have to refer to the 
written record.
    Ms. Kaptur. One hundred fifty--it is page 14. Do I just add 
those up and I get the total? Is it 39--from 2003 to 2008, 39 
suicide victims had deployed in the previous 12 months, but 150 
victims had never deployed?
    Is that a subset of the total or is that the total if you 
add those two numbers together, please?
    My question is, since 2003, how many Airmen have committed 
suicide.
    General Newton. Let me get back to you take that for the 
record.
    [The information follows:]

    Since 2003 the Air Force has had a total of 234 active duty 
suicides through the end of 2008. This equals an average of 39 suicides 
per year and an average rate of 11 per 100,000. This compares to an 
average rate from 1987 to 1996 of 13.5 per 100,000.
    Suicides/Suicide Rate: Calendar Year 2008: 39/12.1* (rate per 
100,000)
    Calendar Year 2007: 34/10
    Calendar Year 2006: 42/12.1
    Calendar Year 2005: 31/8.9
    Calendar Year 2004: 49/13.1
    Calendar Year 2003: 38/10.2
    * Calendar Year 2008 data has changed since original report to 
Congress as the Armed Forces Medical Examiner recently determined a 
death in July 2008 to have been a suicide.

                   RETENTION OF HEALTH CARE PERSONNEL

    Ms. Kaptur. All right.
    In your testimony on another page you talk about the Air 
Force's inability to retain experienced health care personnel. 
For the 10-year point minus 27 percent for physicians; minus 40 
percent for dentists, page 11; minus 31 percent for nurses; 
minus 33 percent for biomedical; am I reading that correctly?
    General Newton. I think that is not necessarily a negative 
factor. I think that is short of our goals that we are trying 
to--either from recruiting or retention. We are only retaining 
at the 10-year point is approximately 27 percent for 
physicians, approximately 40 percent for dentists, 31 percent 
for nurses and 33 percent, biomedical; within the health 
professionals.
    Ms. Kaptur. So if they leave, you hire someone else? You 
are just saying they are not staying 10 years; is that what 
that says?
    General Newton. We would like to retain more. And again, we 
are only meeting 27 percent of our retention goals for 
physicians over that 10-year period.
    Ms. Kaptur. Would nurses be your largest category of total 
personnel? Physicians, dentists, nurses, biomedical science, 
administrators, what would be your largest category there?
    General Newton. It may be administrators, but let me take 
that back. But nurses would be a significant part.
    Ms. Kaptur. Pretty high?
    General Newton. Yes, ma'am.
    Ms. Kaptur. Could you get back to me on what percentage of 
those would be psychiatric nurses?
    General Newton. Yes, ma'am.
    Ms. Kaptur. And specifically with that training?
    General Newton. Yes, ma'am.
    [The information follows:]

    The Air Force Medical Service consists of five corps. After 
training numbers are removed, the largest is the Nurse Corps at 3,132 
personnel. Of the personnel identified in the 2008 Health Manpower and 
Personnel Data System (HMPDS) Report, 1.7% (55 personnel) of the Nurse 
Corps is identified to have specialized training as ``psychiatric 
nurses''. This designation includes two specialties, the ``Mental 
Health Nurse'' and the advanced practice ``Psychiatric Nurse 
Practitioner''. The ``Mental Health Nurse'' primarily works as a mental 
health provider in the outpatient setting.

    Ms. Kaptur. Then on page 18 of your testimony you state 
that there is a central database that you maintain that tracks 
suicide events and facilitates the analysis of potential risk 
factors.
    Do you maintain such a database for PTSD, for other 
neuropsychiatric conditions? For flashbacks? What kind of 
database do you maintain for neuropsychiatric conditions?
    General Newton. Let me get back with you on that because 
again I think that has a lot to do with how we prevent and 
treat and so forth. And that is very essential.
    Ms. Kaptur. What data are you collecting and how have you 
interacted with it? What is it teaching you?
    General Newton. And perhaps what you do with the data.
    Ms. Kaptur. What you are collecting, and then how are you 
interacting as a service with that.
    And then I am very interested in the architecture at DoD, 
because we have been fighting to get it, and I am not sure we 
are there yet. We met with the Surgeons General; and frankly, 
the Navy was the most articulate of all the services we met 
with. We will see what they are like this year when they come 
up before us.
    But to try to get all of you to work together--you know, 
what is your overarching perspective on this subset of 
illnesses as a part of total force, and what are you doing 
about it? It seems to be different in each department. And do 
you assign someone to participate in an agency-wide, a 
department-wide approach to dealing with this set of illnesses?
    General Newton. Actually, we do participate with the other 
Services. And as I refer to my comments earlier, I personally 
met with the Army Deputy Chief of Staff for their personnel.
    As you have heard, I am sure, the Army has gone through 
some challenges, as well, with regard to suicides. He and I 
have had lengthy conversations and discussions and interacted 
directly in terms of the programs that they are putting forth 
in terms of what we can share amongst our Services. That is 
absolutely essential, the integration of the data, the 
understanding of the nature of what the data is telling us, how 
it is not necessarily just kept within one Service, but we 
integrate that with the other Services is important.
    Ms. Kaptur. I know my time has expired, but I would very 
much appreciate an answer back explaining to me how Air Force 
participates at DoD with the other services, at what level you 
participate in discussions about this set of illnesses, and 
what kind of architecture currently exists at the Department of 
Defense for these illnesses.
    General Newton. Yes, ma'am.
    Ms. Kaptur. Thank you.
    Thank you, Mr. Chairman.
    General Newton. Thank you.
    Mr. Rothman. Ms. Granger?
    Ms. Granger. I have no questions.
    Mr. Rothman. Mr. Bishop?
    Mr. Bishop. Nothing.
    Mr. Rothman. The Committee is adjourned until 10:00 a.m. 
tomorrow.
    I want to thank you, Mr. Secretary, and you, General 
Newton. A wonderful presentation.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]
                       Missions and Requirements
    Question. The Air Force is now embracing a collaborative and 
supportive role in the types of operations being conducted in Iraq and 
Afghanistan. In general, Air Force leaders are attempting to change the 
Service's culture to meet new challenges. While the Air Force has 
always provided mission support in the struggle against extremism, 
these missions were designated ``In Lieu Of'' (ILO). ILO is defined as 
a standard force and equipment that is deployed to execute missions and 
tasks outside of its core competencies. The Air Force now views these 
missions as core responsibilities and now refers to ILOs as Joint 
Expeditionary Tasking (JET). However, to support all JET requirements 
there are some fundamental realities associated with the impact of 
increased deployment tempo and requirements. These requirements are 
filled at the expense of traditional missions.
    General Newton, the Chief of Staff of the Air Force has stated he 
wants to change the Air Force's culture. Please elaborate what types of 
changes we can expect to see in the Air Force?
    Answer. The Air Force is committed to the Joint fight. We are an 
equal member of the Joint team as indicated by our common ethic ``Send 
me.'' In December 2008 the Air Force used Joint Expeditionary Taskings 
as an all-inclusive action and term connoting the spirit of ``All in'' 
and denotes our role as joint partners. Additionally, we reinforce 
newly established Air Force Priorities as a part of the culture shift:
    1. Reinvigorate the Air Force Nuclear Enterprise; Accountability, 
precision, and reliability in Air Force processes
    2. Partner with the Joint and Coalition team to win today's fight; 
joint capabilities, interoperability, trust (C2, ISR, non-traditional 
roles)
    3. Develop and care for Airmen and their families; reinforce our 
Warfighting Ethos, expeditionary combat mindset
    4. Modernize our aging air and space inventories; reset and build a 
balanced force for the future...no litmus tests
    5. Recapture Acquisition Excellence; process, people, performance
    Question. General Newton, what new missions and requirements will 
the Air Force take on as we move forward? Of those, how many were once 
performed by the Army and Marine Corps?
    Answer. The Air Force has been involved in the performance of joint 
expeditionary tasking (formally termed In-lieu Of) missions since 2002. 
The Air Force began with approximately 1,500 total requirements. We 
have experienced an increase in such taskings by 10 percent per fiscal 
year up to a total of 6,500 in Fiscal Year 2008. The majority of the 
original non-standard taskings were Army shortfalls; however, more 
recently the growth in these requirements has been for training teams. 
While these teams don't require the Air Force to work out of its core 
competencies none of the Services actually organize, train, and equip 
to perform this mission. While the Air Force does expect some continued 
growth in training team requirements, we don't anticipate any new 
missions.
    Question. Mr. Duehring, how many Airmen are currently 
deployed in the Central Command Area of Responsibility, and of 
that, how many are used for Joint missions?
    Answer. The Air Force currently has 27,119 Airmen deployed 
to the U.S. Central Command Area of Responsibility. Of those, 
4,240 Airmen are deployed in support of Joint Expeditionary 
Taskings.
    Question. General Newton, the mission to conduct 
intelligence, surveillance and reconnaissance for combatant 
commanders is vital. It is our understanding that the Air Force 
is currently playing a critical role in this mission, a role 
that is expected to continue expanding to match 50 unmanned 
Combat Air Patrols. Will this expanded role affect Air Force 
intelligence, surveillance and reconnaissance manning 
requirements and, if so, how is the Service addressing these 
needs?
    Answer. The Air Force is working with Office of Secretary 
of Defense on the Fiscal Year 2010 President's Budget request 
to fund active duty end strength to just over 332,000 to 
support new/emerging missions and robust existing missions, 
such as providing manpower to increase Predator/Reaper/
Distributed Common Ground Systems operational capability to 50 
Combat Air Patrols.
    Question. Mr Duehring, since the ISR mission is a growing 
field, are there plans to provide a special pay for this?
    Answer. No. The Air Force does not plan to offer a special 
pay for the Intelligence, Surveillance, and Reconnaissance 
mission. A majority of the career fields within the 
Intelligence, Surveillance, and Reconnaissance mission already 
receive additional compensation through existing special and 
incentive pay programs (e.g., Selective Reenlistment Bonus, 
flight pay, etc).
    Question. Gentlemen, what is the Air Force's nuclear 
manning requirement and how are they sourced? Are you able to 
fully source all your requirements for this field? If not, what 
are your shortfalls?
    Answer. The Air Force manning requirements to support the 
nuclear mission differ from the Joint Expeditionary Taskings, 
in that nuclear mission requirements are funded permanent party 
authorizations. The Air Force sources these requirements from 
core career fields. We actively manage the career fields to 
ensure we're able to meet mission requirements.
    Currently, the only career fields supporting the nuclear 
enterprise which are projected to have chronic shortages are 
the bomber pilots and combat systems operators. However, these 
shortages are part of larger rated management issues and not 
limited to the nuclear force.

                      Air Force Suicide Prevention

    Question. To prevent suicides the Air Force relies on the 
Air Force Suicide Prevention Program (AFSPP). The Air Force 
believes the AFSPP has highlighted community awareness of 
suicide and suicide risk factors. In addition, it has created a 
safety net that provides protection and adds support for those 
in trouble. This program is a population-oriented approach to 
reducing the risk of suicide. In addition, the program has 
implemented eleven initiatives aimed at strengthening social 
support, promoting development of social skills, and changing 
policies and norms to encourage effective help-seeking 
behaviors. AFSPP's eleven initiatives include: Leadership 
involvement, Suicide prevention in professional military 
education, Guidelines for use of mental health services, 
Community preventive services, Community education and 
training, Investigative interview policy, Critical incident 
stress management, Integrated delivery system (IDS), Limited 
privilege suicide prevention program, Behavioral health survey, 
and Suicide event surveillance system.
    Mr. Duehing, does the Air Force have any program for Airmen 
and their families to prepare them for the stressors of war?
    Answer. The Air Force supports Airmen and their families 
from the front line to the home front. At home, information and 
referral services are offered directly to spouses and families.
    Over the past year, the following programs and services 
were offered: Pre-deployment briefings for 100,000 members and 
families; free weekly morale calls to keep families connected 
and help reduce their sense of isolation; reintegration 
briefings for military spouses that prepared them for changes 
during the separation; free oil changes for each deployed 
family; and non-medical counseling sessions for families. 
Airmen are also kept informed through Professional Military 
Education where suicide is addressed as a leadership issue with 
a focus on knowing, recognizing, coping and dealing with pre- 
and post-deployment stressors.
    The Airmen Center in Al Udeid, Iraq provided numerous 
consultations on financial readiness, reintegration, and 
reunion. Air Force provides 16,000 hours of free child care 
each month to assist Airmen with longer hours on evenings, 
overnight, and weekends. Air Force also partners with the Air 
Force Aid Society to provide free child care to parents during 
circumstances such as deployments, remote tours of duty, and 
extended hours. The Youth Camping Program offers camp 
experiences for military children annually. The Air Force 
Reserve Command also hosted a deployment camp for children of 
guard and reserve members.
    Additionally, the Air Force united with the National 
Military Family Association Operation Purple Camps to provide 
free, week-long camps to help military kids experience fun 
while learning coping skills to deal with war-related stress.
    Question. What screening process does the Air Force use to 
detect possible mental health issues before and after 
deployment? In addition, please explain what services are 
available to Airmen in theater.
    Answer. All Airmen are screened for mental health concerns 
upon accession and annually via the Preventive Health 
Assessment. Before deploying the Pre-Deployment Health 
Assessment is conducted and the mental health clinic screens 
medical records for those who may require a personal interview. 
While deployed there are combat stress facilities that are 
available to monitor the health of deployed Airmen and assist 
when needed. The Air Force operates two large combat stress 
facilities and has many other smaller clinics attached to our 
medical facilities in deployed locations. All of these teams 
are active in prevention and outreach while taking self-
referrals and primary care referrals when treatment is 
required. At the end of the deployment Airmen are again 
screened using the Post-Deployment Health Assessment and 
appropriate referrals are made in theater or upon redeployment. 
After returning home Airmen are screened once again with the 
Post-Deployment Health Re-Assessment.
                        Recruiting and Retention
    Question. In fiscal year 2008, overall active duty Air Force 
retention rates finished below annual retention goals, while the Air 
Guard and Reserve officer and enlisted rates met or exceeded all 
aggregate retention goals. Active duty retention should trend slightly 
upward due to the poor state of the economy during fiscal year 2009. 
However, the Air Force will still continue to see shortfalls in 
critical and stressed specialties in officer and enlisted career fields 
of security forces, combat control, operations intelligence, and air 
field operations. To address this problem the Air Force has targeted 
retention bonuses to include Selective Reenlistment/Initial Enlistment 
Bonuses and Critical Skills Retention Bonuses for officers. Selective 
Reenlistment Bonuses are the most effective, responsive and measurable 
tool for targeted retention. Additionally, the Air Force has instituted 
voluntary and involuntary retraining for officers and enlisted 
targeting career fields with overages into career fields with 
identified shortages.
    Gentlemen, since the Air Force is very close to its planned end 
strength goal what force shaping measures will the Air Force use to get 
the right mix of personnel it needs?
    Answer. The Air Force will adjust accession levels by career field, 
offer initial enlistment bonuses (to recruit into particular career 
fields), retrain from skills with inventory surpluses to skills with 
inventory deficits, and offer Selective Reenlistment Bonuses to skills 
where we need to boost retention.
    Question. General Newton, now that the Air Force is embracing a 
role in ground combat operations in Iraq and Afghanistan, will you 
start to recruit more for ground combat forces or will you retain the 
current recruiting model?
    Answer. The Air Force is substantially increasing authorized 
strength levels and therefore recruiting for 1C4X1 (Tactical Air Patrol 
Party) Airmen who are embedded with Army ground troops to call in air 
strikes and for 1T2X1 (Pararescue) Airmen.
    Question. General Newton, what areas are causing challenges (i.e., 
stressed career fields) and what specific efforts are being undertaken 
to address them? What bonus programs are in place?
    Answer. We currently have nine enlisted and seven officer 
specialties that we characterize and monitor as stressed career fields. 
The stressors for each of the specialties are unique to each specialty 
leading to a tailored approach to aid them to mitigate the stressing 
factors. The initiatives, programs and bonuses we use to help these 
stressed specialties include increased accessions, cross-training, 
special duty assignment pay, enlistment/reenlistment bonuses, critical 
skills retention bonuses, aviator continuation pay, and increased 
promotion opportunity. The following is our current list:
                     Enlisted Stressed Specialties
    1C2  Combat Control
    1C4  Tactical Air Control Party
    1T2  Pararescue
    3E2  Pavement/Construction Equipment
    3E3  Structural
    3E6  Operations Management
    3E8  Explosive Ordnance Disposal
    3P0  Security Forces
    6C0  Contracting
                      Officer Stressed Specialties
    12S  Special Operations Navigator
    13D  Control & Recovery
    13M  Airfield Operations
    31P  Security Forces
    32E  Civil Engineer
    35P  Public Affairs
    64P  Contracting
    Question. Gentlemen, the Committee understands that the Air Force 
has instituted voluntary and involuntary retraining for officers and 
enlisted targeting career fields with overages into career fields with 
indentified shortages. Can the Airmen decline this retraining?
    Answer. Retraining of noncommissioned officers (NCOs) is in two 
phases. Phase I is purely voluntary, but NCOs are advised of their 
vulnerability for selection in Phase II so that they may decide to take 
advantage of the wider selection of available specialties. In Phase II, 
NCOs in specific specialties, grades and years of service are directed 
to submit retraining applications for remaining retraining 
opportunities. They may decline retraining, however, doing so makes 
them ineligible to reenlist and they will be required to separate at 
the completion of their current enlistment.
    Retraining of first-term Airmen is voluntary in connection with 
reenlistment for a second term--as an incentive to reenlist.
    Retraining of commissioned officers is voluntary at this time. 
Current requirements are small enough to satisfy with voluntary 
retraining.
    Question. Please explain how the Air Force chooses the personnel to 
retrain. Is there a screening process to determine skills and aptitude 
for their new specialty?
    Answer. Retraining of commissioned officers is currently only 
voluntary. This is because the requirements are small enough to satisfy 
with voluntary retraining. Officers in overage specialties and year 
groups are solicited to apply for available specialties.
    Retraining of first-term Airmen is voluntary in connection with 
reenlistment for a second term--as an incentive to reenlist. As they 
near the end of their first enlistment, the Airmen may submit 
applications for published retraining opportunities.
    Retraining of non-commissioned officers is in two phases. Specific 
eligibility requirements are established--grade, years of service, 
current specialty--along with disqualifying factors from their record 
like disciplinary actions. NCOs in targeted overage specialties are 
individually identified based on these criteria and informed of their 
vulnerability for retraining. They may apply for available specialties 
in Phase I or wait to see what requirements remain in Phase II. If 
directed to apply for retraining in Phase II, they must apply for an 
available specialty or become ineligible to reenlist, separating at the 
end of their current enlistment.
    All officer and enlisted Airmen are screened to ensure they meet 
the qualifications of the specialty for which they apply, including a 
physical examination if necessary. Enlisted Airmen may also retake the 
Armed Services Vocational Aptitude Battery to try to improve their 
scores so as to increase the number of specialties for which they are 
qualified.
    Question. Mr. Duehring, what is the average cost to the Air 
Force to retrain these Service members?
    Answer. The total cost per Airman is on average $3,500 for 
specialties with short training pipelines (approximately $2,700 
in travel and per diem plus approximately $800 in schoolhouse 
operating costs), not including military personnel costs, base 
operating support tail, construction of facilities and 
acquisition of major training systems. Specialties with longer 
training pipelines also require a permanent change of station 
for training, with associated costs. The relative proportion of 
retraining requirements with short and long training pipelines 
varies from year to year, but in Fiscal Year 2009, 
approximately 1,750 out of 2,600 have short pipelines.
    Question. The Committee remains concerned regarding the 
recruiting and retention for mission-critical occupational 
specialties. What steps are being taken to fill the specialty 
occupations?
    Answer. Once a mission critical specialty is identified 
with manning or retention issues, steps are taken to increase 
accessions, modify or introduce enlistment and reenlistment 
bonuses and cross-training to help mitigate the problems. 
Roughly 65 percent of recruits enter the Air Force with 
guaranteed specialties in their enlistment contracts. The other 
35 percent are enlisted in one of four aptitude areas--
mechanical, administrative, general, or electronics. The 
aptitude areas provide the Air Force flexibility to classify 
these recruits into a specific field just before they graduate 
from Basic Military Training, allowing for attrition in Basic 
Military Training and changes in the accession plan. We are 
currently on track to fill 100 percent of all enlisted 
specialty occupations for Fiscal Year 2009.
    Question. Mr. Duehring, has the Air Force analyzed why 
these occupational specialties have consistently been under 
filled? What is the operational impact of these shortages? What 
resources are needed to fill these positions?
    Answer. Yes. The Air Force has analyzed why these 
occupational specialties have consistently been under filled. 
High operational demand, rapid mission growth, and technical 
training constraints are common reasons. The operational 
impacts of these shortages are; increased work tempo and 
potential for mission degradation. To address these shortages 
increased end strength to 332,000 is focused on supporting 
emerging mission growth and existing mission critical 
shortages.
    Question. Mr. Duehring, recruiting and retention goals are 
often relayed to Congress in the aggregate providing little or 
no visibility into how each occupational specialty is staffed. 
Please provide the Committee on recruiting and retention by Air 
Force specialty code.
    Answer. The Air Force is on track to complete Fiscal Year 
2009 at 100 percent in each enlisted specialty (Tab 1).
    Line officers are not recruited by specialty. Our 
commissioning sources produce officers in rated (pilot, combat 
systems operator, air battle manager), technical (scientists, 
engineers and weather officers), non-technical (non-rated 
operations, logistics, support and acquisitions), and judge 
advocate categories, who are then classified to meet Air Force 
needs. For Fiscal Year 2009, we expect to meet or exceed 
requirements for all line officers except electrical engineers, 
special tactics officers and combat rescue officers (Tab 2). 
The Air Force reclassifies eliminees from other training 
pipelines (for example, pilot training) and solicits officers 
who have completed initial assignments in other specialties to 
fill shortfalls in these areas.
    Non-line officers (health professions and chaplains) are 
recruited by specialty and continue to be a recruiting 
challenge (Tab 3).
    Retention is better than expected and healthy for most 
specialties (Tab 4 and Tab 5).
    Tab 1--Enlisted Accessions
    Tab 2--Line Officer Accessions
    Tab 3--Health Professions/Chaplains
    Tab 4--Enlisted Retention

    [GRAPHIC] [TIFF OMITTED] T6260C.052
    
    [GRAPHIC] [TIFF OMITTED] T6260C.053
    
    [GRAPHIC] [TIFF OMITTED] T6260C.054
    
    [GRAPHIC] [TIFF OMITTED] T6260C.055
    
    [GRAPHIC] [TIFF OMITTED] T6260C.056
    
    [GRAPHIC] [TIFF OMITTED] T6260C.057
    
    [GRAPHIC] [TIFF OMITTED] T6260C.058
    
    [GRAPHIC] [TIFF OMITTED] T6260C.059
    
    [GRAPHIC] [TIFF OMITTED] T6260C.060
    
    [GRAPHIC] [TIFF OMITTED] T6260C.061
    
    [GRAPHIC] [TIFF OMITTED] T6260C.062
    
    [GRAPHIC] [TIFF OMITTED] T6260C.063
    
    [GRAPHIC] [TIFF OMITTED] T6260C.064
    
    [GRAPHIC] [TIFF OMITTED] T6260C.065
    
                    Enlistment and Retention Bonuses

    Question. The military services offer a variety of 
enlistment and re-enlistment bonuses to attract new recruits 
into the military specialties that are considered ``hard to 
fill,'' as well as to encourage experienced military members in 
``shortage jobs'' to stay in past their first enlistment 
period.
    Mr. Duehring, what was the total dollar amount spent on Air 
Force recruiting and retention bonuses for Fiscal Year 2009?
    Answer. Bonuses are payments the Air Force makes to 
individuals in exchange for a commitment to multiple years of 
service or to encourage enlistment or commissioning in specific 
skills. For recruiting purposes, we expect to spend $27.7 
million in new bonuses and $7.4 million in anniversary payments 
for previous multi-year contracts, for a total of $35.1 
million.
    For retention purposes, we expect to spend $200.2 million 
in new bonuses and $71.8 million in anniversary payments, for a 
total of $272 million.
    Question. Mr. Duehring, what is the range of individual bonuses for 
recruiting? For retention? Please explain why there are differences.
    Answer. The differences in bonus amounts are based on Air Force 
assessment of what it takes to recruit and retain the various 
specialties.
    Initial enlistment bonuses are provided for nine Air Force 
Specialty Codes. They range from $1,000 to $3,000 for 4-year and $2,000 
to $13,000 for 6-year enlistments.
    Selective Reenlistment Bonuses (SRBs) are a monetary incentive to 
encourage reenlistments in certain skills to sustain career force 
objectives. SRBs are offered in certain skills by zones (based on years 
of service) when retention factors indicate a need. Based on retention 
health, a multiplier (0 to 7) is assigned to determine the dollar 
amount of the bonus. Bonuses are computed by multiplying one month base 
pay by the SRB multiple and the number of years reenlisting. Currently, 
individual bonuses range from $1,000 to $90,000. Individuals receive 50 
percent of the bonus upon reenlistment and the remaining balance is 
paid in equal installments on the anniversary of the reenlistment over 
the contract period.
    Critical Skills Retention Bonus (CSRBs) is an Office of the 
Secretary of Defense (OSD)-driven requirement geared at retaining 
eligible Airmen in specific skills and supplements the SRB program. The 
goal is to increase retention and facilitate an increase in Special 
Forces. OSD has designated two Air Force specialties (Combat 
Controllers and Pararescue) to receive the CSRB. Individuals must have 
at least 19 years, but not more than 24 years, and reenlist or extend 
for a period of 1 to 6 years to qualify for the CSRB. The contract 
period (number of years) of the reenlistment/extension determines the 
individual amount of the bonus, but ranges between $8,000 and $150,000.
    Question. Gentlemen, have you found any imbalances or inequities in 
your recruiting and retention bonus structure?
    Answer. No. Our initial enlistment bonus program is meeting the 
intended purpose of attracting qualified applicants into ``hard-to-
fill'' Air Force specialties. Our retention bonus programs are 
continuously reviewed in order to target the right population and to 
combat retention problems. These reviews ensure the structure of our 
programs remain equitable and balanced within the Air Force.
    Question. Mr. Duehring, does the Air Force plan to review its 
recruiting and retention bonus program?
    Answer. Yes. Initial enlistment bonuses are reviewed and adjusted 
annually based on Air Force requirements and difficulty to recruit. We 
continuously review all retention bonus programs to ensure we are 
targeting the correct skills and years of service. Adjustments to the 
program are made when retention needs dictate and/or when affected by 
budgetary constraints.
    Question. Mr. Duehring, is the Air Force going to promote non-
monetary bonuses such as tuition assistance and the new G.I. Bill?
    Answer. The Air Force continues to use non-monetary incentives, 
such as tuition assistance and the Post-9/11 GI Bill, to attract and 
retain highly qualified applicants, to include those in ``hard to 
fill'' and ``shortage'' career fields. The Air Force promotes military 
tuition assistance and the various GI Bill programs at numerous points 
in an Airman's career.
    Recruiters brief potential applicants on these programs as they 
compete with the other Services, civilian employers, and academic 
institutions for the same eligible population of Americans. During 
Basic Military Training and Officer Training School, Airmen are briefed 
on the military tuition assistance and GI Bill programs. Additionally, 
when enlisted Airmen arrive at their first duty station they are again 
briefed on tuition assistance and GI Bill programs during the mandatory 
First Term Airmen Course. Officers are also required to receive 
counseling and to make a Montgomery GI Bill election within 14 days of 
arriving at their first permanent duty station. As an Airman continues 
in his/her career, the installation Career Assistance Advisor and 
Education and Training Section personnel provide follow-up counseling 
on education options to include military tuition assistance and GI Bill 
programs. It is also mandatory that Education and Training Section 
counselors brief all Airmen who are registering for courses on 
applicable tuition assistance and GI Bill programs and policies. The 
Air Force has also created the Air Force Virtual Education Center to 
reach our Internet-savvy Airmen. Airmen can research benefit policy, 
identify academic institutions, and apply for tuition assistance on-
line. Finally, education is inculcated in our Air Force culture and 
commanders and supervisors at all levels stress the benefits of the 
tuition assistance and GI Bill programs. This focus on education helps 
explain the fact that Air Force enlisted personnel have earned 
approximately 69 percent of all degrees awarded to the Department of 
Defense enlisted personnel since Fiscal Year 2001.
    The Air Force is also aggressively preparing for the August 1, 
2009, Post-9/11 GI Bill effective date. Subject matter experts on the 
Air Staff and at the Air Force Personnel Center are developing and 
executing a Strategic Communication plan as the Department of Veterans 
Affairs and Office of the Secretary of Defense make details available. 
Base Education and Training Sections are currently conducting Post-9/11 
GI Bill spread the word briefings. These same briefings, along with 
frequently asked question and answers, are posted on the previously 
mentioned Air Force Virtual Education Center. Finally, Air Education 
and Training Command and Basic Military Training subject matter experts 
are updating the current lesson plan to ensure the Post-9/11 GI Bill is 
briefed to all trainees starting on the August 1, 2009 effective date.
    Question. Mr. Duehring, can you provide the Committee with a 
complete list of all recruitment and retention bonuses for each 
specialty code that is eligible for a bonus? Can you also provide the 
average bonus for each specialty code?
    Answer. Initial Enlistment Bonus: Bonuses are offered in nine Air 
Force Specialty Codes with options for six or four year contracts. 
1A8X1--Airborne Linguist ($12K 6/YR/$3K 4-YR), 1N3XX--Crypto Linguist 
($12K 6-YR/$3K 4-YR), 1C2X1--Combat Controller ($13K 6-YR/$3K 4-YR), 
1C4X1--Tactical Air Command and Control ($10K 6-YR/$3K 4-YR), 1T2X1--
Para Rescue ($13K 6-YR/$3K 4-YR), 1T0X1--Survival, Evasion, Resistance, 
Escape ($12K 6-YR/$3K 4-YR), 1W0X2--Special Operations Weather Team 
($5K 6-YR/$1K 4-YR), 3E8X1--Explosive Ordnance Disposal ($13K 6-YR/$3K 
4-YR), 3PDX1--Security Forces ($2K 6-YR)

 
------------------------------------------------------------------------
                                              SRB Average
            Title             ------------------------------------------
                                 Zone A     Zone B     Zone C    Zone E
------------------------------------------------------------------------
In-Flight Refueling..........  --         26.5K      25.5K      --
Flight Engineer..............  20K        26.5K      12.2K      --
Aircraft Loadmaster..........  --         52.9K      12.2K      --
Airborne Mission System......  9.5K       30K        12.2K      --
Airborne Battle Mgt System...  --         33.9K      25.5K      --
Aerial Gunner................  47.3K      49.5K      12.2K      --
Airborne Cryptologic Linguist  57.3K      71.2K      59.5K      --
Aviation Resource Mgmt.......  9.5K       11.6K      --         --
Air Traffic Control..........  57.3K      74.5K      76.2K      --
Combat Control...............  68.5K      77.4K      83K        --
Command Post.................  9.5k       11.6K      --         --
Tactical Air Control Party...  68.5K      77.4K      83K        35.5K
Aero Con & Warn Sys..........  37.1K      26.5K      25.5K      --
Space System Operations......  42K        11.6K      --         --
Airfield Management..........  47.3K      --         25.5K      --
Operations Intelligence......  44.5K      74.5K      68.3K      --
Imagery Analysis.............  57.3K      77.4K      80.1K      --
Comm Signals Intelligence....  30.2K      --         --         --
Cryptologic Linguist.........  47.3K      71.2K      25.5K      --
Network Intelligence Analysis  20K        59.1K      25.5K      --
Elect Signals Intel            --         49.5K      24K        --
 Exploitation.
Surv, Evas, Res, Escape......  42K        49.5K      59.5K      52.2K
Pararescue...................  68.5K      77.4K      83K        --
Weather......................  30.2K      26.5K      12.2K      --
Combat Operations Weather....  30.2K      26.5K      12.2K      --
Av Test, Comp, Av Sens Sys &   9.5K       --         --         --
 Elec War (shreds only).
A-10, F-15 & U-2 Avionic       42K        26.5K      --         --
 System.
Tactical Aircraft Maintenance  15K        --         --         --
Aerospace Maintenance (shreds  26.3K      --         --         --
 only).
Int Av Sys, Comm, Nav, Misn..  20K        --         --         --
Int Av Sys Inst & Flt Control  30.2K      11.6K      --         --
Int Av Sys, Elec Warfare.....  30.2K      --         12.2K      --
Int Av Sys, Air Surv Rad       9.5K       --         --         --
 Systems.
Acft Fuel Systems............  --         26.5K      --         --
Acft Hydraulics Sys..........  9.5K       11.6K      --         --
Aircraft Metals Technology...  9.5K       26.5K      12.2K      --
Nondestructive Inspection....  --         11.6K      12.2K      --
Aircraft Structural            --         11.6K      12.2K      --
 Maintenance.
Low Observable Aircraft        --         11.6K      12.2K      --
 Structural Maintenance.
Ground Radar Systems.........  26.3K      --         --         --
Logistics Plans..............  20K        33.9K      --         --
Msl & Space Sys Elect          --         --         12.2K      --
 Maintenance.
Msl & Space Sys Maintenance..  --         --         25.5K      --
Msl & Space Facilities.......  9.5K       --         --         --
Precision Meas Equipment.....  20K        17K        --         --
Maintenance Mgmt Analysis....  20K        --         --         --
Maint Mgmt Production........  9.5K       --         --         --
Material Mgmt................  9.5K       --         --         --
Vehicle Operations...........  9.5K       11.6K      --         --
Air Transportation...........  --         11.6K      12.2K      --
Vehicle & Equip Maintenance..  9.5K       --         --         --
Vehicle Mgmt & Analysis......  26.3K      26.5K      --         --
Munitions Sys................  --         26.5K      --         --
Comm--Computer Sys Ops.......  20K        --         --         --
Comm--Computer Sys Cont......  30.2K      11.6K      12.2K      --
Heat, Vent, A/C & Refrig.....  15K        --         --         --
Pavement & Const Equipment...  44.5K      52.9K      --         --
Structural...................  44.5K      52.9K      12.2K      --
Utilities Systems............  9.5K       26.5K      --         --
Pest Management..............  9.5K       --         12.2K      --
Engineering Assistant........  9.5K       --         12.2K      --
Operations Management........  30.2K      --         25.5K      --
Explosive Ord Disposal.......  64.5K      71.2K      68.3K      80.5K
Emergency Management.........  --         26.5K      45.4K      --
Public Affairs...............  9.5K       --         --         --
Elect Signals Intel            --         49.5K      24K        --
 Exploitation.
Surv, Evas, Res, Escape......  42K        49.5K      59.5K      52.2K
Pararescue...................  68.5K      77.4K      83K        --
Weather......................  30.2K      26.5K      12.2K      --
Combat Operations Weather....  30.2K      26.5K      12.2K      --
Av Test, Comp, Av Sens Sys &   9.5K       --         --         --
 Elec War (shreds only).
A-10, F-15 & U-2 Avionic       42K        26.5K      --         --
 System.
Tactical Aircraft Maintenance  15K        --         --         --
Aerospace Maintenance (shreds  26.3K      --         --         --
 only).
Int Av Sys, Comm, Nav, Misn..  20K        --         --         --
Int Av Sys Inst & Fit Control  30.2K      11.6K      --         --
Int Av Sys, Elec Warfare.....  30.2K      --         12.2K      --
Int Av Sys, Air Surv Rad       9.5K       --         --         --
 Systems.
Acft Fuel Systems............  --         26.5K      --         --
Acft Hydraulics Sys..........  9.5K       11.6K      --         --
Aircraft Metals Technology...  9.5K       26.5K      12.2K      --
Nondestructive Inspection....  --         11.6K      12.2K      --
Aircraft Structural            --         11.6K      12.2K      --
 Maintenance.
Low Observable Aircraft        --         11.6K      12.2K      --
 Structural Maintenance.
Ground Radar Systems.........  26.3K      --         --         --
Logistics Plans..............  20K        33.9K      --         --
Msl & Space Sys Elect          --         --         12.2K      --
 Maintenance.
Msl & Space Sys Maintenance..  --         --         25.5K      --
Msl& Space Facilities........  9.5K       --         --         --
Precision Meas Equipment.....  20K        17K        --         --
Maintenance Mgmt Analysis....  20K        --         --         --
Maint Mgmt Production........  9.5K       --         --         --
Material Mgmt................  9.5K       --         --         --
Vehicle Operations...........  9.5K       11.6K      --         --
Air Transportation...........  --         11.6K      12.2K      --
Vehicle & Equip Maintenance..  9.5K       --         --         --
Vehicle Mgmt & Analysis......  26.3K      26.5K      --         --
Munitions Sys................  --         26.5K      --         --
Comm--Computer Sys Ops.......  20K        --         --         --
Comm--Computer Sys Cont......  30.2K      11.6K      12.2K      --
Heat, Vent, A/C & Refrig.....  15K        --         --         --
Pavement & Const Equipment...  44.5K      52.9K      --         --
Structural...................  44.5K      52.9K      12.2K      --
Utilities Systems............  9.5K       26.5K      --         --
Pest Management..............  9.5K       --         12.2K      --
Engineering Assistant........  9.5K       --         12.2K      --
Operations Management........  30.2K      --         25.5K      --
Explosive Ord Disposal.......  64.5K      71.2K      68.3K      80.5K
Emergency Management.........  --         26.5K      45.4K      --
Public Affairs...............  9.5K       --         --         --
Radio & TV Broadcast.........  20K        11.6K      --         --
Security Forces--Only Slick..  9.5K       --         --         --
Security Forces Mil Work Dog.  30.2K      11.6K      --         --
Security Forces Combat Arms..  30.2K      11.6K      --         --
Medical Materiel.............  --         11.6K      --         --
Bioenvironmental Engineer....  9.5K       --         12.2K      --
Mental Health Services.......  30.2K      26.5K      --         --
Public Health................  9.5K       --         --         --
Cardiopulmonary Lab..........  15K        11.6K      --         --
Physical Medicine............  9.5K       --         --         --
Aerospace Medical Services...  9.5K       --         --         --
Aerospace Med Serv, Neurology  9.5K       --         --         --
Aerospace Med Serv, IDMT.....  20K        26.5K      --         --
Surgical Services, Urology...  9.5K       11.6K      --         --
Surgical Services,             9.5K       11.6K      --         --
 Orthopedics.
Surg Serv,                     9.5K       11.6K      --         --
 Otorhinolaryngology.
Diagnostic Imaging (shreds     26.3K      --         --         --
 only).
Dental Laboratory............  20K        26.5K      --         --
Paralegal....................  9.5K       --         --         --
Contracting..................  57.3K      59.1K      68.3K      35.5K
Financial Mgt & Comptroller..  9.5K       26.5K      --         --
Special Investigation........  --         30K        45.4K      --
Interpreter/Translator.......  47.3K      59.1K      38.1K      --
Technical Applications         9.5K       11.6K      --         --
 Specialist.
------------------------------------------------------------------------
21 months to 6 years in service
6 to 10 years of service
10 to 14 years of service
18 to 20 years in service
*** All avgs based on current FY takers

                 Air Guard and Air Force Reserve Issues

    Question. General Newton, describe the Air Guards' participation in 
Air Sovereignty Alert (ASA) mission. What percent of the air defense 
mission is being flown by the Air Guard?
    Answer. There are currently eighteen designated steady-state Air 
Sovereignty Alert sites in the United States. The Air National Guard 
provides personnel and equipment at sixteen of the eighteen Air 
Sovereignty Alert sites while the active duty Air Force provides 
personnel and equipment at the remaining two sites. Although exact 
numbers are not readily available, the mission percentage share for Air 
National Guard and Air Force is relative to this break-out. In keeping 
with the recommendations of the Congressional Commission on the 
National Guard and Reserves, the Air Force emphasizes the total force 
aspect of Air Sovereignty Alert mission and every other operation 
supported by the Air Force to prevent any institutional prejudice for 
duty status that might arise from disparate designations.

                            Personnel TEMPO

    Question. The increase of deployments in the past few years for 
domestic disasters, contingency operations, or Military Operations 
Other Than War (MOOTW), clearly stresses military personnel and their 
families.
    Gentlemen, what is the average time Airmen are away from home 
during the year for training, exercises or deployments other than Iraq 
and Afghanistan?
    Answer. Our Airmen averaged about 72 days temporary duty in Fiscal 
Year 2008 to places other than Iraq/Afghanistan (100,405 Total Force 
Airmen). Airmen attending training for various reasons to maintain 
readiness in addition to deployments averaged about 28 days temporary 
duty in Fiscal Year 2008 (combat skills training, civil affairs, mobile 
training teams, etc.) (7,176 Airmen--most of these Airmen deploy to the 
U.S. Central Command area of responsibility.
    Question. Mr. Duehring, please explain how the Air Force manages 
personnel tempo so it does not have an adverse impact on individual 
unit readiness and training. What systems are in place to track 
perstempo information?
    Answer. Air Force personnel tempo policy is that ``A day away is a 
day away''. The Air Force Personnel Center maintains a secure web site 
that hosts all Air Force personnel tempo data. Personnel tempo data is 
a collection of TDY time regardless of purpose (deployment, 
Professional Military Education, etc) and is captured from Travel and 
Military Personnel Data Systems. Data is collected by individual but 
aggregated by unit, specialty and weapon systems. Collectively this 
data helps commanders at all levels manage readiness, determine 
equitable distribution of TDY days, and/or identify capability 
limitations.
    Question. General Newton, are there certain units or mission skills 
that are being continually stressed with either normal deployments, 
training, exercises, or for contingency operations? If so, describe 
which skills or units are being ``stretched thin''.
    Answer. Yes. We have mission skills (capabilities) that are heavily 
in demand for operational and other deployments. Air Force operations 
in support of global combatant commander requirements have required the 
surge of numerous capability areas since late 2001. Several of our 
capability areas may be considered ``stretched thin'' or worse. We 
manage these in-demand capabilities through a series of ``tempo-bands'' 
that set their operational deployments based on dwell--time away versus 
time at home.
    The specialties that are more severely effect are: Aerial Port 
Operations, Air Field Operations (Air Traffic Control & Combat Airspace 
and Senior Supervision), B-1 Squadrons, Chaplains (Islamic), Civil 
Engineering (Prime Beef and Red Horse), Combat Weather, Command Post, 
Communications (Airlift Systems and Communications Officers), 
Contracting, Explosive Ordinance Disposal, Intelligence, Logistics 
Readiness Officers, Medical (Behavioral Health), OSI, Para rescue, 
Public Affairs Officers, Security Forces, Space Weapons Officers, 
Supply, Theater Space Operations, Traffic Management and Vehicle 
Operations and Management.
    We also track total force operational demand that considers seven 
individual measures aggregated into a single tool (Operations Demand 
Meta metric) to express overall operational demand, vice just 
deployment dwell. Besides the specialties listed above, the 
capabilities with very high ops demand are: Helicopter Pilot, Special 
Operations Navigator, Control & Recovery, Civil Engineering (Pavement & 
Construction and Structural), In-Flight Refueling, Tactical Air Command 
& Control and Operations Management.
    Question. General Newton, personnel tempo also affects those 
personnel who remain behind at the home station when units deploy. 
Describe some of those impacts? For instance, are they working more 
hours per week?
    Answer. Personnel tempo does have an effect on those not deployed. 
In some instances it does mean that home station personnel are working 
longer to make up for those who are deployed, especially in mission-
critical areas. In other instances, lower priority work simply gets 
deferred until deployed members return; this is more often the case for 
less critical areas. Either situation increases anxiety and frustration 
among home station personnel.
    Question. Mr. Duehring, please explain the personnel policies that 
are in place which minimize the redeployment of an individual or a unit 
soon after returning to their home stations.
    Answer. The Air Force relies on the Air & Space Expeditionary Force 
(AEF) force generation construct to establish a predictable, 
standardized battle rhythm ensuring rotational forces are properly 
organized, trained, equipped, and ready to sustain capabilities while 
rapidly responding to emerging crises. Air Force capabilities are 
postured in blocks/pairs scheduled for utilization during specific 
periods; Airmen are assigned a corresponding AEF indicator. While the 
baseline AEF postures capabilities at a 1:4 deploy-to-dwell (120-days 
deployed/480-days dwell), modifications were made to the construct to 
meet Secretary of Defense planning objectives for sustainable 
utilization of capabilities at 1:2 deploy-to-dwell for Active Component 
personnel (179-days deployed/365-days dwell) and 1:5 mobilization-to-
dwell (up to 1-year mobilized/5years dwell) for Reserve Component 
personnel. Capabilities with limited supply or high-demand can be 
utilized at a 1:1 deploy-to-dwell (179-days deployed/179-days dwell).
    Air Force policy directs that ``Airmen will only deploy during 
their assigned vulnerability period except for reaching forward.'' The 
need to 'reach forward' is a function of combatant commander 
requirements exceeding postured capability in any given vulnerability 
period. We also have policy in place to preclude an Airman's deployment 
vulnerability being increased when they move from base to base. Upon 
arrival to a new unit, Airmen are to be assigned to a position 
providing appropriate time to train/reconstitute prior to their next 
AEF deployment opportunity.
    Question. General Newton, can you please explain the current C-17 
aircrew personnel tempo and the reasons behind the C-17 personnel 
tempo?
    Answer. C-17 line qualified aircrews were TDY an average of 99.4 
days over the last 12 months as of December 2008. This number includes 
days TDY for contingency/deployed operations. The highest TDY average 
is for Travis AFB, CA pilots at 155.4 due to their recent return from a 
desert rotation. The C-17 deploy-to-dwell ratio is currently 1:6.7. 
This deploy-to-dwell ratio does not include non-contingency TDYs.
    AMC is using C-17s in both intra-theater and inter-theater airlift 
roles. C-17s fly inter-theater missions globally and sometimes pass 
through the area of operations. C-17s forward deployed to bases in 
theater normally operate within the area of operations and provide 
direct, intra-theater support.

                         Operation NOBLE EAGLE

    Question. Operation Noble Eagle (ONE) is a North American Aerospace 
Defense Command (NORAD) initiative to aid in the defense of North 
American skies. The ongoing operation began September 14, 2001, in 
response to the September 11 terrorist attacks. ONE includes air 
patrols over and around cities and the mobilization of thousands of 
National Guard and Reserve troops to perform security missions on 
military installations, airports, and other potential targets such as 
bridges.
    Mr. Duehring, what is the status of Operation NOBLE EAGLE? To date, 
how many combat air patrol missions supporting Operation NOBLE EAGLE 
has the active Air Force flown?
    Answer. Operation NOBLE EAGLE (ONE) is a continuing Secretary of 
Defense approved air defense mission conducted by the North American 
Aerospace Defense Command and US Pacific Command for the protection of 
the United States and Canada. The Air Force has employed a variety of 
aircraft to fly over 54,000 ONE missions since September 11, 2001. Of 
the 54,000 ONE missions, the active Air Force has flown approximately 
25% of these missions while the National Guard and Reserve have flown 
the remaining 75%.
    Question. What is the monthly personnel cost of this operation? Is 
this consistent each month, or do changes to the mission cause the cost 
to fluctuate?
    Answer. Monthly military personnel costs for Operation Noble Eagle 
for October 2008-March 2009 have been between $3.3 million to $3.88 
million, so the majority is consistent with slight fluctuations 
depending on North America Aerospace Defense Command taskings. In 
addition, the Air National Guard's Air Sovereignty Alert steady-state 
personnel costs average an additional $16.1 million per month.
    Question. General Newton, the Committee understands that the Air 
National Guard is not flying these patrols, but is on alert status at a 
number of installations. What are those installations, and what is the 
mission of the Air National Guard? Is this on a rotational basis? If 
so, what is the amount of time for the rotation?
    Answer. There are currently 18 designated steady-state Air 
Sovereignty Alert sites supporting Operation NOBLE EAGLE. The Air 
National Guard provides the personnel and equipment at 16 of the 18 Air 
Sovereignty Alert sites while the active duty Air Force provides the 
personnel and equipment at the remaining 2 sites. The alert site 
requirement is normally fulfilled by specific tasked units. However, 
when these units fulfill deployment missions in other operations, the 
alert site requirement is satisfied by another unit. All of these 
operations fall under the global force management construct process 
which the Joint Forces Command created to ensure force availability 
based on national priorities. The amount of rotation varies by unit 
mission, aircraft type and operational tempo. The Air Combat Command 
and Air National Guard cooperate to provide the Joint Forces Command 
with air forces to fulfill worldwide commitments, and Operation NOBLE 
EAGLE assignments are a part of that larger construct. While the alert 
sites provide coverage for the entire United States, during National 
Security Special Events, additional coverage may be directed by 
Commander, NORAD and then combat air patrols may be flown at various 
locations over and around cities. In keeping with the recommendations 
of the Congressional Committee on National Guard and Reserve, the Air 
Force continues to emphasize the total force aspect of this and every 
mission to erase any institutional prejudice for duty status that might 
arise from disparate designations.
    Question. Mr. Duehring, what is the cost of the homeland defense 
mission to the Reserve components?
    Answer. The total projected Fiscal Year 2010 Air National Guard 
cost (manpower and operations) to support Operation NOBLE EAGLE and Air 
Sovereignty Alert is $307.7 million. This total can be broken out 
between command and control and execution costs. The cost for command 
and control (which includes 1st Air Force, Headquarters Air Force 
staff, Air Operations Center, Western Air Defense Sector, Eastern Air 
Defense Sector, and the Alaska and Hawaii regions) is approximately 
$204 million. The cost for executing the Air Sovereignty Alert portion 
of the Operation NOBLE EAGLE mission for the Air National Guard (e.g., 
the 24/7 ground alert) is projected to be $103.7 million for Fiscal 
Year 2010. That cost covers the manpower requirements for the mission 
at the Air National Guard bases currently selected by the North 
American Aerospace Defense Command. Of that $103.7 million, $12.5 
million is funded in the Future Years Defense Plan for those units that 
were already executing a smaller version of ground alert missions 
before September 11th, 2001. The remaining amount of $91.2 million is 
the amount of money requested in the budget for fiscal year 2010 to 
continue the increased post-September 11th, 2001 alert requirement.
    Question. General Newton, how is Operation NOBLE EAGLE different 
from the Air Sovereignty Alert mission?
    Answer. The Air Force supports the commander of North American 
Aerospace Defense Command in the execution of the Operation NOBLE EAGLE 
and Air Sovereignty Alert (ASA) missions. ASA operations consist of 
ground operations that take place before fighter aircraft take off, 
including those activities that may take place after a unit receives an 
alert from North American Aerospace Defense Command but before the 
aircraft are airborne. Once aircraft take off, the ASA operation ends 
and becomes a homeland defense air mission under Operation NOBLE EAGLE.

                            Mission Training

    Question. During a recent interview, several Army non-
commissioned officers (NCOs) advised that they believe sub-
standard soldiers end up in units and cannot be utilized, 
making it harder on that unit to accomplish its mission. In 
addition the NCOs indicated that some new recruits are unable 
to pass a physical readiness test. The NCOs feel that basic 
training course needs to be updated to provide the recruits 
skills they will need upon deployment to theater. Now that the 
Air Force is embracing a collaborative and supportive role in 
the types of operations being conducted in Iraq and 
Afghanistan, the Air Force training must meet the new mission 
requirements. Airmen need to be properly trained and ready for 
combat.
    General Newton, please explain Initial Entry Training (IET) 
for Airmen. What are the basic skills that Airmen learn while 
at IET? What training is required beyond IET? Are Airmen coming 
to units fully trained to meet the needs for deployment or does 
training take place there as well?
    Answer. The basic skills Airmen learn while at Initial 
Entry Training (IET) are designed to mirror an Air 
Expeditionary Force cycle; prep, train, deploy, and 
reconstitute. More specifically, M-16 trainer weapons are 
issued at the start of Basic Military Training (BMT) to 
reinforce the warrior identity. Airmen receive substantial 
warrior-expeditionary classroom training (e.g., Role of 
Warrior, Mental Prep for Combat, Combat Recovery, Basic 
Situational Awareness, etc.) and small field training rehearsal 
exercises with key classes taught during field training. In 
addition, Airmen gain knowledge on joint warfare, M-9 pistol, 
public relations and the media, information protection and the 
Code of Conduct.
    In November 2008, BMT was lengthened by two weeks in order 
to incorporate additional expeditionary training through a 
concept titled ``Basic Expeditionary Airman Skills Training'' 
(BEAST). BEAST affords trainees a mentally, physically and 
skills challenging expeditionary experience, promoting trainee 
teamwork, responsibility, and leadership. Beyond IET, Airmen 
receive expeditionary training through a tiered training 
approach:
    Tier 1: Foundational Expeditionary Skills Training: Airmen 
gain foundational expeditionary skills through accession venues 
and, to some degree, Initial Skills Training. Completion of 
this training alone does not produce a deployable Airman. Once 
an Airman reaches his/her unit they continue to build upon 
foundational expeditionary skills development.
    Tier 2: Deployment-Ready Expeditionary Skills Training: 
Completion of this training is a requirement to maintain 
mission-ready status to produce a deployment-ready Airman, up 
to and including a major combat operation. All Airmen must 
complete tier 2 training.
    Tier 3: Advanced Expeditionary Skills Training (Mission 
Specific): Training for select Airmen as determined by factors 
such as deployment location, threat assessment, specific 
mission, duty assignment, role, operation, or special 
requirement.
    Tier 4: Advanced Expeditionary Skills Training 
(Expeditionary Center Assigned): Advanced training programs 
that are unique to a specific major command and/or functionally 
specific.
    Question. General Newton, if an Airman is deploying to Iraq or 
Afghanistan, does he train with the same equipment he will use when 
deployed?
    Answer. The Air Force is dedicated to providing Airmen with the 
appropriate training and equipment they need to accomplish the mission 
at home station and when deployed. In many cases, our Airmen train with 
the exact equipment they carry with them to their deployed location. 
This primarily includes Airmen expected to have significant exposure to 
the ground combat threat in their deployed environment. In other cases, 
though Airmen may not train with the exact equipment with which they 
will deploy, much of our equipment is pre-positioned at deployed 
locations so Airmen are issued identical equipment of the same type, 
make and model of that used for training immediately upon arrival--this 
saves on transportation costs. When identical equipment is unavailable, 
then similar equipment is issued--the differences are not significant 
and do not require additional training. We continue to implement 
strategies and improve our processes to minimize equipment and training 
inconsistencies.
    Question. What sort of physical conditioning is done to prepare 
Airmen for deployment?
    Answer. Pre-deployment physical conditioning includes unit physical 
training programs and personal fitness training programs. These 
programs include cardiovascular training such as sprint work, running, 
as well as using cardiovascular fitness equipment, such as treadmills, 
elliptical machines, and stationary cycles. Unit and personal physical 
training also includes a focus on muscular strength, muscular 
endurance, and agility conditioning using free weight equipment, weight 
machines, calisthenics, agility drills, and small fitness apparatus 
such as fit balls, jump ropes, and balance boards. Each Airman is 
assessed annually through a physical fitness test that includes a 1.5 
mile run, push-ups, sit-ups and waist measurement.
    Question. How is physical fitness maintained once the unit has 
deployed?
    Answer. Physical fitness is maintained in a variety of ways, 
tailored to the environment and bed-down. In hostile environments, 
outside running is limited; therefore, fitness-related activities are 
conducted indoors. To support personal and unit fitness training, 
fitness facilities in many deployed locations have cardiovascular and 
strength conditioning equipment and fitness programs comparable to 
those available in garrison/home station. Depending on the location, 
unit mission and individual duty schedules, Airmen maintain their 
physical fitness through a combination of unit and/or individual 
fitness workout routines.
    Question. How does the Air Force prepare for high altitude 
operations as those those will perform in Afghanistan?
    Answer. The Air Force does not currently offer any specialized 
training to prepare members deploying to Afghanistan. It is an Airman's 
professional obligation to ensure they are physically fit and prepared 
for duty at all times. However, specialized career fields may have a 
specific requirement and training opportunities based on their unique 
mission as within the Special Operations, Para-Rescue or Tactical Air 
Control-Party.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                         Wednesday, March 18, 2009.

                        MILITARY PERSONNEL--ARMY

                               WITNESSES

HON. RONALD JAMES, ASSISTANT SECRETARY OF THE ARMY, MANPOWER AND 
    RESERVE AFFAIRS
LIEUTENANT GENERAL MICHAEL ROCHELLE, DEPUTY CHIEF OF STAFF, UNITED 
    STATES ARMY, G1

                              Introduction

    Mr. Murtha. We want to welcome General Rochelle, Deputy 
Chief of Staff of the Army for Personnel, and Secretary James, 
Assistant Secretary of the Army for Manpower and Reserve 
Affairs.
    I just visited Ft. Carson and Ft. Benning. I got some 
pretty different views on what I get sometimes from up here in 
Washington, and so I'm looking forward to hearing your 
testimony and then asking some questions about some of the 
problems that they're having out in the field.
    I know I think we got this stop loss thing worked out, at 
least Secretary Gates tells me he's going to make an 
announcement this week about it. We're going to take care of 
the problem down the road, and this year we are going to put 
the amount in the supplemental. The Subcommittee is already way 
ahead of the military on that issue. We're concerned about the 
stress that is impacting our Soldiers, and you just told me 
that by April of this year or next year, the 15-month 
deployments will end.
    General Rochelle. We think all of our 15-month deployers 
will be back, the latest by June, Mr. Chairman.
    Mr. Murtha. Okay. Well, we welcome you to the Committee. 
Look forward to hearing your testimony. Mr. Young.
    Mr. Young. Mr. Chairman, thank you very much, and I just 
wanted to say welcome to our guests. We expect an awful lot out 
of our troops, and they have a right to expect a lot out of us, 
and so that is what we are here for. We are here to do whatever 
we can to support our troops. Thank you for being here today. 
Thank you, Mr. Chairman.
    Mr. Murtha. Can you summarize, and I understand the 
Secretary is the only one who will have a statement, is that 
right, or both of you will have a statement?
    Mr. James. Sir, we both have statements, but they will be 
very, very brief.
    Mr. Murtha. If you will summarize then, and we will get 
right to the questions, thank you.

                  Summary Statement of Secretary James

    Mr. James. Thank you, sir. Chairman Murtha and members of 
the Committee, I want to thank you for the opportunity to 
appear before you today, and I am particularly proud to be here 
with General Rochelle on behalf of America's Army and the 1.1 
million men and women who are proudly serving our Nation around 
the globe.
    As the Army is growing to meet today's demands, we are 
grateful to this Committee for the authorities, for incentives 
and bonuses that have helped us attract and retain the very 
best Soldiers. As the stewards of the Army's all-volunteer 
force, I am proud of this source and all of its 
accomplishments.
    As I speak today, over 167,000 soldiers are currently 
deployed in support of the global war on terrorism. Soldiers 
from every State and territory, Soldiers from every corner of 
this country serve the people of the United States with honor 
and distinction. We are one Army with active and Reserve forces 
serving together around the globe. We are truly Army strong.
    Our recruiting and retention success is directly 
attributable to the support gained from Congress. The most 
effective retention incentive for junior officers in fiscal 
year 2008 was the cash bonus. Over 94 percent of the 15,000-
plus officers who took the incentive last year opted for the 
cash bonus. DoD analysis of the survey data showed that most 
officers intended to separate or were uncertain about staying 
in the service took the incentive and committed to further Army 
service.
    We are committed to supporting our Soldiers, civilians and 
families, wounded warriors, recognizing critical contributions 
to the all-volunteer force. To maintain a high standard of 
living, the Army is caring for Soldiers and their families 
through several initiatives, which include the Army soldier 
family action plan, Army family covenant, as well as the 
transportability and transferability of portions of the GI 
benefits to family members.
    We have, on direction of the Secretary of the Army and the 
Chief, implemented a new suicide intervention program, 
including but not limited to a stand-down for the entire Army. 
Even one suicide is too many. We are grateful to the Congress 
for your concern and attention paid to soldiers.
    I ask you for your continued support to encourage all who 
are qualified to answer the Nation's call to duty, and once 
again thank you for the opportunity to appear before this 
Committee today, and I look forward to a dialogue and answering 
your questions, sir.
    Mr. Murtha. General Rochelle.

                 Summary Statement of General Rochelle

    General Rochelle. Thank you, Mr. Chairman, distinguished 
members of the Committee. I will summarize my oral statement 
and ask that the joint written statement on behalf of Mr. James 
and myself be accepted for the record, and I will summarize my 
oral statement with 3 points.
    First of all, I am deeply honored to, once again, appear 
before this committee representing the men and women of the 
United States Army. They are proud, they are strong, and they 
are proud and strong largely due to the phenomenal support that 
this committee has ensured America's Army has received in the 
appropriations side, most especially for the care for our 
wounded. On behalf of those wounded men and women, several of 
whom we hosted in the Pentagon last Friday, I say thank you to 
the members of this Committee.
    I look forward to your questions.
    [The joint statement of Secretary Jams and General Rochelle 
follows:]

[GRAPHIC] [TIFF OMITTED] T6260C.066

[GRAPHIC] [TIFF OMITTED] T6260C.067

[GRAPHIC] [TIFF OMITTED] T6260C.068

[GRAPHIC] [TIFF OMITTED] T6260C.069

[GRAPHIC] [TIFF OMITTED] T6260C.070

[GRAPHIC] [TIFF OMITTED] T6260C.071

[GRAPHIC] [TIFF OMITTED] T6260C.072

[GRAPHIC] [TIFF OMITTED] T6260C.073

[GRAPHIC] [TIFF OMITTED] T6260C.074

[GRAPHIC] [TIFF OMITTED] T6260C.075

[GRAPHIC] [TIFF OMITTED] T6260C.076

[GRAPHIC] [TIFF OMITTED] T6260C.077

[GRAPHIC] [TIFF OMITTED] T6260C.078

[GRAPHIC] [TIFF OMITTED] T6260C.079

                               BODY ARMOR

    Mr. Murtha. Well, let me start off. We have a few people 
here so a couple of things that I found and I just want to make 
it clear. I went to Ft. Carson and asked to meet with 12 
enlisted people and I went to Benning and did the same thing.
    Almost unanimously, the first complaint was the heaviness 
of the armor, and this committee's been concerned about the 
armor being so heavy for a long time. I know you are working on 
it. At Carson, they were almost willing to do without armor 
because in Afghanistan in particular, they felt like it was so 
cumbersome. One woman said she will have a handicap the rest of 
her life because the armor is so heavy that it jammed her 
spine. That is only one story. There are a lot of people who 
have been saved because of the armor, but that was the single 
biggest complaint that I got with both places.

                         LENGTH OF DEPLOYMENTS

    The second complaint was the length of the deployments and 
the fact that they didn't have enough dwell time. And I know we 
have talked about this over and over again, and rightly you say 
about this committee, there is no question we have done 
everything we could. When Bill Young was chairman, when Jerry 
Lewis was chairman, we have always worked in a bipartisan way 
to make sure the troops had what they needed, and we have added 
billions of dollars to the budget to make sure that you had 
what you needed. Even though in many cases there was inadequacy 
when you started out, you didn't have the equipment you needed, 
and we made sure we put it in and got it out there.

                                 MRAPS

    MRAP is a perfect example. Now, I had some complaints about 
the MRAP is not working well in Afghanistan and I know they are 
not working well in Afghanistan, because there are no roads. I 
found out there is no railroad at all in Afghanistan, which 
surprised me. So we have obviously got a lot of problems that 
are different in Afghanistan than anyplace else.

                                UNIFORMS

    The other thing that came up in Benning and not in Carson 
is that the uniforms are completely inadequate, not only the 
ones who are wearing them not only the 12, 13 enlisted people I 
talked to, but also the sergeant major agreed that the uniforms 
were inadequate.

                          QUALITY OF THE FORCE

    The other thing that every one of them complained of--they 
are all NCOs--the quality of the force--you say you have 
increased the recruiting, but the quality of force is less than 
it should be. We are taking people in who are inadequate. High 
school graduates are down. They mentioned physically not fit, 
and when they finish basic school they are not fit. I am 
telling you what they told me.
    I know I saw some figures where it is a little bit better 
than it was last year, but what worries me is we are going to 
get back to the same situation in the seventies and eighties 
where we had to get rid of a lot people that were inadequate 
and then rebuild the whole Army and then the long term 
consequences of taking people who are inadequate means they are 
going to have more PTSD. We are going to have more health 
problems down the road. There are going to be more emotional 
and physical problems for the military, and it is going to be a 
lot more expense for the military.

                        DISTRIBUTION OF BONUSES

    The bonuses have always been a bone of contention with me. 
I always think people enlisted in the military in order to 
defend this great country, to serve this great country. The 
bonus program is up over $1 billion now. I think the only 
service giving bonuses now is the Army. I think all the rest of 
them have quit doing it.
    But the balance you should look at because they are saying 
that the enlisted people getting in, in some cases, getting 
more than the ones who have been in combat and reenlisting. I 
don't know if that is true, but that is what some of these 
folks said. So I would appreciate if you would give the 
committee a report on how you distribute the bonuses and how 
that works.
    [The information follows:]

    The Army allocates bonuses based on Army requirements, the strength 
and criticality of the skill, and the recruiting or retention 
difficulty with the particular Military Occupational Specialty (MOS). 
Some specialties are extremely difficult to recruit but are more easily 
retained; in addition, more senior noncommissioned officers (NCOs) tend 
to stay until retirement without cash bonus incentives. As a result, it 
is entirely possible that a new recruit may have a higher bonus than a 
Soldier in a higher pay grade in the same specialty. Bonuses are used 
only as needed to fill MOS vacancies at the skill level needed. NCOs 
with over 10 years of service have a higher tendency to reenlist than 
those with less than 10 years of service or Soldiers serving on an 
initial term of service and thus typically receive little or no bonus 
money. The necessity to manage the force, by MOS and level of 
responsibility requires a detailed process that is further impacted by 
outside factors such as the economy, quality targets, and ongoing 
global mission requirements.
    All enlistment and reenlistment bonuses are evaluated at a minimum 
of once per quarter. Each MOS is scrutinized by level of responsibility 
to determine if an enlistment or reenlistment incentive is necessary to 
attain MOS targets that support readiness and mission requirements. In 
January 2009, the Army achieved its authorized end strength and bonuses 
were reduced in order to stay within authorized strength ceilings. 
Currently, only 45 of 161 entry level skills have a bonus for new 
recruits. The Army anticipates further bonus reductions based on the 
economy and the demonstrated increased propensity to enlist or 
reenlist.

                               EQUIPMENT

    One other thing they talked about: night vision goggles. 
They say the 14s are much better than the sevens and that most 
of the people only have the sevens. M-4's are unreliable. Now, 
I heard two stories about the M-4s and the M-16. One is that it 
was unreliable from all the troops there, and they were 
unanimous down at Benning about that, but the sergeant major 
said they just don't clean them. I don't know--I don't know 
about that. I don't know what the problem is but each--all the 
enlisted people were upset about the M-4 which I have heard so 
much about when they first deployed it.
    They all said the equipment that they train on is not the 
same equipment that they have when they go to combat. They have 
to be retrained on different equipment when they go to combat. 
They say resupply in Afghanistan is horrible. Soldiers have 
limited training time between missions because of ammunition 
shortages. That is what these 12 people are telling me.
    A unanimous comment was that the POR, which is the 
counseling they get before they go overseas, should be extended 
to the families. They thought because there is so much more 
money they are making overseas and some of the families spend 
it, and then when they come home, the money's not available, 
and they were pretty unanimous about that the families ought to 
all have the same support.
    But those are basically what I found and I would be 
interested in hearing not necessarily--well, in hearing from 
either of you about the complaints that I have gotten from 
people. I didn't pick them. You folks--you know, your folks 
gave me the NCOs that I talked to.
    General Rochelle. First of all, thank you, Mr. Chairman, 
for the opportunity to comment on a number of those and I will.
    First of all, we can always count on our great Soldiers, 
men and women to tell it just like it is. That is one reason 
why the American people respect them so highly and that respect 
has continued, if not risen. It has continued very solidly.
    On the aspect of armor, the Chief of Staff for the Army, 
the Sergeant Major of the Army, the Secretary of the Army, the 
weight of the armor, that is, have heard the same plea from our 
Soldiers, and as you stated in your comment, we are looking at 
that to try to lighten it without of course jeopardizing safety 
for our soldiers at the same time.
    We clearly know that the length of deployment on the second 
point, if I may, the length of deployment is longer than our 
Soldiers would like them to be. This Committee fully 
understands that that is a function first and foremost of the 
demand for Army boots on the ground around the globe, not just 
in the OIF and OEF theaters of war.
    The Chief just this morning mentioned that he was receiving 
from Special Forces Soldiers in particular comments, adverse 
comments or negative comments on the uniform and we are looking 
at that.
    But the final point I would like to make is, perhaps, in my 
estimation, the most critical one certainly for this Committee, 
and that is the quality of the force. We can measure the 
quality of the force in multiple ways and there is an ongoing, 
and has been an ongoing, debate in my more than six years 
involved with recruiting with accessioning and now as the Army 
G1. You can measure it on the front end by the somewhat 
abstract notions of high school degree completion, one to three 
A, whether they score in the upper middle category of the same 
Armed Services vocational aptitude battery Elvis Presley took, 
or one can measure it on the output side, once completed 
training, notwithstanding the comments of non-commissioned 
officers that you mentioned, Mr. Chairman.
    I submit two points in closing. One, that the quality of 
the force has really never been better because every young man 
or woman who raises his or her hand today realizes that they 
are doing so with almost a certainty of going into combat in 
today's environment.
    The second point and final point is simply that when we 
take a look at how these young men and women are stepping 
forward, less than one percent of American society, according 
to the Census, fewer than one percent, we should give them 
credit not only for that as an aspect of quality but for their 
patriotism. I think my comment also, in some ways, alludes to 
your discussion earlier, Mr. Chairman, about bonuses and 
incentives, with only three out of ten young people eligible to 
serve today without a waiver, once again, it is a question of 
supply and demand and that demand is Army boots on the ground.

                             ATTRITION RATE

    Mr. Murtha. The only thing I would add to my comments was 
the fact that your attrition rate has dropped significantly in 
the basic training, which means you're either keeping people in 
that should--traditionally you lose 14 or 15 percent. It is 
down to 8 percent. So I think you need to look at this. I know 
General Casey is out in the field. You are out in the field. 
But you really need to sit down with these young NCOs and find 
out how serious is this problem of quality because in the end, 
we are all going to pay a heavy price if the quality has 
dropped.
    No question about it, you folks do a marvelous job. All of 
us have the greatest respect for the people in the military. I 
am inspired by the families and the people who are serving, but 
that doesn't mean we don't have to continue to look at the 
quality. So you need to take a look at it.
    General Rochelle. Wise counsel, Mr. Chairman, and your 
numbers are correct in terms of historical attrition and 
current rates of attrition and I acknowledge that.
    Mr. Murtha. Mr. Young.

                           OFFICER RETENTION

    Mr. Young. Mr. Chairman, thank you very much. I think the 
Army's to be congratulated on the ability to reach your end 
strength, your increased end strength, and I think it is 
important that the issues that Mr. Murtha has mentioned, I 
think we all agree those are areas of concern to us, and I am 
satisfied they are to you as well.
    But as the Army grows and you maintain your retention and 
recruitment goals for enlisted personnel, where do we stand 
with officers? I mean you have got to have your officer you 
have to have your leaders and I am just wondering I am hearing 
that there is a little bit of a problem in the Army retaining 
officers. Could you comment on that, sir?
    General Rochelle. I would be happy to comment on that, 
Ranking Member Young. The Army's shortfall in officers is first 
and foremost attributable to modularity which increased the 
total requirements for officers. The most significant point I 
would like to make is that our ten-year average for officer 
retention remains unchanged. We are not hemorrhaging officers. 
We have some small specialties where we are challenged in 
retaining that higher average rate among those being aviation 
for which there is a significant demand. Significant demand and 
a significant growth I might add.
    In recent years, however, we have increased our officer 
retention through, as Mr. James mentioned in his oral 
statement, an officer selection critical skills retention 
bonus. Over 15 thousand officers agreed to retain with the Army 
out beyond to fiscal year eleven as a result of that program. I 
think our officer requirements are reasonable given a modular 
force. I think our retention rates are extraordinary given the 
stress that our total force is under.
    Mr. Young. And General, you had a program that expired in 
November of 2008 called the ``captain's retention incentive 
menu pilot program.'' Is that why you have been successful in 
retaining officers?
    General Rochelle. That is the--officer critical skills 
retention bonus by another name that I just addressed, 
Representative Young. That is one of the factors. One of the 
other factors, of course, and we don't want to misconstrue this 
nor give it an insignificant level of emphasis. Army officer 
just like Army non-commissioned officers are exceedingly proud 
of what they are contributing on behalf this Nation today and 
more than anything else that represents the reason why our 
retention rates remain at high levels. I would also like to 
just comment, though, that the captain's retention bonus that 
you referred to or the officer critical skills retention bonus 
did yield us 15,000 officers who are going to stay with us 
beyond fiscal ten and the authority for that program was given 
to us by the Congress as a pilot authority to allow us to apply 
innovative techniques to be able to for both officer and 
enlisted retention, a critical capability, sir.
    Mr. Young. Why do we allow it to expire?
    General Rochelle. Sir, we actually hit the number that we 
were able to, the population that we were targeting in 
captains, we don't think that we will need that going forward.

                             ROTC PROGRAMS

    Mr. Young. What about ROTC programs? I understand that most 
of your officers come through ROTC as opposed to going to the 
Academy. That is accurate, isn't it?
    General Rochelle. That is accurate, Representative Young.
    Mr. Young. Are the ROTC programs as robust today as they 
need to be?
    General Rochelle. Interestingly, I had a session with two 
outstanding RAND analysts yesterday on this very subject, a 
fairly lengthy session with them. For the foreseeable future, 
we will continue to receive most of our officers, the majority 
of our officers as you said, through the Army ROTC program. We 
do find that we are not receiving what we are looking for in 
terms of the diversity from that program, both in terms of 
ethnicity, language diversity, et cetera, and the Congress once 
again has given us some pilot authorities there with which we 
are exercising aggressively.
    We will continue to receive the majority of our officers 
from the Army ROTC program. We are studying whether or not, 
with the help of RAND, whether those programs are located 
geographically speaking, optimally, to be able to give us the 
talent and the officers we need for the future, diversity being 
one of the factors.
    Mr. Young. I would like to give you something to think 
about and offer an invitation. A couple of years ago, we 
established a program at the University of South Florida 
because we have Army ROTC, Air Force ROTC and Navy ROTC. In 
view of all of the joint activities that we have seen in recent 
combat, with all of the services working together and actually 
putting sailors and airmen on the ground as infantry, we 
started this program of having joint training to teach the ROTC 
students how they would work together in a joint operation and 
it worked very well, and one of the incentives was the fact is 
we were so very close to MacDill Air Force base with central 
command and Special Operations command, and those folks are 
very, very helpful and very cooperative, and they really like 
the program.
    I would like to invite you to come take a look at it. I 
think you would be impressed with what this is doing, not only 
to maintain the spirit of the ROTC students but also to give 
them a great understanding of the importance of working 
together. I know when we stood this up, I spoke to the 
assembled crowd and said look, it is really important that you 
maintain the pride of your service and the identity of your 
service, but it is also important to understand you guys have 
to work together when you get into the battle, you are going to 
be working together. Well, I can suggest that you take a visit 
there and if you need something else to do while you are there, 
you have MacDill Air Force Base, Central Command and Special 
Ops. So I think you would be impressed with this program.
    General Rochelle. I will pay it a visit.
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Dicks.

                   COMPREHENSIVE SOLDIER FITNESS EXAM

    Mr. Dicks. Thank you, Mr. Chairman. I want to talk a little 
bit about the increase in the suicide rate. The figures were 
released recently, January. The new figure of more than 128 
compares to 115 in 2007, 102 in 2006 and is the highest since 
recordkeeping began in 1980. The Army's report calculates to a 
rate of 20.2 per 100,000 Soldiers, which is higher than your 
adjusted civilian rate for the first time since the Vietnam 
War.
    In addition to the suicide data being released, the Army 
has plans for units to conduct a stand-down within a 30-day 
window between February 15th and March 15th, 2009. The stand-
down will include training for peer level recognition of 
behaviors that may lead to suicidal behavior and intervention 
at the buddy level. The stand-down will follow, will be 
followed by a chain teaching program focused on suicide 
prevention from March 15th to June 15th, 2009.
    Can you give us a little--can you explain what the Army is 
trying to do here?
    Mr. James. Yes, sir. The Secretary and the Chief of Staff 
have insisted that the entire enterprise, that the entire Army, 
get involved in the stand-down in order to raise awareness. In 
addition to that, the Vice Chief of Staff has been put in 
charge of the senior review group to take a look at this. In 
addition to that, the Surgeon General has been developing what 
we call a physical health exam that takes into account the 
mental side of these issues. It is called a Comprehensive 
Soldier Fitness Exam. Clearly, suicide is something that we 
need to learn more about. We need to do better in this regard.
    We have contracted with the National Institutes of Mental 
Health to do a longitudinal study to take a look at some of the 
other underlying causes or at least get better understanding 
about how we can be more effective in intervening early. How we 
can, in fact to use my previous life's jargon, how we can get 
the frontline supervisors, the sergeants, the battle buddies, 
the specialists, in fact, to be aware and to also to get the 
families to be sensitive to the issue about how to identify the 
warning signs because we are convinced that this is a public 
health tragedy. It is an issue that can be prevented, and the 
Army is aggressively taking steps to do this, and we have not 
done enough. We plan to do more, but I would be happy to invite 
General Rochelle to give any additional comments.
    Mr. Dicks. Can I just add one point, does the Army believe 
this is a crisis or not?
    Mr. James. The Army believes that this is unprecedented, 
and the reason why I am not going to respond to that because, 
as we have looked at this, we have tried to figure out whether 
there is a correlation between multiple deployments. As we have 
looked at these we have been trying to find trends, and 
basically the kind of trends we have found is issues like 
financial issues, marital issues, divorce issues, relationship 
issues. Are deployments a factor? I cannot sit here and tell 
you that the deployment is the but-for factor. We hope that the 
National Institutes of Mental Health can, in fact, help us get 
the answers so that we can make policy decisions based not on 
my speculation but based on some factual information and from 
public health experts.
    Mr. Dicks. We understand this is a very sensitive matter, 
and I think the Army takes it very seriously. I know out at Ft. 
Lewis and Madigan, I know they take it very seriously, and it 
sounds like these sessions that you are going to have over the 
next few weeks will help. You know, it seems to me that we 
ought to keep talking to General Chiarelli about this, but we 
ought to be looking at other possibilities and doing pilot 
projects.
    Our Committee provided resources last year and we find that 
they are using yoga and they are using Reiki and they are using 
this and that, but trying to let the troops go online to get 
help if they felt they needed it, or is this especially for the 
Guard and Reserve where they don't have--they don't come back 
to a place and they disband and go back into the community--
might be something that--and we have had outside people come in 
and talk to us about this. But you know, we have to go through 
all the competitive rules and all the other things that are and 
it takes quite a long while to get, to finally ever get 
something done.
    And we had General Sutton in here the other day and 
everything seems to be a study, and you know, when the people 
are losing their lives, I just hope there is, and I know and I 
am certainly not putting any of this on you all, but to me, 
there needs to be a sense of urgency here, and if there are 
options that haven't been utilized or considered, let's do 
pilot programs, let's at least look at these things to see if 
they make any difference and try to find see if question find 
some answers you know rather than just doing studies that will 
give us something 5 years from now.
    We had the same issues in, I remember in Desert Storm, 
Desert Shield, about all the illnesses and the people came, 
witnesses came up and said well, we don't think there is 
anything to this, you know, and then years later, we find out 
oh, yes, there was problems there in exposure to things that go 
back to Agent Orange. I mean, it doesn't do any good to have a 
study that comes in 5 years from now, I guess it will help the 
people and I know there are some people who it takes a year or 
so before these signs become apparent.
    But I just hope there is a sense of urgency. I feel that we 
should be doing more and it sounds like you are really getting 
to it now but I hope we just don't do studies. That kind of 
leaves me cold.
    General Rochelle. Sir, if I may, I would never be able to 
forgive myself if I didn't--if I allowed the Committee or 
anyone to think that we were standing still in the blocks here 
on this. Let me point to one aspect. On the fourth of March, 
the Vice Chief of Staff, General Pete Chiarelli, convened a 
worldwide secure VTC with every commander, senior commander who 
lost a Soldier in the month of January. That session was a 2-
hour session, which included senior leaders from Iraq, 
Afghanistan, the Military Academy and installations flung far 
and wide. And he reviewed in detail some 35 critical items that 
he constructed that he wanted the field commanders to report 
out to him on. It was not accusatory. It was not a 
condemnation, but it was an attempt to absolutely demonstrate 
the focus at the senior level of the Army on this matter, is it 
a crisis? Sir, I would tell you, one suicide is a crisis. That 
would be my response. We are absolutely moving out on this. And 
we have, we are investing $50 million in the National Institute 
of Mental Health effort, which is the largest in the history of 
NIMH to help us get after this, at the same time.
    Mr. Dicks. Will there be interim reports, not just a report 
from 5 years from now, where will there will be interim reports 
like a year from now or six months from now? Here's what we 
know now, here's what we are looking at?
    General Rochelle. There is a draft report right now, sir.
    Mr. James. Sir, if I could just emphasize, this is an issue 
we are, in fact, taking very seriously, and I want to clarify.
    We view the study and the initial stand-down as critical 
courses. In addition to the stand-down, we see that there will, 
in fact, be a chain teach second phase. We were hoping that 
chain teach--that the Soldiers on the ground, the sergeant 
NCOs, in fact, once they are given a curriculum and once they 
are given some parameters, that they will, in fact, experiment 
and try to reach out and try to do things that are, in fact, 
innovative and try to identify and look for best practices. So 
at the time we are doing the study we will, in fact, be doing 
the chain teaching.
    The third phase of the program, which the Secretary has 
admonished us and the Chief of Staff has weighed in on, is 
absolutely critical is sustainment, is that there has to be a 
sustainment period with or without the study to continue the 
sensitivity, and we have talked about issues like doing this 
every six months or doing it for every new group of inductees 
into the Army or graduates of basic training courses or 
graduate of the NCO schools.
    A lot of that is still to be planned, but we want to give 
the folks on the ground a place like Ft. Carson the maximum 
flexibility, in fact, to do the chain teaching phase two, do 
the sustain phase three, and do it around a core competency 
that is incorporated, and at the same time, in fact, be able to 
use their experiences to improve on the ground and then share 
that across the enterprise.
    Mr. Dicks. Thank you.

                                SUICIDE

    Mr. Murtha. Seems like some of the suggestions Mr. Dicks 
was talking about when you talk about divorce, marital problem, 
financial problem, fits in line with what these enlisted men 
and women suggested to making sure you counsel the spouses 
before people go overseas so that when they are overseas 
they'll know exactly what is going on.
    And the one thing, the stigma which we place on a person 
that has an emotional problem I think we have gotten to the 
general officers. I think we have gotten to the Secretaries.
    I brought this up to the group at either Carson or Benning, 
this guy said, well, I ran into that in Iraq, and he said--the 
guy said he wanted to commit suicide. I said I gave him a gun. 
I said go commit suicide. Well, you can see we have got some 
work to do. That obviously wasn't the appropriate reply, and 
none of us would expect that to happen. The guy didn't commit 
suicide. He thought he was a malingerer. It is a delicate 
thing. We know that. We appreciate what you are doing, but it 
is a big problem. It is going to be a big problem down the 
road.
    Mr. James. Mr. Chairman, I will personally take your 
counsel to heart about the need for the counseling. It is an 
issue that we are grappling with, and we may need to get back 
to you for some help, because with regard to our geographic 
disbursed workforce, particularly the Guard and the Reserve, 
that is a difficult issue. We are doing a much better job on 
both posts, camps and stations issue, but I will tell you in 
candor with regard to those folks who are in the hinterlands, 
we are not doing as well as we should.
    Mr. Young. Mr. Chairman, if you will yield on that issue, 
just a quick story. My son served in the military and during 
his time there he said you know, Dad, a lot of these kids could 
use some counseling. He said there are some serious issues out 
here and they are not being dealt with. But after his time was 
up and he got out, he went back to school and he became a 
psychologist.
    Well, he--he will be a psychologist in, I think, 4 weeks 
from now. You are all invited to the graduation and he said his 
motivation was to get this degree to get this certification to 
be a psychologist and go back into the military to help with 
these kids because he said there were so many just in his unit 
that needed that kind of help. I am just wondering if we have 
enough qualified personnel available to counsel in a case like 
this and the issue that the chairman raised about here is a gun 
go do it, that is something wrong with that and the suicide 
rate has gotten us all really concerned. The Subcommittee on 
Military Construction and Veterans Administration had a number 
of hearings already this year on that issue and it is 
frightening, and so I just raise that issue.
    I am not sure you have got the qualified personnel to do 
what has to be done.
    Mr. Murtha. What Mr. Young is saying if you need money, you 
know, make the suggestion because that is a perfect fit for the 
supplemental, if you need money to expand this program. Mr. 
Frelinghuysen.

                        FORCE GENERATION PROGRAM

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Most of our 
States have sent National Guard units to Iraq and obviously are 
prepared to do it into Afghanistan. New Jersey has 3,200 in 
Iraq, around the Baghdad area. It is the single largest 
deployment since, I think, in New Jersey's history and half of 
our Guard is overseas.
    General Rochelle--first of all, thank you for your service. 
You mentioned supply and demand. I understand what that is, but 
what happened to the Army force generation program? Where does 
that stand? We know these Soldiers are ready to do whatever 
they need to do. But what happened to the whole plan of one 
year deployed, five years back, you know, in States? What 
happened to that plan? Where are we?
    It has a lot to do with obviously issues of psychology and 
moral and your ability to retain soldiers.
    General Rochelle. General Casey has said that the Army will 
be back in balance in fiscal 2011. The shorthand definition of 
what that means is that the Army will be at its rotational 
balance under Army force generation model of one year deployed 
three years back for a total of four on the active component, 
one year back, one year deployed, four years back for a total 
of five for the Reserve components. We are not there. That is 
the equation of supply and demand that I mentioned. The demand 
right now for Army forces will not permit us to achieve that 
level of balance. The objective is to be there in fiscal 2011, 
and lots of energy is being placed into getting us there.

                           GUARD DEVELOPMENT

    Mr. Frelinghuysen. So the Guard units that are over there 
now, and come back in the case of our Guard from New Jersey, 
what would be their potential for going out again? Obviously 
there could be, we could considerably raise the stakes and in 
Afghanistan. That might sort of change the overall equation but 
what would be the likely scenario for a Guard unit that is 
finishing up what would be the likelihood of their going back 
again what would be the rotation.
    General Rochelle. With the exception of very low density 
and high demand Guard and Reserve units, military police as an 
example, with the exception of those, the likelihood that they 
would deploy in less than three-years dwell, beginning in 
fiscal ten is low fray, and how about the capability of some of 
those coming back? I mean, you know, we obviously don't deploy 
people unless they are fully capable but there have been 
obviously some evidence when some of these soldiers come back, 
their units are less than fully capable.
    Obviously there will be a period of reset for reserve 
component units, no different, except in length, than the reset 
period for active component units. That includes the post 
deployment health assessment, post deployment health risk 
assessment. That includes an infusion of equipment, training 
and people and then back into the four General cycle ideally 
which is your question to deploy in about three or four years.
    Mr. Frelinghuysen. So this continues to be a work in 
progress?
    General Rochelle. Very much a work in progress.
    Mr. Frelinghuysen. So even though you have set a goal of 
2011, it is very much subject to change?
    General Rochelle. Well, it is, yes, absolutely subject to 
change.
    Mr. Frelinghuysen. I understand that, but in reality, we 
sort of set forth here a goal to give the soldiers some feeling 
that they would have, you know, a good idea what their 
obligation would be on the battlefield.
    General Rochelle. Indeed, and Soldiers tell us in surveys 
that we conduct routinely that this one thing they are seeking 
is predictability and our fortune is the vehicle.
    Mr. Frelinghuysen. It is the vehicle but we are not there.
    General Rochelle. We are not there.
    Mr. Frelinghuysen. There is not the degree of 
predictability.
    General Rochelle. That is a correct statement.
    Mr. Frelinghuysen. The model is there, but in reality, we 
are far from fulfilling it.
    General Rochelle. Yes, sir.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Visclosky.

                              CONTRACTORS

    Mr. Visclosky. Thank you, Mr. Chairman. Gentlemen, thank 
you very much. I want to ask about contractors. In October of 
last year Nelson Ford, the Under Secretary of the Army, said we 
really don't know the number of contractors to that we have, 
and the quote goes on. What steps is the Army taking to 
understand the role of the contractors, to understand how many 
contractors you have and what the right mix is? Contractors 
aren't inherently bad, but it does seem like the Army doesn't 
have a good handle on it at that point.
    General Rochelle. Sir, I am vaguely familiar with Secretary 
Ford's comment. I have read it. Your question about what is the 
Army doing, the one thing I can speak to authoritatively is 
that the Army is attempting to account for our contractors in 
much the same way that we account for Soldiers, with an 
information technology system that is, today, under the 
auspices of our Army materiel command, the largest deployer of 
our contractors, to account for contractors both in theater as 
well as in other deployed environments, Korea, et cetera. 
Beyond that I am afraid I can't--elaborate on the Secretary's 
comment.
    Mr. Visclosky. In the 2007 budget, more moneys were spent 
on contract services than military and civilian pay combined in 
the Army, and again, I don't want to be judgmental. That may 
not be bad. But that is not the way it was seven years ago. You 
are continuing to see this increase of payment to contractors 
as to opposed to what you are actually paying people in uniform 
and civilian. Is that trend going to continue unabated? Is 
there a change in the composition of the types of contractors 
you are hiring? Was it food services before? Is it security 
personnel now? I would just like to have some sense of why that 
has continued to escalate. What is different today than 2000?
    General Rochelle. Well, I think a number of things are 
different. First of all, I can't validate the numbers that you 
mentioned in terms of the relative pay for contractors versus 
military personnel. But among other things that have changed is 
the demand, back to the dialogue with Representative 
Frelinghuysen, the demand is such that the forces, all the 
forces are inadequate to address the level of the demand. 
Therefore, the contractors are a viable alternative.
    I should add, though, that in a number of instances, we are 
in-sourcing those contractor support requirements with 
Department of the Army, and I will only speak for the Army, 
Department of the Army civilians, and I would offer for the 
record a clearer view of just what that looks like.
    [The information follows:]

    To date, the Army has in-sourced 1,164 positions formerly performed 
by contractors to an average savings of $46,000 per position per year.

    Mr. Visclosky. Okay. General, if I could follow up some 
more, I mean, I would not argue the point that you are 
underforced, or the demands that are placed on the Army, and I 
absolutely agree with that. To the extent a lot of the 
contractors who are serving next to military or civilian 
personnel are paid multiples of what that person in uniform is 
being paid, I guess you'd have the tension between well, if you 
are in uniform, you are a member of the Army, we are paying you 
to fight as opposed to doing some type of logistical duty. But 
if money is part of the problem and we are paying contractors 
much more per person than we are somebody in uniform, wouldn't 
it still be more cost effective if somebody is in a uniform to 
pay them and pick up more people? Are we paying somebody in 
that depot two, three, four times than we are paying that 
military personnel, couldn't I pick up some more personnel and 
get the job done?
    General Rochelle. That may be----
    Mr. Visclosky. Oversimplied?
    General Rochelle. Thank you, sir. I was trying not to be 
disrespectful. That may be an overly simplistic analogy, I 
think one that would require a little bit more study.
    Mr. Visclosky. I am very concerned about it. Mr. 
Frelinghuysen and I serve on Energy, and again, you are the 
Army. You are not Energy, but we are running nine to one 
contractors versus Federal employees and contractors running 
the Department. And we have had hearings previously here as far 
as the ability of various departments, including the Army, to 
control the contractors. And in the end, you are in charge. 
They are not, and that is one of my great concerns over and 
above the money is making sure we are running the government. 
So it is an area of deep concern for me.
    General Rochelle. I understand, sir.
    Mr. Visclosky. Thank you, Mr. Chairman. I understand that 
the Army has found an average savings of $44,000 per person for 
in-sourcing.
    General Rochelle. I have seen that figure. I do not know 
what is behind the figure.
    Mr. Dicks. Would that be a civilian worker or a military 
worker?

                              CONTRACTORS

    Mr. Murtha. Let me clarify this whole thing. You have 
144,000 contractors in Iraq, 274,000 in Central Command. It 
costs an average of $44,000, according to the study that you 
folks have given to us, per person. Last year, this committee 
tried to increase direct hires so that you could hire civilians 
to do the same job these contractors are doing because you not 
only pay the contractor, you have to pay the contracting people 
a percentage and so forth and so on, and so that is where the 
$44,000 comes in. We cut 5 percent out of contracting. We added 
$1 billion for direct hire. It fell by the wayside in the 
Senate because the Defense Department objected to it.
    Now, I asked the President himself. I said, Mr. President, 
what is the schedule for reducing the contractors in Iraq? How 
are we going to get them out while we are getting the troops 
out? Well, he turned to the Secretary of the Defense and 
Admiral Mullen, and none of them could give me an answer. We 
are asking the Defense Department to give us an answer so that 
we have some semblance of order. The troops are coming out. Are 
the contractors coming out because it costs more to keep the 
contractors there.
    Now, I see Ronald Marrow says okay, we are going to reduce 
the contractors. Well, we ought to know. He shouldn't be making 
an announcement. We should find out what is going on over there 
about these contractors.
    So this Committee, the first hearing we had was on 
contractors. So we are concerned about the number of 
contractors we have. So we need up to speed on contractors and 
there is no more important part of readiness than contracting.
    Mr. Rothman. 

                           IN-SOURCE SAVINGS

    Mr. Rothman. Gentleman, I notice on the written testimony 
of the gentlemen that on page 6, it says of their testimony 
that the results are $48,000 per person in-source saving. This 
is your written testimony?
    General Rochelle. That is correct.
    What I said was I do not have the details--the depth of 
details behind that statement. I am unfamiliar with it.
    Mr. Murtha. Let me just say we have got to get this under 
control. We have got to find--when we put money in for direct 
hires and we take money out of contracting, the Defense 
Department objects to it because we did it because it wasn't 
something we thought this thing through. Now this year, we are 
going at it a little differently but you should think about 
this for the base bill so we can save some money here, how we 
get these contractors out. Mr. Kingston.

                               ATTRITION

    Mr. Kingston. Thank you, Mr. Chairman. General Rochelle, I 
wanted to follow up on conversation we had with the Air Force 
yesterday about some observations of NCOs that a lot of the 
soldiers were physically up to where they needed to be and I 
see that in June of 2003, the initial entry training attrition 
rate was almost 15 percent, but by 2007, it had dropped to 
about 8-1/2 percent. What do you attribute that change to?
    General Rochelle. Well, among other things, I attribute the 
change in the attrition, the initial entry attrition rate to a 
concerted effort on the part of our training and doctrine 
command to assist every single individual to make it through 
basic training. That is not reducing standards, but it is a 
change in philosophy. If I may, back in 2001, 2001 to be 
precise, there was a similar change in philosophy under 
leadership in the then-recently activated accessions command. 
Rather than crossing one's arms and saying to a young recruit 
prove to me that you are good enough to be a soldier, the 
philosophy in 2001 was let me assist you in meeting the 
standard, and what I attribute the rate and the decrease you 
are referring to is that--revisiting that philosophy.

                               RECRUITING

    Mr. Kingston. Well, these NCOs also are saying that the 
Army needs to get harder and the new recruits lack discipline.
    General Rochelle. First of all, I accept that. I accept 
that statement on the part of our non-commissioned officers. We 
see that, a similar statement in our surveys that we do of non-
commissioned officers and their perceptions. The interesting 
phenomenon, though, sir, is that the further one moves away 
from the immediate soldier, the better one's perception meaning 
elevated in rank and elevated in distance from the immediate 
soldier, that perception changes. So perhaps the sergeant major 
would give you a different perspective than would the buck 
sergeant than would the staff sergeant.
    One other point, if I may----
    Mr. Kingston. Well, General, I want you to finish that 
point, but I want to revisit that because just because the 
perception changes that doesn't make it factual.
    General Rochelle. No, sir, it doesn't. It doesn't, nor does 
it add significant credibility to the other perception would be 
my point.
    Mr. Kingston. Well, what was your other point because I 
interrupted you?
    General Rochelle. My other point is that today we have to 
realize that again, as I mentioned to the chairman, only three 
out of 10 young people are eligible to serve in our Army today, 
for one of three reasons, the absence of academic credentials, 
a high school diploma, overweight and obesity is becoming 
epidemic in America; and then third, the background, the 
ability to pass a background screen to serve in our force. When 
you extrapolate that to what is the correlation for officers, 
the number becomes even more startling. It is one out of 10 are 
eligible.
    So there is a problem. And even before this very committee, 
Mr. Chairman, I believe you would recall, I have said in the 
past, there is a challenge and there is a problem and it is a 
national problem.
    Mr. Kingston. In terms of that obesity rate, do you have 
any recommendations, some of us have served currently or in the 
past on the Agriculture Committee and we are always studying 
school nutrition and exercise and one of the frustrations is 
that the nutrition school lunch program is the USDA and the 
Department of Education really does the physical education 
stuff and they are almost seems to be a firewall in terms of 
the two talking to each other and sharing data and I was 
wondering if the Department of Defense or the Army had any 
observations or any clues to put in that.
    General Rochelle. Sir, I am unqualified to comment on that, 
grossly unqualified to comment on that, but I will offer a 
bright spot and that is that as a Nation, we appear to be 
addressing the issue of obesity openly and in a national way 
with respect to a debate on this subject that I see is 
encouraging.
    Mr. Kingston. But obesity is the number two reason, 
academics and the obesity were the first two? Were these all in 
an order or----
    General Rochelle. Obesity would be the second or third. The 
first would be behavioral or disciplinary issues in terms of 
waiver reasons, reasons for a waiver.
    Mr. Kingston. Thank you.
    Mr. Murtha. Ms. Kaptur.

                            OFFICER SHORTAGE

    Ms. Kaptur. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your service to our country. This has been a 
most interesting hearing.
    I wanted to comment on page three of your testimony. 
General you mentioned officer shortage in the Army continues to 
keep the officer corps out of balance. I am wondering if your 
own experience you think there is any relationship between the 
officer shortage and the exponential rise in the number of 
contractors serving in the Armed Forces? Serving the Armed 
Forces and the pecuniary interests that seem to drive 
involvement in military matters today, as opposed to patriotic?
    General Rochelle. I would attribute no rise in the number 
of contractors to the current officer shortage. The current 
officer shortage grows out of a decision in the 1990s to 
downsize the Army, and we put the Army on that track toward a 
much, much smaller level force. We are still living with the 
consequences of that decision in the 1990s to this very day.
    The second contributing factor, as I mentioned earlier in 
my comments, is modularity, which brings a higher concentration 
of officers with it.
    But point number one, the pecuniary issues you mentioned, I 
don't really have a notion about that. I am not, I don't 
believe there is a relationship.

                                 BUDGET

    Ms. Kaptur. Do you know how much the Army has spent on 
bonuses in the current budget that is being submitted? What are 
we spending, compared to 10 years ago?
    General Rochelle. I can't tell you where it is relative to 
10 years ago, but our recruiting and retention costs for fiscal 
09, I am speaking the current year budget, not 10, 
$2,029,000,000. This includes recruiting and retention bonuses, 
education incentives, marketing and advertising and recruiter 
support costs for the Army Active Component.
    Ms. Kaptur. And I think for the record, it would be very 
interesting how that compares to 5 years ago and then 10 years 
ago. That is a sizeable, my guess that is on an ascending path.
    General Rochelle. That would be true if one looked, I am 
confident that that trend would prove accurate ma'am, if you 
want to look back five years ago, but in the recent years, 2008 
to 2009 and what we are projecting for 2010, it would begin to 
turn downward.
    Ms. Kaptur. All right. Can you provide for the record a--
the enlistment bonus, the--when they are reenlisted in theater, 
whatever, all these different bonuses that have been tacked on, 
maybe I am not aware of some of them, that would accrue to the 
individual soldier.
    General Rochelle. We would be happy to.
    [The information follows:]

    Specifically focusing on the recruiting and retention bonus 
programs for the Army Active Component, we spent or anticipate 
spending:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
          FY 2000                      FY 2005                      FY 2008                     FY 2009
----------------------------------------------------------------------------------------------------------------
                $200.3                       $671.5                    $1,206.8                    $1,170.2
----------------------------------------------------------------------------------------------------------------

                           SUICIDE PREVENTION

    Ms. Kaptur. Thank you very much. I want to turn to your 
testimony and Congressman Dicks did a great job on this this 
morning, the whole issue, you have got suicide prevention, page 
10 of your testimony and other issues relating to soldier well-
being and health, and I am interested in the way that the 
architecture of what you have presented in your testimony. I 
think it is very interesting you focused on suicide as opposed 
to Soldier well-being. For example, the issue of PTSD in this 
type of, the types of engagements we are in you have 98 percent 
of your time is total boredom and 2 percent of your time is 
utter terror. We know that the nature of PTSD is that you know 
upwards of five different incidents like that, and you have got 
it, 20 percent of your Soldiers also have it.
    If America had consciousness of this, we would be better 
able to articulate it in testimony. Half the homeless in our 
country are veterans. They are testifying testimony to our 
failure to have understood this in prior conflicts. Hundreds 
and hundreds of thousands of people wandering all over this 
country and they are veterans.
    This tells us in living color that we failed in the past. I 
am really glad to hear that you are thinking about this, but 
only to address suicide, which is the ultimate act of 
hopelessness doesn't deal with the reality of what the rest of 
the force is dealing with. And my concern is, as hard as we 
have worked to try to get a service, a department wide, every 
single department, Army, Air Force, we had Air Force in here 
yesterday, Navy and Marine Corps, to get them all to have a 
coordinated program in this. I can't tell you how difficult it 
has been to deal with the Department of Defense on this issue. 
If our chairman hadn't taken a leadership role on this, if Mr. 
Young hadn't been a strong partner in the efforts we wouldn't 
be anywhere but I am concerned that other issues you don't 
address, you don't address fully the PTSD, you don't really 
report back on what has been done today, you just talk about 
the study with NIMH.

                             MENTAL HEALTH

    One of the other Members discussed Guard and Reserve. I 
come from a nonbase community. The problems of PTSD with our 
returning Guard and Reserve are huge and as a result over the 
last five cycles, I have put money in this bill and forced it 
down the throat of DoD, and they wanted to spit it out, they 
tried to spit it out every year and what we are trying to do in 
Ohio and we had the agreement of our Adjutant General to 
examine every returning vet to Ohio, including the majority 
that don't go back to a base and there are many Army MPs in 
that group and combat engineering units and what have we 
learned? We have learned that working with DoD is an 
impossibility. That as hard as we try to roll out this 
assessment of our returning troops, one of the key elements 
which is a genetic profiling of predisposition to some of these 
illnesses, and in a certain part of the brain, somewhere 
between the units in Ohio, the Adjutant General and the 
Secretary of Defense, genetic profiling, the testing that they 
need to do on a volunteer basis has been rejected.
    We are trying to find out who did that, all right. What I 
would really appreciate and I know my time has expired, Mr. 
Chairman, I would appreciate your helping me, and I said this 
to the Air Force yesterday, to find me the genius over there at 
DoD, that is, in charge of mental health, and all they do is 
bring us, this service has this one, that service has this one, 
it is not well coordinated, and I want to sit them down with 
the researchers and with our Adjutant General and I want to 
solve this problem so we can do the assessment and treatment of 
our veterans. It is really frustrating.
    And we don't deal--Congressman Dicks talked about a study. 
We want to look to your study in Ohio. We want to be a part of 
the whole. It shouldn't be this hard, and it tells me that 
something is really messed up over at DoD. One of our top 
research doctors, brilliant human being, said to me, Marcy, in 
my whole life, my worst experience with any Federal department 
is with the Department of Defense, what is wrong over there. 
This is one of the neuropsychiatrists. This guy could win a 
Nobel Prize with what we are trying to do, and he keeps running 
into these walls at DoD.
    So can you help me solve this problem of the assessment we 
want to do in Ohio by connecting our Guard to whoever is in 
charge over there and it is Army by the way, over at DoD so we 
can get this done right?
    Mr. Murtha. I think I could probably answer this better 
than they can, Ms. Kaptur. I think Secretary Kasells and Dr. 
Emery have been working this. We gave them money to do this. In 
January of this year, they just started to come up with a plan, 
which they briefed me on. We had a hearing about it, but they 
aren't far enough along to give us the details. But the Guard 
is still--I had a young fellow commit suicide that was in Iraq, 
came home and worked for a year and then committed suicide. So 
we aren't there yet, but I do think the Defense Department is 
addressing it because of the direction we gave them, and I 
think we are starting down a trail. We told them to hire 
psychologists and psychiatrists. We told them to go in that 
direction and to counsel troops that needed it.
    We changed the sensitivity of people. I think it is a very 
complicated process, but I think that Dr. Emery's the one to 
talk to, and I think she can help you with the Guard. She's 
just not there yet, even with the Defense Department, let alone 
the Guard. But if you talk to Sarah, and Sarah Young and Dr. 
Emery, I think you can get to where you want to go.
    Ms. Kaptur. Mr. Chairman, thank you very much, and I would 
hope that our study could understand there is something going 
on in Texas. I read about it in some magazine article. Mr. 
Chairman, I think a number of us have pieces of the whole but 
we can't seem to connect it. We need an architecture to do 
that.
    Mr. Murtha. We haven't gotten there yet. That is the 
problem. As you say it takes so long for them to get anything 
done, but we are I think moving step-by-step in the right 
direction, we hope.
    The gentlewoman's time has expired. Ms. Granger.

                               EDUCATION

    Ms. Granger. Thank you. General, I want to return to your 
response about the requirement of a high school diploma and I 
will admit, I have got a bias: I am a former high schoolteacher 
and may not have been something I taught in my class that made 
some someone a better Soldier, but there is often a commitment 
and a discipline coming from finishing something, but my main 
experience which as a mayor when we were trying to recruit 
companies to come in my city or maintain those companies and 
time and time again, the CEO or the training director would 
say, we have to have a basic level of education and knowledge 
in order to train those employees, oftentimes for entry level 
jobs, but became very good jobs, and we wanted to keep them.
    Today's Army, I mean, this is the Committee that funds the 
equipment and the technology and it is very sophisticated 
technology and equipment, and I am proud to serve and be a part 
of that but to be able to train, I think that that is extremely 
important. So I have some questions around that.

                                WAIVERS

    One thing you talked about waivers, and I want to know how 
many waivers are granted to recruits, but you talked about you 
said the number one, the most common waiver, the way I 
understood was a--had to do with discipline and behavior and 
three was obesity.
    General Rochelle. I believe that is correct.
    Ms. Granger. So where does--where do they drop out and what 
kind of waivers are allowed having to do with education or 
learning? Second, what is the attrition rate for recruits 
without a high school diploma and the third one would ask you 
to say how does this economy affect your recruiting? There are 
a lot of well-trained good people that are without jobs or will 
be without jobs that will be wonderful to serve in the 
military, and how do you think that will be affected?
    General Rochelle. First of all, let me take the latter 
question first, if I may. How does the economy affect it? It 
affects it very positively in terms of the numbers of 
individuals seeking entrance into the military. I commanded 
U.S. Army recruiting command from January of 2001 until October 
of 2005 and relative to that period, we are currently in a 
heyday in terms of individuals seeking to serve in the 
military. The difference is, and this is why twice I hit the 
qualifications because none of the effects of the economy 
impact the number of individuals who are qualified. So out of 
the those who are coming to the front door of a recruiting 
station still, three out of ten are qualified to serve without 
a waiver, still only one in ten is qualified to be commissioned 
as an officer. That doesn't change.
    On the point of waivers, in 2008, let me make two points. 
In 2008, our waivers decreased over the previous year. Total 
waivers, 17,079 out of 80,000 assessions. In 2007, that number 
was 18,234. And comparing fiscal year 2009 current month to 
date to fiscal year 2008, we see a 4.5 percent decrease in the 
number of total waivers. So we are using this as an opportunity 
to elevate the quality, two more data points, if I may.
    As a former high school teacher, the total number of 
enlistees that we categorize as DoD would categorize as tier 
one, high school diploma, not a GED, but a high school diploma 
and are able to score in the upper half of the Armed Services 
vocational aptitude battery increased 2008 over 2007 by 2.1 
percent, at the same time that for that very same period, the 
total number of lowest mental category we are allowed to enlist 
decreased by 1.2 percent.
    Ms. Granger. You gave me, you gave me total numbers but 
what I asked for is those without high school diplomas, and I 
think you are giving me total numbers.
    General Rochelle. Of waivers, I gave waivers.
    Ms. Granger. Were you giving me total waivers or waivers 
without high school education?
    General Rochelle. I gave you total waivers.
    Ms. Granger. Do you have those without a high school 
education?
    General Rochelle. I do not have those.
    Ms. Granger. Can you get them to me?
    General Rochelle. I can get those for the record.
    Ms. Granger. And the other thing, in giving this and you 
say it is still the same percentage or the same numbers but 
when you are talking about there is total, you are choosing 
from a larger group now because of the economy.
    General Rochelle. We are.
    Ms. Granger. So is it possible to raise those standards 
back to where they were as far as a high school diploma, given 
the numbers?
    General Rochelle. If, indeed, my point about the increase 
in the numbers of high school tier 1 did not communicate that 
that is precisely what I was attempting to communicate, that we 
are raising the bar.
    Ms. Granger. And you will come back to me with the numbers?
    General Rochelle. I will.
    Ms. Granger. Thank you.
    [The information follows:]

    1. Below are the annual number of non-prior service (NPS) recruits 
enlisted in the Army's Active Component who did not possess a Tier 1 
Education Credential (typically a high school diploma) and required an 
enlistment waiver:

            
          
          
        Fiscal Year      Non-prior service recruits without a tier 1 ed 
                                           credential requiring a waiver
FY03....................................................           1,196
FY04....................................................             751
FY05....................................................           1,545
FY06....................................................           4,374
FY07....................................................           5,308
FY08....................................................           5,043
FY09 YTD................................................           1,400
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................          19,617

    2. During this period, the Army enlisted more than 464,400 new 
Soldiers into the Active Component resulting in approximately 4.6% of 
its new recruits falling into the above mentioned category.

    Mr. Murtha. Mr. Rothman.

                 POST-TRAUMATIC STRESS DISORDER (PTSD)

    Mr. Rothman. Thank you, Mr. Chairman. I am going to speak 
to my colleague and friend, Ms. Kaptur, because I did want her 
to know that and you gentlemen, Secretary General as well, that 
I respectfully disagree with her on the notion of DNA testing. 
Either of you gentlemen could you tell me the percentage of 
soldiers who return from service with PTSD.
    General Rochelle. I cannot tell you that percentage.
    Mr. Rothman. Is it 1 percent? Is it 99 percent? Somewhere 
in between?
    General Rochelle. I would not speculate. I have heard 
different--I have heard different estimates from our Surgeon 
General who is testifying here today. And I would like to take 
that for the record in order----
    [The information follows:]

    The Army's ground-breaking Mental Health Advisory Teams have found 
that 15-20% of Soldiers redeploying from Operations Iraqi Freedom (OIF) 
and Enduring Freedom (OEF) have symptoms of post-traumatic stress, 
anxiety, and/or depression. However, not all of these cases develop 
into post-traumatic stress disorder (PTSD). According to the Military 
Health System's medical data repository, 4.8% of all Soldiers (all 
Components) ever deployed to OIF/OEF have been diagnosed with PTSD. We 
recognize, however, that some Soldiers with PTSD do not seek treatment 
within our Military Health System. Thus, although 4.8% of Soldiers are 
diagnosed with PTSD, we acknowledge that a larger number of redeploying 
Soldiers likely suffer from the disorder we are working hard to reduce 
the stigma associated with seeking help for behavioral health concerns.

    Mr. Rothman. What are the different estimates you have 
heard?
    General Rochelle. They vary. They vary.
    Mr. Rothman. Mr. Chairman, you don't know whether it is 1 
percent or 99 percent of your forces who are returning who have 
PTSD, General?
    General Rochelle. No, sir. What I am saying, sir, is that I 
don't wish to speculate.
    Mr. Rothman. Well, give me a ballpark, sir.
    General Rochelle. No, I don't think I would like to do 
that, sir.
    Mr. Murtha. The figures that the committee has are 300,000 
or more that they project. Now I don't know how accurate those 
are, but why we need to know this obviously is we have to 
prepare for the future and prepare for the health care costs, 
which have increased so significantly. So that is the figure 
that we have.
    General Rochelle. I clearly understand, Mr. Chairman, and 
as I believe you pointed out, those numbers and the estimates 
change because we are constantly finding out that individuals 
who have shown no post-traumatic stress or traumatic brain 
injury subsequently will indeed----
    Mr. Rothman. So the number is probably higher? I find it--
--
    Mr. Dicks. If the gentleman would yield just to make a 
point briefly, I think and I heard Mr. Young say that a lot of 
times this doesn't show up until a year after the person is 
back.
    Mr. Rothman. No, but I am saying I am looking for the 
bottom line, the lowest figure you have, and then we can assume 
it comes up. I will tell you why. If we start testing for DNA, 
there is lots of brave new world fears and realistic fears and 
concerns that I have about that--brave new world being the name 
of a book--if for example 20 percent of our forces come back 
with PTSD or then in the future have PTSD, if we have a genetic 
test that prevents these people from serving, that means the 
force structure will be 20 percent less.
    Now, the general tells us the force is out of balance and I 
believe that it is. So do we remove 20 percent or we change the 
circumstances of the service? I think probably addressing the 
circumstances and nature of the service would be more important 
but I don't believe that the Army could sustain 20 percent cut 
in forces right off the top, plus there are other dangers to 
society in ruling people ineligible to serve because of a 
psychiatric weakness as it would be undoubtedly described or 
worse.
    General, you talk about behavioral or discipline 
deficiencies in the, in those that you are seeing as, who are 
applying to be members of the force. Could you describe what 
those behavioral, as the father of five to my own and three 
step kids, I think they are almost all out of danger, God 
willing, but tell me what those behavioral and logistic 
problems are. Is it they smoke marijuana? Is it that they have 
committed armed robbery? What is the nature of the behavioral 
or discipline problems that they present to you?
    General Rochelle. Thank you for the question, sir. It runs 
the gamut, everything from petty theft up to possession of 
controlled substances, all the way up to individuals who 
present and who are not admitted into the military for crimes 
that would be categorized as felonies, given the level of 
punishment that would attribute to it.

                               RETENTION

    Mr. Rothman. Felonies? That is significant. There is a 
figure that I saw that the captain retention program were $443 
million was spent. This is from your written testimony.
    General Rochelle. Yes, sir.
    Mr. Rothman. Produced an increase in retention from 88 
percent to 89 percent. So basically that 1 percent arguably got 
us or--rather, $443 million got us a 1 percent improvement in 
officer retention. Do you think that is a good use of that 
money?
    General Rochelle. I do. I think it is an extraordinarily 
good use of the money. Department of Defense estimates of the 
numbers of the individuals who were uncertain or had already 
indicated a desire to leave the military, up to 50 percent of 
that number were actually retained by that bonus. That is a DoD 
estimate and study.
    Second point, we don't know what retention would have 
looked like in that, over that 18-month period had we not 
employed using the authorities granted us by this committee, to 
offer that incentive pilot and it was a pilot and it is a very 
successful one.
    Mr. Rothman. Does a percentage of 50 percent square with 
your figure that it was only a 1 percent increase in retention?
    General Rochelle. It does. We are measuring two different 
things. The 1 percent gain was over basic historical 
projections of retention. So we moved the needle by 1 percent. 
The 50 percent is a survey given to individual officers, what 
is your potential.
    Mr. Rothman. I get it.
    Mr. James. If I may, let me just add that when you talk 
about the 15 thousand captains, we are talking about four years 
of college by and large. You are talking about four to six 
years of experience. To replace that human capital, the price 
General Rochelle is absolutely correct, the price was 
absolutely on the money. To replace ten years of, to rebuild 
that and to retain and to be able to retain that clearly was 
worth the money.
    Mr. Rothman. I think what the General is saying--which I 
understand, is that the 1 percent increase may seem modest but 
given the tremendous historical pressures and stresses on the 
force, not only wouldn't have gone up at all it would have 
dropped significantly. So that.
    General Rochelle. Yes.
    Mr. Rothman. Thank you, Mr. Chairman.
    Mr. Murtha. Let me get this clear. Why would only 50 
percent get the bonuses?
    General Rochelle. No, Mr. Chairman, that is not what I 
said. 50 percent of the individuals surveyed by DoD, captains 
in the Army who were surveyed by DoD who indicated their intent 
to either separate from the military or uncertain of their 
intent to remain in the military, changed their minds as a 
result of that incentive program, 50 percent.
    Mr. Murtha. When----
    General Rochelle. And were retained.
    Mr. Murtha. I am sitting here and I am saying to myself, I 
am going to stay in, but I might as well say I am getting out 
so I get a bonus.
    General Rochelle. I can't account for that phenomenon.
    Mr. Murtha. You see what I am talking about.
    General Rochelle. That is the potential, Mr. Chairman. I 
can't account for that phenomenon, nor the DoD.
    Mr. Murtha. And what other percentage of officers get a 
bonus?
    General Rochelle. May I take that for the record, Mr. 
Chairman?
    Mr. Murtha. Yes. Mr. Bishop.
    [The information follows:]

    The recent Army officer retention bonus program for Regular Army 
captains targeted officers in the Army Competitive Category and select 
administrative Medical Service Corps specialties. Of the 23,000 
captains eligible for the program, we had 14,500 who accepted bonuses, 
which equates to an acceptance rate of over 65%. We have offered no 
bonus to Army Competitive Category officers at any grade other than 
captain. These numbers do not include officers serving as medical 
health care professionals in the Army Medical Department or attorneys 
in the Judge Advocate General's Corps, who may be eligible for other 
incentives.

                           ANTIDEFICIENCY ACT

    Mr. Bishop. Thank you, Mr. Chairman. Welcome gentlemen, 
General Rochelle and Mr. James. I want to ask you about 
something that was somewhat disturbing to me as I was reading 
through the notes here, and it has to do with the 
Antideficiency Act exiting fiscal year 2008. I am looking at my 
materials here, and it says in September of 2008, the Army 
obligated $200 million more of military pay than was available 
in the Military Personnel, Army account, and that it 
subsequently asked to transfer funds in the account to cover 
the difference.
    Of course, the committee staff is of the opinion that the 
Army violated the Antideficiency Act, and of course, we are 
told that the Army lawyers say that that is not the case. But 
the Antideficiency Act makes it clear that an officer or 
employee may not make an obligation exceeding the amount that 
is available in the appropriation.
    On what basis did the Army determine that the obligation of 
the $200 million did not violate the Antideficiency Act? And I 
don't know if you can give us what your general counsel said on 
it, whether that was an investigation and who conducted it and 
what kind of findings there were, but if the money was 
available in the military personnel account, why was a 
subsequent reprogramming request of that $200 million made in 
the personnel account.
    And we are also told that for fiscal year 2008, and we are 
looking at 2010 now, that the Army is going to send up a 
reprogramming request of up to $2.3 billion for the fiscal year 
2008 appropriation, and if that is true, how is it possible and 
how is that not a violation of the Antideficiency Act? Do you 
have any internal controls to detect this kind of 
overbudgeting, and if you don't, if you do now, how is that 
going to be prevented in the future?
    General Rochelle. I would be happy to address that, 
Representative Bishop. First of all, Army lawyers had ruled 
that and general counsel has ruled that there was not an 
Antideficiency Act in that $200 million underestimation, which 
is exactly what it was. It was a technicality that required us 
to come back to the committee for reprogramming and I will 
describe that technicality very simply. The obligations on the 
military personnel account for fiscal 2008 were closed at the 
end of the fiscal year and they were based on known obligations 
at the time for all manpower costs to include transportation, 
promotions, pay raises and salaries, of course. Once that is 
closed, we realized then that other obligations, not known at 
the time, came in higher and we estimated too low. It is a 
technicality that requires us to then come back to the 
committee to request a reprogramming, in spite of the fact that 
the military personnel account for Army in fiscal year 2008 
still had sufficient funds in it to cover those additional 
costs.
    Mr. Bishop. If it had sufficient funds, why would you need 
to get reprogramming and does that relate to what the 
committee's been concerned about with regard to the failure to 
pay the stop loss payments that the committee had authorized 
and had appropriated.
    General Rochelle. Well, the stop loss payments were in 
fiscal year 2009, sir, and no, the fiscal year 2008 
underestimation does not represent neither a failure on the 
part of the Army to be responsible with the funds appropriated 
by this committee nor to have the appropriate controls in 
place.
    I might add one final point if I may. We have also asked 
the AAA, the Army Audit Agency, to look into in addition to the 
ruling on the part of the general counsel, look into our 
estimating processes and procedures to make sure that we don't 
have a repeat of this.
    Mr. Bishop. Okay, and because at the close of fiscal year 
2007 the MPA appropriation had a surplus, and at the close of 
2008, you were projected to have exhausted all your funds, and 
of course, it was a second budget cycle in a row that this had 
occurred and so that is troubling to the subcommittee and 
certainly to our staff and we want to have some attention 
placed on that so we don't have to deal with this on a 
recurring fashion.
    General Rochelle. Well, please allow me to assure the 
committee that we are concerned as well, hence the review by 
the AAA, the Army Audit Agency.
    Mr. Bishop. Thank you.
    Mr. Murtha. Ms. Kilpatrick.

                              CONTRACTORS

    Ms. Kilpatrick. Thank you, Mr. Chairman. Good morning, 
General, Mr. Secretary. The Chair mentioned 144,000 contractors 
in Iraq. What percent of those are Army or are they all Army? 
Are they from other branches of service? Do we know?
    General Rochelle. I don't. If we assume speaking all of 
Iraq, they are clearly not all Army.
    Ms. Kilpatrick. How many are Army going there?
    General Rochelle. I am going to have to take that for the 
record, if you don't mind, ma'am.
    Ms. Kilpatrick. Do you know what percent of those are 
compact infantry on the ground sort of soldier with ours? Do 
you know what percent of them would be?
    General Rochelle. None. None would be performing that type 
of function.
    [The information follows:]

      CURRENTLY DEPLOYED CONTRACTORS FOR CONTRACT AGENCY U.S. ARMY
                            [As of 4/22/2009]
------------------------------------------------------------------------
                                                              Percentage
                                                               of U.S.
                                                                 Army
             LN/FN/US               U.S. Army      Total       against
                                                                Total
                                                              Personnel
------------------------------------------------------------------------
Local National...................       13,937       24,686        56.46
Foreign National.................       55,329       80,373        68.84
United States....................       42,165       55,184        76.41
                                  --------------------------------------
    Total........................      111,431      160,243        69.54
------------------------------------------------------------------------

    (Please note that this is a head count as opposed to a full-time 
equivalent calculation.)

    Ms. Kilpatrick. So they'll be servicing in some other kind 
of capacity?
    General Rochelle. Services, maintenance, logistics, 
transportation, there are some security as the chairman 
mentioned.
    Ms. Kilpatrick. Yes, yes, okay. That helps a bit. Are you 
familiar with the common access card?
    General Rochelle. I am quite familiar with the common 
access card.
    Ms. Kilpatrick. Has the Army seen any problems with that 
card? This committee, we have had much testimony on it this 
year, and this Member's not sure that it is really safe or that 
it is 100 percent sure. Is the Army experiencing any 
improprieties with it?
    General Rochelle. Well, I am aware that there is a problem 
with accountability with common access cards in theater, and I 
think that is a matter that is being investigated, or, I should 
say, looked into by the Inspector General of the Army.
    Ms. Kilpatrick. Okay. Contractors issue common access 
cards--are you familiar----
    General Rochelle. They are, they issue.
    Ms. Kilpatrick. And contractors are not monitored. We want 
an Army-Army, or military-military. We don't want a 
contractors' military, particularly----
    General Rochelle. I understand your point, ma'am.

                   SEXUAL ASSAULTS/SEXUAL HARASSMENT

    Ms. Kilpatrick. Okay. There is been a lot of discussion in 
the last 24 hours about the sexual assaults that are occurring, 
and in your testimony, you mentioned a bit about it on page 10 
and 11. I am familiar with the programs, the I Am Strong, 
Intervention Act, and motivate--I like that. Sounds good--
Sexual Harassment Assault Response Program, which is the SHAR 
program, how effective are they? And I do understand that 
probably being a female and have been reported, you don't get 
100 percent of the people responding to being sexually 
assaulted, be it a man or woman. Do we know what percent do 
respond and these programs service? Do we know what percent--I 
guess you have to speculate if you don't know, if it doesn't 
come to you. Any idea?
    General Rochelle. In fact, there has been a great deal of 
study done on this in the public sector. Sexual assault is the 
most underreported crime in America.
    Ms. Kilpatrick. In America? Not only in the military.
    General Rochelle. Not just the military. The estimates are 
that 30 to 40 percent of victims actually report.
    Ms. Kilpatrick. You are speaking Army, not U.S.--not 
country?
    General Rochelle. U.S.
    Ms. Kilpatrick. It is higher than that in the military, I 
assume.
    General Rochelle. Perhaps. Now we don't have data to 
actually peg it as lower reporting than the national average, 
nor higher, but two points I would like to make.
    The Army's strategy, which was rolled out last April by the 
Secretary of the Army and General Casey, is the envy right now 
of all of DoD because it does, as you say, focus on----
    Mr. Murtha. What is that, envy--something's the envy of all 
the rest of the service? What is this now?
    General Rochelle. I am very proud to repeat that. The 
Army's sexual assault strategy, which was rolled out last April 
by the Secretary Geren and--General Casey, is the envy of all 
of DoD, unquestionably so. And it is because it focuses on our 
Army corps values and the absolute inconsistency, the absolute 
intolerability of those core values with the simple act of 
sexual assault or sexual harassment.
    Ms. Kilpatrick. And by your own numbers, the Army's numbers 
are going up?
    General Rochelle. They are. This may surprise you, but when 
the strategy was rolled out, phase one of the strategy which 
was to secure senior leader conviction and then publicize 
across the entire Army the commitment to this from the top all 
the way down, our numbers would go up and that is a measure of 
success of the strategy, because women are more inclined to 
come forward.
    Ms. Kilpatrick. I assume that for men as well. You have 
men?
    General Rochelle. Men as well, indeed.
    Ms. Kilpatrick. And then do they have the health services 
necessary even while in the military, as well as out, to deal 
with that, which goes back, I think, to suicides. My last point 
was going to be the multiple tours, the time home, back 
touring, suicides, all of that, is anything done where we can 
take a look at that to see what else we need to do help it?
    General Rochelle. Well, make no mistake about the fact that 
our medical forces and our medical capabilities are stretched 
pretty thin after seven years of combat, but we have placed 
into position collateral duty sexual assault response 
coordinators who serve in a counseling role. That addresses one 
aspect of it. Unit victim advocates who assist in reporting, 
who assist in guiding a victim, man or woman, through the 
process for reporting and, of course, seeking help, but to your 
fundamental question, our medical facilities behavioral health 
in particular are stretched pretty thin.
    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Mr. Murtha. Not only Army, but I remember Jane Harman 
brought this to my attention earlier about sexual assault. I 
went to Admiral Mullen. He's very interested. So you are 
absolutely right. I just didn't hear what the subject was but 
the Army has done a good job.
    General Rochelle. I appreciate your repeating that, Mr. 
Chairman.
    Mr. Murtha. Mr. Dicks.

                             CIVILIAN CORPS

    Mr. Dicks. Let me ask you--Mr. Chairman, thank you for 
yielding.
    Civilian personnel in your statement on page 5 says 
currently Army civilian core is over 313,000 strong. I mean is 
that all civilians that work for the Army in total?
    General Rochelle. That is correct, sir. That does not 
include contractors.
    Mr. Dicks. Then, of those, over 4,000 are serving in harm's 
way in the U.S. Central Command area of operations. According 
to the chairman, we have 144,000 contractors and 274,000 
contractors working in Central Command, and why is it that we 
only have 4,000 of these civilians in harm's way? Is this the 
same problem that the State Department has of getting people to 
go, to go to the theater or why would we use contractors when 
you have $48,000--why wouldn't we increase our civilian force 
and then send more of the civilians there and less of the 
contractors in order to save money?
    General Rochelle. There is a slight relationship with the 
challenge that the State Department has, but ever so slight, 
and I simply say that because at the point----
    Mr. Dicks. They are all volunteers?
    General Rochelle. They are all volunteers. And at the point 
when State Department was asked to provide cultural change--
civilians to support cultural change it was DoD through its 
volunteers, many of them among those that you just cited, who 
stepped up to the plate. There is a relationship, but it is not 
the same issue.
    Mr. Murtha. Wait a minute. You are talking about the CERT 
teams, they are IRR. They pulled Navy people in from IRR. What 
are you talking about?
    General Rochelle. I am not talking CERT teams, sir. I am 
talking transition, civilians on transition teams, police--
military police teams and the like--cultural, teams.
    Mr. Dicks. Now, you called this the Army's civilian corps. 
Now, what is the plan for the Army's civilian corps? Are you 
going to build it up?
    General Rochelle. Sir, the Army civilian corps speaks to 
the team of 313,000 civilians in its entirety.
    Mr. Dicks. Only which 4,000 are deployed.
    General Rochelle. That is correct. The term civilian corps 
refers to the larger population.
    Mr. Dicks. Well, you talk about the Army's civilian 
university. Can you tell us about that?
    General Rochelle. The Army civilian university was 
activated last year, 2008, beginning of 2008 as the central 
coordinating element and coordinating body for all leader 
development and civilian human resource development training 
and education for the civilian corps, 313,000. It resides 
within our training and doctrine command.
    Mr. Dicks. Where it is located physically?
    General Rochelle. Ft. Belvoir.
    Mr. Dicks. Go ahead, I didn't mean to interrupt.
    General Rochelle. That is it, sir.
    Mr. Dicks. The ACU will prepare civilians for new demands 
and fully engage the Army in meeting the objectives of the 
Department of Defense civilian human capital strategy plan. I 
guess my question is why--are we going to try to get more of 
the civilians to go to Iraq and Afghanistan so that we can 
reduce the number of contractors? Or has anybody thought about 
that?
    General Rochelle. Well, I am certain----
    Mr. Dicks. I mean, it would be like in-sourcing, wouldn't 
it, if we were going to turn this over to civilians?
    Mr. Murtha. Direct hire is what we call them.
    Mr. Dicks. Or direct hire as the chairman calls it, so 
there is no strategy to do that.
    General Rochelle. In point of fact, the number of civilians 
who are currently serving in Iraq are all volunteers.
    Mr. Dicks. But I would like to see if we could get more 
volunteers and then use that as a way to reduce the 
contractors. Now, wasn't it one of the Generals Nelson Ford, 
then the Under Secretary then I am certain, who stated, We 
really don't know the number of contractors that we have, and 
we really haven't thought about the appropriate role of 
contractors on the battlefield. We still don't understand that. 
That is October of 2008. That is not a very reassuring comment 
from the Under Secretary. Is that still the case? We still 
don't have handle on this.
    Mr. James. I serve with--Dr. John Anderson with our force 
management group is, in fact, looking at that. We have, in 
fact, reported and I want to take this for the record, but I 
believe that to date we have confirmed that we have 139,000 
contractors working State side, and as the chairman has already 
noted we have a number of other contractors working in CENTCOM. 
Let me be absolutely clear. The number I get you will be 
computed in ``person years'' so that 139,000 means there is 
actually more in terms of bodies more than 139,000, but I will 
get that for you for the record.
    Mr. Dicks. You say there is 139,000 contractors in the 
United States?
    Mr. James. I am saying there is the equivalent, sir--and I 
want to confirm the number--there is the equivalent of 139,000 
man-year contractors in the Pentagon, yes, for the Army.
    [The information follows:]

    The Army's Contractor Manpower Reporting Application (CMRA) 
inventory of service contracts indicates that there are 82,929 
contractor manpower equivalents (CMDs) in theater (Afghanistan, Iraq, 
Kuwait, Qatar, and UAE), and 128,280 CMEs outside theater--both inside 
the continental United States and outside the continental United 
States.

                              CONTRACTORS

    Mr. Murtha. One of the things that we thought contractors 
was supposed to be was be temporary for a surge. Now, I see 
contractors on gates. I see contractors out at Bethesda 
Hospital admitting--not admitting people but showing people 
around and so forth. They certainly could be direct hire. I 
mean, they are going to be there permanently as far as I can 
see. I think we ought to get this contracting thing under 
control. I mean the budget is, we have been harping on it we 
are trying to get figures and even Secretary Gates and Admiral 
Mullen haven't been able to give us a plan for how we hire 
people rather than contract out. I know there is guards on the 
gates. Somebody, they are not only paying them, they are paying 
the contractor a percentage so we have got to look at this 
thing.
    Mr. Frelinghuysen. If the gentleman would yield, Mr. 
Chairman, in the theater, and we did have testimony I don't 
know last week, differentiating the number of foreign 
nationals, just the single--I mean the figures are in some ways 
so high and even as we sort of have a larger footprint in 
Afghanistan, I assume we are hiring up all sorts of contractors 
that sort of work under the control of the Army Corps of 
Engineers on these bases, but it would be good to sort of know 
you know whether these are foreign nationals of that country 
that we hire, as well as other foreign nationals and if each 
person is a contractor, I mean that would certainly spike the 
figures up. There are contractors and there are contractors.
    Mr. Murtha. What Mr. Frelinghuysen is talking about, food 
service and so forth, we understand that. But what we are 
concerned about is the person that could be direct hire, which 
would save us a lot of money and give people a permanent 
position, rather than going to a contractor. I see they got rid 
of one contracting outfit there in Iraq, and said they are 
going to reduce them, but it is money, as well as direct hire 
working for the government. We appreciate your testimony very--
--
    Mr. Bishop. Mr. Chairman.
    Mr. Murtha. Mr. Bishop.

                               ROTC/JROTC

    Mr. Bishop. May I just ask one question. I ask them to 
provide for the record. With regard to the quality of recruits, 
one of the concerns that has been raised, I think I have 
mentioned it to you, General Rochelle, previously, is the lack 
of ROTC units and junior ROTC units. You mentioned the lack of 
discipline, the lack of physical fitness as problems for the 
people who are being recruited and those who are even offering 
themselves.
    Again, do you agree that an increase in the number of 
junior ROTC units in high schools as well as ROTC units in the 
colleges would help the Army as well as the other services in 
getting high quality recruits.
    General Rochelle. Well, I would certainly agree, sir, that 
junior ROTC is a program that more than pays for itself in 
terms of citizenship, patriotism, and at least an understanding 
of what military service across all the branches really is. It 
is a wise investment. And there is pent-up demand as you and I 
have spoken of in recent past. There is pent-up demand across 
America, every State, for more representation of junior ROTC. 
It is just, it is expensive.
    Mr. Bishop. But you say that more than pays for the 
investment, are you exploring the possibility of expanding the 
number of junior ROTC units? I know.
    General Rochelle. Continuously under review, continuously.
    Mr. Bishop. What is it that you need, do you need more do 
you need us to put in an appropriation to increase 
appropriation for that purpose.
    General Rochelle. Let me come back to you with a more 
comprehensive answer to that part of the question, sir.
    [The information follows:]

    Army JROTC is a proven citizenship program, but there is no 
expectation that JROTC cadets will necessarily serve in the military--
either as a cadet joining the SROTC program at the college level or as 
an enlisted member joining the ranks of the US Military. The quality of 
the recruits joining the Army is not a function of JROTC/SROTC, but of 
the overall quality of students leaving our high schools.
    Additional Army JROTC units, as well as other service JROTCs, will 
result in better quality high school students, but should not be 
considered as the solution to improving military recruits. Any 
improvement in the quality of high school students, regardless of the 
source of that improvement, will improve the quality of military 
recruits.
    Section 548 of the National Defense Authorization Act for Fiscal 
Year 2009 (FY09 NDAA) required the Secretary of Defense, in 
consultation with the Secretaries of the military departments, to 
develop and implement a plan to establish and support not less than 
3,700 JROTC units by September 30, 2020. As a result, the Army plans to 
expand the number of Army JROTC units over the next three years from 
the current count of 1,645 to 1,910; an increase of 265 units. In order 
to reach the stated goal of 265 new units, Army JROTC will establish 86 
units in FY10, 86 units in FY11, and 93 units in FY12.
    Currently, there are over 259 schools with applications on the U.S. 
Army Cadet Command's Order of Merit List (OML) from schools requesting 
an Army JROTC unit. On average, the command receives three applications 
a month from schools seeking JROTC units. Given the number of 
applications received each month, the command expects there will be 86 
schools ready to open in FY10 and 86 more in FY11. Due to the current 
financial constraints impacting state and local school districts, the 
command will aggressively market and campaign the Army JROTC program in 
order to meet the FY12 goal of an additional 93 units.
    In February 2008, U.S. Army Cadet Command requested program 
objective memorandum (POM) funding to establish 265 new schools 
starting in FY10. The Army's FY10 budget submissions adequately support 
the expansion of the JROTC program. Therefore, no further adjustments 
are necessary.
    The National Defense Act of 1916 established ROTC on college 
campuses. Army ROTC is the largest officer-producing organization, 
having commissioned more than half a million second lieutenants since 
its inception. Today, Army ROTC has a total of 272 programs located at 
colleges and universities throughout the 50 states, the District of 
Columbia, and Puerto Rico with an enrollment of more than 20,000 
cadets. It produces approximately 60 percent of the second lieutenants 
who join the active Army, the Army National Guard, and the U.S. Army 
Reserve. More than 40 percent of current active duty Army General 
Officers were ROTC commissionees. The purpose of this program is to 
produce officers, not enlisted recruits, for the US Army. As a result, 
there is no direct relationship between the number of SROTC programs 
and the quality of recruits.

    Mr. Kingston. If you will yield a minute, you said junior 
ROTC. What about college level?
    General Rochelle. Well, sir, the question was would the 
junior ROTC and Army ROTC--senior ROTC contribute to more 
recruits for the military.
    Mr. Bishop. High quality recruits.
    General Rochelle. High quality recruits. Senior ROTC, 
probably not. That is why I didn't address it. Junior ROTC for 
all services, I think it would help, and quite frankly, junior 
ROTC is not a military recruiting vehicle. It is a citizenship 
vehicle.
    Mr. James. If I could just add, I think one of the places 
where the committee could be of invaluable assistance in terms 
of making ROTC more competitive and helping us attract more 
officers is to think about if we could make the bed and board 
portion of the scholarship system much, much more attractive, 
because currently we are so much handicapped----
    Mr. Bishop. You are talking about the senior ROTC now?
    Mr. James. Yes, sir, the senior ROTC, yes, sir.
    Mr. Murtha. Mr. Visclosky.
    Mr. Visclosky. General, you had mentioned there is about 
4,000 civilian employees in Iraq, if I remember your figure 
correctly, and they are all volunteers. Is there a problem as 
far as number of people you can get to volunteer on a civilian 
side? Is there some ceiling that necessitates more contractors?
    General Rochelle. I am not aware of any difficulty we are 
having with our Department of Army civilians willing to 
volunteer to serve in Iraq, none whatsoever.
    Mr. Visclosky. Okay. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Murtha. General, I can see you are recruiting great 
because you are adamant about these bonuses. Bonuses up to $2 
billion. I can tell that you defend the bonuses with passion 
and I appreciate that. What I can't understand is why everybody 
doesn't. Don't we have categories where we say, okay, this 
certain category gets a bonus, this category doesn't?
    General Rochelle. We absolutely do, and I made a commitment 
to Ms. Kaptur to provide that, and I will provide that.
    Mr. Murtha. Thank you very much. The Committee will adjourn 
until tomorrow at 10.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                          Involuntary Service

    Question. There are several means that the Armed Forces use to 
retain personnel including stop loss authority. Stop loss is a 
management program that retains servicemembers beyond their 
contractually agreed-to separation date. Stop loss is most often 
invoked to stabilize unit integrity until the end of a combat tour. 
There are currently over 12,000 soldiers in the Army, Army Reserve and 
Army National Guard who remain on active duty beyond their scheduled 
separation date as a result of stop loss. To help ease the burden of 
those affected by stop loss, the FY2009 Defense Appropriations Act 
established and funded a new special pay of $500 per month for all 
servicemembers extended by stop loss during FY2009. To date no payments 
have been made and DOD officials concede that the Army will need to 
continue using stop loss through the end of 2009 or longer. Another 
method to retain personnel is the Individual Ready Reserve (IRR). An 
individual assigned to the IRR receives no pay and is not obligated to 
drill, conduct annual training, or participate in any military 
activities (except for periodic Muster activities) until activated by 
Presidential Reserve Callup Authority. Upon being called up, 
servicemembers will usually be screened for their medical and personal 
status in order to qualify or disqualify them for activation. During 
the process, IRR members who seek to delay, defer, or exempt their 
activations have the opportunity to present their case to the 
mobilization authority for a decision. The Army has used this policy as 
well.
    Mr. James, Secretary Gates has been quoted several times stating 
that he would like to end stop loss completely. What policy steps are 
being taken to meet this goal?
    Answer. The Army has recently announced its plan to reduce and 
eventually discontinue the use of Stop Loss. Key components of this 
plan include the following:
    Active Army units deploying on or after 1 January 2010 will not be 
subject to Stop Loss. Army National Guard units mobilizing on or after 
1 September 2009 will not be subject to Stop Loss. U.S. Army Reserve 
units mobilizing on or after 1 August 2009 will not be subject to Stop 
Loss.
    Effective with units redeploying on or after 1 July 2009, the post-
deployment stabilization period for Active Army units will be reduced 
from 90 days to 60 days. Soldiers will be released from Stop Loss 60 
days after redeployment.
    Units currently deployed and deploying prior to the above dates 
will remain subject to Stop Loss until they return from deployment and 
complete the post-deployment stabilization period. Soldiers subject to 
Stop Loss will be eligible for Stop Loss Special Pay, at a rate of $500 
per month, once they are past their contractual Expiration Term of 
Service or approved retirement/separation date. Stop Loss Special Pay 
will be paid monthly until the Soldier is released from active duty, 
the Soldier is retired or separated, or the Soldier takes action to 
reenlist or extend his or her service obligation. These payments began 
on October 1, 2008.
    Question. Mr. James, in addition to the use of stop loss there was 
a recent article in the Washington Post (3/03/2009) regarding a mother 
who was recalled to active duty four years after separation from 
service. How many times has the Army used the Presidential Reserve 
Callup Authority in the past 5 years?
    a. Mr. James, how many Soldiers has the Army recalled to service 
and what is their time commitment?
    Answer. The Army has not used the Presidential Reserve Callup 
Authority in the past 5 years. The Army is mobilizing Reserve Soldiers 
under the Partial Mobilization Authority (10 U.S.C. 12302).
    a. The Army has issued involuntary mobilization orders to 955 
Soldiers as Individual Mobilization Augmentees (IMA). Additionally, the 
Army has issued involuntary mobilization orders to 13,718 Soldiers in 
the Individual Ready Reserve (IRR). Of these, 9,710 have reported for 
duty. The remaining Soldiers are waiting to report, have been granted a 
delay, have an exemption case pending, or have failed to report. The 
Army has not recalled any retired members to active duty involuntarily.
    IMA Soldiers may be mobilized for 90 to 365 days, depending on the 
mission requirement. Prior to December 2006, the Army mobilized IRR 
Soldiers for a maximum length of 545 days. Beginning in December 2006, 
the Army reduced the maximum period of mobilization for IRR Soldiers to 
365 days, which was then consistent with the Secretary of Defense's 
formal January 2007 mobilization guidance.
    Question. Mr. James, do stop loss and IRR Soldiers count towards 
the end strength goal?
    a. If so, what is the Army's current end strength minus those 
Soldiers?
    Answer. Stop Loss Soldiers generally count against the overall 
strength for all components, unless they are members of a reserve 
component who have been called to active duty involuntarily.
    IRR Soldiers who are mobilized involuntarily pursuant to 10 U.S.C. 
12302 do not count against the active duty end strengths for any 
component; however, IRR Soldiers who are voluntarily ordered to active 
duty pursuant to 10 U.S.C. 12301(d) count against the maximum number of 
reserve component Soldiers who are permitted to be on active duty at 
any given time for the purpose of providing operational support. In 
addition, IRR Soldiers who are voluntarily ordered to active duty will 
count against the active duty end strengths if they are mobilized for a 
period of greater than three years or they serve cumulative periods of 
active duty that exceed 1,095 days in the previous 1,460 days.
    a. As of the end of March, the active component strength was 
548,894, with 6,420 Soldiers in a Stop Loss status. The Army's end 
strength minus these Soldiers is 542,474.
    The United States Army Reserve (USAR) had strength of 204,716, with 
685 Soldiers in a stop loss status and 4,262 involuntarily mobilized 
IRR Soldiers. The USAR's end strength minus these Soldiers is 199,769.
    The Army National Guard (ARNG) had strength of 368,379, with 4,417 
Soldiers in a stop loss status. The ARNG's strength minus these 
Soldiers is 363,962.

             Anti-Deficiency Act Violation Exiting FY 2008

    Question. In September 2008, the Army obligated $200 million more 
of military pay than was available in the Military Personnel, Army 
(MPA) account, and subsequently asked to transfer funds into the 
account to cover the difference. The Committee staff believes that the 
Army violated the Anti-deficiency Act (31 USC 1342). However, Army 
lawyers have opined that this is not the case.
    The Anti-deficiency Act states:
    ``An officer or employee of the United States Government or of the 
District of Columbia government may not--(A) make or authorize an 
expenditure or obligation exceeding an amount available in an 
appropriation or fund for the expenditure or obligation.''
    In September 2008, was $200 million more obligated than available 
from the military personnel account?
    Answer. There was no time, including September 2008, when 
obligations exceeded funds available in the fiscal year 2008 military 
personnel account. This determination is based on accounting reports 
prepared by the Defense Finance and Accounting Service.
    Question. The Anti-deficiency Act is clear. It states that an 
employee may not make an obligation exceeding an amount available in an 
appropriation. On what basis did the Army determine the obligation of 
$200 million did not violate the Anti-deficiency?
    a. What has your General Counsel written on this matter?
    b. Has there been an investigation into this matter? If so, who 
conducted the investigation and what were the findings?
    Answer. The Army did not make an obligation exceeding the amount 
available in the appropriation.
    a. At no time did obligations exceed funds available in the fiscal 
year 2008 military personnel account. Consequently, there is no need 
for an Anti-deficiency Act investigation or General Counsel comment on 
this matter. The Army's internal review office reviewed bonus payments 
paid during the first quarter of fiscal year 2009 charged to the fiscal 
year 2008 account, and determined the charges were correct. These bonus 
payments were not visible to the Army Budget Office (ABO) through any 
automated system because payment procedures for enlistment bonuses are 
paper-driven and rely on soldiers to present proper paperwork upon 
arrival at the first duty station. This process resulted in some 
lagging payments that did not obligate and disburse until after 30 
September 2008. The Army Audit Agency is currently performing an audit 
to determine the propriety of permanent change of station (PCS) 
obligations charged to the account. Audit results will be available in 
June. Similar to enlistment bonuses, PCS disbursements, in some cases, 
are not visible until after close of the FY. Although ABO recorded 
miscellaneous obligation documents (MODS) each month for PCS charges 
based on the number of moves anticipated multiplied times historical 
execution rates, actual charges from household goods vendors came in 
higher than anticipated starting in September 2008. Disbursement 
patterns closely mirrored FY 2007 levels until September 2008, at which 
point charges spiked and continued to remain above anticipated levels 
for several months. This spike was not visible until September 
accounting results posted in October 2008.
    b. As there were no indications a violation occurred, an 
investigation has not been conducted; however, the Army is fully 
cooperating with the Surveys and Investigations Staff of the House 
Committee on Appropriations, which is making an inquiry into this 
matter.
    Question. If the money was available in the Military Personnel 
account, why did the Army require a subsequent reprogramming of $200 
million into the Military Personnel account?
    Answer. Our outlay model assumed the 26 September payroll file 
contained all bonus payments, and pay-related adjustments applicable to 
the fiscal year 2008 account; however, payrolls processed after 26 
September continued to include fiscal year 2008 bonus payments and pay 
adjustments. Additionally, the actual cost of permanent change of 
station (PCS) travel claims exceeded previous estimates. Although funds 
were available to cover outlays in the near term, these unanticipated 
charges required that an additional $200 million be provided to 
maintain the appropriation's solvency beyond December 2009.
    Question. Gentlemen, the Committee hears that the Army will send a 
reprogramming request of up to $2.3 billion for the MPA appropriation 
for FY 2008. Is this true? If so, how is this possible? How is this not 
an ADA violation?
    Answer. No. While the MPA appropriation may require an additional 
modest reprogramming for FY 2008 related to permanent change of station 
charges, a $2.3 billion reprogramming request has no factual basis.
    Question. At the close of fiscal year 2007, the MPA appropriation 
had a surplus of funds and at the close of fiscal year 2008 the MPA 
appropriation was projected to exhaust all available funding. This was 
the second budget cycle in a row where the Army has failed to properly 
estimate its resource needs while preventing waste. Please explain the 
Army's budgeting practices and internal controls to monitor 
disbursements across the MPA appropriation.
    a. Why were these internal controls unsuccessful in detecting this 
over obligation?
    b. What actions is the Army taking to ensure that there is not a 
reoccurrence?
    Answer.
    a. There was no over obligation in FY2007 or FY2008. The surplus in 
FY 2007 was primarily attributable to the subsistence-in-kind account, 
which had no automated system in place to properly obligate food 
requisitions.
    b. Since then, the Army has implemented the Army Food Management 
Information System (AFMIS) to obligate food requisitions at the point 
of order; however, there is still some risk in this account as AFMIS 
has not been deployed to theater sites. We manage this risk using a 
workaround process to manually obligated food orders received from 
theater. The issue in FY 2008 was unrelated to the subsistence-in-kind 
account. Rather, payroll cost modeling efforts failed to properly 
capture payments made during the 5th and 6th quarters (after fiscal 
year-end-close). The payroll cost model now has been properly adjusted. 
The MPA appropriation strives to close each fiscal year with as little 
unexpended balance as possible.
    Question. The Army admitted recruits in 2005 through 2007 that were 
below standard. Interviews with Non-Commissioned Officers (NCO) 
revealed that they believe sub-standard soldiers end up in units and 
cannot be utilized, making it harder on that unit to accomplish its 
mission. In addition, the NCOs indicated that some new recruits are 
unable to pass a physical readiness test. The NCO's feel that the basic 
training course needs to be updated to provide the recruits skills they 
will need upon deployment to theater. Essentially, the NCOs believe the 
Army needs to get ``harder'' as new recruits lack discipline. In 
addition the NCOs feel that their influence to train and shape recruits 
has eroded. Data supports the NCOs assessment of overall quality. In 
June 2003 initial entry training (IET) attrition rates were 14.78%. In 
December 2007 the attrition rate for IET was 8.49%. In addition, for 
fiscal year 2008 only 83% of the Active Army recruits had high school 
diplomas, up from 79% the previous year. All recruit quality benchmarks 
were met by the active duty Navy, Air Force, and Marine Corps.
    General Rochelle, please describe the training process for new 
Soldiers. At what point do Soldiers start to prepare for their combat 
mission?
    a. Please explain the role of the NCOs in shaping Soldiers?
    b. What recourse is available to Non Commissioned Officers (NCO) 
when Soldiers fail to reach the minimum standard?
    Answer. Soldiers go through a training program that prepares them 
for duties in their first unit of assignment. The majority of Soldiers 
attend Basic Combat Training (BCT) or One Station Unit Training (OSUT) 
at one of four training centers within the Training and Doctrine 
Command. While at BCT, the individual receives physical training, 
military indoctrination, and training in universal Soldier skills, such 
as small arms and crew-served weapons, small unit tactics, combatives, 
and combat life saving measures. BCT is followed by Advanced Individual 
Training (AIT) to develop the Soldier's Military Occupational 
Specialty. AIT is branch specific skill training for a specialty, such 
as artillery, military police, signal, ordnance, personnel management, 
transportation, medical, or quartermaster. OSUT is unique because it 
combines both BCT and AIT at one training center and is focused on the 
combat arms branches, such as infantry, armor, or combat engineers.
    Soldiers with recent prior military experience do not attend BCT or 
OSUT. Instead, these Soldiers attend the Warrior Transition Course at 
Ft. Sill, Oklahoma, where the skills they previously learned and used 
are refined, updated, and oriented toward current Army tactics, 
techniques, and procedures.
    Soldiers begin to prepare for combat in the institutional training 
base where they are taught basic individual Soldier skills. When they 
arrive at a unit, they continue to prepare themselves for future combat 
missions by maximizing their opportunities for self-development in 
terms of mental, physical, and professional development. Additionally, 
Soldiers continue to train on the required individual skills and begin 
to train on collective tasks.
    Soldiers prepare for their combat mission as part of a unit, based 
on their unit's Core Mission Essential Task List and/or Directed 
Mission Essential Task List, ultimately attaining the status of being 
ready for their combat mission.
    a. Our non-commissioned officers are the linchpin in the 
development of our young Soldiers as individuals, as team or squad 
members, and as junior leaders. They mentor young Soldiers, inspire 
leadership, and instill discipline and professionalism. Non-
commissioned officers are the principle trainers in our units. They 
take our young Soldiers from OSUT, BCT and AIT and transform them into 
members of teams and squads.
    b. It is incumbent on NCOs to train their Soldiers to the 
established standards required for success on the battlefield. NCOs are 
required to counsel and administer corrective training to a Soldier who 
does not attain or maintain these standards. If a Soldier is unable to 
overcome performance shortfalls, the NCO can recommend to the chain of 
command that the Soldier be separated from the service or reclassified 
to another military occupation specialty. In some instances, retraining 
or disciplinary action may be sufficient to assist the Soldier in 
attaining and maintaining the minimum standards.
    Question. Mr. James, what is the current percentage of Army 
recruits with high school diplomas?
    a. How many waivers were granted to recruits and what is the most 
common waiver granted?
    b. What is the attrition rate for recruits without high school 
diplomas?
    c. Mr. James, has the Army performed any analysis on the conduct of 
these recruits? Are discipline issues more frequent in this group?
    Answer. In FY08 the percentage of Regular Army Non-Prior Service 
recruits with Tier I (High School Diploma Graduate) credentials was 
82.8%.
    a. In FY08 the Army granted 19,202 Regular Army Non-Prior Service 
waivers; the most common waivers granted were for conduct (9,229). When 
reviewing waiver requests, the Army considers evidence of the 
applicant's character and potential for service. This evidence might 
include employment history, school records, and references from 
teachers, coaches, clergy, or others who know the person well. Most 
waivers are needed to address a single instance of immaturity that the 
applicant has overcome. Evidence of remorse and changed lifestyle weigh 
heavily in waiver decisions.
    b. A recent Tier II Attrition Screen (TTAS) report completed by the 
United States Army Accessions Command indicated the Tier II (Non-High 
School Diploma Graduate/Alternate Credential Holder) 36-month attrition 
rate was 33.5% and the Tier I 36-month attrition rate was 20.1% for the 
FY05 cohort.
    c. A longitudinal study is being conducted. In general, recruits 
granted waivers are high quality and perform well. Their education and 
aptitude are higher on average. Soldiers who enlisted with a conduct 
waiver in recent years train and perform better than those without 
waivers initially. Indiscipline rates and first term attrition are 
slightly higher for recruits with conduct waivers.
    Question. General Rochelle, please explain Initial Entry Training 
(IET) for soldiers. What are the basic skills that soldiers learn while 
at IET?
    a. What training is required beyond IET?
    b. Are Soldiers coming to units fully trained to meet the needs for 
deployment or does training take place with the unit as well?
    Answer. Soldiers go through a training program that prepares them 
for duties in their first unit of assignment. The majority of Soldiers 
attend Basic Combat Training (BCT) or One Station Unit Training (OSUT) 
at one of four training centers within the Training and Doctrine 
Command. While at BCT, the individual receives physical training, 
military indoctrination, and training in universal Soldier skills, such 
as small arms and crew-served weapons, small unit tactics, combatives, 
and combat life saving measures. BCT is followed by Advanced Individual 
Training (AIT) to develop the Soldier's Military Occupational 
Specialty. AIT is branch specific skill training for a specialty, such 
as artillery, military police, signal, ordnance, personnel management, 
transportation, medical, or quartermaster. OSUT is unique because it 
combines both BCT and AIT at one training center and is focused on the 
combat arms branches, such as infantry, armor, or combat engineers.
    Soldiers with recent prior military experience do not attend BCT or 
OSUT. Instead, these Soldiers attend the Warrior Transition Course at 
Ft. Sill, Oklahoma, where the skills they previously learned and used 
are refined, updated, and oriented toward current Army tactics, 
techniques, and procedures.
    A few of the basic skills taught include warrior skills, such as 
marksmanship, communications, urban operations, small unit tactics/
techniques/procedures, first aid, hand-to-combat, basic survival 
skills, and battle drills. Other tasks include drill and ceremony, how 
to wear a uniform, physical training, values and ethos training, 
leadership cooperation, chains of command, equal opportunity, and 
Military Occupational Skill specific training.
    a. Usually, no additional training is ``required'' after IET before 
assigning Soldiers to units. However, certain specific duty positions 
may require additional training after IET before a Soldier is assigned, 
e.g., airborne duty positions.
    b. Soldiers departing the Training Base for their first unit of 
assignment possess most of the basic universal and technical skills 
necessary to begin the process of integrating into any unit across the 
Army, refining their individual skills, and learning their collective 
tasks. No matter how good a new Soldier is when he or she arrives at 
the Soldier's first unit, training must take place to integrate the new 
Soldier into the unit and make the Soldier a part of a team before 
deployment. This process occurs with every move that a Soldier makes 
between units.
    Question. General Rochelle, if Soldiers are deploying to Iraq or 
Afghanistan do they train with the same equipment they will use when 
deployed?
    Answer. Soldiers generally train with the same equipment they will 
use when they deploy, provided that the items were already assigned to 
the unit. However, there are instances where certain low-density, high-
demand items specific to Iraq or Afghanistan, or unique to particular 
missions in theater, were fielded directly to theater. In these 
instances, either new equipment training teams conducted training with 
the incoming unit as it took possession of equipment, but before it 
began conducting missions with the new equipment, or the incoming unit 
received training on the new equipment from the outgoing unit prior to 
assuming the mission. Examples of equipment that was fielded directly 
to theater include mine-resistant armored protected vehicles, special 
armored security and route-clearing vehicles, vehicle-mounted counter 
remote-controlled improvised explosive device systems, special radios, 
the most recent versions of the Army Battle Command system (Command 
Post of the Future), and intelligence and biometric systems.
    To the extent supportable, the Army brings newly fielded items back 
to home stations and Combat Training Centers to make them available to 
units prior to their next deployment.
    Question. What sort of physical conditioning is done to prepare 
Soldiers for deployment?
    Answer. The Army Physical Fitness School at Fort Jackson, South 
Carolina, has researched our physical fitness doctrine and found our 
current model, which emphasizes aerobic and muscular endurance, does 
not correlate well with the physical fitness requirements of current 
combat operations. To address this shortcoming, the Physical Fitness 
School drafted a new doctrine called Army Physical Readiness Training 
(Field Manual (FM) 3-22.20) that aligns with our current operations and 
training doctrine. The Army's Training and Doctrine Command has already 
posted the draft manual on the Army Knowledge Online (AKO) website for 
use by our leaders and Soldiers, and expects final approval to occur 
later this year.
    The new Army Physical Readiness Training focuses on improving 
Soldiers' aerobic endurance, muscular strength, muscular endurance 
(anaerobic endurance), power, and movement proficiency, which 
physically prepares Soldiers and units to meet the physical demands of 
full spectrum operations. As this new doctrine is inculcated throughout 
the Army, we will adjust our physical fitness test to reflect this 
change.
    Prior to the release of our new doctrine, many units across the 
Army, with the assistance of subject matter experts, have adopted a 
variety of injury prevention and performance enhancement programs. For 
example, Special Forces and several Brigade Combat Teams have 
implemented programs that, in addition to traditional aerobic exercise, 
emphasize core strengthening, short term bursts of power, and speed and 
agility drills. Army training policy continues to highlight that 
commanders are the primary training managers and trainers for their 
organization, and are responsible for building readiness for mission 
requirements. Although the Army no longer designates a unit fitness 
trainer, unit commanders rely on non-commissioned officers (NCOs) as 
primary unit fitness trainers since they are the primary trainers of 
enlisted Soldiers, crews, and small teams. This responsibility is also 
outlined in our new doctrine.
    Additionally, prior to deployment, Soldiers actually wear their 
gear with increasing frequency to build physical endurance and 
fortitude for long-duration missions.
    Question. How is physical fitness maintained once the unit has 
deployed?
    Answer. Many Soldiers maintain fitness through the routine 
execution of rigorous combat operations on difficult terrain and under 
various, often heavy loads. Physical Training (PT) programs vary by 
location and mission. Most locations offer access to a variety of 
physical fitness equipment and facilities. Units have a variety of PT 
plans based on mission, time, and troops available. Soldiers have also 
demonstrated remarkably innovative methods of constructing PT equipment 
and facilities in austere conditions. In addition, much of the Army's 
Physical Fitness Training Manual (FM 21-20) is dedicated to exercises 
that can be performed without the use of equipment, such as partner 
resisted exercises and calisthenics.
    Question. How does the Army prepare for high altitude operations 
such as those they will perform in Afghanistan?
    Answer. The Army prepares Soldiers to conduct high-altitudes 
operations by ensuring they are in the best physical condition possible 
prior to deploying to Afghanistan. Soldiers conducting rigorous and 
holistic physical fitness training will more readily adapt to the 
demands of high-altitude operations. While units may not have the 
opportunity to train in mountainous areas, Soldiers can and do conduct 
physical training wearing their combat gear, conduct road marches over 
uneven terrain, and negotiate obstacles while wearing their equipment. 
High-altitude oxygen levels are difficult to replicate prior to 
arriving in theater, but the Soldiers adjust their physical 
conditioning activities upon arrival in theater to further improve 
themselves prior to assuming their mission.
    Question. What sort of physical conditioning is done to prepare 
Soldiers for the heavy loads they will have to carry in Afghanistan and 
Iraq during home station training?
    Answer. Mission and mission circumstances vary considerably. The 
Army relies on unit leaders to prepare their Soldiers for the demands 
of their assigned missions. To condition Soldiers for the rigors of 
carrying heavier loads, most units will invest additional time in more 
comprehensive physical fitness opportunities, such as weight training, 
obstacle courses, combative activities, and timed distance marches over 
uneven terrain with equipment. For example, Special Forces and several 
Brigade Combat Teams have implemented programs that, in addition to 
traditional aerobic exercise, emphasize core strengthening, short term 
bursts of power, and speed and agility drills. Army policy (Army 
Regulation 350-1) directs unit commanders to conduct regularly 
scheduled (at least 3 to 5 times per week), vigorous physical fitness 
training during the unit's normal duty day. Army policy also requires 
that exercise periods be conducted with sufficient intensity, 
frequency, and duration to maintain adequate cardio-respiratory 
endurance, muscular strength and endurance, flexibility, and body 
composition. Additionally, rather than just emphasizing aerobic and 
muscular endurance, the new draft Army doctrine, Army Physical 
Readiness Training (FM 3-22.20), which is already posted on Army 
Knowledge Online (AKO) website, focuses on improving Soldiers' aerobic 
endurance, muscular strength, muscular endurance (anaerobic endurance), 
power, and movement proficiency, which physically prepares Soldiers and 
units to meet the physical demands of full spectrum operations.

                             Grow the Army

    Question. In January 2007, the President requested, from Congress, 
an increase of 74,200 in Army end strength across the Active, Guard and 
Reserve components. The main goal of ``Grow the Army'' was to provide 
additional ground forces to meet strategic demands and mitigate 
persistent capability shortfalls, and reduce stress on soldiers and 
their families due to ongoing combat operations in Iraq and 
Afghanistan. With the Committee's support ($2.1 billion since 2007 
(including both Army and Marine Corps funding), the Army has been 
extremely successful in achieving this growth. The Army anticipates 
that this growth should be achieved two years ahead of schedule. 
However, recent news articles have reported that the Army believes it 
needs an additional 30,000 troops to meet the current demands. This is 
a daunting number since the fiscal year 2009 personnel costs (all 
services) are a staggering $153 billion.
    What is the number of Army National Guard and Army Reserve soldiers 
currently on active duty in support of the mobilization and what is the 
Army's current mobilization cap?
    Answer. As of 31 March 2009, the USAR had 25,527 Soldiers in a 
mobilized status. Of this total, the USAR had 9,542 Soldiers in an 
Active Duty for Operational Support (ADOS) status, with a statutory cap 
of 13,000. The ARNG had 62,944 Soldiers in a mobilized status. Of this 
total, the ARNG had 17,562 Soldiers in an ADOS status, with a statutory 
cap of 17,000.
    Question. Currently, what is the monthly ``burn rate'' for your 
personnel costs?
    Answer. The MPA appropriation burn rate for October 2008 through 
March 2009 is $3.9 billion. The burn rate from January 2009 through 
March 2009 is $4.1 billion, which includes pay raises.
    Question. When do you anticipate the military personnel accounts 
will exhaust all funds?
    Answer. The base and bridge MPA appropriations has adequate funding 
to cover payroll that will disburse on 1 July 2009; however, we do not 
expect to have adequate funding to cover payroll that will disburse on 
15 July 2009.

                        Recruiting and Retention

    Question. A key principle of the U.S. Armed Forces is to attract 
and retain competent personnel to assure readiness and operational 
effectiveness. The Army has generally met its aggregate recruiting and 
retention goals. In some cases, the Army has lowered recruiting 
standards and increased the amount of enlistment and reenlistment 
bonuses. However, with the deteriorating economy many troops are 
electing to stay in the Army and more civilians are looking to join the 
Army. Recruiting always remains a challenge, but a tighter job market 
provides more opportunities for the Army to appeal to young men and 
women. Many factors beside bonuses are appealing to soldiers and 
recruits, such as a 32 percent increase in military pay since 2001, 
compared to 24 percent for the general population, the new GI bill and 
job security. This appears to be a good time to reduce enlistment and 
reenlistment bonuses as well as return standards back to higher levels.
    The Committee remains concerned regarding the recruitment and 
retention for mission-critical occupational specialties. Has the Grow 
the Army recruitment helped fill the critical specialties.
    a. If not, what steps are being taken to fill the specialty 
occupations?
    Answer. The Grow the Army initiative has had a minimal impact on 
filling critical specialties. The Army has garnered its greatest 
success using targeted incentives to fill critical specialties. 
Incentives help the Army channel quality recruits to required critical 
MOS's by offering seasonal and targeted bonuses to fill training seats 
at the right time. With OSD approval, the Army recently launched a 
pilot program entitled Military Accessions Vital to the National 
Interest (MAVNI), which could prove beneficial in filling critical 
shortages in health care professions and language specialties.
    Question. Has the Army analyzed why these occupational specialties 
have consistently been under-filled? What is the operational impact of 
these shortages? What resources are needed to fill these positions?
    Answer. The Army routinely analyzes the health of every Military 
Occupational Specialty and the determinants affecting our ability to 
recruit and retain. Recruitment and Retention incentives are 
periodically adjusted to influence fill rates of critical specialties. 
The protracted conflict has resulted in shortages in certain critical 
occupational specialties, which impacts our ability to offer optimal 
levels of dwell time to our troops. To remedy this, the Army will 
require continued funding of enlistment bonuses and educational 
incentives to attract quality applicants into critical occupational 
specialties.
    Question. Recruiting and retention goals are often relayed to 
Congress in the aggregate, providing little or no visibility into how 
each occupational specialty is staffed. Please provide the Committee 
with details on recruiting and retention by Military Occupational 
Specialty (MOS).
    a. Can you also provide the average bonus of each MOS?
    Answer:
    Recruiting: The model the Army uses to determine staffing levels of 
the 149 occupational specialties the Army currently recruits for, are 
staffed based on priority. Priority is largely driven by propensity for 
deployment and utilization. Not all specialties are filled to 100% of 
authorizations. Some are filled above 100% to support the ongoing 
contingency operations. The attached report provides specifics on each 
MOS. Specialties, strength and organizational structure drive the level 
of staffing; this in turns drives recruiting, retention and training 
requirements. The average enlistment bonus for a minimum term of 
service in each named skill at the start of fiscal year 2009 is 
attached.
    Retention: The Army's retention mission is not based on MOS; Army 
missions by category*. The mission is distributed among eighteen 
separate commands according to their percentage of the eligible 
population. The Army utilizes individual career branches at Human 
Resources Command to manage MOS strength in conjunction with 
nonmonetary and monetary reenlistment options.
    * The three categories are:
    Initial Term: Soldier serving on an initial term of active federal 
military service, or a Soldier who has previously served less than 180 
cumulative days on active duty.
    Mid Career: Soldier on a second or subsequent period of active 
Federal military service who will have 10 or less years of active 
federal military service on his or her separation date or at ETS.
    Careerist: Soldier on their second or subsequent enlistment who 
will have more than 10 years active federal military service at ETS or 
on their separation date.
    The Army's FY09 Retention mission by category and command is:

----------------------------------------------------------------------------------------------------------------
                           Command                              Initial        Mid         Career       Total
----------------------------------------------------------------------------------------------------------------
AMC.........................................................            2           14           22           38
ARCENT......................................................           31           66           65          162
ARSOUTH.....................................................           19           49           30           98
ATEC........................................................            0            3            8           11
CIDC........................................................           25           56           65          146
EUSA........................................................          293          609          333        1,235
FORSCOM.....................................................       12,561       13,796        6,395       32,752
INSCOM......................................................          403          515          203        1,121
MDW.........................................................          151          134           57          342
MEDCOM......................................................          641        1,359          723        2,723
NATO........................................................            7           62           48          117
NETCOM......................................................          345          607          257        1,209
TRADOC......................................................          397        1,837        2,481        4,715
USAREUR.....................................................        1,693        1,754          762        4,209
USARPAC.....................................................        1,608        1,253          546        3,407
USASOC......................................................        1,071          978          650        2,699
USMA........................................................            3            8            5           16
OTHER.......................................................            0            0            0            0
ARMY........................................................       19,250       23,100       12,650       55,000
----------------------------------------------------------------------------------------------------------------

    Average reenlistment bonus by MOS:

----------------------------------------------------------------------------------------------------------------
              MOS                 Avg SRB       MOS      Avg SRB       MOS      Avg SRB       MOS      Avg SRB
----------------------------------------------------------------------------------------------------------------
09L...........................      $12,833  19D            $9,828  35G           $15,392  68W           $10,257
11B...........................       10,533  19K            10,028  35H            13,140  74D            10,384
11C...........................       10,235  21b            10,215  35L            12,522  79R            11,905
13B...........................        9,862  21C            11,765  35M            17,373  89A             9,700
13D...........................       10,312  21D            15,500  35N            15,304  89D            15,029
13F...........................       10,423  21P            14,068  35P            14,828  92F             9,417
13M...........................        9,576  21Y             8,432  35S            16,153  92W            10,085
13P...........................       10,049  25B            10,864  37F            17,433  94A            11,517
13R...........................       11,479  25L             9,092  38B            19,290  94H            10,533
13S...........................        7,878  25N            10,238  42R             9,628  94S            14,938
14J...........................       10,115  25P            12,388  46Q             8,907  94T            12,714
14S...........................       11,505  25Q            11,012  46R             9,579
15D...........................        7,780  25R            10,550  51C             9,500
15J...........................       10,215  25S            13,188  62B             9,935
15Q...........................       10,344  25U            10,261  63H            10,372
18B...........................       18,963  25V             8,865  63J             9,256
18C...........................       17,625  27D            10,392  63M             9,881
18D...........................       17,813  31D            18,371  68K            13,245
18E...........................       18,691  31E            12,146  68S             9,689
18F...........................       20,000  35F            13,612  68T             9,395
----------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------
            Ave ENL BONUS                          MOS Title
------------------------------------------------------------------------
20000................................  INTERPRETER/TRANSLATOR FT.
                                        JACKSON
2000.................................  INFANTRY RECRUIT
10000................................  CANNON CREWMEMBER
20000................................  FIELD ARTILLERY AUTOMATED
                                        TACTICAL DATA SYSTEM SPECIALIST
2000.................................  FIRE SUPPORT SPECIALIST
2000.................................  (MLRS) HIGH MOBILITY ARTILLERY
                                        ROCKET SYS (HIMARS) CREWMEMBER
10000................................  MULTIPLE LAUNCH (MLRS)
                                        OPERATIONAL FIRE DIRECTION
                                        SPECIALIST
20000................................  FIELD ARTILLERY FIREFINDER RADAR
                                        OPERATOR
2000.................................  FIELD ARTILLERY SURVEYOR
                                       FA METEOROLOGICAL CRMBR
15000................................  PATRIOT FIRE CONTROL ENHANCED
                                        OPERATOR MAINTAINER
10000................................  AIR DEF CMD, COMMO, COMPUTER,
                                        INTEL TAC OPS CENTER OPER/
                                        MAINTAINER
                                       AIR AND MISSILE DEFENSE (AMD)
                                        CREWMEMBER
10000................................  PATRIOT LAUNCHING STATION
                                        ENHANCED OPERATOR/MAINTAINER
                                       AIRCRAFT POWERPLANT REPAIRER
                                       AIRCRAFT POWERTRAIN REPAIRER
                                       AIRCRAFT ELECTRICIAN
                                       AIRCRAFT STRUCTURAL REPAIRER
                                       AIRCRAFT PNEUDRAULICS REPAIRER
10000................................  OH-58D ARMAMAENT, ELECTRICAL,
                                        AVIONIC SYS REPAIRMAN
                                       AVIONIC MECHANIC
                                       AVIATION OPERATIONS SPECIALIST
10000................................  AIR TRAFFIC CONTROL OPERATOR
                                       AH-64 ATTACK HELICOPTER REPAIRER
                                       OH-58D HELICOPTER REPAIRER
                                       UH-60 HELICOPTER REPAIRER
                                       CH-47 HELICOPTER REPAIRER
                                       AH-64D ARMAMENT, ELECTRICAL,
                                        AVIONIC SYSTEMS REPAIRMAN
                                       20000 SPECIAL FORCES RECRUIT
                                       CAVALRY SCOUT
2000.................................  M1 ABRAMS ARMOR CREWMAN
2000.................................  COMBAT ENGINEER
2000.................................  BRIDGE CREWMEMBER
                                       DIVER
4000.................................  HEAVY CONSTRUCTION EQUIPMENT
                                        OPERATOR
                                       PLUMBER
                                       FIREFIGHTER
                                       INTERIOR ELECTRICIAN
                                       TECHNICAL ENGINEERING SPECIALIST
                                       CONCRETE AND ASPHALT EQUIPMENT
                                        OPERATOR
                                       CARPENTRY AND MASONRY SPC
15000................................  TERRAIN DATA SPECIALIST
4000.................................  NETWORK SWITCHING SYSTEMS
                                        OPERATOR/MAINTAINER
                                       CABLE SYSTEMS INSTALLER
                                        MAINTAINER
                                       MULTIMEDIA ILLUSTRATOR
4000.................................  NODAL NETWORK SYSTEMS OPERATOR
25000................................  MICROWAVE SYSTEMS OPERATOR
                                        MAINTAINER
20000................................  MULTICHANNEL TRANSMISSION SYSTEMS
                                        OPERATOR MAINTAINER
5000.................................  VISUAL INFORMATION EQUIPMENT
                                        OPERATOR/MAINTAINER
25000................................  SATELLITE COMMUNICATION SYSTEMS
                                        OPERATOR/MAINTAINER
15000................................  SIGNAL SUPPORT SYSTEMS SPECIALIST
                                       COMBAT DOCUMENT PRODUCTION
                                        SPECIALIST
10000................................  PARALEGAL SPECIALIST
                                       MILITARY POLICE
                                       RADIO OPERATOR-MAINTAINER
2000.................................  INTERNMENT RESETTLEMENT
                                        SPECIALIST
2000.................................  MILITARY INTELLIGENCE SYSTEMS
                                        MANITAINER/INTEGRATOR
                                       UNMANNED AERIAL VEHICLE OPERATOR
4000.................................  PSYCHOLOGICAL OPERATIONS
                                        SPECIALIST
                                       HUMAN RESOURCES SPECIALIST
                                       HUM RES INFO SYS MGT SPEC
                                       BAND MEMBER
                                       METAL WORKER
                                       FINANCIAL MANAGEMENT TECHNICIAN
                                       MACHINIST
                                       SMALL ARMS ARTY RPMN
4000.................................  FIRE CONTROL REP
                                       ARMAMENT REP
20000................................  JOURNALIST
5000.................................  BROADCAST JOURNALIST
                                       UTILITIES EQUIP RPMN
                                       POWER GENERATOR EQUIPMENT REPAIR
                                       CHAPLAIN ASSISTANT
                                       CONSTRUCTION EQUIP REP
                                       ABRAMS TANK SYSTEM MNTNR
                                       LIGHT WHEELED VEHICLE MECHANIC
                                       SP FLD ARTY SYS MECH
                                       TRACKED VEHICLE REPAIRER
10000................................  QM AND CHEM EQUIP REPAIR
10000................................  BRADLEY FIGHTING VEHICLE SYSTEM
                                        MAINTAINER
                                       INFORMATION TECHNOLOGY SPECIALIST
2000.................................  CHEMICAL, BIOLOGICAL RADIOLOGICAL
                                        AND NUCLEAR (CBRN) SPECIALIST
                                       CARGO SPECIALIST
                                       WATERCRAFT OPERATOR
                                       WATERCRAFT ENGINEER
20000................................  MOTOR TRANSPORTATION OPERATOR
                                       TRANSPORT MGMT COORD
                                       AMMUNITION STOCK CNTRL
                                       AMMUNITION SPECIALIST
25000................................  EXPLOSIVE ORDNANCE SPEC
                                       BIOMEDICAL EQUIPMENT SPECIALIST
                                       OPERATING ROOM SPECIALIST
                                       DENTAL SP
                                       PATIENT ADMINISTRATION SPECIALIST
                                       OPTICAL LAB SPC
                                       MEDICAL LOGISTICS SPECIALIST
5000.................................  MEDICAL LABORATORY SPECIALIST
                                       NUTRITION CARE SPECIALIST
                                       RADIOLOGY SP
                                       PHARMACY SPECIALIST
                                       VETERINARY FOOD INSP SPEC
                                       PREVENTIVE MEDICINE SP
                                       ANIMAL CARE SPECIALIST
4000.................................  HEALTH CARE SPECIALIST
                                       MENTAL HEALTH SPECIALIST
                                       AUTOMATED LOGISTICAL SPECIALIST
20000................................  PETROLEUM SUPPLY SPECIALIST
10000................................  FOOD OPERATIONS SPECIALIST
                                       PETROLEUM LAB SP
                                       MORTUARY AFFAIRS SP
10000................................  PARACHUTE RIGGER
                                       SHOWER, LAUNDRY AND CLOTHING
                                        REPAIR SPECIALIST
2000.................................  WATER TREATMENT SPECIALIST
                                       UNIT SUPPLY SPECIALIST
20000................................  LAND COMBAT EL MSL SYS RP
                                       ATC EQUIPMENT REPAIRER
20000................................  RADIO COMSEC REPAIRER
15000................................  COMPUTER DETECTION SYSTEMS
                                        REPAIRER
5000.................................  TMDE MAINT SUPPORT SPEC
4000.................................  APACHE ATTACK HEL SYS REP
10000................................  AVIONIC COMM EQUIP REP
5000.................................  RADAR REPAIRER
4000.................................  MULTIPLE LAUNCH ROCKET SYSTEMS
                                        REPAIRER
                                       AVIONIC AND SURVIVABILITY
                                        EQUIPMENT REPAIRER
20000................................  PATRIOT SYSTEM REPAIRER
                                       AVENGER SYSTEM REPAIRER
10000................................  INT FAM TES EQUIP OPER
2000.................................  INTELLIGENCE ANALYST
2000.................................  IMAGERY ANALYST
15000................................  COMMON GROUND STATION (CGS)
                                        ANALYST
                                       HUMAN INTELLIGENCE COLLECTOR
10000................................  SIGNALS INTELLIGENCE ANALYST
30000................................  ELECTRONIC WARFARE SIGNAL
                                        INTELLIGENCE RECRUIT
2000.................................  SIGNALS COLLECTOR ANALYST
------------------------------------------------------------------------

                    Enlistment and Retention Bonuses

    Question. The military services offer a variety of enlistment and 
re-enlistment bonuses to attract new recruits into military specialties 
that are considered ``hard to fill,'' as well as to encourage 
experienced military members in ``shortage jobs'' to stay in past their 
first enlistment period . The Army has more enlistment incentives than 
any of the other military services. Programs include Enlistment, 
Overseas Extension, and Reenlistment bonuses. Bonus levels are in 
constant flux.
    Mr. James, what was the total for Army recruiting and retention 
bonuses for FY 2009?
    Answer. The Army anticipates $2.2 billion in FY09 Recruiting and 
Retention for all three Components.
    Question. Mr. James, what is the range of individual bonuses for 
recruiting?
    a. For retention? Please, indicate why there are differences?
    Answer. Recruiting bonuses range from as low as $2,000 up to the 
statutory limit of $40,000. Bonuses for skills vary greatly depending 
on shortages in the particular skill and mission requirements. As of 
March 1, 2009, 45 of 149 skills receive a cash incentive.
    a. The Army uses monetary incentives to retain quality Soldiers in 
critical and hard-to-fill skills as a means to manage and shape the 
force. Bonus amounts are adjusted based on the criticality of an MOS. 
The Army currently uses the following bonuses as part of the Army's 
Retention Program:
    Selective Reenlistment Bonus (SRB): Currently the SRB is used for 
skills identified as critical Army-wide. The program offers from $1K to 
$12K for Soldiers in select skills, while Soldiers in special critical 
skills can receive up to $27K.
    SRB-Deployed: The SRB Deployed program offers Soldiers deployed to 
Afghanistan, Iraq, and Kuwait up to a maximum of $9.5K.
    Critical Skills Retention Bonus (CSRB): The CSRB currently targets 
seasoned, combat veterans to stay in the ranks beyond retirement 
eligibility offering a lump sum bonus based on the Soldier's length of 
commitment to serve. The program is currently paying Soldiers in SOF 
skills a maximum payment of $150K for a six-year commitment. 6 
additional skills can receive a maximum payment of $50K to $100K for a 
six-year commitment (The total number of CSRB takers averages less than 
700 per year).
    Question. Gentlemen, have you found any imbalances or inequities in 
your recruiting and retention bonus structure?
    Answer. The Army has not identified any inequities or imbalances in 
our recruiting and retention bonus structure. The recruiting incentives 
structure is reviewed quarterly to determine if imbalances or 
inequities exist and to correct any problems found. The Army makes a 
concerted effort to target high quality recruits and to insure 
marketing efforts are targeted to diverse populations of potential 
applicants in urban, suburban and rural areas.
    The Army continually measures the effectiveness of retention 
incentives offered and makes adjustments as necessary. As the strength 
of a critical MOS improves, bonuses tend to be reduced. While Soldiers 
who reenlist may perceive inequities between recruiting and retention 
bonuses, it is important to keep in mind that the Army uses recruiting 
and retention incentives to shape the force and improve strength in 
critical MOSs. The SRB Program is reviewed quarterly to adjust 
retention incentives as necessary. The end result is an effective and 
efficient balance of resources to support the retention mission and 
manpower requirements.
    Question. Gentlemen, since the Army is about to reach the Grow the 
Army end strength goal and more people seem to be willing to join the 
Army because of the state of the economy, will the Army reduce the 
amount it provides for bonuses?
    Answer.
    Recruiting: Through refinement of the Active Army enlistment bonus 
payment schedule, bonuses for specialties that had received bonuses 
during fiscal years 2005-2007 were reduced approximately 20% for fiscal 
year 2009 and 2010. The savings resulting from this precision bonus 
management tool will be approximately $65M per year through fiscal year 
2011. Reliance on seasonal bonuses which were required to fill short 
term training seats has been curtailed in favor of building a long term 
Delayed Entry pool. Seasonal bonuses, which previously ranged up to 
$20,000 per new recruit have been cut nearly in half and will be used 
less frequently. The savings from this change will result in nearly 
$35M per year in expected bonus savings in fiscal year 2010 and beyond.
    Retention: The Army continues to measure the effectiveness of 
retention incentives offered. While the economy plays a part in a 
Soldier's decision to reenlist, it is not the only reason. The 
reenlistment bonus not only provides an incentive to Soldiers in 
shortage critical skills MOSs to reenlist; it also encourages them to 
reenlist earlier and for longer periods of service. Accordingly, the 
Army has steadily decreased the SRB amounts paid per Soldier for the 
past year that reenlistments increased. The Army has reduced maximum 
SRB payments from a high of $40,000 to $27,000. The average SRB payment 
has been reduced from $12,900 to $10,387. The Army's newest SRB message 
reduces bonus amounts by 23% across all bonus zones and removes an 
additional 15 skills form the bonus list.
    Question. Mr. James, at a time when the Army is having 
unprecedented success at retaining its soldiers, especially in view of 
the new, flexible GI Bill and the job security that military service 
holds, is the Army reviewing its recruiting and retention bonus 
program?
    Answer.
    Recruiting: The Army, with the assistance of researchers from RAND 
and the Army Research Institute is working to refine and integrate 
bonus prediction models that will enhance current bonus payment 
procedures. The goal is precision recruiting in key critical skills and 
demographic areas needed to effectively man the force. Existing 
internal models are also undergoing revision to provide a more precise 
and cost effective methodology in filling critical training seats and 
to attract prospects in higher mental and educational categories. The 
Army expects to implement the new and refined methodology in late 
fiscal year 2009 for fielding during fiscal year 2010 and beyond.
    Retention: Reenlistment options and bonuses are used as incentives 
to shape the force. Current incentives are achieving mission success in 
every category. The Army conducts quarterly reviews of retention 
incentives. The strength and criticality of each MOS is reviewed in 
detail during the quarterly reviews. Current and projected strengths, 
as well as future requirements, are carefully considered. While the 
strength and criticality of each MOS is reviewed in detail, the overall 
retention incentive program is also reviewed to ensure the Army is 
leveraging all available incentives to achieve cost savings while at 
the same time meeting Army requirements. The Army will fully 
incorporate the transferability aspect of the Post 9/11 GI Bill into 
all retention incentive reviews.
    Question. Mr. James, is the Army going to promote non-monetary 
bonuses such as tuition assistance and the new G.I. Bill?
    Answer. The Army plans to fully promote the new GI Bill, tuition 
assistance, and other non-monetary incentives to the maximum extent 
feasible.
    Question. Mr. James, can you provide the Committee with a complete 
list of all recruitment and retention bonuses for each MOS that is 
eligible for a bonus?
    Answer.
    Recruiting: Current Recruiting Bonuses:
    The Army pays enlisted recruiting bonuses at 4 bonus levels. Each 
bonus level varies by years of service.

Level 1
3 Years: $15K, 4 Years: $20K, 5 Years: $25K, 6 Years: $35K
MOS: 09L, 13R, 25P, 25Q, 25S, 35W, 89D (7 MOS)

Level 2
3 Years: $10K, 4 Years: $15K, 5 Years: $20K, 6 Years: $25K
MOS: 13D, 13P, 35H, 46Q, 88M, 92F, 94A, 94E (8 MOS)

Level 3
3 Years: $3K, 4 Years: $10K, 5 Years: $15K, 6 Years: $20K
MOS: 13B, 13F, 13S, 14E, 14J, 14T, 21Y, 25F, 25U, 27D, 35N, 42R, 94M 
(13 MOS)

Level 4
3 Years: $2K, 4 Years: $4K, 5 Years: $5K, 6 Years: $10K
MOS: 11X, 18X, 19K, 21E, 25N, 35G, 35T, 63J, 63M, 68K, 92G, 92R, 92W, 
94D, 94F, 94S, 94Y (17 MOS)

    Retention. Current Retention Bonuses: The Army pays reenlistment 
bonuses by zone and grade.

                      SELECTIVE REENLISTMENT BONUS
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Up to $9,500...........................  Deployed SRB: Soldiers
                                          regardless of MOS or ETS
                                          serving on active duty in
                                          Afghanistan, Iraq, or Kuwait
                                          in support of Operation
                                          Enduring Freedom or Operation
                                          Iraqi Freedom.
$12,000................................  Critical Skill SRB: Soldiers in
                                          the following MOS: 11B, 11C,
                                          13B, 13D, 13F, 13M, 13P, 13R,
                                          13S, 14J, 14S, 15D, 15J, 15Q,
                                          19D, 19K, 21B, 21C, 21D, 21Y,
                                          25B, 25L, 25N, 25P, 25Q, 25R,
                                          25S, 25U, 25V, 27D, 31D, 31E,
                                          35F, 35G, 35H, 35M, 35N, 42R,
                                          46R, 62B, 63H, 63J, 63M, 68K,
                                          68S, 68T, 68W, 74D, 79R, 92F,
                                          92W.
$15,500................................  Location SRB: Soldiers
                                          reenlisting for all Airborne
                                          Positions, Special Ops
                                          Command, 75th Ranger Regiment,
                                          160th SOAR, Guantanamo Bay
                                          Cuba, 4TH BCT 25ID, and in the
                                          following MOS: 11B, 13F, 15U,
                                          25B, 25C, 25N, 25R, 25U, 27D,
                                          31E, 35F, 42A, 46R, 56M, 68S,
                                          68W, 74D, 88M, 92F, 92G, 92Y.
$27,000................................  Special Critical Skill SRB:
                                          Soldiers in the following MOS:
                                          09L, 11B, 18B, 18C, 18D, 18E,
                                          18F, 21D, 21P, 25L, 25R, 25S,
                                          27D, 35G, 35H, 35L, 35N, 35P,
                                          35S, 37F, 38B, 46Q, 51C, 79R,
                                          89A, 89D, 94A, 94H, 94S.
------------------------------------------------------------------------


                     CRITICAL SKILLS RETENTION BONUS
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Up to $50,000                 21P, 25S, 37F, 38B.
Up to $100,000                35P (AD, AQ, AZ, DG, CM, PF, JN, PU, PV,
                               PW, RU), 89D.
$150,000                      18B, 18C, 18D, 18E, 18F, 18Z, SQI ``T''.
------------------------------------------------------------------------

             Army Experience Center/Virtual Army Experience

    Question. There are two entities where the Army uses video games to 
attract recruits: the Virtual Army Experience (VAE) and the Army 
Experience Center (AEC). The VAE is a traveling exhibit that has been 
touring the country stopping at amusement parks, air shows and county 
fairs. The AEC is located in Philadelphia and is a two-year pilot 
program focused on transforming the Army's marketing and recruiting 
business model. The AEC opened its doors on August 29, 2008. The Army 
uses both the VAE and the AEC to collect information from people who 
play the games. The Army believes this is an innovative way to reach a 
new audience. But critics do not like the idea of the military using 
videogames as a recruiting tool.
    To participate in the VAE and AEC, visitors must be at least 13 
years old, which is 4 years below the legal recruitment age of 17. Many 
of the gaming activities are rated T for Teen by the Entertainment 
Software Rating Board (ESRB). Visitors must register and provide their 
age and basic contact information which the Army says will be used to 
send information about upcoming AEC and VAE events. What is not clear 
is whether these updates include recruitment information to those who 
register.
    Gentlemen, the AEC is a two year pilot. Does the Army have plans to 
make the AEC permanent?
    a. What has the AEC done to help recruiting?
    Answer: The Army will continue to evaluate the AEC over the 
remainder of the pilot period to determine which elements are most 
appropriate for wider deployment. We intend to retain the AEC in 
Philadelphia as an experimental marketing and recruiting platform.
    a. The AEC is designed as an experimental platform to pilot 
alternative marketing and recruiting techniques and tools. There are 
many innovations developed at the AEC, including interactive touch 
screen career and benefits exploration displays; a state of the art 
recruiter automation software application that promises to improve 
recruiter productivity while substantially reducing IT costs; and a 
blended civilian/military workforce that relieves Army Soldiers of 
administrative workload, resulting in significantly improved recruiter 
productivity. These innovations have the potential to significantly 
change the Army's recruiting business model to make it less labor 
intensive and more efficient. In addition to these business process 
improvements, the AEC has developed innovative community outreach 
programs that may have potential for replication in other locations. 
For example, the AEC hosts a high school credit recovery program in 
partnership with the School District of Philadelphia. The program is 
currently at capacity with 96 students enrolled and hundreds more 
waiting for space. The AEC also hosted an African American History 
Month leadership forum that brought 150 inner city youths into dialogue 
with African American leaders from the community and the Army. The AEC 
is also piloting the use of social networking to build a community of 
interest in a local market.
    Question. The minimum age requirement for both the AEC and VAE is 
13. What steps are taken to verify the age of those who wish to take 
part in the activities?
    Answer. The AEC requests photo identification to verify age. If 
photo ID is unavailable the AEC requests parental verification, either 
in person or telephonically.
    Question. The VAE and AEC both collect information from those who 
visit for updates regarding the VAE and AEC. Please explain how the 
Army uses this information?
    a. How is the information provided by those under the recruitment 
age used?
    b. Please explain what type of information is included in the 
updates that are sent to those who are registered.
    Answer. The VAE and AEC operate under the same procedures as all 
Army recruiting activities. All visitors register to enter the VAE or 
AEC. This registration data is forwarded to Army Accessions Command 
where registration information for visitors age 17 and older may be 
employed, depending upon visitor interests and attributes, as contact 
information for a mailing, phone contact or email regarding Army career 
opportunities. In some cases, this information may also be used to 
forward visitor photos or other visitor requested information.
    a. Information for visitors age 13 to 16 is saved until visitors 
reach age 17, at which time this information may be used as discussed 
above. The AEC has recruiters on staff, but they do not operate 
according to traditional recruiting business practices. The AEC tests 
the hypothesis that raising awareness of Army opportunities is 
sufficient to generate enlistments so the recruiters in the AEC do not 
engage in traditional telephone or face-to-face prospecting. They only 
follow up with prospects who specifically request additional 
information. For those who are under the recruitment age, their 
information is used strictly to notify registrants of upcoming 
activities in the AEC.
    b. During registration at the AEC we ask visitors if they would 
like to receive information about upcoming events, such as technology 
displays, guest speakers, or Local Area Network (LAN) tournaments. 
Those registrants who indicate a desire to receive such communications 
will typically receive an email notifying them about upcoming 
activities. They will not be contacted by a recruiter.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]


                           W I T N E S S E S

                               __________
                                                                   Page
Amos, General J. F..............................................47, 139
Chiarelli, General P. W.........................................47, 139
Duehring, C. W...................................................   281
Flynn, Lieutenant General G. J...................................1, 191
James, Ronald....................................................   367
Newton, Lieutenant General R. Y., III............................   281
Rochelle, Lieutenant General Michael.............................   367
Thompson, Lieutenant General N. R., III..........................   191
Thurman, Lieutenant General J. D.................................   191

                                  <all>

</pre></body></html>
